United States Department of the Navy Annual Financial Report

                  Fiscal Year      2003
                                                                                                            2003 ANNUAL FINANCIAL REPORT



DEPARTMENT       OF THE      NAVY

TABLE       OF       CONTENTS


MESSAGE   FROM THE   SECRETARY   OF THE   NAVY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
MESSAGE   FROM THE   ASSISTANT SECRETARY      OF THE   NAVY (FINANCIAL MANAGEMENT & COMPTROLLER) . . . . . . . . . . . . . . . 5
MANAGEMENT’S DISCUSSION        AND   ANALYSIS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7


       DEPARTMENT     OF THE   NAVY GENERAL FUND
       PRINCIPAL STATEMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 45
       NOTES   TO THE   PRINCIPAL STATEMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 57
       SUPPORTING CONSOLIDATING/COMBINING STATEMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 107
       REQUIRED SUPPLEMENTARY STEWARDSHIP INFORMATION. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 121
       REQUIRED SUPPLEMENTARY INFORMATION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 129
       OTHER ACCOMPANYING INFORMATION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 139


       NAVY WORKING CAPITAL FUND
       PRINCIPAL STATEMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 143
       NOTES   TO THE   PRINCIPAL STATEMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 155
       SUPPORTING CONSOLIDATING/COMBINING STATEMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 193
       REQUIRED SUPPLEMENTARY INFORMATION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 221
       OTHER ACCOMPANYING INFORMATION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 227


       AUDIT OPINIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 229




                                                                                                TABLE    OF   CONTENTS                                1
    DEPARTMENT   OF THE   NAVY




2
                           The Secretary of the Navy
                            Washington, D.C. 20350-1 000

                                      December 2003
   r(
Our people - Sailors, Marines, and Civilians - are the cornerstone of the Department of
the Navy. Ships, submarines, and aircraft protect and advance the nation's interests
only when crewed and maintained by well-trained and highly motivated people. The
unwavering service and dedication of the Department's Total Force - our people -
continue to sustain the Department during this challenging time of conflict.

The attacks of September 11,2001 characterize an era of danger and uncertainty. Our
courageous men and women in uniform face this era's inherent challenges in the Global
War on Terrorism. Alongside our sister services, the Navy - Marine Corps Team has
exerted superior force against our adversaries. Our naval forces will continue to provide
the nation with overwhelming combat power in this current war, and the means to deter,
detect, and interdict threats to the homeland.

Concurrent with the prosecution of the war on terrorism, the Department is well along
the course of transformation. There are several marks of progress in this effort.
Deployment of the first Expeditionary Strike Group - a Sea Strike concept of Naval
Power 21 - represents the joint transformational capabilities of the Navy and Marine
Corps. Increased emphasis on public- private housing ventures exemplifies the
Department's commitment to quality of life improvements for our military personnel.
Similarly, strategic sourcing reflects the Department's commitment to modernization
and recapitalization of our forces. Additionally, the Department of Defense's transition
plan for business modernization and systems integration in support of the Business
Enterprise Architecture is a key component of our business transformation efforts. The
Department will build upon these and other successes to achieve a culture of
transformation ready to meet the challenges of the 21" century.

In the midst of war and transformation, a constant remains - accountability. The
Department is committed to fiscal accountability as it affects execution of the National
Military Strategy. Indeed, efficient and effective management of financial resources
enhances our enduring roles of assurance and deterrence, command of the seas, power
projection, and homeland security. This Fiscal Year 2003 Annual Financial Report
provides a means for Congress and the public to assess our performance.
    DEPARTMENT   OF THE   NAVY




4
                                                                                               2003 ANNUAL FINANCIAL REPORT


MESSAGE FROM THE ASSISTANT SECRETARY OF                            THE   NAVY
(FINANCIAL MANAGEMENT & COMPTROLLER)

                         THE ASSISTANT SECRETARY           OF THE    NAVY
                        (FINANCIAL MANAGEMENT AND COMPTROLLER)
                                   1000 NAVY PENTAGON
                              WASHINGTON, D.C. 20350-1000



                                      December 2003



I am pleased to present the Department of the Navy’s Fiscal Year 2003 Annual Financial
Report. This report reflects the Department’s continuing commitment to fiscal accountability
and proper stewardship of public resources.


Providing Congress and the public with relevant, reliable, and timely financial information,
affirmed by favorable audit opinions, remains a priority of the Department of the Navy. A
key step toward achieving this goal is the mid-range financial improvement plan. This
comprehensive plan identifies interim financial improvements and links those improvements
to the Department of Defense transition plan that is in support of the Business Enterprise
Architecture. The objective of the Department of the Navy’s mid-range plan is to ensure
material financial statement line items are auditable so that ultimately a favorable audit
opinion will be achieved on the Department of the Navy and Department of Defense-wide
financial statements.


Financial information combined with nonfinancial information on program performance
enables Congress and public to assess the efficiency and effectiveness of Department of the
Navy operations. The Department of the Navy’s balanced scorecard for risk management
provides a means for this assessment. Developed in coordination with the Department of
Defense, the scorecard integrates the objectives of the Fiscal Year 2002 President’s
Management Agenda with the risk framework delineated in the Fiscal Year 2001
Quadrennial Defense Review Report. The scorecard includes performance measures by
which the Department of the Navy can track progress in achieving strategic goals related
to the President’s Management Agenda initiatives and the four areas of risk in the
Quadrennial Defense Review Report — Force Management, Institutional, Operational, and
Future Challenges.


The Department of the Navy will build upon its transformational efforts to achieve
excellence in business and financial management. This commitment to excellence supports
our naval forces, Department of Defense transformation goals, and ultimately, the security
of our nation.




                                               Dionel M. Aviles




                                           MESSAGE      FROM THE ASSISTANT SECRETARY OF THE NAVY                          5
                                                          (FINANCIAL MANAGEMENT & COMPTROLLER)
    DEPARTMENT   OF THE   NAVY




6
                                                 MANAGEMENT’S DISCUSSION
                    DEPARTMENT   OF THE   NAVY
MANAGEMENT’S DISCUSSION   AND    ANALYSIS




                                                  AND
                                                 ANALYSIS




                                                         7
                                       DEPARTMENT   OF THE   NAVY




    The Department of the Navy (DON) was established on April 30, 1798. The
    official seal of the Department of the Navy is engraved on the Navy and Marine
    Memorial. The Navy and Marine Memorial is dedicated to the thousands of
    Americans who have perished in the sea and to those whose destiny still is linked
    with our naval and maritime services.




8
                                                                                     2003 ANNUAL FINANCIAL REPORT




Management’s Discussion and Analysis
Managing the Courses of Change: Transformation and Reform in the 21st Century


   Introduction                                                                     ❖ ❖ ❖ ❖ ❖ ❖ ❖ ❖ ❖ ❖

   The Navy tradition of continuous forward deployment characterizes the
                                                                                               UNITED STATES NAVY
   Department's transformation and management reform efforts in Fiscal
   Year (FY) 2003. A continuous focus on force and support structure                 Theequipped
                                                                                           Navy shall be organized, trained, and
                                                                                                 primarily for prompt and sustained
   transformation has led to significant progress in these two areas.                combat incident to operations at sea. It is
   Similarly, the Department's continuous focus on the President's                   responsible for the preparation of naval forces

   Management Agenda initiatives has yielded noteworthy results. The                 necessary for the effective prosecution of war
                                                                                     except as otherwise assigned and, in accordance
   progress made in transformation and reform while engaged in the
                                                                                     with integrated joint mobilization plans, for the
   Global War on Terrorism and various humanitarian, crisis-response                 peacetime components of the Navy to meet the
   and combat operations signifies the historic strength, endurance,                 needs of war.
   and commitment of the Department of the Navy (DON).                               (Section 5062, Title 10, U.S.
                                                                                     Code)
   Force Transformation                                                                        FOUNDED 13 OCTOBER 1775


   The Naval Transformation Roadmap is DON's guide for achieving
   transformational capabilities critical to executing the enduring roles of        ❖ ❖ ❖ ❖ ❖ ❖ ❖ ❖ ❖ ❖
   assurance and deterrence, command of the seas, power projection, and
   homeland security. Among the transformational capabilities being pursued               UNITED STATES MARINE CORPS
   are those that enhance power projection - namely, Sea Strike. In August 2003,
   DON deployed the first Expeditionary Strike Group (ESG-1), a Sea Strike
   achievement. ESG-1 facilitates broad application of Sea Strike capabilities by
                                                                                     TheandMarine Corps shall be organized, trained,
                                                                                            equipped to provide fleet marine forces
   integrating the complementary striking power of Navy and Marine Corps             of combined arms, together with supporting air
   forces. This integration of the Navy and Marine Corps into the joint force is
                                                                                     components, for service with the fleet in the
   the keystone of naval transformation.
                                                                                     seizure or defense of advanced naval bases and
   Modernization of naval forces facilitates force transformation. As part of its    for the conduct of such land operations as may
   modernization efforts, DON signed a block buy contract in August 2003 for
                                                                                     be essential to the prosecution of a naval
   construction of a 2003 Virginia class fast attack submarine.
                                                                                     campaign.
   The FY 2004 Department of Defense Appropriations Act included Language            (Section 5063, Title 10, U.S.
   and funding to support a five-ship multi-year procurement in FY 2004-2008.        Code)
   Pending Congressional authorization, DON plans to transition the block buy
                                                                                             FOUNDED 10 NOVEMBER 1775
   contract to a multi-year procurement in FY 2004.




                                                         MANAGEMENT’S DISCUSSION    AND   ANALYSIS                                       9
                                                   DEPARTMENT      OF THE   NAVY




                                     Support Structure Transformation

                                     DON's continued focus on support structure transformation has led to several notable
                                     achievements in FY 2003. Specifically, DON increased public-private ventures to
                                     accelerate improvements to military family housing. DON's accelerated efforts
                                     support the Department of Defense (DoD) goal to eliminate inadequate family
                                     housing units by FY 2007. Also, the Navy Marine Corps Intranet (NMCI) was
                                     successfully installed for the Secretary of the Navy and his staff. This represents a
                                     key step in the NMCI program. In addition, DON in support of the DoD transition
                                     plan for business modernization and systems integration that is based on the DoD
                                     Business Enterprise Architecture developed a financial management improvement
                                     plan. The latter represents a key step toward achieving a favorable audit opinion on
                                     the FY 2007 DoD-wide financial statements.




                                                 Secretary of the Navy



       Assistant Secretary           Assistant Secretary            Assistant Secretary            Assistant Secretary
           off the
                h Navyy                  off the
                                              h Navy                    off the
                                                                             h Navyy                   off the
                                                                                                            h Navyy
     (Research,
              h Development
                     l              (Manpower & Reserve           (Financiall Management
                                                                                    g               (Installations
                                                                                                            ll      &
          & Acquisition)                    Affairs)
                                              ff                      & Comptroller)
                                                                                  ll                  Environment)



                        Chief of Naval                                              Commandant of the
                          Operations                                                  Marine Corps




      Shore Establishment            Operating Forces                Operating Forces                  Supporting
                                                                                                          pp g
                                                                                                      Establishment
                                                                                                          bl h




10
                                                                                                     2003 ANNUAL FINANCIAL REPORT




Management Reform and
                                                                         President’s Management Agenda
Risk Management
                                                         Five Government-Wide Initiatives:
DON, in coordination with DoD, developed a                 •   Strategic Management of Human Capital
                                                           •   Competitive Sourcing
balanced scorecard for risk management that
                                                           •   Improved Financial Performance
integrates the objectives of the FY 2002                   •   Expanded Electronic Government
President's Management Agenda with the risk                •   Budget and Performance Integration
framework delineated in the FY 2001                      Program Initiatives Related to Department of Defense:
Quadrennial Defense Review Report. DON will                • Privatization of Military Housing
track progress in achieving strategic goals related        • A “Right-Sized” Overseas Presence
to the President's Management Agenda initiatives           • Coordination of Veterans Affairs and Defense Programs and Systems
(see illustration) and the four areas of risk--Force     (A copy of the President’s Management Agenda is available at the Office of
                                                         Management and Budget’s website)
Management, Institution, Operations, and Future
Challenges--by means of performance measures.
To the right is an example of the balanced
scorecard (excluding scores).
                                                         RISK CATEGORY             STRATEGIC GOAL                PERFORMANCE MEASURE

DON developed the strategic goals and
                                                                                                                Ships Deployed
performance measures in the balanced
scorecard in support of the President's                                                                         Marine Expeditionary Units
                                                                               Ensure Sustainable Military      Deployed
Management Agenda government-wide                                              Tempo
initiative, Budget and Performance Integration.        Force Management                                         Active/Reserve Navy/Marine
                                                                                                                Corps End Strength
As part of this initiative and beginning with the
FY 2004 budget submission, the Office of                                       Maintain Reasonable Force        Civilian Manpower Levels
Management and Budget assessed and                                             Costs

evaluated the effectiveness of selected DoD
                                                                                                                Number of Navy Marine Corps
programs based on these goals and                                              Streamline Decision
                                                                                                                Intranet Seats
                                                                               Processes, Drive Financial
performance measures. Among the DON                                            Management and Acquisition
                                                                                                                Implement Enterprise Resource
programs contributing to this selection were the          Institution          Excellence
                                                                                                                Planning
Joint Strike Fighter F/A-18 E/F, Family Housing,
                                                                               Improve Readiness and
and the Navy Marine Corps Intranet. The                                                                         Number of Privatization Projects
                                                                               Quality of Key Facilities
performance assessment yielded an overall
rating of adequate or better in six out of seven                                                                Battle Force Ships
                                                                               Ensure Force Levels
DON program areas reviewed.                                                                                     Number of Marine Corps Land
                                                                                                                Forces
                                                          Operations
The following is a discussion of each strategic                                                                 Navy/Marine Corps Personnel
                                                                                                                Readiness Ratings
goal and related performance measure by risk                                   Ensure Force Readiness
                                                                                                                Active Steaming Days Per Quarter
category, as presented in the balanced
scorecard extract. While the goals and
                                                                                                                Implement Enhanced Naval
performance measures primarily relate to                                                                        Capabilities to Project Offense,
                                                                                                                Defense and Sovereignty Around
Budget and Performance Integration, some                                       Define and Develop               the Globe
                                                       Future Challenges       Transformational Capabilities
also apply to the other President's Management
                                                                                                                Major Platform Research and
Agenda initiatives. The applicability of each                                                                   Development
goal and related performance measure to the
President's Management Agenda initiatives is
also included in the discussion.



                                                        MANAGEMENT’S DISCUSSION                  AND       ANALYSIS                                11
                   DEPARTMENT        OF THE   NAVY




     Risk Category: Force Management

     The ability to recruit, retain, train, and equip sufficient numbers of quality
     personnel and sustain the readiness of the force while accomplishing its many
     operational tasks.
                                                         ~ FY 2001 Quadrennial Defense Review Report


     Strategic Goal 1: Ensure Sustainable Military Tempo
     DON must be able to provide and maintain ready forces necessary to support
     military operations at any tempo. In FY 2003, operating tempo remained high
     primarily due to the Global War on Terrorism. However, DON sustained a force
     structure necessary to meet deployment requirements of the Global War on Terrorism
     and other military operations. Components of the FY 2003 force structure included
     ships deployed, Marine Expeditionary Units deployed, and military end strength
     (Navy and Marine Corps, Active and Reserve). The following is an illustration of
     these components.

                       FY 2003 Military Tempo: Measures of Performance



                       DEPLOYED
                  165 Ships                                     FY 2003
                                                         DON Military End Strength
                  3 Marine Expeditionary
                  Units                                    Total: 689,193
                                               382,235
                MOBILIZED RESERVES:
                  Navy 12,122
                  Marine Corps 20,665                      177,756

                                                                        88,156
                                                                                      41,046

                                               Active,     Active,      Reserve,      Reserve,
                                                Navy     Marine Corps    Navy        Marine Corps



     Military Tempo and the President's Management Agenda.
     DON's goal to ensure sustainable military tempo supports Strategic Management of
     Human Capital, and Budget and Performance Integration. One of the expected
     near-term results of Strategic Management of Human Capital is a high-performing
     workforce. Sustainable military tempo relies in part on armed forces who are well-
     trained, competent, and ready to achieve mission objectives - all characteristics of a
     high-performing workforce. This is also consistent with the expected long-term results
     of Budget and Performance Integration: better control over resources and
     accountability.



12
                                                                                                                      2003 ANNUAL FINANCIAL REPORT



Strategic Goal 2: Maintain Reasonable Force Costs
DON continues to work at becoming a more efficient organization.                                                            FY 2003
Reducing the number of civilian full time equivalent (FTE) workyears (how                                         Civilian Full Time Equivalent
DON tracks civilian personnel) is one way DON strives to improve                                                     Workyears By Service
operational efficiency. Over the past 13 years, DON has reduced civilian
FTE workyears by approximately 44 percent - total FY 1990 civilian FTE
workyears were nearly 350,000 compared to 197,953 in FY 2003.                                                      181 416
                                                                                                                   181,416
Through civilian FTE workyear reductions, DON increases cost-saving
opportunities for modernization and recapitalization requirements.
(See Chart)


Force Costs and the President's Management Agenda.
DON's goal to maintain reasonable force costs supports Strategic
                                                                                                                                       16 537
Management of Human Capital, and Budget and Performance Integration.
DON civilian FTE workyear reductions promote efficiency and greater
effectiveness, which is a goal of Strategic Management of Human Capital,
                                                                                                                   Navy           M
as well as better control over resources and accountability for results, an
expected long-term result of Budget and Performance Integration.




                            Sailors aboard USS Constellation (CV 64) lower the colors for the last time during the ships
                            decommissioning ceremony.


                                                               MANAGEMENT’S DISCUSSION                            AND      ANALYSIS               13
                        DEPARTMENT     OF THE    NAVY




     Risk Category: Institution
     The ability to develop management practices and controls that use resources
     efficiently and promote the effective operation of the Defense establishment.
                                                            ~FY 2001 Quadrennial Defense Review Report

     Strategic Goal 1: Streamline Decision Processes, Drive Financial Management and
     Acquisition Excellence
     This strategic goal distills the business transformation initiative underway in the
     Department of Defense. DON remains committed to business transformation as
     exemplified by its information technology initiative, the Navy Marine Corps Intranet
     (NMCI), and its financial management initiative, the Enterprise Resource Planning (ERP)
     system pilots.

     NMCI. In FY 2003, DON continued its phased-in seat management approach for
     implementing NMCI. Of the 297,213 seats ordered, approximately 109,602 have
     been cut over. NMCI was installed for the Secretary of the Navy and his staff in August
     2003.

     ERP. Ongoing in FY 2003 are four DON ERP
     system pilots:
                                                                   Enterprise Resource Planning
     • SIGMA (Program Management under the DON                     integrates the business processes
                                                                   of an organization (e.g., human
        General Fund and Navy Working Capital                      resources, procurement, supply
                                                                   chain, finance) to maximize
        Fund);                                                     accessibility of real-time data
                                                                   and information throughout the
                                                                   organization.
     • CABRILLO (Warfare Center Management under
        the Navy Working Capital Fund only);


     • SMART (Aviation Supply and Maintenance under the DON General Fund and Navy
        Working Capital Fund); and


     • NEMAIS (Regional Ship Maintenance under the DON General Fund and Navy
        Working Capital Fund).


     The pilots use commercial off-the-shelf software approved and certified by the Joint
     Financial Management Improvement Program. DON successfully reached the "go-live"
     point on all four pilots.


     Business Transformation and the President's Management Agenda. DON's goal to streamline
     decision processes, and drive financial management and acquisition excellence supports
     Improved Financial Performance, and Budget and Performance Integration. NMCI and
     ERP extend access to real-time, decision-quality information to all levels of management.
     Improving the timeliness of information to support operating, budget, and policy
     decisions is consistent with the Improved Financial Performance, and Budget and
     Performance Integration initiatives.


14
                                                                                      2003 ANNUAL FINANCIAL REPORT



Strategic Goal 2: Improve Readiness and Quality of Key
Facilities
Among key facilities slated for improvement are housing units for DON military
personnel and their families. DON has accelerated progress toward family housing
improvements by engaging in public-private ventures (see below). These ventures
provide private-sector capital and expertise to build and manage family housing
units.




                DON Family Housing Units Privatization Projects



                 Public-Private Ventures
                                                              FY 2003:
               To Improve Military Housing
                                                               9,548




         FY 2002: 1,466



Key Facilities and the President's Management Agenda. DON's goal to
improve readiness and quality of key facilities supports Privatization of Military
Housing, and Budget and Performance Integration. Increased reliance on public-
private partnerships is a goal of Privatization of Military Housing and improves
performance of the Family Housing Program, consistent with Budget and Performance
Integration.




                                                      MANAGEMENT’S DISCUSSION        AND   ANALYSIS              15
                                                 DEPARTMENT           OF THE      NAVY




                                 Risk Category: Operations
                                 The ability to achieve military objectives in a near-term conflict or other
                                 contingency.
                                                                                                  ~FY 2001 Quadrennial Defense Review Report

                                 Strategic Goal 1: Ensure Force Levels
                                 Projecting power from the sea is critical to the security of the U.S. and its interests
                                 abroad. DON remains focused on the fleets' and Marine Corps' ability to fulfill
                                 deployment requirements for U.S. and related international defense missions. Battle
                                 force ships and Marine Corps land forces are components of DON's total force
                                 structure (see illustrations below).




                                                                               Aircraft
                                                                               Carriers
                                                      Support                    12                   Fleet Ballistic
                                                       Ships                                              Missle
                                                        19                                             Submarines
                                                                                                            16


                                          Mine                           FY 2003                                   Guided Missle
                                      Warfare Ships
                                          17                            Total Battle                               Submarines
                                                                                                                        2
                                                                        Force Ships:
                                                                           296
                                            Combat                                                                Surface
                                         Logistics Ships                                                        Combatants
                                               34                                                                  106

                                                                 Ampphibious              N
                                                                                          Nuclear Attacck
                                                                Warfa Ships
                                                                Warfare                    Submariness
                                                                     36                        54




                                 Force Levels and the President's Management Agenda. DON's goal to
                                 ensure force levels supports Strategic Management of Human Capital, and Budget
             FY 2003
     Marine Corps Land Forces
     M                           and Performance Integration. One of the expected near-term results of Strategic
                                 Management of Human Capital is a high-performing workforce. DON's total force
                             3
                             4   structure relies in part on armed forces who are well-trained, competent, and ready
     •                      71   to achieve mission objectives - all characteristics of a high-performing workforce.
                                 This is also consistent with the expected long-term results of Budget and Performance
                                 Integration: better control over resources and accountability for results.




16
                                                                                              2003 ANNUAL FINANCIAL REPORT



Strategic Goal 2: Ensure Force Readiness
DON armed forces must be fully prepared to meet the
demands of the Global War on Terrorism and other
                                                                                FY 2003
operational activities. Measures of force readiness                        DON Force Readiness
include the number of Navy and Marine Corps personnel
on deployment, and active steaming days per quarter
                                                                       Military Personnel Deployed:
(i.e., number of days ships are away from homeport).                              38,655
DON refers to the latter measure as active force                            (as of September 4, 2003)
operating tempo (OPTEMPO). DON has established 54
days and 28 days as OPTEMPO goals for deployed and
                                                                        OPTEMPO Goals Exceeded:
non-deployed forces, respectively. Non-deployed
OPTEMPO levels comprise training of fleet units; however,                • 67.3 Days Deployed
fleet units must be combat ready and rapidly deployable.
In FY 2003, DON exceeded both OPTEMPO goals.


Force Readiness and the President's
Management Agenda.

DON's goal to ensure force readiness supports Strategic
Management of Human Capital, and Budget and Performance Integration. One of
the expected near-term results of Strategic Management of Human Capital is a high-
performing workforce. Force readiness relies in part on armed forces who are well-
trained, competent, and ready to achieve mission objectives - all characteristics of a
high-performing workforce. This is also consistent with the expected long-term results
of Budget and Performance Integration: better control over resources and
accountability for results.




                                                      MANAGEMENT’S DISCUSSION              AND    ANALYSIS               17
                                                                             DEPARTMENT               OF THE   NAVY




                                                          Risk Category: Future Challenges
                                                          The ability to invest in new capabilities and develop new operational concepts
                                                          needed to dissuade or defeat mid- to long- term military challenges.

                                                                                                                           ~FY 2001 Quadrennial Defense Review Report

                                                          Strategic Goal: Define and Develop Transformational
                                                          Capabilities
                                                          DON remains focused on defining and developing transformational capabilities.
                                                          Inherent to this goal is the integration of the Navy - Marine Corps Team into the joint
                                                          force, part of the Naval Power 21 vision. To realize this integration, DON deployed
                                                          the first Expeditionary Strike Group (ESG-1) in late August 2003. ESG-1 is a new
                                                          combination of operational assets, leveraging the robust capabilities of the Peleliu
                                                          Amphibious Ready Group and the 13th Marine Expeditionary Unit (Special
                                                          Operations Capable). Together, the Amphibious Ready Group and Marine
                                                          Expeditionary Unit become a more flexible, powerful unit, capable of projecting
                                                          power from the sea over the land. This power projection is critical to countering
                                                          emergent threats and strategies that seek to compromise the security of the U.S. and
                                                          its interests worldwide.


                                                                                                                 FY 2003             Research and
 "TOP 3" Platforms                                       Description
                                                                                                               (in Millions)         Development (R&D) is a
                                                                                                                                     key component in
     Joint Strike Fighter   JSF is a family of aircraft that meets the needs of the U.S. Navy,                   $1,663
                            U.S. Marine Corps, U.S. Air Force, and allies. ( Procurement                                             developing
            (JSF)
                            of the U.S. Marine Corps and U.S. Navy JSF variants expected to begin                                    transformational
                             in FYs 2006 and 2008, respectively.)                                                                    capabilities. DON
                                                                                                                                     continues funding for
           DD(X)            DD(X) is a family of advanced multi-mission warships capable of                      $ 570               several R&D platform
                            long-range firepower in support of forces ashore. (Construction of lead
                            ship expected in FY 2005.)                                                                               efforts in FY 2003. The
                                                                                                                                     top three platforms (in
                                                                                                                                     terms of FY 2003 funding
             C4I            Command, Control, Communication, Computers and Intelligence (C4I)                     $ 594
                            programs enhance combat capability of U.S. Naval forces. Among the C4I                                   under Research,
                            concepts is Information Technology for the 21st Century (IT-21), which                                   Development, Test and
                            supports C4I system linkages afloat, ashore, and to the Internet. These
                            linkages ensure that accurate and relevant information can be gathered                                   Evaluation, Navy) are the
                            swiftly and transmitted securely to forces and their commanders.                                         Joint Strike Fighter, DD(X),
                                                                                                                                     and C4I (see chart).


                                                          Transformational Capabilities and the President's Management
                                                          Agenda. DON's goal to define and develop transformational capabilities supports
                                                          Budget and Performance Integration. Continued investment of time and funds to
                                                          transform the DON force structure promotes better control of resources and
                                                          accountability for results, an expected long-term result of Budget and Performance
                                                          Integration.




18
                                                                                          2003 ANNUAL FINANCIAL REPORT




Management Integrity

As required by implementing guidance from the Office of Management and Budget
and DoD, under the Federal Managers' Financial Integrity Act of 1982, DON must
evaluate its system of internal accounting and administrative controls (i.e.,
management controls) on an annual basis. The objective of this evaluation is to
determine whether reasonable assurance exists that:


• obligations and costs are in compliance with applicable laws;


• funds, property, and other assets are safeguarded against waste, loss,
    unauthorized use, or misappropriation; and


• revenues and expenditures applicable to agency operations are properly
    recorded and accounted for to permit the preparation of reliable accounting,
    financial, and statistical reports and to maintain accountability over the assets.


For FY 2003, DON issued a "qualified"
Statement of Assurance, citing existing
(no new) material weaknesses in its
management controls. With the exception of
these weaknesses, DON's system of internal
accounting and administrative controls in
effect during the 12-month period ending
June 30, 2003, taken as a whole, provides
reasonable assurance that it can execute its
mission effectively and protect its critical
assets. The basis for reasonable assurance
includes an established control environment,
continued emphasis on risk assessment,
specific control activities, continuous
communication and flow of information, and
monitoring performed by both command
management and the audit /investigative
/inspection community. Additionally, recent
military actions (e.g., Operation Iraqi
Freedom) confirm the strength of DON's
management controls, as it effectively
executes its missions.




                                                      MANAGEMENT’S DISCUSSION            AND   ANALYSIS              19
                   DEPARTMENT      OF THE   NAVY




     Reporting Results

     For financial reporting purposes, DON is organized into two reporting entities: the
     DON General Fund and the Navy Working Capital Fund. Below is a discussion of
     each reporting entity.


     General Fund


     The DON General Fund (GF) supports overall Department operations. Direct
     appropriations from Congress replenish the GF. Included among the various GF
     appropriations are Operation and Maintenance; Military Personnel; Family Housing;
     Procurement; Military Construction; and Research, Development, Test, and Evaluation.


     Fiscal Year 2003 Overview

     Asset Composition


     FY 2003 marked a shift in GF asset composition with general property, plant, and
     equipment (PP&E) replacing Fund Balance with Treasury as the largest component of
     total GF assets (see chart). General PP&E accounted for 53 percent of total GF
     assets in FY 2003 while Fund Balance with Treasury accounted for 26 percent of
     total GF assets. This shift was the direct result of DON’s implementation of the
     Federal Accounting Standards Advisory Board’s (FASAB’s) new accounting standard
     — Statement of Federal Financial Accounting Standard Number 23, “Eliminating the
     Category National Defense Property, Plant and Equipment” (issued in May 2003).
     Pursuant to this new accounting standard, DON reported military equipment as part
     of General PP&E in FY 2003. The net book value (i.e., acquisition value less
     accumulated depreciation) of military equipment was $133 billion (see “Valuation of
     Military Equipment”).


     Implementation of the new accounting standard also affected operating materials and
     supplies (OM&S) in FY 2003. Previously expensed, tactical missiles and torpedoes
     were classified as OM&S, held for use. DON reported a value of $23 billion for
     tactical missiles and torpedoes in FY 2003, contributing to an 83 percent increase in
     OM&S, held for use.



     Valuation of Military Equipment. Revisions to DoD’s accounting processes
     and systems (under the Business Enterprise Architecture initiative) preclude DoD and
     DON from accumulating the information necessary to value and report military
     equipment in accordance with generally accepted accounting principles, as required
     by FASAB’s Statement of Federal Financial Accounting Standards Number 23.
     In the interim, DoD and DON will base the value of military equipment for
     financial statement presentation purposes on data provided by the Bureau of
     Economic Analysis, Department of Commerce.


     (For more details, see Note 10 in General Fund Notes to the Principal Statements.)

20
                                                                                                                      2003 ANNUAL FINANCIAL REPORT



                             Asset Composition: FY 2002 vs. FY 2003
                                          ($ in Thousands)




                    $26,109,437              $68,249,955               $33,003,595             $8,530,186
                    $158,407,450             $78,414,878               $53,611,634            $10,540,281


                                           03 Total Assets: $300,974,243 thousand

                * includes operating materials and supplies, held for use
                ** comprised of investments, accounts receivable, other assets, and cash and other monetary assets




Liability Composition
Liability composition remained relatively constant between FY 2002 and FY 2003
(see chart). Environmental liabilities comprised 57 percent of total DON liabilities in
FYs 2002 and 2003, with the vast majority of environmental liabilities classified as
noncurrent (i.e., not payable within the current year of operations). Of the noncurrent
environmental liabilities, over 70 percent were attributable to nuclear powered
aircraft carriers and nuclear powered submarines. The noncurrent liability for nuclear
powered aircraft carriers increased by 14 percent in FY 2003 due to the addition of
the Ronald Reagan aircraft carrier and an adjustment for inflation. The noncurrent
liability for nuclear powered submarines remained unchanged in FY 2003.
Additional changes to environmental liabilities in FY 2003 included an 11 percent
decrease for accrued environmental restoration at active installations. This decrease
was a result of adjusted predictions using more conservative estimates that
approximate the expected rate of execution.



                           Liability Composition: FY 2002 vs. FY 2003
                                          ($ in Thousands)




                    $15,469,073                $7,675,117
                    $15,614,424                $7,645,875                         55           $1,589,971


                                            03 Total Liabilities: $27,627,825 thousand
              * includes intragovernmental debt




                                                                                  MANAGEMENT’S DISCUSSION            AND   ANALYSIS              21
                                                                DEPARTMENT        OF THE   NAVY




                                                                   WORKING CAPITAL FUND
                                                                   The Navy Working Capital Fund (NWCF) is a revolving fund
                                                                   established to meet the diverse requirements of the Navy and Marine
                                                                   Corps operating forces. Under the revolving fund concept, an
                                                                   appropriation or transfer of funds finances the initial cost of goods
                                                                   and services. Reimbursements from a customer’s appropriated
               The Navy                                            account replenish the initial working capital and permit continuing
             Workinng Capiital                                     operations without further appropriation by Congress. Unlike profit-
                 FFundd                                            oriented businesses, the goal of the revolving fund is to break even
                                                                   over time.


                                                                   Included in the NWCF are five Activity Groups comprised of one or
                                                                   more activities (see illustration below). Activity Groups stabilize or fix
                                                                   the price of goods and services in their budget to protect customers
                                                                   from unforeseen fluctuations.




     Base Support Activityy Group                                                          Supply Mana
                                                                                                  Management Activity Group
     • Public Works Centers                                                                • Supply Managgement — Navy
     • Naval Facilities Engineeringg Service
                                         ice Center                                        • Supply Manag
                                                                                                    M gement — Marine Corps




                                                               The N
                                                                   Navy
                                                      W rking
                                                      Worki CCapital Fund
     Transportation
                                                          Activity Groups
                                                          A                                           Depoot Maintenance Activity Group
     Activity Group                                          & Activities                             • Navval Shipyards
     • Military Sealift Command                                                                       • Aviaation Depots
                                                                                                      • Marrine Corps Depots




                                           Research
                                                 ch & Development Activity G
                                                                           Group
                                           •   Naval Research Laboratory
                                           •   Naval Surface Warfare Center
                                           •   Naval Undersea Warfare Center
                                           •   Naval Air Warfare Center
                                           •   Space & Naval Warfare Systems Centers




22
                                                                                            2003 ANNUAL FINANCIAL REPORT




Fiscal Year 2003 Overview

A brief discussion of NWCF personnel, net
                                                                                NWCF Activities Combined
cost of operations, and cash management
                                                                                  FY 2003 End Strength
follows.
                                                                                92 749
Personnel
Historically, civilians have comprised the
majority of the workforce at NWCF
activities. FY 2003 continues this trend.
Civilians account for 98 percent of total
FY 2003 end strength (actual).


Net Cost of Operations
                                                                                                   1 996
The NWCF Consolidating Statements of Net
Cost classifies earned revenue and program
costs by activity group. Included in this
statement is the total net cost for each
activity group, presented as the sum of:


  • intra-governmental net costs (i.e., intra-governmental gross costs less
     intra-governmental earned revenue), and
  • net costs with the public (i.e., gross costs with the public less revenue
     with the public).


NWCF net cost of operations is the
combined total net cost for the activity
groups, or “total net program costs,” plus
                                                                            NWCF Activities Combined
any costs not assigned to programs less any
                                                                       FY 2002 & FY 2003 Net Cost of Operations
earned revenue not attributable to
                                                                                   ($ in thousands)
                                                                        $2 440 744
                                                                        $2,440,744
programs. In FYs 2002 and 2003, costs
not assigned to programs and earned
revenue not attributable to programs
were zero.


In FY 2003, the combined total net cost for
the five NWCF activity groups — Supply
                                                                                                 $434 930
                                                                                                 $434,930
Management, Depot Maintenance, Research
and Development, Transportation, and Base
Support — was $1.3 billion.                                                FY 2002                 FY 2003




                                                      MANAGEMENT’S DISCUSSION              AND   ANALYSIS              23
                                                            DEPARTMENT        OF THE   NAVY



                                                                                        Cash Management
           FY 2003 Cash Management ($ in millions)                                      DON manages NWCF cash levels at the
                                                                                        Department level. The Department of
                                                                                        Defense Financial Management Regulation
                                                                                        requires working capital fund cash levels be
                                                                                        maintained at seven to ten days of
                                                                                        operational costs, and be sufficient to meet
                                                                                        six months of capital outlays. DON sets
                             Mi
                             Minimum Cash Range
                                            ng
                                             ge
                                             ge
                                                                                        seven- and ten-day cash requirements on an
                                                                                        annual basis. For FY 2003, the seven-day
                                                                                        requirement was $808 million, and the ten-
                                                                                        day requirement, $1.1 billion. As illustrated,
                                                                                        the cash levels fell below the minimum range

     Oct   Nov   Dec   Jan    Feb   Mar   Apr   May   Jun   Jul   Aug   Sep
                                                                                        in February, March, and April due to system
                                                                                        processing issues associated with the Naval
                                                                                        Air Systems Command’s conversion to its
                                                                                        Enterprise Resource Planning system and Port
                                            Hueneme’s conversion to the Defense Industrial Financial Management System.



                                            Fiscal Year 2003 Overview By Activity

                                            A discussion of each NWCF Activity Group follows. Included in this discussion are:


                                                                                 • Mission,
                                                                                 • Personnel,
                                                                                 • Net Cost of Operations, and
                                                                                 • Program Performance.




24
                                                                                               2003 ANNUAL FINANCIAL REPORT



Supply Management                                                                             Secretary
The Supply Management Activity Group consists of                                             of the Navy
Navy and Marine Corps components. Supply
Management, Navy and Marine Corps recoup costs
through a cost recovery rate that includes various                  Chief of Naval                                  Commandant of
operating costs, such as inventory management., which                Operations                                    the Marine Corps
are then added to the acquisition cost of an item to
establish a standard selling price.                                     Shore                                         Supporting
                                                                    Establishment                                    Establishment
Supply Management – Navy
In response to recapitalization and Sea Enterprise, one             Naval Supply                                     Marine Corps
of the operational initiatives augmenting Seapower 21             Systems Command                                  Logistics Command
(Navy’s strategy for implementing the Naval Power 21
vision), the Naval Supply Systems Command (NAVSUP)
conducted structural, customer, and functional alignment
reviews to capture business efficiencies. These reviews
led to specific cost-saving opportunities, including:
                                                                                               Supply
                                                                                             Management
•   Consolidation of the Naval Petroleum Office, Naval                                                    Marine
                                                                                      Navy
    Transportation Support Center, and Naval                                                              Corps
    Ammunition Logistics Center into a single command
    – Naval Operational Logistics Support Center, to
    centralize overhead functions and operational logistics support; and
•   Centralization of information technology functions under Naval Supply
    Information Systems Activity to parallel private sector information technology
    structures.


In addition to alignment reviews, One Touch Supply (OTS) exemplifies NAVSUP’s
commitment to capturing business efficiencies. Marking its first anniversary of
operations during FY 2003, OTS provides users with a web-based, single point of
entry into the naval supply system. OTS capabilities include:


•   Providing real-time availability of supplies,
•   Cross-referencing parts to stock-numbered inventories, and
•   Processing modifications to standard supply requisitions.




                  Supply Management – Navy Mission:
                  To provide a means of managing, controlling, financing and accounting for the acquisition and sale of
                  secondary spares, consumable and repair parts necessary to support weapon systems and associated
                  equipment to a wide variety of Navy activities and other government agencies.




                                                        MANAGEMENT’S DISCUSSION              AND   ANALYSIS                            25
                                                      DEPARTMENT    OF THE    NAVY



                                           Supply Management – Marine Corps
          Supply Management                In FY 2003, Supply Management – Marine Corps continues to focus on
     FY 2003 Total End Strength - Actual   logistical transformation of distribution and maintenance systems under the
                                           Marine Corps Integrated Logistics Capabilities initiative. Goals of this initiative
            Marine Corps, 47               include:


                                           • Customizing management of 4th echelon maintenance and secondary
                                              reparables;
                                           • Transferring 2nd and 3rd echelon maintenance to the intermediate level; and
                                           • Consolidating supply functions at the retail level.


                                           This initiative is improving customer relationships and expanding knowledge of
                                           customers’ operational requirements. The latter enables managers to develop
                                           more efficient budget forecasts.


                                           During FY 2003, Supply Management – Marine Corps decapitalized
               Navy, 5,632                 management of hazardous waste material at Camp Butler (Okinawa, Japan)
                                           and fuel at several Marine Corps activities. As a test pilot for the Joint
                                           Environment Material Management Service, Supply Management – Marine
                                           Corps decapitalized hazardous waste at Camp Butler to Defense Logistics
                                           Agency (DLA) and Supply Management – Navy. Also, Supply Management –
                                           Marine Corps decapitalized fuel at Twenty-Nine Palms, California; Okinawa,
                                           Japan; Barstow, California; Albany, Georgia; and Quantico, Virginia. Supply
                                           Management – Marine Corps had projected decapitalization at all Marine
                                           Corps activities by FY 2003, but delays associated with implementation of the
                                           super station concept and the Fuels Automated System at various commands
                                           affected DLA/Navy Petroleum Office capitalization schedules.


                                           Personnel
                                           Total FY 2003 end strength (civilian and military personnel, actual) for Supply
                                           Management was 5,679. Civilian personnel comprise 93 percent of total end
                                           strength for Supply Management – Navy, and 100 percent, for Supply
                                           Management – Marine Corps.




                                                               Supply Management –
                                                               Marine Corps Mission:
                                                               To perform inventory management
                                                               functions that result in sale of
                                                               consumable and reparable items to
                                                               support both Department of Defense
                                                               and other government agencies.




26
                                                                                        2003 ANNUAL FINANCIAL REPORT



Over the next two fiscal years, Supply
Management activities anticipate workforce
                                                                           Supply Management
reductions to result from their transformation and
strategic sourcing efforts. Supply Management                                                     Marine Corps: 23
– Navy expects to downsize the civilian,
military, and contractor workforce by a total of
409 personnel by FY 2006. Supply
Management – Marine Corps expects to                    Anticipated Work
downsize the civilian workforce by 21                           FYs 2004
personnel in FY 2004 and by two additional
personnel in FY 2005, for a total of 23
personnel. A graphical summary of Supply
Management workforce reductions is provided.
                                                        Navy: 409
                                                                                                       432
Net Cost of Operations                                  (303 Civilian,                                 TOTAL
In FY 2003, net cost of operations for Supply           26 Military,
Management activities increased by 122                  80 Contractor S
percent. This increase was primarily attributable
to the rise in program costs between FYs 2002
and 2003, which was approximately $1.3
billion (an 18 percent increase).


Program Performance
In FY 2003, Supply Management activities remain focused on customer support, as
exemplified below.


Supply Management – Navy
Since 1998, Supply Management – Navy has used average customer wait time (i.e.,
turnaround) to improve customer support. FY 2003 goals for average customer wait
time for aviation and maritime supplies were 10.1 days and 24 days, respectively.
As of June 2003, Supply Management – Navy reduced average customer wait time
to 9.21 days for aviation supplies and 20.72 days for maritime supplies.


Supply Management – Marine Corps
Supply Management – Marine Corps uses Supply Channel Performance metrics that
support goals of Marine Corps Integrated Logistics Capabilities and are based on
best practices currently utilized by the private
sector. Among the metrics used is accuracy in
filling customer supply orders. In FY 2003,           Supply Management: Net Cost of Operations ($ in thousands)
Supply Management – Marine Corps achieved
                                                                                        FY 2003                    FY 2002
their performance goal of 100 percent accuracy
in filling customer orders.                             Program Costs               $      8,456,945           $   7,167,805
                                                        Less: Earned Revenue             (6,895,749)             (6,463,455)
                                                        Net Cost of Operations      $    1,561,196             $ 704,350




                                                     MANAGEMENT’S DISCUSSION        AND    ANALYSIS                            27
                                                                 DEPARTMENT         OF THE   NAVY




                                                                                             Depot Maintenance
                                           Secretary
                                          of the Navy
                                                                                             The Depot Maintenance Activity Group
                                                                                             consists of Naval Shipyards, Aviation Depots,
                                                                                             and Marine Corps Depots. These activities
              Chief of Naval                                      Commandant of              provide vital services that ensure force levels
               Operations                                        the Marine Corps
                                                                                             and force readiness.

                  Shore                                             Supporting               Naval Shipyards (NSYs)
              Establishment                                        Establishment             In FY 2003, Puget Sound NSY, under regional
                                                                                             maintenance consolidation, joined
                                                                                             the Intermediate Maintenance Facility Pacific
     Naval Sea               Naval Air                            Marine Corps
 Systems Command        Systems Command                         Logistics Command            Northwest, and will transfer to mission funding
                                                                                             as a Pacific Fleet activity on 1 October 2003.
                                                                                             This transfer supports the Navy’s initiative to
                                                                                             combine intermediate and depot maintenance,
                                                                                             thereby allowing more flexibility in
                                                                                             accomplishing the Navy’s overall
                                                                                             maintenance program.
                               Aviation                      Marine
                                                Depot
                               Depots                        Corps
                                              Maintenance                                    Aviation Depots
                                                             Depots
                                                                                             The Naval Air Systems Command (NAVAIR)
                                    Naval
                                                                                             Depots have provided direct and immediate
                                  Shipyards
                                                                                             support to our forces during Operation Iraqi
                                                                                             Freedom. Specifically, the NAVAIR Depot
                                                                                             Cherry Point Aircraft Assessment Planning
                                                   Branch deployed 11 emergency essential personnel to various sites worldwide,
                                                   including Bahrain; Naples, Italy; and Okinawa, Japan. The NAVAIR Depot North
                                                   Island F/A-18 and Helicopter Multi Lines responded to urgent fleet requests to
                                                   accelerate the production and delivery of aircraft to the war zone.




 Naval Shipyards Mission:                                                  Aviation Depots Mission:
 To provide logistics support for assigned ships and service               To provide responsive worldwide maintenance, engineering,
 craft; perform authorized work in connection with                         and logistics support to the Fleet and ensure a core industrial
 construction, overhaul, repair, alteration, drydocking and                resource base essential for mobilization; repair aircraft,
 outfitting of ships and craft as assigned; perform design,                engines, and components, and manufacture parts and
 manufacturing, refit and restoration, research and                        assemblies; provide engineering services in the development
 development and test work, and provide services and                       of hardware design changes, and furnish technical and other
 material to other activities and units as directed by competent           professional services on maintenance and logistics problems.
 authority.




28
                                                                                         2003 ANNUAL FINANCIAL REPORT



Marine Corps Depots
Marine Corps Depots are located in Albany, Georgia and Barstow, California.                   Marine Corps Depots:
The two maintenance centers return unserviceable equipment to serviceable condition,          To provide quality, responsive

perform maintenance up to the depot repair level, and overhaul, rebuild, and modify           maintenance and maintenance-

all types of ground equipment used by the Marine Corps and other DoD services.                related products and services to
                                                                                              the Fleet Marine Force and other
                                                                                              customers while maintaining the
                                                                                              core industrial base necessary to
Personnel                                                                                     support mobilization, surge and
                                                                                              reconstitution requirements.
Total FY 2003 end strength (civilian and military personnel) for Depot Maintenance
was 32,512. The chart depicts total end strength, by activity. Military personnel
comprise one percent or less of total end strength (actual) by activity. Beginning in
FY 2004, Depot Maintenance activities anticipates changes in workforce. Naval
shipyards are executing a significant hiring plan and budgeting lower overtime.
                                                                                                    Depot Maintenance
This hiring plan will facilitate revitalization of the aging workforce and ensure the
                                                                                              FY 2003 Total End Strength - Actual
right number of employees with the right skills will be available to successfully
complete the highly technical upcoming workload within condensed timeframes.
Also, NWCF civilian end strength will decrease with the transition of Puget Sound                      Marine Corps
                                                                                                         1 486
                                                                                                         1,486
NSY to Pacific Fleet mission funding.


Aviation Depots anticipate an increase in military end strength and workyears due
to projected workload requirements but expect a decrease in civilian end strength
                                                                                                   Aviatioon
and workyears. Civilian workforce reductions reflect a renewed focus on utilizing                  11,145
contractor labor and overtime for flexibility and workload fluctuations.                                         Shipyyards
                                                                                                                  19,881

Marine Corps Depots’ reconstitution and regeneration workload influx will result in
an increased requirement of civilian end strength and workyears from the FY 2004
President’s Budget. The FY 2005 budget submission reflects a significant increase
in FY 2004 personnel to accommodate this workload.




                                                      MANAGEMENT’S DISCUSSION           AND   ANALYSIS                              29
                                                                  DEPARTMENT      OF THE   NAVY




Depot Maintenance: Net Cost of Operations ($ in thousands)                            Net Cost of Operations
                                        FY 2003                  FY 2002
                                                                                      In FY 2003, net cost of operation for Depot
     Program Costs                      $ 5,192,971             $ 5,234,807           Maintenance activities decreased by 134 percent.
     Less: Earned Revenue                (5,346,593)             (4,787,303)          This was primarily attributable to the 12 percent
     Net Cost of Operations             $ (153,622)             $ 447,504             increase in earned revenue between FYs 2002 and
                                                                                      2003.




                                                       Program Performance
              Naval Shipyards
          FY 2003 Schedule Adherence                   Below are highlights of Depot Maintenance program performance.
              (CNO Availabilities)
                                                       Naval Shipyards
              18
                                16
                                                       20/11 Initiative. Naval shipyards are committed to minimizing turnaround
                                                       for ship support services. To this end, Portsmouth Naval Shipyard (NSY) has
                                                       implemented the 20/11 initiative. The goal of this initiative is to reduce the
                                                       duration of engineered refueling overhauls from 24 months to 20 months, and
                                                       depot maintenance periods from 13 months to 11 months. Currently, Portsmouth
                                                       NSY has reduced engineered refueling overhauls to 22 months and depot
                                                       maintenance periods to 12 months.


                                                       Schedule Adherence. Naval shipyards express schedule adherence in
            Planned            Actual                  cumulative months for all Chief of Naval Operations (CNO) availabilities that are
                                                       complete or expected to complete in the respective fiscal year. In FY 2003, the
                                                       estimate of completions was 18 CNO availabilities on or ahead of schedule. The
              Naval Shipyards                          actual outcome was 16 CNO availabilities, 7.1 months late (see chart).
            FY 2003 Cost Per Hour                      Availabilities primarily responsible for late completion were the USS
                                                       PHILADELPHIA, USS ENTERPRISE, and USS ASHEVILLE.
                              $99 73
                              $99.73
           $93 90
           $93.90
                                                       Labor Hour Cost. Naval shipyards (NSYs) express labor hour cost as an
                                                       index, calculated as cumulative actual cost divided by the cumulative direct labor
                                                       manhours. NSYs compare actual cost and direct labor manhours to budget
                                                       estimates based on historical or engineered study estimates.




            Planned            Actual




30
                                                                                                       2003 ANNUAL FINANCIAL REPORT



Aviation Depots

Depot Component Program. NAVAIR Depot Jacksonville works a varied mix
of avionic, structural/mechanical, and engine components every quarter
for the Naval Inventory Control Point. In the third quarter of FY 2003, NAVAIR
Depot Jacksonville exceeded its quarterly goal of 10,500 units with 12,800
components. This was Jacksonville’s third consecutive record for FY 2003
quarterly component production.


Engine Reliability Improvement Program. NAVAIR Depot Cherry Point
manages the Engine Reliability Improvement Program for restoring the T58-16
engine to its original design and power specifications. The T58-16 engine
powers the CH-46E, the Marine Corps’ primary aircraft for transporting combat
troops. In April 2003, Cherry Point delivered the first four Engine Reliability
Improvement Program engines under budget and ahead of schedule. Cherry
Point will deliver a total of 446 engines under the Engine Reliability
Improvement Program, at a production rate of eight engines
per month.


Marine Corps Depots
                                                                Theory of Constraints                           Lean Thinking
Business Improvement Initiatives.                               Improved Readiness                      Significant Increase in Shop Floor Space
Marine Corps Depots have been successful in
                                                                Reduced Repair Cycle Time               Streamlined Process Flow
implementing the Theory of Constraints and Lean                 (by at least 50%)
Thinking initiatives to eliminate inefficient shop-level        Improved Schedule Conformance           Increased Morale
procedures. Accomplishments in FY 2003                          (on or ahead of schedule)
associated with Theory of Constraints and Lean
Thinking include:


As a result of successful implementation of the business                                         Marine Corps Depots
initiatives above, Marine Corps Depots have been registered                                        FY 2003 Unit Cost
under the Organization of International Standards (ISO 9002),
guaranteeing them as viable participants to share business
revenues with ISO-registered civilian contractors.                                     $136.08
                                                                                                                       $129.84
Unit Cost. In FY 2003, Marine Corps Depots reduced
production of the material-intensive M1A1 Main Battle Tank,
resulting in a significant decrease in direct material costs and a
lower unit cost. Actual unit cost in FY 2003 was $129.84
(see chart).




                                                                                            Planned




                                                           MANAGEMENT’S DISCUSSION                    AND   ANALYSIS                               31
                                                                  DEPARTMENT        OF THE   NAVY



                                                 Secretary
                                                of the Navy                                   Research and Development

                                                                                              The Research and Development Activity
Assistant Secretary                                                                           Group consists of the Naval Research
    of the Navy                                                                               Laboratory and four Naval Warfare Centers.
     (Research,                                                                               These activities perform a wide range of
 Development &                                                                                research, development, test, evaluation, and
    Acquisition)                                                                              engineering support functions.


  Chief of Naval                                Chief of Naval                                Naval Research Laboratory (NRL)
    Research                                     Operations                                   In FY 2003, NRL provided a clear
                                                                                              technological advantage for our forces in
                                                    Shore                                     Operations Enduring Freedom and Iraqi
                                                Establishment                                 Freedom. From across the lab community,
                                                                                              NRL fielded more than 42 research projects.
                                                                                              Some of the critical new capabilities
                                                                       Space & Naval
                      Naval Sea Systems       Naval Air Systems       Warfare Systems         stemming from these projects included:
                         Command                 Command
                                                                         Command
                                                                                              • MK-8 Two Man Low Visibility Sea Kayak
                                                                                                  used to detect and dispose of mines;


                                                                                              • Shared Reconnaissance Pod, a digital
                                            Naval Air                                             infrared reconnaissance system deployed
                                          Warfare Center                                          aboard USS NIMITZ; and


                                                                                              • Dragon Eye, a five-pound Advanced
                                                                                                  Tactical Reconnaissance Unmanned Air
                Naval Surface              Research                                               Vehicle with a 45-inch wingspan
                                                                   Space & Naval
               Warfare Center,                 &                                                  designed for the Marine Corps to fit in a
                                                                  Warfare Systems
               Naval Undersea
               Warfare Center
                                          Development                 Centers                     backpack, be assembled and operated
                                                                                                  by non-aviation personnel, and provide
                                                                                                  day and night reconnaissance and
                                                                                                  surveillance.
                                          Naval Research
                                            Laboratory




          NRL Mission:                                                                                     NRL sites include:
                                                                                                              Washington D.C. •
          To operate the Navy’s full spectrum corporate laboratory, conducting
                                                                                                         Stennis Space Center, Bay
          a broadly based multidisciplinary program of scientific research and
                                                                                                         St. Louis, Missouri • Naval
          advanced technological development directed toward maritime
                                                                                                         Support Activity, Monterey
          applications of new and improved materials, techniques, equipment,                                   Bay, California •
          systems and ocean, atmospheric, and space sciences and related                                       Chesapeake Bay,
          technologies.                                                                                     Maryland Detachment




32
                                                                                            2003 ANNUAL FINANCIAL REPORT



Naval Surface Warfare Center (NSWC) and Naval
Undersea Warfare Center (NUWC)

Under the purview of the Naval Sea Systems Command (NAVSEA),
NSWC and NUWC perform broad and diverse support functions
related to surface and undersea warfare, respectively. During FY 2003,
NSWC focused on seamless collaboration with NUWC in several
endeavors including Integrated Maritime Portable Acoustic Scoring and
Simulation, Shallow Water Array Performance, and Submarine
Electronic Warfare.


NUWC engineers and technicians provide real-time technical support
and guidance to the Fleet using various technological capabilities such
as a secure web-based chat room and a wearable communications
system. NUWC utilized the chat room to orchestrate highly successful
Tomahawk launches during Operation Iraqi Freedom. Also, NUWC
created the Remote Technical Assistance Support System, an Internet-
based application that provides audio, video, and text communications
and is worn by Sailors.


Effective 1 October 2003, NSWC and NUWC operations will become
more tightly integrated through centralized product management and
implementation of 12 Product Area Directors. Each warfare center will
have a Commander and Senior Executive Service Technical Director.
The divisions of each warfare center will have a local Commander and
Technical Operations Manager who will oversee daily operations. The
Product Area Directors will be responsible for long-range planning and
stewardship of technical capabilities within their product area, regardless of
geographical location and division affiliation.




              NSWC Mission:                                               NUWC Mission:
              To operate the Navy’s full spectrum research,               To operate the Navy’s full spectrum research,
              development, test and evaluation, engineering               development, test and evaluation, engineering
              and fleet support center for ship hull,                     and fleet support center for submarines,
              mechanical, and electrical systems, surface                 autonomous underwater systems and offensive
              combat systems, coastal warfare systems, and                and defensive weapon systems associated with
              other offensive and defensive systems                       undersea warfare.
              associated with surface warfare.




                                                        MANAGEMENT’S DISCUSSION          AND    ANALYSIS                  33
                                                          DEPARTMENT      OF THE    NAVY



                                                       Naval Air Warfare Center (NAWC)
 Aircraft Division, NAWC Mission:
 To operate the Navy’s principal research,             NAWC has provided invaluable support to our forces engaged in
 development, test and evaluation (RDT&E),             Operations Enduring Freedom (OEF) and Iraqi Freedom (OIF).
 engineering, and fleet support activity for naval     Responding to an OEF rapid deployment capability request from Marine
 aircraft engines, avionics, and aircraft support      Heavy Helicopter Squadron 461, teams from NAVAIR Patuxent River
 systems and ship/shore/air operations.                provided a flight clearance and prototype ramp-mounted weapons system
 Weapons Division, NAWC Mission:                       (M3M) to the squadron in 40 days. The M3M consists of a .50 caliber
 To operate as the Navy’s full spectrum RDT&E          machine gun mounted to the ramp of the CH-53E Super Stallion that can
 in-service engineering center for air warfare         be installed and removed in under two minutes. In support of OIF, NAWC
 weapons systems (except anti-submarine                has provided technical and operational training expertise to the war
 warfare systems), missiles and missile                fighter. Specifically, NAVAIR Fleet Weapons Support Teams provided a
 subsystems, sircraft weapons integration, and         range of support services to fleet units worldwide, including missile and
 assigned airborne electronic warfare systems;         bomb inspections, weapons training, weapon and support equipment
 and as DON’s air, land, and sea test ranges.          troubleshooting, testing and repair, missile exercise preparations, and air
                                                       weapons bulletin support. Similarly, the NAWC Weapons Division
                                                       supported operational Navy and Marine Corps training exercises on its
                                                       sea, land, and electronic warfare ranges, including bomb and missile live
                                                       fire exercises, electronic warfare operations, and fleet squadron combat
                                                       readiness exercises.


                                                       NAWC is planning to expand the responsibilities of Chief of Naval
                                                       Installations in FY 2004. Specifically, NAWC will transfer Base Operating
                                                       Support functions to Chief of Naval Installations effective 1 October 2003.



                                                       Space and Naval Warfare Systems Centers (SSCs) –
     SSCs Mission:                                     Charleston and San Diego
     To operate the Navy’s full spectrum research,
     development, test and evaluation, engineering     Under the purview of the Space and Naval Warfare Systems Command
     and fleet support centers for command,            (SPAWAR), SSC Charleston and SSC San Diego provide scientific and
     control, and communication systems and            technical expertise to the Fleet. Specifically, SSC Charleston is
     ocean surveillance and the integration of those   engineering and fielding over 150 Internet Protocol voice and data
     systems which overarch multiplatforms.            satellite packages to be installed across Iraq in support of deployed forces
                                                       under Coalition Joint Task Force – 7. These systems will provide deployed
                                                       service members with high-speed commercial Internet access for personal
                                                       e-mail and distance education. Also, SSC San Diego’s Marine Mammal
                                                       program provides force protection support in Bahrain. Deployed to
                                                       Manama Harbor, Mark 6 Marine Mammal System dolphins can locate
                                                       water-borne intruders and suspicious objects that pose threats to
                                                       military forces.




34
                                                                                                2003 ANNUAL FINANCIAL REPORT




Personnel
                                                                                        Research & Development
Total end strength (civilian and military personnel, actual) in FY                   FY 2003 Total End Strength - Actual
2003 for Research and Development (R&D) was 41,439.
Civilian employees comprised at least 97 percent of total end                                             NRL,
                                                                                        SSCs,            2,664
strength (actual) per activity.


Beginning in FY 2004, R&D activities anticipate changes in
workforce.


• NRL budget estimates for FY 2004 and beyond include a 10
   workyear savings in General and Administrative attributable
   to efficiencies in business support functions.                           NAWC,
                                                                            11,483                                         ,
• NAWC anticipates a decrease in civilian and military end                                                                 8
   strength and workyears due to Chief of Naval Installation
   initiatives.
                                                                                                 4,339
• SSCs plan to downsize their indirect workforce by 67
   employees. Also, SSCs will continue their efforts to attract and
   retain talented C4ISR (Command, Control, Communications,
   Computers, Intelligence, Surveillance, and Reconnaissance)
   professionals to revitalize the workforce and compensate for the loss
   of personnel eligible to retire in the near future.




Net Cost of Operations

In FY 2003, net cost of operations for Research and Development (R&D)
activities decreased by 96 percent.


Researched Development: Net Cost of Operations ($ in thousands)
                                    FY 2003                  FY 2002
  Program Costs                    $ 9,573,205              $ 9,158,580
  Less: Earned Revenue              (9,585,868)               (9,470,297)
  Net Cost of Operations           $ (12,663)               $ (311,717)




                                                         MANAGEMENT’S DISCUSSION          AND     ANALYSIS                     35
                   DEPARTMENT      OF THE    NAVY




     Program Performance

     The span of R&D activities’ products and services is broad and diverse. The primary
     measure of performance applicable across all R&D activities is cost per direct labor
     hour, calculated as direct labor (civilian and military labor plus overhead) divided by
     direct labor hours. This financial indicator measures the activities’ cost effectiveness
     in performance of their mission. The chart below presents FY 2003 planned and
     actual cost per direct labor hour for each R&D activity.




                                       Research and Development
                                     FY 2003 Unit Costs — Planned and Actual




                    NAWC           NSWC             NUWC               NRL         SSC
                    $77.58         $76.16           $80.63           $100.09      $81.19
                    $75.30         $76.73           $81.91            $99.42      $82.70




36
                                                                                                     2003 ANNUAL FINANCIAL REPORT




Transportation
                                                                                                                   Secretary
Since the commencement of the Global War on Terrorism in 2001 and the
                                                                                                                  of the Navy
buildup for Operation Iraqi Freedom in 2003, the Military Sealift Command
(MSC) has been at the forefront of the U.S. response. Having dual reporting                                      Chief of Naval
responsibilities to DON and the U.S. Transportation Command, MSC has                                              Operations
provided a variety of services and supplies to U.S. and allied forces worldwide.
For example, USNS COMFORT, part of the Naval Fleet Auxiliary Force, provided                                         Operating
medical care during Operation Iraqi Freedom.                                                                          Forces

                                                                                                                 Military Sealift
                                                                                                                   Command




                                                                                                               Transportation




   USNS COMFORT is one of the Military Sealift Command’s two hospital ships and part of the Naval
   Fleet Auxiliary Force.
                                                                                                     MSC Mission:
                                                                                                     To provide ocean transportation of
For purposes of the Navy Working Capital Fund, MSC supports three separate
                                                                                                     equipment, fuel, supplies and
and distinct ship programs:
                                                                                                     ammunition to sustain U.S. forces
                                                                                                     worldwide during peacetime and in
• Naval Fleet Auxiliary Force (NFAF) provides fuel, food, ammunition, spare
                                                                                                     war for as long as operational
   parts and other supplies, enabling the Navy fleet to operate at the highest
                                                                                                     requirements dictate.
   possible operating tempo;


• Special Mission Ships (SMS) provide oceanographic and hydrographic
   surveys, underwater surveillance, missile flight data collection and tracking,
   acoustic research and submarine support, and other support for Department of
   Defense sponsors; and


• Afloat Pre-Positioning Force Ships – Navy (APF-N) provide military equipment
   and supplies for a contingency forward deployed in key ocean areas before it
   is needed.




                                                                MANAGEMENT’S DISCUSSION             AND   ANALYSIS                        37
                                  DEPARTMENT           OF THE       NAVY



               MSC ships are unique compared to other U.S. Navy ships in that they are non-
               combatant; include both government-owned and chartered vessels; and are crewed
               primarily by civilian mariners from the U.S. Civil Service and from private operating
               companies.



                                                  "Forrward...From the Sea"
                                                  MSC Headquarters - Washington, DC
                                                  MSC Europe - Naples, Italy
                                                  MSC Far East - Yokohama, Japan
                                                  MSC Pacific - San Diego, California
                                                  MSC Atlantic - Camp Pendleton, Virginia
                                                  MSC Central - Manama, Bahrain




               MSC is currently reexamining its organizational processes, functions and structure in
               order to improve efficiencies and cost-effectiveness. While no major organizational
               changes were made in FY 2003, the Commander Naval Surface Force, U.S. Atlantic
               Fleet is expected to merge with MSC Atlantic as early as FY 2004. This merger will
               enable the Commander Naval Surface Force, U.S. Atlantic Fleet to realize
               efficiencies due to the pending decommissioning of USN AOE-1 Class
               oiler/ammunition ships.




     USNS CONCORD is one of Military Sealift Command’s six combat stores ships and part of the Naval Fleet Auxiliary Force.




38
                                                                                                   2003 ANNUAL FINANCIAL REPORT




Personnel

Total end strength in FY 2003 was 5,648 (see chart). However, over the next five
years, total end strength will change. Increases in both civilian and military end
strength will occur primarily to meet crewing demands of additional ships – AOE-6
Class and 12 USNS LEWIS and CLARK Class ships. Beginning FY 2005, decreases
in military end strength will occur primarily due to elimination of military detachments
on board two of MSC’s Special Mission Ships: USNS ZEUS, MSC’s only cable
repair ship, and USNS CAPABLE, one of six ocean surveillance ships. The illustration
below provides a graphic summary of MSC changes in end strength.




           Military Sealift Command                                   Military Sealift Command:
              FY 2003 End Strength                                      Changes in End Strength

                                                                                Fiscal Year
                  5 086
                  5,086                                             2008



                                                                    2007        Civilian End Strength:

                                                                                     + 1,800 Afloat
                                                                    2006
                                                                                       Civilian/Civilian
                                                                                       Mariner
                                                                    2005
                                                                                     + 30 Ashore
                                 562                                                   Staff
                                                                    2004


                                                                                 (Between FYs 2003 & 2008)
                  Actual        Actual                              2003




Net Cost of Operations

In FY 2003, net cost of operations for the Military Sealift Command decreased by 58
percent, while program costs and earned revenue grew by 29 percent and 21
percent, respectively.



Military Sealift Command: Net Cost of Operations ($ in thousands)
                                  FY 2003                  FY 2002
 Program Costs                   $ 1,789,147              $ 1,387,148
 Less: Earned Revenue             (1,844,089)               (1,518,664)
 Net Cost of Operations          $ (54,942)               $ (131,516)




                                                     MANAGEMENT’S DISCUSSION                   AND         ANALYSIS           39
                    DEPARTMENT      OF THE    NAVY




      Program Performance

      To ensure mobility of combat-ready naval forces, it is critical that MSC meet its
      readiness goals. MSC bases readiness on “goal days,” calculated as the number of
      days ships are available to perform a mission multiplied by the number of ships in the
      program. In FY 2003, MSC exceeded 100 percent readiness in the APF-N ship
      program with the addition of USNS WHEAT. In the SMS ship program, readiness fell
      from 100.1 percent in FY 2002 to 87.6 percent in FY 2003, with the deactivation of
      seven ships. The chart below presents the goal days, actual days, and readiness
      percentage for all three ship programs in the past four fiscal years.




                             GOAL DAYS              ACTUAL DAYS               READINESS %

     NFAF
      FY 2003                   24,153                  24,179                 100.1%
      FY 2002                   24,091                  24,212                 100.5%
      FY 2001                   22,020                  22,017                 100.0%
      FY 2000                   21,594                  21,329                  98.8%

     APF N
     APF-N
      FY 2003                    6,205                   7,396                1119.2%
      FY 2002                    6,020                   6,020                 100.0%
      FY 2001                    5,842                   5,689                  97.4%
      FY 2000                    5,673                   5,605                  98.8%

     SMS

      FY 2003                   10,220                   8,957                  87.6%
      FY 2002                   10,128                  10,142                 100.1%
      FY 2001                    9,942                   9,630                  96.9%
      FY 2000                    9,785                   9,445                  96.5%




40
                                                                                        2003 ANNUAL FINANCIAL REPORT




Base Support
                                                                                                         Secretary
The Base Support Activity Group consists of nine Public Works Centers (PWCs) and                        of the Navy
the Naval Facilities Engineering Service Center (NFESC). The PWCs provide a
range of services to meet the diverse needs of their clients. These services include                    Chief of Naval
facilities maintenance, transportation support, and family housing. NFESC, located                       Operations
in Port Hueneme, California, provides the Navy with specialized facilities
engineering and technology support. NFESC responsibilities range from providing                             Shore
shore establishment physical security to environmental waste management to energy                       Establishment
conservation systems.

                                                                                                       Naval Facilities
                                                                                                        Engineering
                                                                                                         Command



                                                                                                  Public Works Centers,
                                                                                                Naval Facilities Engineering
                                                                                                      Service Center




                                                                                                      Base Support




                                                                                        Public Works Center
                                                                                        Mission: To provide utility services,
                                                                                        facilities maintenance, family housing
                                                                                        services, transportation support,
                                                                                        engineering services, and shore
                                                                                        facilities support to afloat and ashore
                                                                                        operating forces and other activities.



                                                                                        Naval Facilities Engineering
                                                                                        Services Center Mission: To
                                                                                        provide engineering, design,
                                                                                        construction, technology
                                                                                        implementation, and management
                                                                                        support worldwide to shore, ocean,
                                                                                        and waterfront activities and to
                                                                                        amphibious and expeditionary
                                                                                        operations.




                                                     MANAGEMENT’S DISCUSSION           AND   ANALYSIS                             41
                                                         DEPARTMENT       OF THE    NAVY




              Base Support                         Personnel
     FY 2003 Total End Strength - Actual
                                                   Total end strength in (actual) FY 2003 for Base Support activities was 7,927,
        NFESC,                                     with military personnel comprising one percent of the total.
         361


                                                   Net Cost of Operations

                                                   In FY 2003, program costs and earned revenue for Base Support activities
                                                   decreased by 5 percent and 6 percent, respectively, with an overall decrease
                                                   in net cost of operations of 60 percent.
                     PWCs,
                     7,566
                                                   Base Support: Net Cost of Operations ($ in thousands)
                                                                                           FY 2003                FY 2002
                                                     Program Costs                      $ 1,569,729            $ 1,654,492
                                                     Less: Earned Revenue                (1,584,722)            (1,691,934)
                                                     Net Cost of Operations             $ (14,993)             $ (37,442)




                                           Program Performance

                                           NFESC productivity continues an upward trend in FY 2003. Since FY 2000, NFESC
                                           workload has increased and manual processes have been automated, reflecting an
                                           overall increase in productivity (see chart).




                                                                    Naval Facilities Engineering Service Center
                                                                          Upward Trend in Productivity



                                                                                                                    76.3%
                                                                                                       74.1%
                                                                                71.7%
                                                           67.5%



                                                          FY 2000             FY 2001            FY 2002          FY 2003




42
                                                                                            2003 ANNUAL FINANCIAL REPORT




Conclusion

The financial statements have been prepared to report the financial position and
results of operations for the entity, pursuant to the requirements of the Title 31,
United States Code, Section 3515(b).


While the statements have been prepared from the books and records of the entity,
in accordance with the formats prescribed by the Office of Management and Budget,
the statements are in addition to the financial reports used to monitor and control
budgetary resources which are prepared from the same books and records.


To the extent possible, the financial statements have been prepared in accordance
with federal accounting standards. At times, the Department is unable to implement
all elements of the standards due to financial management systems limitations. The
Department continues to implement system improvements to address these limitations.
There are other instances when the Department’s application of the accounting
standards is different from the auditor’s application of the standards. In those
situations, the Department has reviewed the intent of the standard and applied it in
a manner that management believes fulfills that intent.


The statements should be read with the realization that they are for a component of
the U.S. Government, a sovereign entity. One implication of this is that the liabilities
cannot be liquidated without legislation that provides resources to do so.




                                                             MANAGEMENT’S DISCUSSION       AND   ANALYSIS              43
     DEPARTMENT   OF THE   NAVY




44
                                              GENERAL FUND PRINCIPAL STATEMENTS
                 DEPARTMENT   OF THE   NAVY
GENERAL FUND PRINCIPAL STATEMENTS




                                                      45
                    DEPARTMENT   OF THE   NAVY




46   GENERAL FUND
                                                                               2003 ANNUAL FINANCIAL REPORT



P RINCIPAL S TATEMENTS

The FY 2003 Department of the Navy, General Fund Principal Financial Statements and related notes are presented
in the format prescribed by the Department of Defense Financial Management Regulation 7000.14, Volume 6B. The
statements and related notes summarize financial information for individual funds and accounts within the General
Fund for the fiscal year ending September 30, 2003, and are presented on a comparative basis with information
previously reported for the fiscal year ending September 30, 2002.

The following statements are included in the Department of the Navy, General Fund Principal Statements:

 •   Consolidated Balance Sheet
 •   Consolidated Statement of Net Cost
 •   Consolidated Statement of Changes in Net Position
 •   Combined Statement of Budgetary Resources
 •   Combined Statement of Financing

The Principal Statements and related notes have been prepared to report financial position pursuant to the
requirements of the Chief Financial Officers Act of 1990, as amended by the Government Management Reform Act
of 1994.

The accompanying notes should be considered an integral part of the Principal Statements.




                                                                     PRINCIPAL STATEMENTS                           47
                                                                   DEPARTMENT   OF THE      NAVY


 Department of Defense
 Department of the Navy
 CONSOLIDATED BALANCE SHEET
 As of September 30, 2003 and 2002
 ($ in thousands)

                                                                        2003 Consolidated              2002 Consolidated
     ASSETS (Note 2)
       Intragovernmental:
         Fund Balance with Treasury (Note 3)
              Entity                                                $            78,191,653        $             67,999,880
              Non-Entity Seized Iraqi Cash                                                0                                0
              Non-Entity - Other                                                    223,225                          250,075
        Investments (Note 4)                                                          9,801                           9,625
         Accounts Receivable (Note 5)                                               496,863                         742,467
         Other Assets (Note 6)                                                      187,865                          67,081
               Total Intragovernmental Assets                       $            79,109,407        $             69,069,128
       Cash and Other Monetary Assets (Note 7)                      $               282,995        $                130,664
       Accounts Receivable (Note 5)                                               3,382,133                       2,799,887
       Loans Receivable (Note 8)                                                          0                               0
       Inventory and Related Property (Note 9)                                   53,611,634                      33,003,595
       General Property, Plant and Equipment (Note 10)                          158,407,450                      26,109,437
       Investments (Note 4)                                                               0                               0
       Other Assets (Note 6)                                                      6,180,624                       4,780,462
     TOTAL ASSETS                                                   $           300,974,243        $            135,893,173

     LIABILITIES (Note 11)
       Intragovernmental:
        Accounts Payable (Note 12)                                  $             1,035,033        $                748,279
        Debt (Note 13)                                                                    0                             127
        Environmental Liabilities (Note 14)                                               0                               0
        Other Liabilities (Note 15 & Note 16)                                     3,859,913                       3,489,503
               Total Intragovernmental Liabilities                  $             4,894,946        $              4,237,909
       Accounts Payable (Note 12)                                   $             1,742,522        $              1,510,329
       Military Retirement Benefits and Other Employment-Related
         Actuarial Liabilities (Note 17)                                           1,589,971                      1,546,375
       Environmental Liabilities (Note 14)                                        15,614,424                     15,469,073
       Loan Guarantee Liability (Note 8)                                                   0                              0
       Other Liabilities (Note 15 and Note 16)                                     3,785,962                      4,185,487
       Debt Held by Public (Note 13)                                                       0                              0
     TOTAL LIABILITIES                                              $             27,627,825       $             26,949,173

     NET POSITION
       Unexpended Appropriations (Note 18)                          $            50,781,179        $             64,774,328
       Cumulative Results of Operations                                         222,565,239                      44,169,672
     TOTAL NET POSITION                                             $           273,346,418        $            108,944,000

     TOTAL LIABILITIES AND NET POSITION                             $           300,974,243        $            135,893,173
The accompanying notes are an integral part of these statements.


48      GENERAL FUND
                                                                                             2003 ANNUAL FINANCIAL REPORT



Department of Defense
Department of the Navy
CONSOLIDATED STATEMENT OF NET COST
For the years ended September 30, 2003 and 2002
($ in thousands)

                                                                       2003 Consolidated            2002 Consolidated
    Program Costs
      Intragovernmental Gross Costs                                $            35,142,574      $            29,911,090
      (Less: Intragovernmental Earned Revenue)                                  (3,186,968)                  (1,209,933)
      Intragovernmental Net Costs                                  $            31,955,606      $            28,701,157

       Gross Costs With the Public                                 $             81,168,783     $            75,636,020
       (Less: Earned Revenue From the Public)                                    (1,919,696)                 (1,721,649)
       Net Costs With the Public                                   $             79,249,087     $            73,914,371

       Total Net Cost                                              $           111,204,693      $           102,615,528
    Costs Not Assigned to Programs                                                       0                            0
    (Less: Earned Revenue Not Attributable to Programs)                                  0                            0
    Net Cost of Operations                                         $           111,204,693      $           102,615,528




The accompanying notes are an integral part of these statements.


                                                                               PRINCIPAL STATEMENTS                        49
                                                                DEPARTMENT    OF THE   NAVY



 Department of Defense
 Department of the Navy
 CONSOLIDATED STATEMENT OF CHANGES IN NET POSITION
 For the years ended September 30, 2003 and 2002
 ($ in thousands)


                                                                       2003 Consolidated        2002 Consolidated

     Cumulative Results of Operations
       Beginning Balances                                          $           44,169,672   $           46,641,359
       Prior period adjustments (+/-)                                         152,557,286                        0
       Beginning Balances, as adjusted                             $          196,726,958   $           46,641,359
      Budgetary Financing Sources:
       Appropriations Received                                     $                    0   $                    0
       Appropriations transferred in/out (+/-)                                          0                        0
       Other adjustments (recissions, etc) (+/-)                                        0                        0
       Appropriations used                                                    136,481,490               99,612,675
       Nonexchange revenue                                                              0                        0
       Donations and forfeitures of cash and cash equivalents                           0                        0
       Transfers in/out without reimbursement (+/-)                                     0                        0
       Other budgetary financing sources (+/-)                                          0                        0
      Other Financing Sources:
       Donations and forfeitures of property                                            0                        0
       Transfers in/out without reimbursement (+/-)                                51,765                    5,871
       Imputed financing from costs absorbed by others                            509,719                  525,294
       Other (+/-)                                                                      0                        0
      Total Financing Sources                                      $          137,042,974   $          100,143,840
        Net Cost of Operations (+/-)                               $          111,204,693   $          102,615,527
        Ending Balances                                            $          222,565,239   $           44,169,672




The accompanying notes are an integral part of these statements.


50      GENERAL FUND
                                                                                               2003 ANNUAL FINANCIAL REPORT



Department of Defense
Department of the Navy
CONSOLIDATED STATEMENT OF CHANGES IN NET POSITION
For the years ended September 30, 2003 and 2002
($ in thousands)

                                                                  2003 Consolidated         2002 Consolidated
   Unexpended Appropriations
     Beginning Balances                                       $          64,774,328     $          63,535,842
     Prior period adjustments (+/-)                                               0                         0
     Beginning Balances, as adjusted                          $          64,774,328     $          63,535,842
    Budgetary Financing Sources:
     Appropriations Received                                  $          122,132,688    $          99,524,458
     Appropriations transferred in/out (+/-)                               1,810,288                2,727,308
     Other adjustments (recissions, etc) (+/-)                            (1,454,635)              (1,363,575)
     Appropriations used                                                (136,481,490)             (99,649,705)
     Nonexchange revenue                                                           0                        0
     Donations and forfeitures of cash and cash equivalents                        0                        0
     Transfers in/out without reimbursement (+/-)                                  0                        0
     Other budgetary financing sources (+/-)                                       0                        0
    Other Financing Sources:
     Donations and forfeitures of property                                         0                        0
     Transfers in/out without reimbursement (+/-)                                  0                        0
     Imputed financing from costs absorbed by others                               0                        0
     Other (+/-)                                                                   0                        0
    Total Financing Sources                                   $          (13,993,149)   $           1,238,486
      Net Cost of Operations (+/-)                            $                    0    $                   0
      Ending Balances                                         $           50,781,179    $          64,774,328




The accompanying notes are an integral part of these statements.


                                                                                   PRINCIPAL STATEMENTS                   51
                                                                    DEPARTMENT    OF THE     NAVY



 Department of Defense
 Department of the Navy
 COMBINED STATEMENT OF BUDGETARY RESOURCES
 For the years ended September 30, 2003 and 2002
 ($ in thousands)

                                                                     2003 Combined            2002 Combined
                                                                       Budgetary                Budgetary
                                                                       Financing                Financing
                                                                        Accounts                 Accounts
     BUDGETARY RESOURCES
       Budget Authority:
           Appropriations Received                              $        122,169,428     $           99,561,202
           Borrowing Authority                                                     0                          0
           Contract Authority                                                    739                          0
           Net transfers (+/-)                                             1,662,142                  2,676,247
           Other                                                                   0                          0
        Unobligated Balance:
           Beginning of period                                            11,908,983                 13,835,828
           Net transfers, actual (+/-)                                       145,546                     51,061
           Anticipated Transfers Balances                                          0                          0
       Spending Authority from Offsetting Collections:
           Earned
            Collected                                                       6,792,556                 6,489,962
            Receivable from Federal sources                                (1,211,532)                 (263,453)
           Change in unfilled customer orders
            Advances received                                                (59,842)                     1,286
            Without advance from Federal sources                             308,282                    186,518
           Anticipated for the rest of year, without advances                      0                          0
           Transfers from trust funds                                              0                          0
          Subtotal                                              $          5,829,464     $            6,414,313
       Recoveries of prior year obligations                     $          7,009,339     $            2,286,834
        Temporarily not available pursuant to Public Law                           0                          0
       Permanently not available                                          (1,452,574)                (1,399,956)
       Total Budgetary Resources                                $        147,273,067     $          123,425,529

     STATUS OF BUDGETARY RESOURCES
       Obligations Incurred:
           Direct                                               $        124,497,950     $           99,307,751
           Reimbursable                                                    8,079,881                 12,208,795
           Subtotal                                             $        132,577,831     $          111,516,546
       Unobligated balance:
           Apportioned                                          $         13,697,001     $           10,590,567
           Exempt from apportionment                                               0                          0
           Other available                                                         0                          0
       Unobligated Balances Not Available                                    998,235                  1,318,416
       Total, Status of Budgetary Resources                     $        147,273,067     $          123,425,529


The accompanying notes are an integral part of these statements.


52      GENERAL FUND
                                                                                          2003 ANNUAL FINANCIAL REPORT



Department of Defense
Department of the Navy
COMBINED STATEMENT OF BUDGETARY RESOURCES
For the years ended September 30, 2003 and 2002
($ in thousands)

                                                            2003 Combined          2002 Combined
                                                              Budgetary              Budgetary
                                                              Financing              Financing
                                                               Accounts               Accounts

   RELATIONSHIP OF OBLIGATIONS TO OUTLAYS:
     Obligated Balance, Net-beginning of period         $        56,100,186    $       52,333,850
     Obligated Balance transferred, net (+/-)                             0                     0
     Obligated Balance, net-end of period:
         Accounts Receivable                                       (897,842)           (2,109,374)
         Unfilled customer order from Federal sources            (2,335,476)           (2,027,193)
         Undelivered Orders                                      63,419,000            55,633,755
         Accounts Payable                                         3,335,212             4,603,000
     Outlays:
        Disbursements                                          119,051,033            105,540,310
        Collections                                             (6,732,714)            (6,491,249)
        Subtotal                                        $      112,318,319     $       99,049,061
     Less: Offsetting receipts                                    (246,802)              (213,345)
     Net Outlays                                        $      112,071,517     $       98,835,716




The accompanying notes are an integral part of these statements.


                                                                               PRINCIPAL STATEMENTS                  53
                                                                             DEPARTMENT   OF THE   NAVY



 Department of Defense
 Department of the Navy
 COMBINED STATEMENT OF FINANCING
 For the years ended September 30, 2003 and 2002
 ($ in thousands)

                                                                                                   2003 Combined             2002 Combined

     Resources Used to Finance Activities:
     Budgetary Resources Obligated
        Obligations Incurred                                                                  $           132,577,831    $        111,516,546
        Less: Spending Authority from offsetting collections and recoveries (-)                           (12,838,803)             (8,701,148)
        Obligations net of offsetting collections and recoveries                              $           119,739,028    $        102,815,398
        Less: Offsetting receipts (-)                                                                        (246,802)               (213,345)
        Net obligations                                                                       $           119,492,226    $        102,602,053
     Other Resources
        Donations and forfeitures of property                                                                       0                       0
        Transfers in/out without reimbursement (+/-)                                                           51,765                       0
        Imputed financing from costs absorbed by others                                                       509,719                 525,294
        Other (+/-)                                                                                                 0                       0
        Net other resources used to finance activities                                        $               561,484    $            525,294
         Total resources used to finance activities                                           $           120,053,710    $        103,127,347

     Resources Used to Finance Items not Part of the Net Cost of Operations:
       Change in budgetary resources obligated for goods, services and benefits
       ordered but not yet provided
          Undelivered orders (-)                                                              $            (3,213,420)   $        (10,676,267)
          Unfilled Customer Orders                                                                            248,440                 187,805
       Resources that fund expenses recognized in prior periods                                               (31,284)               (620,162)
       Budgetary offsetting collections and receipts that do not affect Net Cost of
         Operations                                                                                                 0                       0
       Resources that finance the acquisition of assets                                                   (26,444,222)              7,487,846
       Other resources or adjustments to net obligated resources that do not
         affect Net Cost of Operations
          Less: Trust or Special Fund receipts related to exchange in the entity's
          budget (-)                                                                                                0                        0
          Other (+/-)                                                                                               0                        0
        Total resources used to finance items not part of the Net Cost of
          Operations                                                                          $           (29,440,486)   $         (3,620,778)
        Total resources used to finance the Net Cost of Operations                            $            90,613,224    $         99,506,569




The accompanying notes are an integral part of these statements.


54      GENERAL FUND
                                                                                             2003 ANNUAL FINANCIAL REPORT



Department of Defense
Department of the Navy
COMBINED STATEMENT OF FINANCING
For the years ended September 30, 2003 and 2002
($ in thousands)

                                                                             2003 Combined           2002 Combined

   Components of the Net Cost of Operations that will not Require or
   Generate Resources in the Current Period:
   Components Requiring or Generating Resources in Future Periods:
     Increase in annual leave liability                                  $                 0     $           263,070
     Increase in environmental and disposal liability                                      0                 595,543
     Upward/Downward reestimates of credit subsidy expense                                 0                       0
     Increase in exchange revenue receivable from the public (-)                           0                       0
     Other (+/-)                                                                     428,344                 117,595
     Total components of Net Cost of Operations that will require or
        generate resources in future periods                             $           428,344     $           976,208

   Components not Requiring or Generating Resources:
     Depreciation and amortization                                       $        16,936,476     $            916,360
     Revaluation of assets and liabilities (+/-)                                   3,203,729               (1,684,365)
     Other (+/-)                                                                      22,920                2,900,757
     Total components of Net Cost of Operations that will not require
       or generate resources                                             $        20,163,125     $          2,132,752
      Total components of Net Cost of Operations that will not require
        generate resources in the current period                         $        20,591,469     $          3,108,960
      Net Cost of Operations                                             $       111,204,693     $        102,615,529




The accompanying notes are an integral part of these statements.


                                                                                PRINCIPAL STATEMENTS                     55
                    DEPARTMENT   OF THE   NAVY




56   GENERAL FUND
                                                              GENERAL FUND NOTES
                                 DEPARTMENT   OF THE   NAVY
GENERAL FUND NOTES   TO THE   PRINCIPAL STATEMENTS




                                                               TO THE
                                                              PRINCIPAL STATEMENTS




                                                                  57
                                                       DEPARTMENT    OF THE   NAVY



N OTE 1. S IGNIFICANT A CCOUNTING P OLICIES

A. Basis of Presentation.
These financial statements have been prepared to report the financial position and results of operations of the
Department of the Navy (DON), as required by the “Chief Financial Officers (CFO) Act of 1990,” expanded by the
“Government Management Reform Act (GMRA) of 1994,” and other appropriate legislation. The financial statements
have been prepared from the books and records of the DON in accordance with the “Department of Defense
Financial Management Regulation” (DoD FMR), the Office of Management and Budget (OMB) Bulletin No. 01-09,
“Form and Content of Agency Financial Statements,” and to the extent possible, Federal Generally Accepted
Accounting Principles (GAAP). The accompanying financial statements account for all resources for which the DON
is responsible except that information relative to classified assets, programs, and operations has been excluded from
the statement or otherwise aggregated and reported in such a manner that it is no longer classified. The DON’s
financial statements are in addition to the financial reports also prepared by the DON pursuant to OMB directives
that are used to monitor and control the DON’s use of budgetary resources.

The DON is unable to fully implement all elements of Federal GAAP and the OMB Bulletin No. 01-09 due to
limitations of its financial management processes and systems, including nonfinancial feeder systems and processes.
Reported values and information for the DON’s major asset and liability categories are derived largely from
nonfinancial feeder systems, such as inventory systems and logistic systems. These systems were designed to support
reporting requirements focusing on maintaining accountability over assets and reporting the status of federal
appropriations rather than preparing financial statements in accordance with Federal GAAP. As a result, the DON
cannot currently implement every aspect of Federal GAAP and OMB Bulletin No. 01-09. The DON continues to
implement process and system improvements addressing the limitation of its financial and nonfinancial feeder systems.
A more detailed explanation of these financial statement elements is provided in the applicable note.

Fiscal Year (FY) 2003 represents the eighth year that the DON has prepared audited financial statements as required
by the CFO Act and the GMRA.

B. Mission of the Reporting Entity.
The DON was created on April 30, 1798 by an act of Congress (I Stat. 533; 5 U.S.C. 411-12). The overall mission
of DoD, as stated in the FY 2002 Annual Defense Report is to assure allies and friends, dissuade future military
competition, deter threats and coercion against U.S. interests, and defeating adversaries if deterrence fails.

C. Appropriations and Funds.
The DON’s appropriations and funds are divided into the general, revolving funds, trust, special, and deposit funds.
These appropriations and funds are used to fund and report how the resources have been used in the course of
executing the DON’s missions.

•    General funds are used for financial transactions arising under Congressional appropriations, including
     personnel, operation and maintenance, research and development, procurement, and construction accounts.

•    Revolving funds receive their initial working capital through an appropriation or a transfer of resources from
     existing appropriations or funds and use those capital resources to finance the initial cost of products and
     services. Financial resources to replenish the initial working capital and to permit continuing operations are
     generated by the acceptance of customer orders. The National Defense Sealift Fund is the DON’s only revolving
     fund.

•    Trust funds represent the receipt and expenditure of funds held in trust by the government for use in carrying out
     specific purposes or programs in accordance with the terms of the donor, trust agreement, or statute.

•    Special funds account for receipts of the government that are earmarked for a specific purpose.

•    Deposit funds generally are used to (1) hold assets for which the DON is acting as an agent or a custodian or
     whose distribution awaits legal determination, or (2) account for unidentified remittances.


58    GENERAL FUND
                                                                                 2003 ANNUAL FINANCIAL REPORT



The asset accounts used to prepare the statements are categorized as either entity or nonentity. Entity accounts
consist of resources that the agency has the authority to use, or where management is legally obligated to use funds
to meet entity obligations. Nonentity accounts are assets that are held by an entity but are not available for use in
the operations of the entity.

Entity Accounts:

General Funds
17X0380     Coastal Defense Augmentation, Navy
17 0703     Family Housing Construction, Navy and Marine Corps
17 0735     Family Housing, Navy and Maine Corps (Operations and Maintenance)
17X0810     Environmental Restoration, Navy
17 1105     Military Personnel, Marine Corps
17 1106     Operation and Maintenance, Marine Corps
17 1107     Operation and Maintenance, Marine Corps Reserve
17 1108     Reserve Personnel, Marine Corps
17 1109     Procurement, Marine Corps
17 1205     Military Construction, Navy
17 1235     Military Construction, Naval Reserve
17X1236     Payments to Kaho Olawe Island Conveyance, Remediation, and Environmental Restoration Fund,
            Navy
17 1319     Research, Development, Test, and Evaluation, Navy
17 1405     Reserve Personnel, Navy
17 1453     Military Personnel, Navy
17 1506     Aircraft Procurement, Navy
17 1507     Weapons Procurement, Navy
17 1508     Procurement of Ammunition, Navy and Marine Corps
17 1611     Shipbuilding and Conversion, Navy
17 1804     Operation and Maintenance, Navy
17 1806     Operation and Maintenance, Navy Reserve
17 1810     Other Procurement, Navy

Revolving funds
17 4557     National Defense Sealift Fund, Navy

Trust funds
17X8716        Department of the Navy General Gift Fund
17X8723        Ship Stores Profits, Navy
17X8733        United States Naval Academy Gift and Museum Fund

Special funds
17X5095      Wildlife Conservation, etc., Military Reservations, Navy
17X5185      Kaho Olawe Island Conveyance, Remediation, and Environmental Restoration Fund, Navy
17X5429      Rossmoor Liquidating Trust Settlement Account

Non Entity Accounts:
Special funds (Receipt Accounts)
17 3041      Recoveries Under the Foreign Military Sales Program
17 3210      General Fund Proprietary Receipts, Defense Military, Not Otherwise Classified




                                                       NOTES   TO THE   PRINCIPAL STATEMENTS                            59
                                                     DEPARTMENT    OF THE   NAVY



Deposit funds
17X6001     Proceeds of Sales of Lost, Abandoned, or Unclaimed Personal Property, Navy
17X6002     Personal Funds of Deceased, Mentally Incompetent or Missing Personnel, Navy
17X6025     Pay of the Navy, Deposit Fund
17X6026     Pay of the Marine Corps
17X6050     Employee Payroll Allotment Account (U.S. Bonds)
17X6075     Withheld Allotment of Compensation for Payment of Employee Organization Dues, Navy
17X6083     Withheld Allotment of Compensation for Charitable Contributions, Navy
17X6134     Amounts Withheld for Civilian Pay Allotments, Navy
17X6275     Withheld State and Local Income Taxes
17X6434     Servicemen's Group Life Insurance Fund, Suspense, Navy
17X6705     Civilian Employees Allotment Account, Navy
17X6706     Commercial Communication Service, Navy
17 6763     Gains and Deficiencies on Exchange Transactions, Navy (fiscal year)
17X6850     Housing Rentals, Navy
17X6875     Suspense, Navy
17X6999     Accounts Payable, Check Issue Underdrafts, Navy

D. Basis of Accounting.
The DON generally records transactions on a budgetary basis and not an accrual accounting basis as is required by
Federal GAAP. For FY 2003, DON’s financial management systems are unable to meet all of the requirements for full
accrual accounting. Many of the DON’s financial and nonfinancial feeder systems and processes were designed and
implemented prior to the issuance of Federal GAAP and, therefore, were not designed to collect and record financial
information on the full accrual accounting basis as required by Federal GAAP. The DON has undertaken efforts to
determine the actions required to bring its financial and nonfinancial feeder systems and processes into compliance
with all elements of Federal GAAP. One such action is the current revision of its accounting systems to record
transactions based on the United States Standard General Ledger (USSGL). Until such time as all of the DON’s
financial and nonfinancial feeder systems and processes are updated to collect and report financial information as
required by Federal GAAP, the DON’s financial data will be based on budgetary transactions (obligations,
disbursements, and collections), and transactions from nonfinancial feeder systems, adjusted for known accruals of
major items such as payroll expenses, accounts payable, and environmental liabilities. However, when possible, the
financial statements are presented on the accrual basis of accounting as required. One example of information
presented on the budgetary basis is the data on the Statement on Net Cost. Much of this information is based on
obligations and disbursements and may not always represent accrued costs.

In addition, the DON identifies programs based upon the major appropriation groups provided by Congress. The
DON is in the process of reviewing available data and attempting to develop a cost reporting methodology that
balances the need for cost information required by the Statement of Federal Financial Accounting Standard (SFFAS)
No. 4, “Managerial Cost Accounting Concepts and Standards for the Federal Government,” with the need to keep
the financial statements from being overly voluminous.

E. Revenues and Other Financing Sources.
Financing sources for general funds are provided primarily through congressional appropriations that are received on
both an annual and a multiyear basis. When authorized, these appropriations are supplemented by revenues
generated by sales of goods or services through a reimbursable order process. The DON recognizes revenue as a
result of costs incurred or services performed on behalf of other federal agencies and the public. Revenue is
recognized when earned under the reimbursable order process.

The DON does not include non-monetary support provided by U.S. Allies for common defense in mutual security in its
list of other financing sources that appears in the Statement of Financing. The U.S. has agreements with foreign
countries that include both direct or indirect sharing of costs that each country incurs in support of the same general
purpose. Examples include countries where there is a mutual or reciprocal defense agreement, where U.S. troops are
stationed, or where the U.S. fleet is in a port. DOD is reviewing these types of financing and costs reductions in



60   GENERAL FUND
                                                                                   2003 ANNUAL FINANCIAL REPORT



order to establish accounting policies and procedures to identify what, if any, of these costs are appropriate for
disclosure in the financial statements in accordance with generally accepted accounting principles. Recognition of
support provided by host nations would affect both financing sources and recognition of expenses.

F. Recognition of Expenses.
For financial reporting purposes, the DON policy requires the recognition of operating expenses in the period
incurred. However, because the DON’s financial and nonfinancial feeder systems were not designed to collect and
record financial information on the full accrual accounting basis, accrual adjustments are made for major items such
as payroll expenses, accounts payable, and environmental liabilities. Expenditures for capital and other long-term
assets are not recognized as expenses in the DON’s operations until depreciated in the case of Property, Plant and
Equipment (PP&E) or consumed in the case of Operating Materials and Supplies (OM&S). Net increases or
decreases in unexpended appropriations are recognized as a change in the net position. Certain expenses, such as
annual and military leave earned but not taken, are financed in the period in which payment is made.

Operating expenses were adjusted as a result of elimination of balances between DoD components. See Note 19.I,
Intra-governmental Expenses and Revenue for disclosure of adjustment amounts.

G. Accounting for Intra-governmental Activities.
The DON, as an agency of the federal government, interacts with and is dependent upon the financial activities of
the federal government as a whole. Therefore, these financial statements do not reflect the results of all financial
decisions applicable to the DON as though the agency was a stand-alone entity.

The DON’s proportionate share of public debt and related expenses of the federal government are not included.
Debt issued by the federal government and the related costs are not apportioned to federal agencies. The DON’s
financial statements, therefore, do not report any portion of the public debt or interest thereon, nor do the statements
report the source of public financing whether from issuance of debt or tax revenues.

Financing for the construction of DoD facilities is obtained through budget appropriations. To the extent this financing
ultimately may have been obtained through the issuance of public debt, interest costs have not been capitalized since
the Department of the Treasury does not allocate such interest costs to the benefiting agencies.

The DON’s civilian employees participate in the Civil Service Retirement System (CSRS) and the Federal Employees
Retirement System (FERS), while military personnel are covered by the Military Retirement System (MRS).
Additionally, employees and personnel covered by FERS and MRS also have varying coverage under Social Security.
The DON funds a portion of the civilian and military pensions. Reporting civilian pension under CSRS and FERS
retirement systems is the responsibility of the Office of Personnel Management (OPM). The DON recognizes an
imputed expense for the portion of civilian employee pensions and other retirement benefits funded by the OPM in
the Statement of Net Cost; and recognizes corresponding imputed revenue from the civilian employee pensions and
other retirement benefits in the Statement of Changes in Net Position.

DoD reports the assets, funded actuarial liability, and unfunded actuarial liability for the military personnel in the
Military Retirement Fund (MRF) financial statements. DoD recognizes the actuarial liability for the military retirement
health benefits in the Other Defense Organization General Fund column of the DoD Agency-wide
consolidating/combining statements.

To prepare reliable financial statements, transactions occurring between components or activities within the DON must
be eliminated. However, the DON, as well as the rest of the federal government, cannot accurately identify all intra-
governmental transactions by customer. The Defense Finance and Accounting Services (DFAS) is responsible for
eliminating transactions between components or activities of the DON. For FYs 1999 and beyond seller entities within
DoD provided summary seller-side balances for revenue, accounts receivable, and unearned revenue to the buyer-side
internal DoD accounting offices. In most cases, the buyer-side records have been adjusted to recognize unrecorded
costs and accounts payable. Intra-DoD intra-governmental balances were then eliminated.




                                                        NOTES   TO THE   PRINCIPAL STATEMENTS                              61
                                                    DEPARTMENT    OF THE   NAVY



The Department of the Treasury, Financial Management Services (FMS) is responsible for eliminating transactions
between the Department and other federal agencies. In September 2000, the FMS issued the “Federal Intra-
governmental Transactions Accounting Policies and Procedures Guide.” The Department was not able to fully
implement the policies and procedures in this guide related to reconciling intra-governmental assets, liabilities,
revenues, and expenses for non-fiduciary transactions. The DON, however, was able to implement the policies and
procedures contained in the “Intra-governmental Fiduciary Transactions Accounting Guide” as updated by the
“Federal Intra-governmental Transactions Accounting Policies and Procedures Guide,” issued October 2002, for
reconciling intra-governmental transactions. These transactions pertain to investments in Federal securities,
borrowings from the United States (U.S.) Treasury and the Federal Financing Bank, Federal Employees’ Compensation
Act transactions with the Department of Labor (DoL), and benefit program transactions with the OPM.

H. Transactions with Foreign Governments and International Organizations.
Each year, the DoD Components sell defense articles and services to foreign governments and international
organizations, primarily under the provisions of the “Arms Export Control Act of 1976.” Under the provisions of this
Act, DoD has authority to sell defense articles and services to foreign countries and international organizations,
generally at no profit or loss to the U.S. Government. Customers may be required to make payments in advance.

I. Funds with the U.S. Treasury.
The DON’S financial resources are maintained in U.S. Treasury accounts. The majority of cash collections,
disbursements, and adjustments are processed worldwide at the DFAS, Military Services, and the U. S. Army Corps
of Engineers (USACE) disbursing stations, as well as the Department of State financial service centers. Each
disbursing station prepares monthly reports, which provide information to the U.S. Treasury on check issues,
electronic fund transfers, interagency transfers and deposits.

In addition, the DFAS sites and the USACE Finance Center submit reports to the Department of the Treasury, by
appropriation, on interagency transfers, collections received, and disbursements issued. The Department of the
Treasury then records this information to the applicable Fund Balance with Treasury (FBWT) account maintained in the
Treasury’s system. Differences between the DON’s recorded balance in the FBWT accounts and Treasury’s FBWT
accounts sometimes result and are subsequently reconciled. Material disclosures are provided at Note 3. Differences
between accounting offices’ detail-level records and Treasury’s FBWT accounts are disclosed in Note 21.B,
specifically, differences caused by in-transit disbursements and unmatched disbursements (which are not recorded in
the accounting offices’ detail-level records).

J. Foreign Currency.
The DON conducts a significant portion of its operations overseas. The Congress established a special account to
handle the gains and losses from foreign currency transactions for five general fund appropriations (operation and
maintenance, military personnel, military construction, family housing operations and maintenance, and family
housing construction.) The gains and losses are computed as the variance between the exchange rate current at the
date of payment and a budget rate established at the beginning of each fiscal year. Foreign currency fluctuations
related to other appropriations require adjustment to the original obligation amount at the time of payment. These
currency fluctuations are not separately identified.

K. Accounts Receivable.
As presented in the Balance Sheet statement, accounts receivable includes accounts, claims, and refunds receivable
from other federal entities or from the public. Allowances for uncollectible accounts due from the public are based
upon analysis of collection experience by fund type. The Department does not recognize an allowance for estimated
uncollectible amounts from other federal agencies. Claims against other federal agencies are to be resolved between
the agencies. Material disclosures are provided at Note 5.

L. Loans Receivable.
Not Applicable.




62   GENERAL FUND
                                                                                   2003 ANNUAL FINANCIAL REPORT



M. Inventories and Related Property.
Effective October 1, 2002, Statement of Federal Financial Accounting Standards No. 23, Eliminating the Category
National Defense Property, Plant, and Equipment, revises accounting principles for military equipment (previously
referred to as National Defense Property, Plant, and Equipment). The standard renames National Defense Property,
Plant, and Equipment to military equipment, classifies military equipment as general property, plant, and equipment,
and requires the capitalization and depreciation of the costs of military equipment, including the costs of
modifications and upgrades. Likewise, military equipment (previously referred to as National Defense Property, Plant,
and Equipment) also includes items, which will now be classified as Operating Materials and Supplies (OM&S).

Implementation of the new accounting principles requires the adjustment of October 1, 2002, the OM&S balance to
recognize the investment, accumulated depreciation, and net book value of military equipment that previously had
been expensed in as discussed further in Notes 9.

The DON uses the LAC method because its inventory systems were designed for material management rather than
accounting. The systems provide accountability and visibility over inventory items. They do not maintain the historical
costs data necessary to comply with the SFFAS No. 3, “Accounting for Inventory Related Property.” Neither can they
directly produce financial transactions using the USSGL, as required by the Federal Financial Management
Improvement Act of 1996 (P.L. 104-208). DoD is transitioning to a Moving Average Cost methodology for valuing
inventory and OM&S that when fully implemented will allow the DON to comply with SFFAS No. 3.

SSFAS No. 3 distinguishes between “inventory held for sale” and “inventory held in reserve for future sale.” There is
no management or valuation difference between the two USSGL accounts. Further, the DoD manages only military or
government-specific material under normal conditions. Items commonly used in and available from the commercial
sector are not managed in the DoD material management activities. Operational cycles are irregular, and the
military risks associated with stock-out positions have no commercial parallel. The DoD holds material based on
military need and support for contingencies. Therefore, the DON does not attempt to account separately for items
held for current or future use.

Related property includes OM&S and stockpile materials. The OM&S, including munitions not held for sale, are
valued at standard purchase price. The DoD uses the consumption method of accounting for OM&S, for the most
part, expensing material when it is issued to the end user. Where current systems cannot fully support the
consumption method, the DON uses the purchase method - that is, expensed when purchased. The DON reported
significant amounts using the purchase method either because the systems could not support the consumption method
or because management deems that the item is in the hands of the end user.

DoD implemented new policy in FY 2002 to account for condemned material (only) as “Excess, Obsolete, and
Unserviceable.” The net value of condemned material is zero, because the costs of disposal are greater than the
potential scrap value. Material that can be potentially redistributed, presented in previous years as “Excess, Obsolete,
and Unserviceable,” is included in the “Held for Use” or “Held for Repair” categories according to its condition.

In addition, past audit results identified uncertainties about the completeness and existence of quantities used to
produce the reported values. Material disclosures related to inventory and related property are provided at Note 9.

N. Investments in U.S. Treasury Securities.
Investments in U.S. Treasury securities are reported at cost, net of unamortized premiums or discounts. Premium or
discounts are amortized into interest income over the term of the investment using the effective interest rate method or
other methods if similar results are obtained. The DON’s intent is to hold investments to maturity; unless they are
needed to finance claims or otherwise sustain operations. Consequently, a provision is not made for unrealized
gains or losses on these securities.

The DON invests in non-marketable securities. The two types of non-marketable securities are par value and market
based Intra-governmental securities. The Bureau of Public Debt issues non-marketable Par Value Intra-governmental
Securities. Non-marketable, Market Based Intra-governmental Securities mimic marketable securities, but are not
traded publicly. See Note 4 for material disclosures.


                                                        NOTES   TO THE   PRINCIPAL STATEMENTS                           63
                                                      DEPARTMENT    OF THE   NAVY



O. General Property, Plant and Equipment.
A change in accounting principle regarding military equipment (e.g., ships, aircraft, combat vehicles, weapons) was
effective for accounting periods beginning after September 30, 2002. Until the change in accounting principle, the
acquisition costs for military equipment classified as National Defense Property, Plant, and Equipment (PP&E) were
expensed in the period incurred. In addition, valuation, condition, and deferred maintenance information for these
items was presented off-balance sheet. Statement of Federal Financial Accounting Standards No. 23, Eliminating the
Category National Defense Property, Plant, and Equipment, establishes new generally accepted accounting principles
for valuing and reporting military equipment in federal financial statements. The standard requires the capitalization
and depreciation of the cost of military equipment, including the cost of modifications and upgrades.

Implementation of the new accounting principles requires the adjustment of the October 1, 2002, General Property,
Plant, and Equipment balance to recognize the investment, accumulated depreciation, and net book value of military
equipment that previously had been expensed. As discussed further in Note 10, the adjustment was based on data
provided by the Bureau of Economic Analysis, Department of Commerce.

General PP&E, exclusive of Military Equipment, is capitalized at historical acquisition cost plus capitalized
improvements when an asset has a useful life of two or more years, and when the acquisition cost equals or exceeds
the DoD capitalization threshold of $100,000. Also, improvement costs over the DoD capitalization threshold of
$100,000 for General PP&E, are required to be capitalized. All General PP&E, other than land and Military
Equipment, is depreciated on a straight-line basis. Land is not depreciated.

When it is in the best interest of the government, the DON provides to contractors government property necessary to
complete contract work. Such property is either owned or leased by the DON, or purchased directly by the
contractor for the government based on contract terms. When the value of contractor procured General PP&E
exceeds the DoD capitalization threshold, such PP&E is required to be included in the value of General PP&E reported
on the DON’s Balance Sheet. DoD is developing new policies and a contractor reporting process that will provide
appropriate General PP&E information for future financial statement reporting purposes. Accordingly, the DON
currently reports only government property in the possession of contractors that is maintained in the DON’S property
systems.

To bring the DON into fuller compliance with federal accounting standards, DoD has issued new property
accountability and reporting regulations that require the DoD Components to maintain, in DoD Component property
systems, information on all property furnished to contractors. This action and other DoD proposed actions are
structured to capture and report the information necessary for compliance with federal accounting standards. Material
disclosures are provided at Note 10.

P. Advances and Prepayments.
Payments in advance of the receipt of goods and services are recorded as advances or prepayments and reported as
an asset on the Balance Sheet. Advances and prepayments are recognized as expenditures and expenses when the
related goods and services are received.

Q. Leases.
Generally, lease payments are for the rental of equipment and operating facilities and are classified as either capital
or operating leases. When a lease is essentially equivalent to an installment purchase of property (a capital lease)
the DON records the applicable asset and liability if the value equals or exceeds the current DoD capitalization
threshold. The DON records the amounts as the lesser of the present value of the rental and other lease payments
during the lease term (excluding portions representing executory costs paid to the lessor) or the asset’s fair value. The
DON deems the use of estimates for these costs as adequate and appropriate due to the relatively low dollar value of
capital leases. Imputed interest was necessary to reduce net minimum lease payments to present value calculated at
the incremental borrowing rate at the inception of the leases. In addition, the DON classifies leases that do not
transfer substantially all of the benefits or risks of ownership as operating leases and records payment expenses over
the lease term.




64   GENERAL FUND
                                                                                    2003 ANNUAL FINANCIAL REPORT



R. Other Assets.
DON conducts business with commercial contractors under two primary types of contracts— fixed price and cost
reimbursable. To alleviate the potential financial burden on the contractor that long-term contracts can cause, the
DON provides financing payments. One type of financing payment that the DON makes, for real property, is based
upon a percentage of completion. In accordance with the SFFAS No. 1, “Accounting for Selected Assets and
Liabilities,” such payments are treated as construction in process and are reported on the General PP&E line and in
Note 10, General PP&E, Net.

In addition, based on the Federal Acquisition Regulation (FAR), the DON makes financing payments under fixed price
contracts that are not based on a percentage of completion. The DON reports these financing payments as advances
or prepayments in the “Other Assets” line item. The DON treats these payments as advances or prepayment because
the DON becomes liable only after the contractor delivers the goods in conformance with the contract terms. If the
contractor does not deliver a satisfactory product, the DON is not obligated to reimburse the contractor for its costs
and the contractor is liable to repay the DON for the full amount of the advance.

DoD has completed a review of all applicable federal accounting standards; applicable public laws on contract
financing; FAR Parts 32, 49, and 52; and the OMB guidance in 5 Code of Federal Regulations Part 1315, “Prompt
Payment.” DoD concluded that SFFAS No. 1 does not fully or adequately address the subject of progress payment
accounting and is considering what further action is appropriate.

S. Contingencies and Other Liabilities.
The SFFAS No. 5, “Accounting for Liabilities of the Federal Government,” defines a contingency as an existing
condition, situation, or set of circumstances that involves an uncertainty as to possible gain or loss to the DON. The
uncertainty will be resolved when one or more future events occur or fail to occur. A contingency is recognized as a
liability when a past event or exchange transaction has occurred, a future loss is probable and the amount of loss
can be reasonably estimated.

Financial statement reporting is limited to disclosure when conditions for liability recognition do not exist but there is
at least a reasonable possibility that a loss or additional loss will be incurred. Examples of loss contingencies include
the collectibility of receivables, pending or threatened litigation, possible claims and assessments. The DON’s loss
contingencies arising as a result of pending or threatened litigation or claims and assessments occur due to events
such as aircraft, ship and vehicle accidents; medical malpractice; property or environmental damages; and contract
disputes.

Other liabilities arise as a result of anticipated disposal costs for the DON’s assets. This type of liability has two
components— nonenvironmental and environmental. Recognition of an anticipated environmental disposal liability
begins when the asset is placed into service, consistent with SFFAS No. 6, “Accounting for Property, Plant, and
Equipment.” Based upon the DON’s policies and consistent with SFFAS No.5 “Accounting for Liabilities of Federal
Government,” a nonenvironmental disposal liability is recognized for an asset when management makes a decision
to dispose of the asset. The Department has agreed to the recognition of nonenvironmental disposal liability for
nuclear powered assets when the asset is placed in service. Such amounts are developed in conjunction with and
not easily identifiable separately from environmental disposal costs. Material disclosures are provided at Notes 14
and 15.

T. Accrued Leave.
Civilian annual leave and military leave that has been accrued and not used as of the balance sheet date are
reported as liabilities. The liability reported at the end of the fiscal year reflects the current pay rates.




                                                        NOTES    TO THE   PRINCIPAL STATEMENTS                           65
                                                      DEPARTMENT    OF THE   NAVY



U. Net Position.
Net Position consists of unexpended appropriations and cumulative results of operations. Unexpended appropriations
represent amounts of authority, which are unobligated and have not been rescinded or withdrawn. Unexpended
appropriations also represent amounts obligated for which legal liabilities for payments have not been incurred.

Cumulative results of operations represent the difference, since inception of an activity, between expenses and losses
and financing sources (including appropriations, revenue, and gains). Beginning with FY 1998, this included the
cumulative amount of donations and transfers of assets in and out without reimbursement.

V. Treaties for Use of Foreign Bases.
The DoD Components have the use of land, buildings, and other facilities, which are located overseas and have been
obtained through various international treaties and agreements negotiated by the Department of State. The DoD
capital assets overseas are purchased with appropriated funds; however, title to land and improvements are retained
by the host country. Generally, treaty terms allow the DoD Components continued use of these properties until the
treaties expire. These fixed assets are subject to loss in the event treaties are not renewed or other agreements are
not reached which allow for the continued use by the Department. Therefore, in the event treaties or other
agreements are terminated whereby use of the foreign bases is no longer allowed, losses will be recorded for the
value of any non-retrievable capital assets after negotiations between the U.S. and the host country have been
concluded to determine the amount to be paid the U.S. for such capital investments.

W. Comparative Data.
The Financial Statements and accompanying Notes to the Financial Statements report the financial position and results
of operations for FY 2003. Financial statement fluctuations greater than 2 percent of total assets on the Balance
Sheet and/or greater 10 percent between FY 2002 and FY 2003, are explained within the Notes to the Financial
Statements.

X. Unexpended Obligations.
The DON obligates funds to provide goods and services for outstanding orders not yet delivered. The financial
statements do not reflect this liability for payment for goods/services not yet delivered.

Y. Data Collection Approach.
The DON financial statements include information from both financial systems and non-financial feeder systems. The
Defense Finance Accounting Service Cleveland Center (DFAS-CL) collects the financial system information and
incorporates it into the financial statements. The DON collects financial information from non-financial feeder systems
through a data call process and submits it to DFAS-CL for incorporation into the financial statements. For FY 2003,
the DON utilized a web-based data collection instrument (DCI) that captures all required financial information from
non-financial feeder systems for the General Fund (GF) statements. This is the fifth year DON has used the DCI to
collect non-financial feeder information. The DCI identifies the information requirements to the source provider,
provides an audit trail, and integrates into the DFAS-CL financial statement preparation process.




66   GENERAL FUND
                                                                                                 2003 ANNUAL FINANCIAL REPORT



N OTE 2. N ONENTITY                      AND   E NTITY A SSETS


                                                                                                                     2002 Nonentity
                                                                                   2003                                  Assets

As of September 30,                                       Nonentity               Entity               Total
    (Amounts in thousands)
    1.Intra-governmental Assets:
    A. Fund Balance with Treasury                     $           223,225 $             78,191,653 $    78,414,878   $      250,075
    B. Investments                                                      0                    9,801           9,801                0
    C. Accounts Receivable                                              0                  496,863         496,863                0
    D. Other Assets                                                     0                  187,865         187,865                0
    E. Total Intra-governmental Assets                $           223,225 $             78,886,182 $    79,109,407   $      250,075

    2. Non-Federal Assets:
    A. Cash and Other Monetary Assets                 $            282,995 $                     0 $       282,995   $       130,664
    B. Accounts Receivable                                       2,642,168                 739,965       3,382,133         2,460,546
    C. Loans Receivable                                                  0                       0               0                 0
    D. Inventory & Related Property                                      0              53,611,634      53,611,634                 0
    E. General Property, Plant and Equipment                             0             158,407,450     158,407,450                 0
    F. Investments                                                       0                       0                                 0
    G. Other Assets                                                      0               6,180,624       6,180,624                 0
    H. Total Non-Federal Assets                       $          2,925,163 $           218,939,673 $   221,864,836   $     2,591,210
    3. Total Assets:                                  $          3,148,388 $           297,825,855 $   300,974,243   $     2,841,285

4. Other Information Related to Nonentity and Entity Assets.

Fluctuation and/or Abnormalities
An explanation of fluctuations and abnormalities in any particular line are included in the note for that particular
asset. See notes 3-10.

Definitions
Assets are categorized as:
• Entity accounts consist of resources that the DON has the authority to use, or when management is legally
   obligated to use funds to meet entity obligations.
• Nonentity accounts are assets held by an entity, but are not available for use in the operations of the entity.

Other Disclosures
• Nonentity Assets. As of September 30, 2003, DON holds $3,148,388 thousand nonentity assets. These assets
  are not available for use by the DON in its day-to-day operations but the DON maintains stewardship
  accountability and responsibility to report. There are three categories of significant nonentity assets held by the
  DON: (1) the Nonentity Intra-governmental Fund Balance with Treasury, (2) Cash and Other Monetary Assets, and
       (3) the Nonentity Nonfederal Accounts Receivable.

• Non-Entity Nonfederal Accounts Receivable (public). Non-Entity Accounts Receivable with the public contains
  $1,333,494 thousand (principal) in advance payments made to contractors and $ 1,075,791 thousand in
  associated accrued interest that remain in litigation. These balances are being reported in Non-Entity Accounts
  Receivable since the original appropriation year has been cancelled, and any funds collected as a result of this
  litigation would go to treasury and not be available for the DON’s use in normal operations. See Note 5 for
  additional information.


                                                                      NOTES   TO THE   PRINCIPAL STATEMENTS                            67
                                                                DEPARTMENT   OF THE   NAVY



Reference
For Additional Line Item discussion, see:
• Note 3, Fund Balance with Treasury
• Note 4, Investments
• Note 5, Accounts Receivable
• Note 6, Other Assets
• Note 7, Cash and Other Monetary Assets
• Note 8, Direct Loands and/or Loan Guarantee Programs
• Note 9, Inventory and Related Property, Net
• Note 10, General Property, Plant, and Equipment (PP&E), Net

For regulatory discussion on Nonentity and Entity Assets, see Department of Defense Financial Management
Regulation, Volume 6B, Chapter 10, paragraph 1004.

N OTE 3. F UND B ALANCE                 WITH   T REASURY
            As of September 30,                                              2003                2002
            (Amounts in thousands)
                1. Fund Balances:
                   A. Appropriated Funds                              $        76,290,090    $      66,480,155
                   B. Revolving Funds                                           1,779,963            1,491,480
                   C. Trust Funds                                                  18,877               15,995
                   D. Other Fund Types                                            325,948              262,325
                   E. Total Fund Balances                             $        78,414,878    $      68,249,955



                 2. Fund Balances Per Treasury Versus Agency:
                    A. Fund Balance per Treasury                      $        78,414,878    $      68,249,955
                    B. Fund Balance per Agency                                 78,414,878           68,249,955
                    C. Reconciling Amount                             $                 0    $               0


3.   Explanation of Reconciliation Amount:
     Not Applicable.

4.   Other Information Related to Fund Balance with Treasury:

Fluctuation and/or Abnormalities
The DON reported an increase of $10,164,923 thousand, 15 percent, in Fund Balance with the Treasury (FBWT) in
FY 2003 when compared with FY 2002. The majority of the change is due to an increase in the DON appropriations
in FY 2003. When comparing FY 2003 Revolving Fund with FY 2002 there is an increase of $288,483 thousand or
19 percent. This increase is a result of additional funding for the revolving fund (4557 account - National Defense
Sealift Fund, Navy) that provided funding for transportation for the deployment of Operation IRAQI Freedom. Also, a
portion of the increase in the Fund Balance with Treasury was caused by a transfer directed by the Defense
Appropriations Act, 2003, Public Law 107-248, Section 8112. This law transferred $120 million from the NWCF
Fund Balance with Treasury to Operations and Maintenance, Navy. DON also increased $2,882 thousand, 18
percent, in Trust Fund due to additional donations. An increase of $63,623 thousand, 24 percent, in Other Fund
Types in FY 2003 when compared with FY 2002 is a result of an significant increase in the Kaho Olawe Island
Conveyance, Remediation and Environmental Restoration Fund.

The $26,850 thousand, 11 percent, reduction in Nonentity FBWT occurred primarily as a result in $47,000
thousand decrease in Withheld State and Local Taxes, a $28, 000 thousand decrease of Defense Military Receipts




68   GENERAL FUND
                                                                                                2003 ANNUAL FINANCIAL REPORT



Not Other Classified and a $19,794 thousand decrease in Military Thrift Savings Plan. The decrease is offset by an
increase of $55,000 thousand in Recoveries under Foreign Military Sales and $13,747 in Pay of the Navy Deposit
Fund. The reason for the overall decrease is the timing as to when payments from the nonentity accounts is
distributed. For example withheld State and Local taxes can fluctuate month to month based upon the timing of
payrolls, and the various due date requirements of each state and local government.

Other Disclosures
To deal with reconciliation of check issue discrepancy and deposit differences that are aged 90 days or greater some
of the following actions are being taken: (1) Follow-up action with disbursing officers on the status of their resolving
transactions listed on their statement of differences; (2) Weekly teleconferences with the field sites and site visits; and
(3) improving training.

Reference
See Note Disclosure 1.I. – Significant Accounting Policies for additional discussion on financial reporting
requirements and DoD policies governing Funds with the U.S. Treasury.

For regulatory discussion on Fund Balance with Treasury, see Department of Defense Financial Management
Regulation, Volume 6B, Chapter 10, paragraph 100501.


N OTE 4. I NVESTMENTS

    As of September 30,                                                         2003                                           2002
                                                               Amorti-   Amortized                                          Investments,
                                                               zation    (Premium/                          Market Value        Net
                                                Cost           Method     Discount)    Investments, Net      Disclosure
(Amounts in thousands)
1. Intragovernmental Securities:
     A. Marketable                          $              0             $        0 $                 0 $               0   $           0
    B. Non-Marketable, Par Value                           0                      0                   0                 0               0
    C. Non-Marketable, Market-Based                    9,856    N/A            (150)              9,706             9,706           9,465
    D. Subtotal                             $          9,856             $     (150) $            9,706 $           9,706   $       9,465
    E. Accrued Interest                                   95                                         95                95             160
    F. Total Intragovernmental Securities   $          9,951             $     (150) $            9,801 $           9,801   $       9,625



2. Other Investments: None

3. Other Information Related to Investments

Other Disclosures
The two DON Trust Funds are the Naval Academy General Gift Fund and the Navy General Gift Fund, which have a
total Investment, net of $9,801 thousand (included $95 thousand of accrued interest.) These investments are Non-
Marketable Market-Based securities reported at cost, net of amortized premiums and discounts.

Reference
See Note Disclosure 1.N. – Investments in U.S. Treasury for additional DoD policies governing Investments in U.S.
Treasury Securities.

For regulatory discussion on Investments, see Department of Defense Financial Management Regulation, Volume 6B,
Chapter 10, paragraph 1006.


                                                                NOTES    TO THE   PRINCIPAL STATEMENTS                                     69
                                                          DEPARTMENT    OF THE      NAVY



N OTE 5. A CCOUNTS R ECEIVABLE


     As of September 30,                                                       2003                                          2002

                                                                        Allowance For
                                                     Gross Amount Due     Estimated        Accounts Receivable, Net   Accounts Receivable,
                                                                        Uncollectibles                                        Net

     (Amounts in thousands)
     1. Intra-governmental Receivables:               $       496,863          N/A                      496,863        $          742,467
     2. Non-Federal Receivables (From the Public):    $     3,665,123   $      (282,990)    $$         3,382,133       $         2,799,887
     3. Total Accounts Receivable:                    $     4,161,986   $      (282,990)    $          3,878,996       $         3,542,354


4. Other Information Related to Accounts Receivables:

Fluctuation and/or Abnormalities
The DON reported a decrease of $245,604 thousand, 33 percent, in Intra-governmental Receivables in FY 2003
when compared to FY 2002. The decrease is due to improving the process to capture trading partner information
and intra-governmental eliminations process. Also contributing to the decrease is a result of a correction that was
made to overstated Receivables reflected in the program year 1998 and 1999. The correction was found during
system conversion and the adjustment was made in October 2002. In addition, the Marine Corps made a concerted
effort to research and write off the invalid receivables that resulted in the reduction of the Intra-governmental
Receivables of $145,202 thousand.

The DON reported an overall increase of $582,246 thousand, 21 percent, in Non-federal Receivables in FY 2003
when compared to FY 2002. The increase of $56,839 thousand is interest related to pending contract settlement that
is expected to be collected through litigation. The remaining portion of the increase is a result of improved reporting
of receivables from non-accounting systems. Detailed listing is under other DON disclosures.

Allowance Method
For all program groups except Military Personnel appropriations, the DON estimate for the entity allowance is 3
percent. The entity allowance for Military Personnel is estimated to be 14 percent. Each estimate is based on write-
offs of accounts receivable over the last three-year period. The nonentity allowance was established at 50 percent
excluding interest receivables pertaining to pending litigation.

Intra-governmental Accounts Receivable Adjustments

•     Allocation of Undistributed Collections.

Undistributed disbursements and collections are allocated between federal and non-federal categories based on the
percentage of federal and non-federal Accounts Payable and Accounts Receivable as submitted in the field level
general ledgers. This allocation was suggested as appropriate in a DFAS Arlington memorandum dated October 4,
2000, which required disclosure to the audit community of the applicable methodology used to allocate undistributed.

•     Elimination Adjustments.

The DON’s accounting systems do not capture trading partner data at the transaction level in a manner that facilitates
trading partner aggregations. Therefore, the DON was unable to reconcile intra-governmental accounts receivable
balances with its trading partners. Through the ongoing Business Management Modernization Program (BMMP), the
Department intends to develop long-term systems improvements that will capture the data necessary to perform
reconciliations.



70     GENERAL FUND
                                                                                             2003 ANNUAL FINANCIAL REPORT



Intrafund transactions are eliminated based upon trading partner information obtained from the Bureau of Naval
Personnel System (BUPERS), Standard Accounting and Reporting System – Field Level (STARS-FL), and the Standard
Accounting and Reporting System – Headquarters Module (STARS-HQ). The elimination data obtained from these
systems included seller appropriation, grantor (buyer) appropriation, grantor subhead, grantor code, reimbursable
source code, accounts receivable, revenue and unearned revenue.

Other Disclosures

•   Nonentity Non-Federal Accounts Receivables includes the following:

                                                                   Nonentity Non-Federal Accounts Receivable
                   (Amounts in thousands)                                           (Gross)
                                                                           As of September 30, 2003
                 Contract Litigation Principal and Interest                                          $2,409,285
                 DDMS                                                                                    13,480
                 CDS/MOCAS system debts                                                                 245,997
                 Civilian Pay (DCPS) debt                                                                 2,941
                 In-service Debt & Other Debt                                                            43,741
                 JAG                                                                                      5,146
                 Penalties, Fines and Admin. Fees and Interest                                          148,565

The contract litigation includes principal of $1,333,494 thousand, and accrued interest receivable of $1,075,791
thousand.

Other Debt represents foreign military sales and DON provided services to the public.

•   Abnormal Account Balances.

Abnormal Accounts Payable and Accounts Receivable balances may occur for two main reasons – 1) the application
of undistributed disbursement/collections and 2) as a result of the intra-governmental transaction elimination process.
DFAS Arlington has provided guidance in a memorandum dated March 1, 2001 to record accruals, for financial
statement presentation purposes, to correct abnormal balances.

Undistributed disbursements/collections are recorded in Accounts Payable and Accounts Receivable, respectively. For
a variety of reasons, the application of undistributed transactions may result in abnormal balances.

In accordance with the DoD FMR, Volume 6B, Chapter 13, adjustments are recorded, at the appropriation level, to
bring the DON’s intra-governmental accounts into agreement with its trading partners’ intra-governmental accounts.
These elimination process adjustments may also result in abnormal Accounts Payable and Accounts Receivable.

Reference
See Note Disclosure 1.K. – Significant Accounting Policies for additional discussion on financial reporting
requirements and DoD policies governing Accounts Receivable.

For regulatory discussion on Accounts Receivable, see Department of Defense Financial Management Regulation,
Volume 6B, Chapter 10, paragraph 1007.




                                                                 NOTES   TO THE   PRINCIPAL STATEMENTS                  71
                                                                  DEPARTMENT   OF THE    NAVY



N OTE 6. O THER A SSETS

                   As of September 30,                                           2003                 2002
                   (Amounts in thousands)
                   1. Intra-governmental Other Assets:
                      A. Advances and Prepayments                        $              187,865   $          67,081
                      B. Other Assets                                                         0                   0
                      C. Total Intra-governmental Other Assets           $              187,865   $          67,081

                   2.Non-Federal Other Assets:
                     A. Outstanding Contract Financing Payments          $          5,809,610     $      4,609,272
                     B. Other Assets (With the Public)                                371,014              171,190
                     C. Total Non-Federal Other Assets                   $          6,180,624     $      4,780,462

                   3. Total Other Assets:                                $          6,368,489     $      4,847,543

4. Other Information Related to Other Assets:

Fluctuation and/or Abnormalities
The DON reported an increase of $120,784 thousand, 180 percent, in Intra-governmental Other Assets, Advances
and Prepayment in FY 2003 when compared with FY 2002. The increase is a result of advances to the Navy
Working Capital Fund for work at the shipyards that has been delayed and the Defense Security Services.

DON also reported an increase of $1,400,162 thousand, 29 percent, in Nonfederal Other Assets. This change
reflects an increase of $1,200,338 thousand, 26 percent, in outstanding contract financing payments and an
increase of $199,824 thousand, 117 percent, in advances with the public. This increase reflects increased funding
and therefore increased activity in the procurement accounts such as Aircraft Procurement, Shipbuilding and
Conversion, Weapons Procurement, and Other Procurement and advances with the public as a result of Operation
Iraqi Freedom and subsequent events respectively.

Other Disclosures

•    Advances and Prepayment.
     The buyer-side advances to others balances were adjusted to agree with seller-side advances from others on the
     books or other DoD reporting entities. Additionally, the buyer-side prepayment balances were adjusted to agree
     with seller-side deferred credits on the books of other DoD reporting entities.

•    Outstanding Contract Financing Payments.
     The DON has reported outstanding financing payments for fixed price contracts as an advance and prepayment,
     because under the terms of the fixed price contracts, the DON becomes liable only after the contractor delivers
     the goods in conformance with the contract terms. If the contractor does not deliver a satisfactory product, the
     DON is not obligated to reimburse the contractor for its costs and the contractor is liable to repay the DON for
     the full amount of the outstanding contract financing payments. DoD has completed its review of all applicable
     federal accounting standards; applicable public laws on contract financing; FAR Parts 32,48, and 52; and the
     OMB guidance in 5 CFR Part 1315, “Prompt Payment.” The DON has concluded that the SFFAS No. 1,
     “Accounting for Selected Assets and Liabilities” does not fully or adequately addresses the subject of progress
     payment accounting and is considering what further action is appropriate.




72    GENERAL FUND
                                                                                                   2003 ANNUAL FINANCIAL REPORT



The following table displays the Outstanding Contract Financing Payments attributed by program:

                              (Amounts in thousands)                                 As of September 30, 2003
                              Aircraft Procurement                                                  $4,210,169
                              Shipbuilding and Conversion                                              603,396
                              Weapons Procurement                                                      393,739
                              Other Procurement                                                        478,028
                              Other (O&M, RDT&E)                                                       124,278
                              Total                                                                 $5,809,610

Reference
See Note Disclosure 1.R. – Significant Accounting Policies for additional discussion on financial reporting
requirements and DoD policies governing Other Assets.

For regulatory discussion on Other Assets, see Department of Defense Financial Management Regulation, Volume 6B,
Chapter 10, paragraph 1008.


N OTE 7. C ASH        AND      O THER M ONETARY A SSETS

               As of September 30,                                                         2003                  2002
               (Amounts in thousands)
               1. Cash                                                           $             224,881    $         130,162
               2. Foreign Currency (non-purchased)                                              58,114                  502
               3. Other Monetary Assets                                                              0                    0
               4. Total Cash, Foreign Currency, & Other Monetary Assets          $             282,995    $         130,664

5. Other Information Related to Cash and Other Monetary Assets

Fluctuation and/or Abnormalities
The DON reported an increase of $152,331 thousand, 117 percent, in Total Cash, and Foreign Currency in FY
2003 when compared with FY 2002. The increase is mainly due to the deployment for Operation IRAQI Freedom
and subsequents events related to that action. The Disbursing Officers had more cash and foreign currency on hand
than they would have under normal operational requirements.

Definitions
Cash - The total of cash resources under the control of the DON, which includes coin, paper currency, purchased
foreign currency, negotiable instruments, and amounts on deposit in banks and other financial institutions. Cash
available for agency use should include petty cash funds and cash held in revolving funds, which will not be
transferred into the U.S. Government General Fund.

Foreign Currency - consists of the total U.S. dollar equivalent of non-purchased foreign currencies held in foreign
currency fund accounts. Non-purchased foreign currency is limited to the Treasury Index 97X7000 fund account
(formerly called FT accounts).

Other Monetary Assets - includes gold, special drawing rights, and U.S. Reserves in the International Monetary Fund.
This category is principally for use by the Department of the Treasury.

Restriction on Cash - All cash and other monetary assets reported are classified as nonentity, which means that the
assets are not available for the DON’s use in normal operations.




                                                                      NOTES   TO THE   PRINCIPAL STATEMENTS                   73
                                                      DEPARTMENT    OF THE   NAVY



Other Disclosures
Cash and Foreign Currency reported consists primarily of cash held by Disbursing Officers to carry out their paying,
collecting, and foreign currency accommodation exchange mission. The primary source of the amounts reported is
the Standard Form 1219, Statement of Accountability reported by DoD Disbursing Officers.

The DON translates foreign currency to U.S.dollars utilizing the Department of the Treasury Prevailing Rate of
Exchange. This rate is the most favorable rate that would legally be available to the U.S. Government’s acquisition of
foreign currency for its official disbursement and accommodation of exchange transactions.

Reference
See Note Disclosure 1.J. – Significant Accounting Policies for additional discussion on financial reporting
requirements and DoD policies governing Foreign Currency.

For regulatory discussion on Cash and Other Monetary Assets, see Department of Defense Financial Management
Regulation, Volume 6B, Chapter 10, paragraph 1009.


N OTE 8.A. D IRECT L OAN          AND / OR   L OAN G UARANTEE P ROGRAMS
The DoD operates the following Direct Loan and/or Loan Guarantee Program:
     Military Housing Privatization Initiative

Other Information Related to Direct Loan and/or Loan Guarantee Programs.
The Military Housing Privatization Initiative (MHPI) fosters a mutually beneficial relationship between the DoD and the
private sector. For the DoD, the MHPI results in the construction of more housing built to market standards, at a lower
cost than through the military construction process. Commercial construction (Private Sector) is faster and less costly
than military construction and significantly stretches and leverages the DoD’s limited housing funds. The MHPI also
provides protection against specific risks, such as base closure or member deployment, for the private sector partner.

An analysis of loans receivables, loan guarantees, the liability for loan guarantees, and the nature and amounts of
the subsidy and administrative costs associated with the direct loans and loan guarantees is provided in the following
sections of this note.

DoD operates a loan guarantee program authorized by the National Defense Authorization Act for FY 1996, Public
Law 104-106 Stat. 186 Section 2801, includes a series of powerful authorities that allow DoD to work with the
private sector to renovate military housing. DoD’s goals are to:

•    obtain private capital to leverage government dollars,
•    make efficient use of limited resources, and
•    use a variety of private sector approaches to build and renovate military housing faster and at a lower cost to
     American taxpayers.

The Act also provides DoD with a variety of authorities to obtain private sector financing and expertise to improve
military housing. DoD uses these authorities individually, or in combination. They include:

•    guarantees, both loan and rental
•    conveyance/leasing of existing property and facilities
•    differential lease payments
•    investments, both limited partnerships and stock/bond ownership
•    direct loans




74    GENERAL FUND
                                                                                                                     2003 ANNUAL FINANCIAL REPORT



In addition, the “Federal Credit Reform Act of 1990” governs all amended direct loan obligations and loan
guarantee commitments made after FY 1991 resulting in direct loans or loan guarantees.

•   Direct loans - are reported net of allowance for subsidy at present value, and
•   Loan Guarantee Liabilities - are reported at present value.

Reference:
For regulatory discussion on Direct Loans and Loan Guarantee, see Department of Defense Financial Management
Regulation, Volume 6B, Chapter 10, paragraph 1010.


N OTE 9. I NVENTORY                 AND      R ELATED P ROPERTY
                   As of September 30,                                                                2003                       2002
                   (Amounts in thousands)
                   1. Inventory, Net (Note 9.A.)                                            $                    0           $              0
                   2. Operating Materials & Supplies, Net (Note 9.B.)                                   53,611,634                 33,003,595
                   3. Stockpile Materials, Net (Note 9.C.)                                                       0                          0
                   4. Total                                                                 $           53,611,634           $     33,003,595



N OTE 9.A. I NVENTORY, N ET
Not Applicable.


N OTE 9.B. O PERATING M ATERIALS                             AND         S UPPLIES , N ET

      As of September 30,                                                            2003                                               2002
                                                             OM&S                   Revaluation                                                     Valuation
                                                                                                             OM&S, Net             OM&S, Net
                                                           Gross Value               Allowance                                                       Method
      (Amounts in thousands)
      1. OM&S Categories:
        A. Held for Use                                $          49,948,474 $                    0 $         49,948,474         $ 27,307,223 LAC, SP, AC, O
        B. Held for Repair                                         5,213,580          (1,550,420)              3,663,160                 5,217,802 LAC, SP, AC, O
        C. Excess, Obsolete,
            and Unserviceable                                      1,186,642          (1,186,642)                        0                478,570 LAC, SP, AC, O
        D. Total                                       $          56,348,696 $ (2,737,062) $                  53,611,634         $ 33,003,595

             Legend for Valuation Methods:
             Adjusted LAC = Latest Acquisition Cost                      NRV = Net Realizable Value
               adjusted for holding gains and losses                     O = Other
             SP = Standard Price
             AC = Actual Cost




                                                                             NOTES      TO THE      PRINCIPAL STATEMENTS                                            75
                                                     DEPARTMENT    OF THE   NAVY



2. Restrictions on Operating Materials & Supplies: None

3. Information Related to Operating Materials and Supplies

Fluctuation and/or Abnormalities

Held for Use
The DON reported an increase of $22,641,251 thousand, 83 percent, in Operating Materials & Supplies (OM&S),
Held for Use in FY 2003 when compared with FY 2002. The majority of the increase resulted from the implementing
the new accounting standard SFFAS No. 23 “Eliminating the Category of National Defense Property, Plant, and
Equipment.” The standard requires the capitalization and depreciation of the cost of military equipment, including
the cost of modifications and upgrades. The related implementation of SFFAS No. 23 also can be found in NOTE: 10
under equipment. Resulting from implementing this new accounting standard was a reclassification of conventional
missiles and torpedoes from Military Equipment to OM&S. This fact resulted in reporting a value of $22,687,045
thousand for tactical missiles and torpedoes in FY 2003 and therefore, an increase of OM&S.

The Office of the Under Secretary of Defense (Comproller) (OUSD(C)) memorandum of July 6, 2001 adoped
Moving Average Cost (MAC) as the approved valuation method for valuing Held for Use, Held for Repair, and
Excess, Obsolete and Unserviceable categories of OM&S. OUSD(C) memorandum of 12 August 12, 2002 required
that beginnning with FY 2002, the Department would no longer use the Supply System Inventory Report (SSIR) as the
basis for its financial presentation but that the reporting categories will be based upon condition codes. The DON
commands had been reporting Held for Use, Held for Repair, and Excess, obsolete and Unserviceable at net value.
Beginning with FY 2002, to implement the OUSD(C) memoranda, DON required the major commands to report the
gross value with an allowance account for Held for Use, Held for Repair, and Excess, Obsolete and Unserviceable,
not the net value. When the financial records were adjusted for this process change at the consolidated DON level,
an error was made resulting in a duplicate adjustment at the consolidated DON level for the Held for Use, Held for
Repair, and Excess, Obsolete and Unserviceable categories of OM&S. For Held for Use as a result of this error in the
amount of $263,046 thousand in of 2002 was understated. The error was discovered and corrected in FY 2003.

Also contributing to the fluctuation in Held for Use are the following: $126 million increase in Material and On-hand
Inventory at the Fleet Hospitals; $101 million increase in reporting from the Real-Time Reutilization Asset Management
(RRAM) is due to additional DON activities and correcting error found in FY 2002 reporting. The total of the increase
is offset by the decrease of $489 million in Sponsored Owned Materials (SOM) transferred out due to Operation
IRAQI Freedom and correcting deficiencies in converting to the SIMs System.

Held for Repair
The DON reported a decrease of $1,554,642 thousand, 30 percent, in OM&S, Held for Repair in FY 2003 when
compared with FY 2002. Held for Repair was overstated by $3,392,371 thousand in FY 2002 because of the error
described above. The error was corrected in FY 2003. The total of the decrease is offset by the increase of
$1,824,457 thousand due to the implementation of the OUSD(C) policy for accounting for “Excess, Obsolete, and
Unserviceable (EOU) OM&S.” This increase recognized the value of OM&S that previously was included in EOU.

Excess, Obsolete, and Unserviceable (EOU)
The DON reported a decrease of $ 478,570 thousand, 100 percent, in OM&S, EOU in FY 2003 when compared
with FY 2002. EOU was overstated by $478,570 thousand in FY 2002 because of the error described under Held
for Use. The error was corrected in FY 2003.




76   GENERAL FUND
                                                                                                     2003 ANNUAL FINANCIAL REPORT



Other Information Related to Operating Material and Supplies, Net

General Composition of Operating Materials and Supplies (OM&S)
OM&S includes spare and repair parts, ammunition, conventional missiles, torpedoes, aircraft configuration pods,
and centrally managed aircraft engines.

The general composition of OM&S is as follows:

                 (Amounts in thousands)                                                  September 30, 2003
                 Ammunition and Munitions                                                        $31,978,960
                 Appropriation Purchase Account (APA) Principal End Item                            8,114,346
                 Sponsor Owned Material                                                           10,476,114
                 APA Secondary Inventory                                                            1,178,226
                 Real-time Reutilization Asset Management (RRAM)                                    1,472,773
                 Other                                                                                391,215
                 Total                                                                           $53,611,634

Balances
In addition to the account balances shown in Table 9.B., the Statement of Federal Financial Accounting Standards
(SFFAS) No. 3 “Accounting For Inventory and Related Property” requires disclosure of the amount of OM&S held for
“Future Use.” This information is not captured by current OM&S systems which were designed for material
management rather than accounting. However, the DON estimates that $ 12,512,547 thousand of the OM&S Held
for Use will be used more than 24 months after the end of FY 2003.

Decision Criteria For Identifying The Category To Which Operating Materials And Supplies Are Assigned
In order to standardize reporting of the categories Held for Use, Held for Repair, and Excess, Obsolete,
Unserviceable, DON implemented the Under Secretary of Defense (Comptroller) (USD(C)) condition code crosswalk
as defined in the memorandum “Accounting for Excess, Unserviceable, and Obsolete Inventory and Operating
Materials and Supplies” dated 12 August 2002. In addition, On 15 September 2002, USD(C) amended the
condition code crosswalk to include code “V” in the Excess, Obsolete, Unserviceable category. OM&S was reported
as follows:

                                   OM&S Category                              Condition Codes
                                   Held for Use                               A, B, C, D
                                   Held for Repair                            E, F, G, J, K, L, M, N, R
                                   Excess,Obsolete, Unserviceable             P, H, S, V

Valuation Method for OM&S
In July, 2001, the OUSD(C) issued a memo requiring MAC as the approved valuation method for Inventory Held for
Sale and Operating Materials and Supplies. “ Each Military Department and Defense Agency responsible for
material amounts of inventory or operating materials and supplies shall implement the moving average cost valuation
method as systems are renovated or replaced.” The DON is participating in the DoD Business Management
Modernization Program that is currently reviewing and designing the Business Enterprise Architecture (BEA). The BEA
provides for a master plan that includes guidance on transition plan strategy concepts, considerations, processes, and
principles. MAC will be implemented as systems are renovated or replaced. Until then, the DON continues to value
the OM&S using different valuation methodologies such as standard purchase price or actual cost.

Government Furnished Material (GFM) and Contractor Acquired Material (CAM)
Generally, the value of the DON’s GFM and CAM in the hands of contractors is not included in the OM&S values
reported above. DoD is presently reviewing its process for reporting these amounts in an effort to determine the
appropriate accounting treatment and the best method to annually collect and report required information without
duplicating information already in other existing logistics systems.


                                                                    NOTES   TO THE   PRINCIPAL STATEMENTS                       77
                                                      DEPARTMENT    OF THE   NAVY



Other Disclosures

Ammunition and Munitions
Ammunition and Munitions are maintained and valued in The Conventional Ammunition Integrated Management
System (CAIMS). The DON has begun the analysis and cost benefit identification of conforming CAIMS to Federal
Accounting Standards. The amount reported for Ammunition and Munitions includes $22,687,045 thousand of
tactical missiles and torpedoes that were previously reported as Military Equipment.

Principal End Items
Principal End Items includes OM&S items such as shipboard hull, mechanical and electronic equipment, and
uninstalled aircraft engines. Principal End Items are items of such importance that central inventory control is
required. They normally possess one of the following characteristics: (a) essential for combat or training; (b) high
dollar value; (c) difficult to procure or produce; or (d) critical basic materials or components.

Sponsor Owned Material (SOM)
SOM is defined as “programmatic material required to support Program Manager (PM) mission requirements for
production, life cycle maintenance, and installation of systems and equipment consistent with the mission Charter.
The material usage may involve, but is not limited to: item fabrication, assembly, testing, manufacture, development,
repair, or research and development (R&D).”

Real-time Reutilization Asset Management (RRAM)
This material is considered excess to the owner, but may not be excess to the Navy. Standard price is used to value
all stock-numbered items. Part-numbered items are valued by best available information.

Other Operating Material & Supplies
Other OM&S totaled $391,215 thousand as of September 30, 2003. This consists primarily of $340,390 thousand
in Fleet Hospitals and War Reserves, $50,825 thousand material in the possession of the US Coast Guard.

Reference
See Note Disclosure 1.M. – Significant Accounting Policies for additional discussion on financial reporting
requirements and DoD policies governing Inventory and Related Property.

For regulatory discussion on OM&S, see Department of Defense Financial Management Regulation, Volume 6B,
Chapter 10, paragraph 101107.


N OTE 9.C. S TOCKPILE M ATERIALS , N ET
Not Applicable.




78   GENERAL FUND
                                                                                                              2003 ANNUAL FINANCIAL REPORT



  N OTE 10. G ENERAL P ROPERTY, P LANT,                           AND        E QUIPMENT (PP&E) (N ET )

As of September 30,                                                                     2003                                                         2002

                                             Depreciation/   Service Life     Acquisition Value        (Accumulated            Net Book Value
                                             Amortization                                              Depreciation/                            Prior FY Net Book
                                                Method                                                 Amortization)                                   Value
(Amounts in thousands)


      1. Major Asset Classes:
      A. Land                                    N/A            N/A           $        603,961                    N/A      $         603,961    $        645,924

      B. Buildings, Structures, and               S/L          20 - 40              34,086,371     $     (13,078,647)             21,007,724          20,250,075
      Facilities

      C. Leasehold Improvements                   S/L          lease term                   0                      0                       0                   0
      D. Software                                 S/L          2-5 Or 10                1,058                   (635)                    423                 635
      E. Equipment                                S/L          5 Or 10            417,852,336           (284,612,995)            133,239,341             844,791
      F. Assets Under Capital Lease [1]           S/L          lease term                 206                    (60)                    146                 910

      G. Construction-in-Progress                N/A            N/A                  3,555,855              N/A                    3,555,855           4,367,102
      H. Other                                                                              0                          0                   0                   0

      I. Total General PP&E                                                   $ 456,099,787        $    (297,692,337)      $ 158,407,450        $     26,109,437
[1]
  Note 15.B for additional information on Capital Leases
Legend for Valuation Methods:
S/L = Straight Line     N/A = Not Applicable
  2. Information Related to General PP&E, Net

  Fluctuation and/or Abnormalities

  Equipment
  The DON reported an increase of $ 132,394,550 thousand, 15,672 percent, in Equipment in FY 2003 when
  compared with FY 2002. The majority of the increase resulted from the implementation of the new accounting
  standard SFFAS No. 23 “Eliminating the Category of National Defense Property, Plant, and Equipment.” The
  standard requires the capitalization and depreciation of the cost of military equipment, including the cost of
  modifications and upgrades. The DON reported Net Book Value of $132,660,000 thousand for military equipment
  in FY 2003. See Military Equipment below for detail disclosure.

  Construction-In-Process (CIP)
  The DON reported a decrease of $811,247 thousand,19 percent, in CIP in FY 2003 when compared with FY 2002.
  The decrease is the implementation of the “automatic transfer to user” resulted better tracking the transfer-out
  information.

  Assets Under Capital Lease
  The DON reported a decrease of $764 thousand, 84 percent, in Assets Under Capital Lease in FY 2003 when
  compared with FY 2002. The decrease is due to the expiration of leases.

  Software
  The DON reported a decrease of $212 thousand, 33 percent, Net Book Value in Software in FY 2003 when
  compared with FY 2002. The decrease in the Net Book Value in Software is due to the depreciation expenses
  recorded with no further acquisition in FY 2003.

                                                                            NOTES   TO THE        PRINCIPAL STATEMENTS                                       79
                                                      DEPARTMENT    OF THE   NAVY



Other Information Related to General PP&E, Net

Military Equipment.
The Federal Accounting Standards Advisory Board issued the Statement of Federal Financial Accounting Standards
No. 23, Eliminating the Category National Defense Property, Plant, and Equipment, in May 2003. This standard,
which is effective for accounting periods beginning after September 30, 2002, establishes generally accepted
accounting principles for valuing and reporting military equipment (e.g., ships, aircraft, combat vehicles, weapons) in
federal financial statements. The standard requires the capitalization and depreciation of the cost of military
equipment, including the cost of modifications and upgrades.

The Department has determined that it is not practical at this time to accumulate from internal records the information
necessary to value military equipment in accordance with generally accepted accounting principles, because the
Department is currently working to revise its accounting processes and systems to support the informational needs of
management and compliance with generally accepted accounting principles. In the interim, the Department will base
the value of military equipment for financial statement presentation purposes on data provided by the Bureau of
Economic Analysis (BEA), Department of Commerce.

The data provided by BEA consist of investment and net book value data for 84 groups of equipment such as aircraft,
ships and combat vehicles. BEA uses Department budget data for equipment acquisitions and actual quantities of
equipment items delivered to calculate the Department’s annual investment in equipment, after recognizing any
equipment transfers or war losses. The Department adjusted BEA data to eliminate equipment items that are not
accounted for as military equipment, such as spares, munitions, and inventory items, which are accounted for and
reported as Inventory and Related Property. For the DON, the BEA analysis provided for an Acquisition value of
$415,310,000 thousand for military equipment, less an Accumulated Depreciation value of $282,650,000 thousand
giving a Net Book Value of $132,660,000 thousand for military equipment.

Property in the Possession of Contractors.
The value of the DON’s General PP&E real property in the possession of contractors is included in the values reported
above for the Major Asset Classes of Land and Buildings, Structures, and Facilities. The value of General PP&E
personal property (Major Asset Classes of Software and Equipment) does not include all of the General PP&E above
the DoD capitalization threshold in the possession of contractors. The net book amount of such property is immaterial
in relation to the total General PP&E net book value. Per the DoD FMR Volume 6B Chapter 10, DON is not
supplementing General PP&E information with values from the Defense Contract Management Agency’s CPMS (DD
Form 1662) database. In accordance with an approved strategy with OMB, the GAO and the Inspector General,
DoD, the DoD is developing new policies and a contractor reporting process to capture General PP&E information for
future reporting purposes for compliance with Federal GAAP.

Other Disclosures

Real Property
The Internet Naval Facility Asset Database Store (iNFADS) is used to derive real property values for financial
reporting purposes.

Leasehold Improvements
No leasehold improvements are reported for FY 2003, because the DON’s real property system does not track
leasehold improvements as a separate component of a building’s total value. However, the DON is in the process of
surveying commands to determine the value of leasehold improvements.

Software
To ensure that the costs associated with Internal Use Software are correctly recognized and reported, the DON uses
the Defense Property Accountability System (DPAS) to capture this information.




80   GENERAL FUND
                                                                                    2003 ANNUAL FINANCIAL REPORT



Construction-in-Progress (CIP)
CIP balances were obtained from the Facilities Information System (FIS).

Preponderant Use
Per the DoD FMR, Volume 4, Chapter 6, legal ownership is not always the determinant factor when establishing
which DoD Component recognizes a particular General PP&E asset for accounting and reporting purposes. If the
following four criteria are met, the preponderant user should report the property regardless of legal ownership or
funding:

The   asset embodies a probable future benefit;
The   DoD Component that reports the asset obtains the benefit and controls access to the benefit inherent in the asset;
The   transaction or event giving the Component the right to, and control over, the benefit has already occurred; and
The   predominantly used assets, taken as a whole, are material to the Component’s financial statements.

During the course of FY 2003, DON continued to identify properties whose preponderant users are other DoD
Components. Until the Department is able to reconcile with the DoD Components the listing of properties and values,
the DON will disclosure in the note. Those entities utilizing material amounts of DON owned property are as follows
(dollar values include both acquisition value and improvements meeting the capitalization threshold):

              (Amounts in thousands)                                          FY 2003
              Defense Commissary Agency (DeCA)                            $   50,411,967
              DoD Schools                                                     39,471,583
              Defense Logistics Agency (DLA)                                  20,621,503

Reference
See Note Disclosure 1.N. – Significant Accounting Policies for additional discussion on financial reporting
requirements and DoD policies governing General PP&E.

For regulatory discussion on General PP&E, see Department of Defense Financial Management Regulation, Volume
6B, Chapter 10, paragraph 1012.




                                                         NOTES   TO THE   PRINCIPAL STATEMENTS                             81
                                                            DEPARTMENT   OF THE   NAVY



N OTE 10.A. A SSETS U NDER C APITAL L EASE

                     As of September 30,                                  2003               2002
                     (Amounts in thousands)
                1. Entity as Lessee, Assets Under Capital Lease:
                     A. Land and Buildings                         $                0    $              0
                     B. Equipment                                                206                1,116
                     C. Other                                                       0                   0
                     D. Accumulated Amortization                                  (60)               (206)
                     E. Total Capital Leases                       $             146     $            910

2. Description of Lease Arrangements:

Leased assets consist primarily of personal property reported via the DPAS system. Disclosures pertaining to future
payments due are provided at Note 15.

3. Other Information Related to Assets Under Capital Lease

Fluctuation and/or Abnormalities
The DON reported a decrease of $910 thousand, 82 percent, in Equipment Leases and $146 thousand, 71 percent,
in the Accumulated Amortization in FY 2003 when compared with FY 2002. The decrease is due to the expiration of
the leases in FY 2003.

Reference
See Note Disclosure 1.Q. – Significant Accounting Policies for additional discussion on financial reporting
requirements and DoD policies governing Leases.




82   GENERAL FUND
                                                                                                              2003 ANNUAL FINANCIAL REPORT



N OTE 11. L IABILITIES N OT C OVERED                           AND   C OVERED          BY   B UDGETARY R ESOURCES

     As of September 30,                                                                        2003                                    2002
                                                                                            Not Covered by                             Not Covered by
                                                                Covered by Budgetary          Budgetary                                  Budgetary
     (Amounts in thousands)                                           Resources               Resources                Total             Resources

     1. Intra-governmental Liabilities:
      A. Accounts Payable                                        $           1,035,033      $               0      $       1,035,033    $           2,396
      B. Debt                                                                        0                      0                      0                  127
      C. Environmental Liabilities                                                   0                      0                      0                    0
      D. Other                                                                 554,865              3,305,048              3,859,913            3,024,434
       E. Total Intra-governmental Liabilities                   $           1,589,898      $          3,305,048   $       4,894,946    $       3,026,957

     2. Non-Federal Liabilities:
      A. Accounts Payable                                        $           1,742,522      $                 0    $       1,742,522    $               0
       B. Military Retirement Benefits and Other Employment-
       Related Actuarial Liabilities
                                                                                     0              1,589,971              1,589,971            1,546,375
       C. Environmental Liabilities                                                  0             15,614,424             15,614,424           15,469,073
       D. Loan Guarantee Liability                                                   0                      0                      0                    0
       E. Other Liabilities                                                    487,621              3,298,341              3,785,962            3,078,597
       F. Total Non-Federal Liabilities                          $           2,230,143      $      20,502,736      $      22,732,879    $      20,094,045

     3. Total Liabilities:                                       $           3,820,041      $      23,807,784      $      27,627,825    $      23,121,002

4. Other Information:

Fluctuation and/or Abnormalities
An explanation of fluctuations and abnormalities for a particular line is included in the specific note for that asset.
See notes 12-17.

Definitions
•    Liabilities Not Covered by Budgetary Resources are those liabilities which are not considered covered by
     realized budgetary resources as of the balance sheet date.
•    Liabilities Covered by Budgetary Resources are those that are incurred by the reporting entity which are covered
     by realized budget resources as of the balance sheet date. Budgetary resources encompass not only new
     budget authority, but also other resources available to cover liabilities for specified purposes in a given year.
•    Available budgetary resources include:
     (1) new budget authority,
     (2) spending authority from offsetting collections (credited to an appropriation or fund account),
     (3) recoveries of unexpired budget authority through downward adjustments of prior year obligations,
     (4) unobligated balances of budgetary resources at the beginning of the year or net transfers of prior year
          balances during the year, and
     (5) permanent indefinite appropriations or borrowing authority, which have been enacted and signed into law
          as of the balance sheet date, provided that the resources may be apportioned by the OMB without further
          action by the Congress or without a contingency first having to be met.




                                                                       NOTES      TO THE        PRINCIPAL STATEMENTS                                        83
                                                               DEPARTMENT          OF THE   NAVY



Other Disclosures Related to Liabilities Not Covered by Budgetary Resources

Intra-governmental Liabilties – Other (Not covered by Budgetary Resources) includes the following:

                                 (Amounts in thousands)
                                 FECA                                                $562,106
                                 Unemployment                                           49,390
                                 Judgment                                               49,157
                                 DOD Education Trust                                     2,228
                                 Liabilities to Treasury                             2,642,167
                                        Total                                       $3,305,048


Judgment Fund
During FY 2003, the DON made substantial progress in identifying and resolving Judgment Fund liabilities. Amounts
recorded in the DON General Fund Judgment Fund include any and all amounts that are also applicable to the Navy
Working Capital Fund. This methodology is necessary as current accounting systems cannot distinguish between the
two funds. Reporting the Judgment Fund is in compliance with OUSD(C) guidance to resolve any outstanding debt
due to the Department of Treasury. The DON is in the process of working with the appropriate Management
Commands to obtain documentation that supports the amounts that have been remitted to Department of Treasury, or
provide the necessary funding to liquidate the liabilities. DON is working with the Department of Treasury to validate
the amounts recorded in this account. On September 30, 2003, the DON reported $49,157 thousand as the
outstanding Judgment Fund liability. Of this amount, $49,153 thousand is attributed to Navy and $4 thousand is
attributed to Marine Corps.

Liability to Treasury
Unliquidated progress payments and associated accrued interest receivables for contractor debt is reported as an
unfunded liability to Department of the Treasury. Collections on this debt will be due and payable to Treasury as the
appropriations are in a cancelled status. See Note 5 for further disclosure.

Nonfederal Liabilities – Other (Not covered by Budgetary Resources) includes the following

                             (Amounts in thousands):
                             Annual Leave                                                   $2,269,191
                             Capital Lease Liabilities                                             146
                             Accounts Payable – Cancelled Appropriations                        23,238
                             Military Equipment (Non-nuclear Nonenvironmental                  574,916
                             Disposal Liabilities)
                             Disposal Liabilities for Excess/Obsolete Structures               324,270
                             Contract Incentive                                                106,580
                                   Total                                                    $3,298,341

Note Reference
For   additional line item discussion, see:
•     Note 8, Direct Loans and/or Loan Guarantee Programs
•     Note 12, Accounts Payable
•     Note 13, Debt
•     Note 14, Environmental Restoration Liabilities, and Environmental Disposal Liabilities
•     Note 15, Other Liabilities
•     Note 16, Commitments and Contingencies
•     Note 17, Military Retirement Benefits and Other Employment Related Actuarial Liabilities.




84     GENERAL FUND
                                                                                             2003 ANNUAL FINANCIAL REPORT



N OTE 12. A CCOUNTS PAYABLE

       As of September 30,                                                  2003                                      2002
                                                                           Interest,
                                                 Accounts Payable        Penalties, and               Total           Total
                                                                       Administrative Fees
      (Amounts in thousands)
      1. Intra-governmental Payables:              $      1,035,033               N/A             $   1,035,033   $        748,278
      2. Non-Federal Payables (to the Public):     $      1,742,522    $                      0   $   1,742,522   $      1,510,329
      3. Total                                     $      2,777,555    $                      0   $   2,777,555   $      2,258,607


       4. Other Information:

Fluctuation and/or Abnormalities
Intra-governmental payable increased $286,755 thousand, 38 percent when compared with FY 2002. Payables
with Other Defense Organizations Working Capital Funds increased $251,939 thousand from FY 2002. Payable
with Navy Working Capital Fund increased $71,752 thousand from the FY 2002 amount. A decrease of $25,871
thousand in the Other Defense Organizations General Funds, a $7,006 thousand decrease in Air Force General
Funds and a decrease of $5,528 thousand in Army General Fund offset these increases in payables. The varying
needs and execution requirements of the DON, including Operation Iraqi Freedom and subsequent events, generally
cause fluctuations in the intra-governmental payables. Additionally, timing differences and buyer side trading partner
identification problems that are inherent in DoD accounting systems affect the intra-governmental elimination process.
Schedule Part B of the Required Supplementary Information of this report identifies DON’s trading partners for
FY 2003.

For Nonfederal Accounts Payable in FY 2003 when compared with FY 2002, DON reported an increase of
$232,193 thousand, 15 percent. Effecting this increase were Military Personnel payables increasing by $470,801
thousand along with Operations and Maintenance in the amount of $192,133 thousand. A $197,133 thousand in
Procurement non-federal payables and $133,386 thousand in Military Construction and Family Housing offset these
increases. Generally, the overall increase in DON’s nonfederal payables can be attributed to the higher level of
funding and budget execution.

Definitions
Intra-governmental Accounts Payable consists of amounts owed to other federal agencies for goods or services
ordered and received but not yet paid. Interest, penalties and administrative fees are not applicable to intra-
governmental payables.

Non-Federal Payables (to the Public) are payments to nonfederal government entities.

Undistributed Disbursements.

Undistributed disbursements are the difference between disbursements/collections recorded at the detailed level to a
specific obligation, payable, or receivable in the activity field records versus those reported by the U.S. Treasury via
the reconciled DD 1329 and DD1400. This should agree with the undistributed reported on accounting reports (SF
133/ (M) 1002). In-transit payments are payments that have been made for other agencies or entities that have not
been recorded in their accounting records.




                                                        NOTES       TO THE   PRINCIPAL STATEMENTS                                    85
                                                       DEPARTMENT    OF THE   NAVY



Intra-governmental Eliminations

For the majority of intra-agency sales the DON’s accounting systems do not capture trading partner data at the
transaction level in a manner that facilitates trading partner aggregations. Therefore, the DON was unable to
reconcile intra-governmental accounts payable to the related intra-governmental accounts receivable that generated
the payable.

The DoD summary level seller accounts receivables were compared to the DON’s accounts payable. An adjustment
was posted to the DON’S accounts payable based on the comparison with the accounts receivable of the DoD
Components providing goods and services to the DON.

DoD intends to develop long-term systems improvements that will include sufficient up-front edits and controls to
eliminate the need for after-the-fact reconciliations. The volume of intra-governmental transactions is so large that
after-the-fact reconciliation can not be accomplished with the existing or foreseeable resources.

Other Disclosures

Abnormal Account Balances

Abnormal Accounts Payable balances may occur because 1) the DON does not always record Accounts Payable
upon receipt and acceptance of goods and services; 2) the application of undistributed disbursements; and 3) as a
result of the intra-governmental transaction elimination process. Per DoDFMR Vol. 6B, Ch. 13, when an abnormal
balance is created, an adjustment to Accounts Payable and expenses should be made accordingly to recognize the
shortfall.

For Intra-governmental elimination, adjustments are recorded at the appropriation level, to bring the DON’s intra-
governmental accounts into agreement with its trading partners’ intragovernrmental accounts. These elimination
process adjustments may also result in abnormal accounts payable and accounts receivable.

The DON has initiated the development of an Accounts Payable Implementation Strategy to improve the recording
and reporting of accounts payable. The strategy addresses the overall the DON approach to recording accounts
payable, including accounts payable from commercial and intra-governmental sources. Development of the
implementation strategy is in its final stages and includes several recommendations for improvements. These address,
for example, the timely recording of accounts payable transactions, the proper classification of accounts payable
between the government and the public, the identification of intra-governmental trading partners and related
transactions, and the support of end-of-period adjusting entries for undistributed disbursements and intra-governmental
eliminations.

Reference
See Note Disclosure 1.G. – Significant Accounting Policies for additional discussion on financial reporting
requirements and DoD policies governing accounting for Intra-governmental Activities.




86   GENERAL FUND
                                                                                               2003 ANNUAL FINANCIAL REPORT



N OTE 13. D EBT


          As of September 30,                                                   2003                              2002
                                                        Beginning          Net                 Ending            Ending
                                                         Balance        Borrowings             Balance           Balance
          (Amounts in thousands)
          1. Public Debt:
            A. Held by Government Accounts                   N/A               N/A               N/A                N/A
            B. Held by the Public                            N/A               N/A               N/A                N/A
            C. Total Public Debt                             N/A               N/A               N/A                N/A

          2. Agency Debt:
            A. Debt to the Treasury                 $               0   $              0   $             0   $               0
            B. Debt to the Federal Financing Bank                   0                  0                 0                   0
            C. Debt to Other Federal Agencies                       0                  0                 0                 127
            D. Total Agency Debt                    $               0   $              0   $             0   $             127

          3. Total Debt:                            $               0   $              0   $             0   $             127

          4. Classification of Debt:
            A. Intra-governmental Debt                                                     $             0   $             127
            B. Non-Federal Debt                                                                  N/A                N/A
            C. Total Debt                                                                  $             0   $             127

5.
4. Other Information Related to Debt

Fluctuation and/or Abnormalities
The DON reported a decrease of $127 thousand, 100 percent, in Debt to Other Federal Agencies in FY 2003 when
compared with FY 2002 resulting in no amount for Debt to other Federal Agencies being reported. This change is
due to the interest payable from DON’s contribution to the Education Benefit Trust Fund, which is part of the DoD
Military Trust Fund, being moved from the USSGL account 2140, Accrued Interest Payable, to USSGL account 2290,
Other Unfunded Employment Related Liability. Therefore, the interest payable from the DON’s contribution to the
Education Benefit Trust Fund is no longer reported on the Debt to Other Agencies line.

Reference
See Note Disclosure 1.G. – Significant Accounting Policies for additional discussion on financial reporting
requirements and DoD policies governing Accounting for Intra-governmental Activities, Public Debt.

For regulatory discussion on Debt, see Department of Defense Financial Management Regulation, Volume 6B,
Chapter 10, paragraph 1015.




                                                                NOTES       TO THE   PRINCIPAL STATEMENTS                        87
                                                                      DEPARTMENT           OF THE   NAVY



N OTE 14. E NVIRONMENTAL L IABILITIES

       As of September 30,                                                                           2003                               2002
                                                                       Current Liability    Noncurrent Liability       Total            Total
        (Amounts in thousands)
     1. Environmental Liabilities - Non Federal
       A. Accrued Environmental Restoration (DERP funded) Costs:
          1. Active Installations--Environmental Restoration (ER)      $       516,113 $                2,616,014 $     3,132,127   $     3,520,838
          2. Active Installations--ER for Closed Ranges                         14,288                    326,978         341,266          349,975
         3. Formerly Used Defense Sites (FUDS) – ER                                    0                           0           0                     0
         4. FUDS--ER for Transferred Ranges                                            0                           0           0                     0

       B. Other Accrued Environmental Costs (Non-DERP funds)
         1. Active Installations--Environmental Corrective Action                      0                           0           0                     0
         2. Active Installations—Environmental Closure Requirements                    0                           0           0                     0
         3. Active Installations--Environ.Response at Active Ranges                    0                           0           0                     0
         4. Other                                                                      0                           0           0                     0

       C. Base Realignment and Closure (BRAC)
         1. BRAC Installations--Environmental Restoration (ER)                 606,278                    549,668       1,155,946         1,293,311
         2. BRAC Installations--ER for Transferring Ranges                        4,707                    10,844          15,551               29,896
         3. BRAC Installations--Environmental Corrective Action                       0                         0               0                    0
         4. Other                                                                      0                           0           0                     0

       D. Environmental Disposal for Weapons Systems Programs
         1. Nuclear Powered Aircraft Carriers                                          0                5,565,000       5,565,000         4,890,000
         2. Nuclear Powered Submarines                                                 0                4,888,900       4,888,900         4,888,900
         3. Other Nuclear Powered Ships                                               0                   269,100        269,100           269,100
         4. Other National Defense Weapons Systems                                4,729                   241,805        246,534           227,053
         5. Chemical Weapons Disposal Program                                         0                         0              0                     0
         6. Other                                                                      0                           0           0                 0
        E. Total Nonfederal Environmental Liabilities:                 $     1,146,115 $              14,468,309 $     15,614,424   $   15,469,073
       2. Total Environmental Liabilities:                             $     1,146,115 $              14,468,309 $     15,614,424   $   15,469,073


3. Information Related to Environmental Liabilities:

Fluctuation and/or Abnormalities
Accrued Environmental Restoration – The DON reported a decrease of $388,711 thousand, 11 percent, for Accrued
Environmental Restoration at active installations when compared to FY 2002. The decrease is a result of adjusted
predictions using more conservative estimates that approximate the expected rate of execution.

BRAC Installations – Environmental Restoration (ER) and ER for Transferring Ranges. The DON reported a decrease
of $ 137,365 thousand, 11 percent and $14,345 thousand, 48 percent, for BRAC-ER and ER for Transferring
Ranges, respectively in FY 2003 when compared to FY 2002. The decrease is a result of adjusted predictions using
more conservative estimates that approximate the expected rate of execution.


88      GENERAL FUND
                                                                                    2003 ANNUAL FINANCIAL REPORT



DON reported an increase of $675,000 thousand, 14 percent, in Nuclear Powered Aircraft Carriers in FY 2003
compared with FY 2002. The increase in this area is a result of adding the environmental liability of an aircraft
carrier, the Ronald Reagan, and an adjustment for inflation.

Other Information Related to Environmental Liabilities

Environmental Restoration (DERP Funded) Cost Liabilities: For FY 2003, the DON estimated and reported
$3,473,393 thousand for environmental restoration liabilities. This amount is comprised of $ 3,132,127 thousand in
Active Installations - Environmental Restoration (ER) liabilities and $ 341,266 thousand in Active Installations – ER for
Closed Ranges liabilities, which represents Unexploded Ordnance Cost (UXO) related to twelve sites. The DoD FMR,
Volume 6B, Chapter 10 requires that “any estimate produced must be based on site specific information and use cost
models validated in accordance with DoD instruction 5000.61.” The DON plans to support this requirement and
continue validating its range inventory and pursuing the process of obtaining valid cost estimates for each range.

Other Accrued Environmental Costs (Non-DERP funds): The DON developed guidance for the DON Major Commands
to use as they begin to identify site data and develop estimates for the DON’s “ongoing” operations. The DON
continued review of program areas such as solid waste management unit cleanup, landfill closure, permitted facilities,
removal, replacement, retrofill, and/or disposal of PCB transformers, underground storage tank remedial investigation
and closure. For these areas the DON has identified an estimated total potential long-term liability of $21,063
thousand with the largest item being underground storage tank corrective action. In addition to cleanup costs
associated with ongoing operations, the Kaho’Olawe Island Trust Fund provides for cleanup of Kaho’Olawe Island.
Congress initially set a funding limit of $400,000 thousand with annual execution of $25,000 thousand. Further
investigation is needed prior to recognizing an estimate on the financial statements for cleanup of Kaho’Olawe
Island.

Base Realignment and Closure (BRAC): For FY 2003, the DON estimated and reported $ 1,171,497 thousand for
BRAC funded environmental restoration liabilities. This amount includes $ 1,155,946 thousand for environmental
restoration (ER) and $ 15,551 thousand for transferring ranges. It includes military munitions, chemical residues from
military munitions, and munitions scrap at locations on or associated with a military range on a BRAC installation.

Environmental Disposal for Weapons Systems Programs: The DON reported an environmental disposal liability for
Weapons Systems Programs of $ 10,969,534 thousand FY 2003. This amount includes nuclear powered aircraft
carriers of $ 5,565,000 thousand, nuclear powered submarines of $ 4,888,900 thousand, other nuclear powered
ships of $269,100 thousand and other national defense weapons systems of $246,534 thousand. The liability
amount associated with nuclear powered submarines and nuclear powered ships did not change from FY 2002 to
FY 2003.

Methodology Used to Estimate Environmental Liabilities

Accrued Environmental Restoration (DERP Funded) Costs:

Accrued Environmental Restoration Activity (ER): Accrued restoration (cleanup) liabilities represent the cost to correct
past environmental problems that are funded under the Defense Environmental Restoration Program in accordance
with “Management Guidance for the DERP,” and “Accrued Environmental Restoration (Cleanup) Liabilities,” Chapter
14 of Volume 4 of the DoD FMR. These liabilities relate to PP&E, including acquired land and Stewardship Land, as
those major asset categories are described in Chapter 6 of Volume 4 of the DoD FMR. Environmental restoration
activities may be conducted at operating installations, at FUDS, at Closed, Transferred, and Transferring Ranges.
Environmental restoration measurements involve the use of cost estimates that consider, on a current cost basis, the
anticipated costs of the level of effort required to affect the restoration, as well as applicable legal and/or regulatory
requirements. Program management and support costs are included in the estimates. The estimates are based on the
DON’s cost-to-complete (CTC) module of the DON Normalization of Data System (NORM). Certification of the CTC
module was completed early in FY 2002. Such cost estimates are based on the current technology available.




                                                         NOTES   TO THE   PRINCIPAL STATEMENTS                               89
                                                        DEPARTMENT     OF THE   NAVY



Site inventory and estimated cost data prepared for the DERP report to the Congress was used by the DON as the
baseline for environmental restoration (cleanup) liability measurement (i.e., the current cost to acquire the required
services). The Accrued Environmental Restoration (Cleanup) Costs do not include the costs of environmental
compliance, pollution prevention, conservation activities, contamination or spills associated with current operations, or
treaty obligations, all of which are accounted for as part of ongoing operations. The Department of the Navy’s
Environmental Restoration (ER,N) Program includes 3,668 clean-up sites while those installations covered by Base
Realignment and Closure (BRAC) funding includes 1,020 clean-up sites.

Active Installations – Environmental Restoration For Closed Ranges: This represents the environmental liabilities
associated with the identification, investigation and removal and remedial actions to address environmental
contamination at ranges that are closed or will be closed prior to September 30, 2002. The contamination may
include munitions, chemical residues from military munitions and munitions scrap at ranges on active installations that
pose a threat to human health or the environment. The amount reported is the portion of the liability that can be
estimated based on site level investigations and characterizations. The estimate produced is based on site specific
information and use cost models validated in accordance with DoD Instruction 5000.61. Total liabilities (cost-to-
complete) are not estimated until there is sufficient site specific data available to estimate the total liability. Beginning
in FY 2001, the Department began an inventory of closed ranges and transferring ranges under the Military
Munitions Response Program (MMRP) or UXO program. The inventory was completed September 2002 and contains
196 closed ranges at active installations and 16 transferring ranges at BRAC sites.

Information regarding changes
Survey data of the Department of the Navy Environmental Restoration Program cost estimate changes for sites that
had over 10 percent change or 500 thousand indicates diverse reasons for change in estimates. Multiple reasons
may apply both as plus-ups and deducts at any site. The reasons for changes are estimation changes (26 percent),
regulatory changes (60 percent), and technical changes (15 percent). Reasons for changes in estimation are as
follows: cost-to-complete (CTC) overlooked or previously unknown, better site characterization with sampling, cost
avoidance rerun CTC, re-estimation based on different assumptions and/or escalation, and re-estimation of costs
based on lessons learned. Reasons for changes in the area of regulatory are as follows: addition of range
rule/munitions requirements, additional or extended long-term monitoring requirements or 5 year reviews, no further
action agreement with regulator, and risk based corrective action. Reasons for changes in the area of technical are
as follows: additional contamination level reduction with sampling, additional or extended remedial action operation,
additional sites and incomplete site data, and technical solution changed.

Reference
The following is a summary of significant laws that affect the Department’s conduct of environmental policy and
regulations.

The National Environmental Policy Act (NEPA) of 1970 requires the Department to consider the environmental impacts
of proposed actions in the decision making process. Per DON regulations, the action proponent will determine the
level or amount of NEPA documentation required. The Resource Conservation and Recovery Act (RCRA) of 1976 as
amended by the Hazardous and Solid Waste Amendments of 1984 (HSWA), was the first comprehensive federal
effort to deal with safe disposal of all types of hazardous wastes, and provides for “cradle to grave” tracking of
hazardous wastes. Permits are required for treatment, storage or disposal. Requirements for underground storage
tanks (USTs) are also contained in RCRA.




90   GENERAL FUND
                                                                                  2003 ANNUAL FINANCIAL REPORT



The Comprehensive Environmental Response, Compensation, and Liability Act of 1980 (CERCLA), commonly referred
to as the Superfund, provided for Federal agencies authority to response to the release or the substantial threat of
release of hazardous substances into the environment. CERCLA was amended several times one of which was the
Community Environmental Response Facilitation Act of 1992. The Department must identify real property on each
facility that is not contaminated and that offers the greatest opportunity for expedited reuse and redevelopment.
When property is transferred, BRAC or non-BRAC, the Department is still responsible for any remediation or
corrective action or any response action found to be necessary after the transfer.

For the nuclear powered aircraft carriers, submarines, and other nuclear ships, the following significant laws affect
the Department’s conduct of environmental policy and regulations. The Atomic Energy Act of 1954, as amended,
assures the proper management of source, special nuclear, and byproduct material. As in all cases with nuclear
power, the Department coordinates all actions with the Department of Energy. The Nuclear Waste Policy Act of
1982 required all owners and generators of high-level nuclear waste and spent nuclear fuel, to pay their respective
shares of the full cost of the program. Finally, the Low Level Radioactive Waste Policy Amendments Act of 1986,
provides for the safe and efficient management of low-level radioactive waste.

For additional information concerning applicable laws and regulations, methodology for assigning estimated cleanup
costs, and description of sites and technology used for cleanup consult the the “FY 2002 Defense Environmental
Restoration Program Annual Report to Congress.”

For regulatory discussion on Environmental Liabilities, see Department of Defense Financial Management Regulation,
Volume 6B, Chapter 10, paragraph 1016.




                                                       NOTES   TO THE   PRINCIPAL STATEMENTS                            91
                                                                      DEPARTMENT          OF THE   NAVY



N OTE 15.A. O THER L IABILITIES

       As of September 30,                                                                    2003                              2002
                                                                          Current          Noncurrent
       (Amounts in thousands)                                                                                   Total           Total
                                                                          Liability         Liability
       1. Intra-governmental:
         A. Advances from Others                                      $               0    $            0   $           0   $             0
         B. Deferred Credits                                                          0                 0               0                 0

          C. Deposit Funds and Suspense Account Liabilities                    223,225                  0        223,225            250,075
          D. Resources Payable to Treasury                                           0                  0              0                930
          E. Disbursing Officer Cash                                           282,996                  0        282,996            130,664
          F. Nonenvironmental Disposal Liabilities:
             (1) National Defense PP&E (Nonnuclear)                                  0                0               0                   0
             (2) Excess/Obsolete Structures                                          0                0               0                   0
             (3) Conventional Munitions Disposal                                     0                0               0                   0
             (4) Other                                                               0                0               0                   0
          G. Accounts Payable-- Cancelled Appropriations                             0                0               0                   0
          H. Judgement Fund Liabilities                                         49,157                0          49,157            105,842
          I. FECA Reimbursement to the Department of Labor                     248,250          313,855         562,105            566,145
          J. Capital Lease Liability                                                 0                0               0                   0
          K. Other Liabilities                                               2,740,858            1,572       2,742,430           2,435,847
          L. Total Intra-governmental Other Liabilities               $      3,544,486     $    315,427     $ 3,859,913     $     3,489,503
       2. Non-Federal:
          A. Accrued Funded Payroll and Benefits                      $        394,706     $            0   $    394,706    $     1,011,367
          B. Advances from Others                                                    0                  0              0              1,135
          C. Deferred Credits                                                        0                  0              0                  0
          D. Loan Guarantee Liability                                                0                  0              0                  0
          E. Liability for Subsidy Related to Undisbursed Loans                      0                  0              0                  0
          F. Deposit Funds and Suspense Accounts                                     0                  0              0                  0
          G. Temporary Early Retirement Authority                                2,933                  0          2,933              2,209
          H. Nonenvironmental Disposal Liabilities:
             (1) National Defense PP&E (Nonnuclear)                                  0          574,916           574,916          566,153
             (2) Excess/Obsolete Structures                                     37,733          286,537           324,270          332,575
             (3) Conventional Munitions Disposal                                     0                0                 0                 0
             (4) Other                                                               0                0                 0                 0
          I. Accounts Payable--Cancelled Appropriations                         23,238                0            23,238            68,833
          J. Accrued Unfunded Annual Leave                                   2,269,191                0         2,269,191         2,031,961
          K. Accrued Entitlement Benefits for Military Retirees and
          Survivors                                                                  0               0                0                   0
          L. Capital Lease Liability                                               146               0              146                 910
          M. Other Liabilities                                                 124,982          71,580          196,562            170,344
          N. Total Non-Federal Other Liabilities                      $      2,852,929     $ 933,033        $ 3,785,962     $     4,185,487
       3. Total Other Liabilities:                                    $      6,397,415     $ 1,248,460      $ 7,645,875     $     7,674,990

4. Other Information Related to Other Liabilities:




92   GENERAL FUND
                                                                                                2003 ANNUAL FINANCIAL REPORT



Fluctuation and/or Abnormalities
Intra-governmental Other Liabilities. The DON reported a decrease of $930 thousand, 100 percent, in Resources
Payables To Treasury (line 1D) in FY 2003 when compared to FY 2002. The decrease is due to the reduction in
Interest Payable to Treasury for Marine Corps. The DON also reported an increase of $152,332 thousand, 117
percent, in Disbursing Officer Cash (line 1E) in FY 2003 when compared to FY 2002. The increase is the result of
deployment of Operation IRAQI Freedom. In addition, the DON reported a decrease of $56,685 thousand, 54
percent, in the Judgment Fund Liabilities (line 1H) in FY 2003. The decrease is due to the aggressive effort of the
DON to reconcile and resolve claims under the Contract Dispute Act. The DON also reported an increase of
$306,583 thousand, 13 percent, in Other Liabilities (line 1K) in FY 2003. The increase of $56,839 thousand is due
to the interest from pending litigation.

Nonfederal Other Liabilities. The DON reported a decrease of $616,661 thousand, 61 percent in Accrued Funded
Payroll and Benefits in FY 2003 when compared to FY 2002. The decrease is due to the timing difference between
the end of the pay period and the calendar quarter end. There is also a decrease of $1,135 thousand, 100 percent,
in Advances from Others in FY 2003 is due to unfilled custom orders with advance being filled/earned prior to
September 30, 2003. Accounts Payable – Cancelled Appropriations decreased $45,595 thousand, 66 percent, in
FY 2003 due to better management of Accounts Payable in the canceling years. The FY 98 canceling years are
totally independent from the FY 97 canceling years. Capital Leases Liability decreased $764 thousand, 84 percent,
is due to the expiration of leases.

Other Disclosures

Intra-governmental Other Liabilities

Judgment Fund (Line1.H)
The DON must reimburse the Department of the Treasury for payments made from the Judgment Fund on its behalf.
These payments are a result of claims being resolved under the Contracts Dispute Act. Great strides have been made
in reconciling and identifying the outstanding Judgment Fund Liability. Since the beginning of FY 2003, the DON
has reduced the Judgment Fund from $105,842 thousand to $49,157 thousand as of September 30, 2003.
However, per the Department of the Treasury’s records the DON liability for the Judgement Fund as of September 30,
2003 was $64,439 thousand. In several cases a settlement agreement was entered into rather than a judgment
rendered and therefore, the DON believes it has no legal authority to reimburse the Judgment Fund. This fact
resulted in a $15,282 thousand difference between Treasury’s and the DON’s Judgment Fund balance.

Other Liabilities (Line 1.K.) includes the following:
                               (Amounts in thousands)                                  Total
                                Liability to Treasury & Others                            $2,644,396
                                Unemployment                                                  50,961
                                Employment Benefit                                            47,073
                               Total Intragovernmental Other Liabilities                  $2,742,430

With respect to the major fiduciary balances, the DON must reconcile with the DOL and OPM. In FY 2003, the
DON reported the following Intra-governmental Fiduciary liabilities: $562,106 thousand in FECA, $50,961 thousand
in Unemployment, $47,073 thousand in Employment Benefit, and $49,157 thousand in Judgment Fund.

Nonfederal Other Liabilities

Nonenvironmental Disposal Liability Disclosure
The DON has agreed to recognize the nonenvironmental disposal liability for nuclear powered assets when the asset
is initially placed in service. The nonenvironmental cost are included with the environmental disposal costs and
reported in Note 14.



                                                                     NOTES   TO THE   PRINCIPAL STATEMENTS                 93
                                                                DEPARTMENT      OF THE      NAVY



Excess/Obsolete Structures
Included in the reported amounts is the current cost basis estimates of disposing of, or demolishing, approximately
$324,270 thousand worth of square feet of excess/obsolete structures at active installations, in accordance with
disposal plans directed by Defense Reform Initiative Directive No. 36 Dated May 5, 1998. The expected completion
date is FY 2003. This target includes both the Navy and the Marine Corps real property assets.

Other Liabilities (Line 2.M.) includes $89,982 thousand Contract Holdbacks and $106,580 thousand Contract
Incentives.

Reference
See Note Disclosure 1.S. – Significant Accounting Policies for additional discussion on financial reporting
requirements and DoD policies governing Contingencies and Other Liabilities.


N OTE 15.B. C APITAL L EASE L IABILITY


      As of September 30,                                                                   2003                                        2002
                                                                                       Asset Category

     (Amounts in thousands)                                Land and Buildings   Equipment             Other           Total             Total

 1. Future Payments Due:
      A. Fiscal Year 2004                                   $               0   $           146   $           0   $           146   $           910
      B. Fiscal Year 2005                                                   0                 0               0                 0                 0
      C. Fiscal Year 2006                                                   0                 0               0                 0                 0
      D. Fiscal Year 2007                                                   0                 0               0                 0                 0
      E. Fiscal Year 2008                                                   0                 0               0                 0                 0
      F. After 5 Years                                                      0                 0               0                 0                 0
       G. Total Future Lease                                $               0   $           146   $           0   $           146   $           910
          Payments Due
      H. Less: Imputed Interest                                             0                 0               0                 0                 0
          Executory Costs
      I. Net Capital Lease Liability                        $               0   $           146   $           0   $           146   $           910


 2. Capital Lease Liabilities Covered by Budgetary Resources:                                                     $           146   $           910

 3. Capital Lease Liabilities Not Covered by Budgetary Resources:                                                 $             0   $             0
4. Other Information Related to Capital Lease Liability

Fluctuation and/or Abnormalities
The DON reported $764 thousand, 84 percent, decrease in Capital Lease Liability in FY 2003 compared with
FY 2002 is due to the expiration of leases.

Other Information Related to Capital Lease Liability
The liabilities associated with capital leases are captured in legacy systems and are often not recorded. The DON
has recognized a liability equal to the net value of the assets (i.e. gross value less accumulated amortization).
The resulting liability was recorded as a payment due in FY 2003. The proper breakout of future payments to
appropriate years will be done when a process for capturing lease liabilities is implemented.


94      GENERAL FUND
                                                                                      2003 ANNUAL FINANCIAL REPORT



Reference
See Note Disclosure 1.Q. – Significant Accounting Policies for additional discussion on financial reporting
requirements and DoD policies governing Leases.

For regulatory discussion on Capital Lease Liability, see Department of Defense Financial Management Regulation,
Volume 6B, Chapter 10, paragraph 1017.


N OTE 16. C OMMITMENTS             AND    C ONTINGENCIES

Other Information Related to Commitments and Contingencies

For FY 2003, the DON is subject to various asserted claims. These claims are in various stages ranging from
investigation to appeal. While remaining unresolved as of the close of FY 2003, prior experience affords the DON
the ability to forecast the possible loss associated with the claims. It is to be noted that most claims are settled for less
than the amount initially claimed, dismissed outright, or fail to materialize. As of September 30, 2003, contingent
liabilities consist of an estimated $103,936 thousand resulting from contractual actions; and approximately $26,282
thousand for employee related actions; $5,517 thousand for civil litigation; $69,733 thousand for foreign tax; and
$4,000 thousand for site closure costs. In addition to contingent liabilities, contractual commitments for cancelled
appropriations consist of an estimated $9,892 thousand.

                                            Category                  $ in thousands
                            Contractual Actions                   $             103,936
                            Employee Related Actions              $              26,282
                            Civil Litigation                      $               5,517
                            Foreign Tax                           $              69,733
                            Site Closure Costs                    $               4,000
                            Total                                 $         209,468,087

In addition to contingent liabilities, contractual commitments for cancelled appropriations consist of an estimated
$ 9,892 thousand.

                                       Category                    $ in thousands
                            Contractual Commitments         $                  $9,892
                            Total                           $                  $9,982

Reference
See Note Disclosure 1.S. – Significant Accounting Policies for additional discussion on financial reporting
requirements and DoD policies governing Contingencies and Other Liabilities.

For regulatory discussion on Commitment and Contingencies, see Department of Defense Financial Management
Regulation, Volume 6B, Chapter 10, paragraph 1018.




                                                         NOTES    TO THE   PRINCIPAL STATEMENTS                            95
                                                         DEPARTMENT         OF THE      NAVY



N OTE 17. M ILITARY R ETIREMENT B ENEFITS                   AND       O THER E MPLOYMENT R ELATED A CTUARIAL
L IABILITIES

                                                                                      2003                                           2002
      As of September 30,                           Actuarial Present                   (Less: Assets
      (Amount in Thousands)                        Value of Projected   Assumed        Available to Pay   Unfunded Actuarial     Unfunded
                                                      Plan Benefits   Interest Rate       Benefits)            Liability     Actuarial Liability


 1. Pension and Health Benefits:
    A. Military Retirement Pensions                $               0                   $          0        $            0        $            0
    B. Military Retirement Health Benefits                         0                              0                     0                     0
    C. Medicare-Eligible Retiree Benefits                          0                              0                     0                     0
    D. Total Pension and Health Benefits           $               0                   $          0        $            0        $            0

 2. Other
    A. FECA                                        $      1,589,971                    $          0        $ 1,589,971           $ 1,546,375
    B. Voluntary Separation Incentive Programs                    0                               0                  0                     0
    C. DoD Educational Benefits Fund                              0                               0                  0                     0
    D. Total Other                                 $      1,589,971                    $          0        $ 1,589,971           $ 1,546,375

 3. Total Military Retirement Benefits and Other
 Employment Related Actuarial Liabilities:         $      1,589,971                    $          0        $ 1,589,971           $ 1,546,375

4. Other Information Pertaining to Military Retirement Benefits and other Employment Related-
Related Actuarial Liabilities:

Reporting of Military Retirement Benefits by the Military Retirement Fund (MRF). The portion of the military retirement
benefits actual liability applicable to the DON is reported on the financial statements of MRF.

Reporting of Liability Pertaining to Military Health Benefits Compensation. Health benefits are funded centrally at the
DoD level. As such, the portion of the health benefits actuarial liability that is applicable to DON is reported only on
the DoD Agency-wide financial statements.

Federal Employees Compensation Act (FECA).
• Actuarial Cost Method Used:
• Assumptions:
Future Workers’ Compensation

The DON’s actuarial liability for workers’ compensation benefits is developed by DOL and provided to DON at the
end of each fiscal year. The liability includes the expected liability for death, disability, medical, and miscellaneous
costs for approved compensation cases. The liability is determined using a method that utilizes historical benefit
payment patterns to predict the ultimate payments. The projected annual benefit payments are then discounted to the
present value using the OMB’s economic assumptions for 10-year U.S. Treasury notes and bonds. Cost of living
adjustments and medical inflation factors are also applied to the calculation of projected future benefits. Interest rate
assumptions utilized for discounting were as follows:

        FY 2003
        5 percent in Year 1
        5 percent in Year 2 and thereafter




96     GENERAL FUND
                                                                                         2003 ANNUAL FINANCIAL REPORT



Inflation factors were applied to provide more specifically the effects on the liability for future workers’ compensation
benefits. Cost of living adjustments (COLAs) were used as a wage inflation factor and consumer price index medical
(CPIMs) were used as medical inflation factors. These factors were also used to adjust the methodology’s historical
payments to current year constant dollars.

The compensation COLAs and CPIMs used in the projections for various charge back years (CBY) were as follows:

                                  CBY                    COLA                  CPIM
                                  2003                  3 percent             4 percent
                                  2004                  3 percent             4 percent
                                 2005+                  3 percent             4 percent

The model’s resulting projections were analyzed to insure that the estimates were reliable. The analysis was based
on two tests: (1) a comparison of the percentage change in the liability amount by agency to the percentage change
in the actual payments, and (2) a comparison of the ratio of the estimated liability to the actual payment of the
beginning year calculated for the current projection to the liability-payment ratio calculated for the prior projection.

The estimate was allocated between General Fund and Navy Working Capital Fund using a percentage based on
the number of civilian employees taken from the Navy Budget Tracking System. The following table details the
numbers used in support of the allocation:

                                                             Personnel         Allocation %

                             DON General Fund                       103,318        53%
                             DON Working Capital Fund                91,704        47%

                               Total                                195,022       100%

Voluntary Separation Incentive (VSI) Program. The Voluntary Separation Incentive (VSI) Fund (recorded on the books
of the U.S. Treasury) is used to accumulate funds to finance, on an actuarially sound basis, the liabilities of the DoD
incurred under this program. The VSI benefit is an annual annuity paid to members who have separated under this
program, and is paid for a period of time equal to twice the members’ years of service. These benefits are paid by
the VSI fund, which receives contributions from the services from their military personnel accounts. Contributions
amounts are determined by the DoD, Office of the Actuary in conjunction with the OUSD(C), based on a comparison
of liabilities to assets.

DoD Education Benefits Fund. The DoD Education Benefits Fund is designed to accumulate funds for the educational
programs described under Title 10 United States Code, section 2006. This program promotes the recruitment and
retention of members for the All-Volunteer Forces program and the Total Force Concept of the Armed Forces and aids
in the readjustment of members of the Armed Forces to civilian life after separation from military service.

Reference
For regulatory discussion on Military Retirement Benefits and Other Employee Related Actuarial Liabilities, see
Department of Defense Financial Management Regulation, Volume 6B, Chapter 10, paragraph 1019.




                                                          NOTES     TO THE    PRINCIPAL STATEMENTS                      97
                                                       DEPARTMENT      OF THE      NAVY



N OTE 18. U NEXPENDED A PPROPRIATIONS

                  As of September 30,                           2003                           2002
                  (Amounts in thousands)
                1. Unexpended Appropriations:
                  A. Unobligated, Available              $             2,169,736     $           10,567,040
                  B. Unobligated, Unavailable                            998,235                  1,318,416
                  C. Unexpended Obligations                           47,613,208                 52,888,872
                  D. Total Unexpended Appropriations     $            50,781,179     $           64,774,328


Other Information Pertaining to Unexpended Appropriations:

Fluctuation and/or Abnormalities
The DON reported a decrease of $13,993,149 thousand, 22 percent, on Total Unexpended Appropriations in FY
2003 when compared with FY 2002. The decrease in Unobligated, Available and Unavailable and Unexpended
Obligations is a result of improved program execution. The Unobligated, Available is subject to obligations in future
years for those multi-year accounts and therefore, is still available for obligating.



N OTE 19.A. G ENERAL D ISCLOSURES R ELATED                   TO THE    S TATEMENT         OF    N ET C OST
Fluctuation and/or Abnormalities
The DON reported an increase of $8,589,165 thousand, 8 percent, in the Net Cost of Operations FY 2003 when
compared to FY 2002. Effecting this increase was the implementation of the new accounting standard SFFAS No. 23
“Eliminating the Category of National Defense Property, Plant, and Equipment.” The standard requires the
capitalization and depreciation of the cost of military equipment, including the cost of modifications and upgrades.
The DON reported Net Book Value of $132,660,000 thousand for military equipment and recorded current period
depreciation expenses of $16,500,000 thousand in FY 2003.

Intra-governmental Gross Costs increased by $5,231,484 thousand, 17 percent, over FY 2002, and is coupled with
an increase in Intra-governmental Earned Revenue of $1,977,035 thousand, 163 percent. Similarly, Gross Costs with
the public increased $5,532,763 thousand, 7 percent, over FY 2002 and is coupled with an increase in Earned
Revenue from the public of $198,047 thousand, 12 percent. The result was an overall increase in the Net Cost of
operations of $8,589,165 thousand, 8 percent, which is driven by the increased level of the DON’s execution of
program budgets. DON program costs showed the following major fluctuations from FY 2002: Military Personnel
costs increased $6,439,690 thousand, 22 percent; Operations and Maintenance costs increased $7,899,491
thousand, 23 percent; RDT&E costs increased $1,822,672 thousand, 18 percent; while Procurement costs decreased
$10,559,703 thousand, 38 percent over FY 2002 execution levels. Another factor represents $2,475,541 thousand
in costs for trading partner difference which must be accrued on the DON’s book at the component level and are not
identifiable to any one program.

Other Disclosures Related to the Statement of Net Cost
The Consolidated Statement of Net Cost in the federal government is unique because its principles are driven on
understanding the net cost of programs and/or organizations that the federal government supports through
appropriations or other means. This statement provides gross and net cost information that can be related to the
amount of output or outcome for a given program and/or organization administered by a responsible reporting
entity.

The amounts presented in the Statement of Net Cost (SoNC) are based on obligations and disbursements and
therefore may not in all cases report actual accrued costs. The DON generally records transactions on a cash basis
and not an accrual basis as is required by Federal GAAP. Therefore, the DON systems do not capture actual costs.



98   GENERAL FUND
                                                                                             2003 ANNUAL FINANCIAL REPORT



As such, information presented in the SoNC is based on budgetary obligations, disbursements, and collection
transactions, as well as non-financial feeder systems; then adjusted to record known accruals for major items such as
payroll expenses, accounts payable, and environmental liabilities.



N OTE 19.B. G ROSS C OST               AND      E ARNED R EVENUE      BY   B UDGET F UNCTIONAL C LASSIFICATION
Not Applicable.



N OTE 19.C. G ROSS C OST TO G ENERATE I NTRA - GOVERNMENTAL R EVENUE AND E ARNED
R EVENUE (T RANSACTIONS WITH O THER F EDERAL —N ON -D O D—E NTITIES ) BY B UDGET
F UNCTIONAL C LASSIFICATION
Not Applicable.



N OTE 19.D. I MPUTED E XPENSES
                    As of September 30,
                    (Amount in thousands)                                   2003                    2002

                    1. Civilian (e.g.,CSRS/FERS) Retirement           $            231,585      $      183,704
                    2. Civilian Health                                             232,822             235,713
                    3. Civilian Life Insurance                                         904                 880
                    4. Military Retirement Pension                                       0                   0
                    5. Military Retirement Health                                        0                   0
                    6. Judgment Fund                                                44,408             104,997
                    7. Total Imputed Expenses                         $            509,719      $      525,294


Other Information Related to Imputed Expenses
The DON financial statements have recognized an imputed expense for civilian employee pensions, life insurance,
and health benefits in the Statement of Net Cost. Imputed expenses for employee benefits were calculated using cost
factors provided by OPM applied against gross basic pay for all categories of civilian service employees. The gross
basic pay amounts were extracted directly from the Defense Civilian Pay System (DCPS).



N OTE 19.E. B ENEFIT P ROGRAM E XPENSES
Not Applicable.


N OTE 19.F. E XCHANGE R EVENUE
Disclosures Related to Exchange Revenue: None.


N OTE 19.G. A MOUNTS               FOR      F OREIGN M ILITARY S ALES (FMS) P ROGRAM P ROCUREMENTS
FROM  C ONTRACTORS
Not Applicable.




                                                              NOTES   TO THE   PRINCIPAL STATEMENTS                     99
                                                               DEPARTMENT        OF THE    NAVY



 N OTE 19.H. S TEWARDSHIP A SSETS

 Other Information Related to Stewardship Assets

 Stewardship assets include Heritage Assets, Stewardship Land, Non-Federal Physical Property, and Investments in
 Research and Development. The current year cost of acquiring, constructing, improving, reconstructing, or renovating
 stewardship assets are included in the Statement of Net Cost.



 N OTE 19.I. I NTRA - GOVERNMENTAL R EVENUE                         AND      E XPENSE

 The majority of DON accounting systems do not capture trading partner data at the transaction level in a manner that
 facilities trading partner aggregations. Therefore, DON was unable to reconcile intra-governmental revenue
 balances with its trading partners. DoD intends to develop long-term systems improvements that will include sufficient
 up-front edits and controls to eliminate the need for after-the-fact reconciliations. The volume of intra-governmental
 transactions is so large that after-the-fact reconciliation can not be accomplished with existing or foreseeable
 resources.


 N OTE 20. D ISCLOSURES R ELATED                TO THE      S TATEMENT           OF   C HANGES        IN   N ET P OSITION



                                                     Cumulative Results of                                             Unexpended
                                                                                Unexpended       Cumulative Results   Appropriations
                                                       Operations 2003       Appropriations 2003 of Operations 2002
 As of September 30,                                                                                                      2002
 (Amounts in thousands)
 1. Prior Period Adjustments Increases (Decreases) to
 Net Position Beginning Balance:
    A. Changes in Accounting Standards                $     152,557,286      $              0     $               0   $                0
    B. Errors and Omissions in Prior Year
        Accounting Reports                                            0                     0         (27,802,492)           1,553,324
    C. Other Prior Period Adjustments                                 0                     0                    0                   0
    D. Total Prior Period Adjustments                 $     152,557,286      $              0     $    (27,802,492)   $      1,553,324

 2. Imputed Financing:
   A. Civilian CSRS/FERS Retirement                   $         231,585      $              0     $        183,704    $                0
   B. Civilian Health                                           232,822                     0              235,713                     0
   C. Civilian Life Insurance                                       904                     0                  880                     0
   D. Military Retirement Pension                                     0                     0                    0                     0
   E. Military Retirement Health                                      0                     0                    0                     0
   F. Judgment Fund                                              44,408                     0              104,997                     0
   G. Total Imputed Financing                         $         509,719      $              0     $        525,294    $                0



 3. Other Information Related to the Statement of Changes in Net Position.

 The changes in accounting standards is a result of implementing the Statement of Federal Financial Accounting
 Standands No. 23, “Eliminating the Category National Defense Property, Plant, and Equipment.” Implementing this
 new standard resulted in a prior period adjust of $152,557,286 thousand that represents military equipment and
 recognizing conventional missiles and torpedoes as operating, materials, and supplies.



100    GENERAL FUND
                                                                                                       2003 ANNUAL FINANCIAL REPORT



Other Disclosures

Imputed Financing
The DON financial statements have recognized an imputed financing source for civilian employee pensions, life
insurance, and health benefits in the Statement of Net Cost. Imputed financing sources for employee benefits were
calculated using cost factors provided by OPM applied against gross basic pay for all categories of civilian service
employees. The gross basic pay amounts were extracted directly from the Defense Civilian Pay System (DCPS).

Judgment Fund
Treasury provided information related to amounts paid for Judgment Fund liabilities on behalf of the DON, which the
DON may or may not be required to repay. Judgment Fund payments made out of the following Treasury
appropriations do not require reimbursement, and therefore represent imputed financing to the DON: 20X1740,
20X1741, and 20X1742. Only those payments made from Treasury appropriation 20X1743 are required to be
repaid by DON.


N OTE 21.A. D ISCLOSURES R ELATED                        TO THE       S TATEMENT          OF   B UDGETARY R ESOURCES

      As of September 30,                                                                                     2003            2002
      (Amounts in thousands)

      1. Net Amount of Budgetary Resources Obligated for Undelivered Orders at the End of the Period     $   64,855,940   $   61,642,520
      2. Available Borrowing and Contract Authority at the End of the Period                                        739                0


Information Related to the Statement of Budgetary Resources

The Net Amount of Budgetary Resources Obligated for Undelivered Orders on Note 21A is greater than Undelivered
Orders (Line 14C) on the SBR. The reason for the variance is due to USSGL account 4802, Undelivered Orders-Paid,
being reflected in Note 21 A but not mapped to the SBR line 14C.

The difference of $36,740 thousand between the SBR Appropriations Received when compared with the Statement of
Change of Net Position Appropriations Received is due to the Trust Fund.

Other Disclosures

Obligations Incurred includes $124,497,950 thousand Direct Obligations and $8,079,881 thousand Reimbursable
Obligations. Contract Authority of $739 thousand represents a line of credit established in the Naval Academy Gift
and Museum Fund for museum renovation.

Due to accounting system deficiencies, intra-governmental transactions were not eliminated for the presentation of a
Consolidated Statement of Budgetary Resources (SBR).

In FY 2003, DoD treated Foreign Military Sales (FMS) Trust Fund transactions as nonfederal, and are presented as
such in the Balance Sheet (BS) and the Statement of Net Cost. Accounts Receivable and Revenues related to FMS are
recognized in the SBR. Therefore, reconciling differences exist between the SBR and the BS. OUSD(C) Accounting
Policy is currently researching the issue to determine the proper treatment of FMS Trust Fund transactions to ensure
proper reporting.




                                                                      NOTES      TO THE     PRINCIPAL STATEMENTS                           101
                                                               DEPARTMENT   OF THE      NAVY



 N OTE 21.B. D ISCLOSURES R ELATED TO P ROBLEM D ISBURSEMENTS , I N - TRANSIT D ISBURSEMENTS
 AND  S USPENSE /B UDGET C LEARING A CCOUNTS

                                                                                                               (Decrease)/Increase
      As of September 30,                               2001                2002               2003            from 2002 to 2003
                   (Amounts in thousands)
         1. Total Problem Disbursements

             A. Absolute Unmatched Disbursements    $     366,000   $         352,000    $      144,000    $             (208,000)
             B. Negative Unliquidated Obligations          69,000              41,000            42,000                     1,000
         2. Total In-transit Disbursements, Net     $      65,256    $         51,551     $     (11,621)   $              (63,172)

        3. Other Information Related to Problem Disbursements and In-transit Disbursement :

 Definitions
 Absolute value is the sum of the positive values of debit and credit transactions without regard to the sign.

 UMDs occur when payments do not match to a corresponding obligation in the accounting system.

 NULOs occur when payments have a valid obligation but the payment is greater than the amount of the obligation
 recorded in the official accounting system. These payments use available funds for valid receiving reports on
 delivered goods and services under valid contracts.

 In-Transits represents the net value of disbursements and collections made by a DoD disbursing activity on behalf of
 an accountable activity but not yet posted in an accounting system.

 Other Disclosures

 Unmatched Disbursements, Negative Unliquidated Obligations, and In-transit Disbursement, Net represent
 disbursements of the DON funds that have been reported by a disbursing station to the Department of the Treasury
 but have not yet been precisely matched against the specific source obligation giving rise to the disbursements. For
 the most part, these payments have been made using available funds and are based on valid receiving reports for
 goods and services delivered under valid contracts.

 The elimination of both Problem Disbursements and In-transits is one of the highest financial management priorities of
 the OUSD(C). Problem Disbursements and In-transits represent a significant financial management concern since: (1)
 accuracy of accounting reports is affected; (2) availability of funds is more difficult to determine; and (3) the required
 research and resolution process becomes much more labor intensive as the age of the problem disbursements
 increase. As a result the DON has efforts underway to improve the systems and to resolve all previous problem
 disbursements and process all in-transit disbursements.




102    GENERAL FUND
                                                                                     2003 ANNUAL FINANCIAL REPORT



4. Suspense/Budget Clearing Accounts


                                                                                                   (Decrease)/ Increase from
As of September 30,                 2001                     2002                   2003                 2002 to 2003
        Account
          F3875                $            43,344     $        112,731       $        (262,678)    $              (375,409)
          F3880                             (1,749)               2,510                  (3,631)                     (6,141)
          F3882                                   0              23,965                  (4,172)                    (28,137)
          F3885                            801,469              445,921                (412,370)                   (858,291)
          F3886                                  (1)                622                      (2)                       (624)
        Total                  $           843,063     $        585,749       $        (682,853)    $            (1,268,602)


5. Other Information Related to Suspense/Budget Clearing Accounts

The DON has made a concerted effort to reduce balances in the suspense and budget clearing accounts related to
disbursements that are disclosed on line 4 of this note. Additionally, the DON is establishing policies and procedures
to ensure accurate and consistent use of these accounts. The information presented indicates the significant
reductions the DON has achieved in the various suspense/ budget clearing accounts. On September 30th of each
fiscal year, all of the uncleared suspense/budget clearing account balances are reduced to zero (as required by the
Department of the Treasury) by transferring the balances to proper appropriation accounts. On October 1st of the
following year, the uncleared suspense/clearing account balances are only reestablished for transactions that were
less than 60 days old at the end of the FY (excluding transactions dated before January 1, 2001).

The suspense accounts F3875/3885/3886 temporarily hold collections or disbursements until they can be assigned
or identified to a valid appropriation. Each suspense account represents the source of transaction coming from, i.e.
Disbursing Officer’s (DO) suspense (F3875), Interfund/IPAC (F3885), and Payroll (TSP) (F3886) suspense. DFAS-CL
has implemented several initiatives to improve the suspense clearing process and works with DOs to reduce suspense.
Matching criteria are currently being developed that will automate the manual process now used to clear Interfund
transactions from suspense. These initiatives should result in reduced suspense balances at year-end. The suspense
F3880 represents the Treasury checks that have either been lost by the payee and need reissued or never cashed by
the payee, cancelled by Treasury and require to be transferred to the original appropriation in accordance to the
DoD FMR, Volume 5, Chapter 8. Account F3882 Uniformed Services Thrift Savings Plan was first established in FY
2002, so there will be not be any trend information for FY 2001 and prior.




                                                           NOTES    TO THE   PRINCIPAL STATEMENTS                              103
                                                                     DEPARTMENT              OF THE      NAVY



 N OTE 22. D ISCLOSURES R ELATED                     TO THE      S TATEMENT              OF     F INANCING

 Fluctuation and/or Abnormalities
 When comparing Statement of Financing for FY 2003 to FY 2002, the variances are a result of report mapping
 changing from the old format in FY 2002 to the new format in FY 2003.

 Budgetary data is not in agreement with proprietary expenses and assets capitalized. This fact causes a difference in
 net cost between the Statement of Net Cost and the Statement of Financing. Adjustments are posted to the Statement
 of Financing for these differences.

 Other Disclosures

 The increase of resources that finance the acquisition of assets is primarily due to the implementation of SFFAS No.
 23 “Eliminating the Category of National Defense Property, Plant, and Equipment.” Correspondingly, there is also an
 increase in the reported depreciation for the military equipment.

 The Statement of Financing is presented as combined or combining statements rather than consolidated statements
 due to intra-governmental transactions not being eliminated. Adjustments in funds that are temporarily not available
 pursuant to Public Law, and those that are permanently not available (included in the “Adjustments” line on the
 Statement of Budgetary Resources), are not included in “Spending Authority From Offsetting Collections and
 Adjustments” line on the Statement of Budgetary Resources or on the Statement of Financing.

 The Statement of Financing was expanded to further articulate and detail the relationship between new obligations
 from budgetary accounting and net cost of operation from proprietary accounting. Some items that were reported
 last year as a single line were subdivided to reflect its components. Several new line items were added to separately
 identify and further explain the use of resources to finance net obligations or net cost of operations. This change
 notes key differences between the net obligations and net cost of operations.



 N OTE 23. D ISCLOSURES R ELATED                     TO THE      S TATEMENT              OF     C USTODIAL A CTIVITY
 Not Applicable.



 N OTE 24.A. O THER D ISCLOSURES - L EASES
 Entity as Lessee – Operating Leases
          As of September 30,
                                                                                       2003                                            2002
      (Amounts in thousands)
        B. Future Payments Due:             Land and Buildings       Equipment                Other               Total                Total
           Fiscal Year
              2004                            $        14,476    $                 4     $            1,116 $             15,596   $           10,934
              2005                                     15,381                     93                      0               15,474                9,220
              2006                                     17,291                    178                      0               17,469                9,464
              2007                                     17,355                    204                      0               17,559                9,619
              2008                                     17,367                    204                      0               17,571                8,955
           After 5 Years                                    0                      0                      0                    0                    0

          Total Future Lease Payments Due     $        81,870    $               683     $            1,116   $           83,669   $           48,192




104    GENERAL FUND
                                                                                 2003 ANNUAL FINANCIAL REPORT



Other Information Related to Entity as Lessee — Operating Leases

Fluctuations and/or Abnormalities
The DON reported an increase of $35,477 thousand, 74%, increase in Operating Leases Future Payment in FY
2003 when compared to FY 2002 is due to additional leases are reported by Commands in FY 2003.

Other Disclosures
The value for lease information is derived from the DON data collection process. This process only provides
summary values and no details for each of the leases at this time.

Definitions
Lessee – A person or entity who receives the use and possession of leased property (e.g. real estate or equipment)
from a lessor in exchange for a payment of funds.

Operating Lease - A lease which does not transfer substantially all the benefits and risk of ownership. Payments
should be charged to expense over the lease term as it becomes payable.



N OTE 24.B. O THER D ISCLOSURES
Not Applicable.




                                                       NOTES   TO THE   PRINCIPAL STATEMENTS                         105
                     DEPARTMENT   OF THE   NAVY




106   GENERAL FUND
                                                   COMBINING STATEMENTS
                                                   GENERAL FUND SUPPORTING CONSOLIDATING/
                      DEPARTMENT   OF THE   NAVY
GENERAL FUND SUPPORTING CONSOLIDATING/
                  COMBINING STATEMENTS




                                                                 107
                                                                    DEPARTMENT   OF THE     NAVY


 Department of Defense
 Department of the Navy
 CONSOLIDATING BALANCE SHEET
 As of September 30, 2003 and 2002
 ($ in thousands)
                                                                          Navy                Marine Corps          Component Level

      ASSETS (Note 2)
        Intragovernmental:
          Fund Balance with Treasury (Note 3)
               Entity                                                $    73,421,996    $           4,769,657   $                 0
               Non-Entity Seized Iraqi Cash                                        0                        0                     0
               Non-Entity - Other                                            223,225                        0                     0
         Investments (Note 4)                                                  9,801                        0                     0
          Accounts Receivable (Note 5)                                       449,402                  162,287               (29,669)
          Other Assets (Note 6)                                                    0                   10,514               177,351
                Total Intragovernmental Assets                       $    74,104,424    $           4,942,458   $           147,682
        Cash and Other Monetary Assets (Note 7)                      $       281,053    $               1,942   $                 0
        Accounts Receivable (Note 5)                                       3,326,236                   55,897                     0
        Loans Receivable (Note 8)                                                  0                        0                     0
        Inventory and Related Property (Note 9)                           53,097,159                  514,475                     0
        General Property, Plant and Equipment (Note 10)                  153,489,661                4,917,789                     0
        Investments (Note 4)                                                       0                        0                     0
        Other Assets (Note 6)                                              5,936,773                  243,851                     0
      TOTAL ASSETS                                                   $   290,235,306      $        10,676,412   $           147,682

      LIABILITIES (Note 11)
        Intragovernmental:
         Accounts Payable (Note 12)                                  $    (1,723,694)   $             88,156    $         2,755,728
         Debt (Note 13)                                                            0                       0                      0
         Environmental Liabilities (Note 14)                                       0                       0                      0
         Other Liabilities (Note 15 & Note 16)                             3,780,090                  79,823                      0
                Total Intragovernmental Liabilities                  $     2,056,396    $            167,979    $         2,755,728
        Accounts Payable (Note 12)                                   $       600,797    $          1,277,025    $          (135,300)
        Military Retirement Benefits and Other Employment-Related
          Actuarial Liabilities (Note 17)                                  1,362,866                  227,105                     0
        Environmental Liabilities (Note 14)                               15,614,424                        0                     0
        Loan Guarantee Liability (Note 8)                                          0                        0                     0
        Other Liabilities (Note 15 and Note 16)                            3,417,897                  368,065                     0
        Debt Held by Public (Note 13)                                              0                        0                     0
      TOTAL LIABILITIES                                              $    23,052,380    $           2,040,174   $         2,620,428

      NET POSITION
        Unexpended Appropriations (Note 18)                          $    49,436,482    $           3,817,443   $         (2,472,746)
        Cumulative Results of Operations                                 217,746,444                4,818,795                      0
      TOTAL NET POSITION                                             $   267,182,926      $         8,636,238   $         (2,472,746)

      TOTAL LIABILITIES AND NET POSITION                             $   290,235,306      $        10,676,412   $           147,682




108      GENERAL FUND
                                                                                                      2003 ANNUAL FINANCIAL REPORT


Department of Defense
Department of the Navy
CONSOLIDATING BALANCE SHEET
As of September 30, 2003 and 2002
($ in thousands)

                                                                     Combined          Eliminations           2003               2002
                                                                       Total                               Consolidated       Consolidated
    ASSETS (Note 2)
      Intragovernmental:
        Fund Balance with Treasury (Note 3)
             Entity                                              $    78,191,653   $             0     $     78,191,653   $     67,999,880
             Non-Entity Seized Iraqi Cash                                      0                 0                    0                  0
             Non-Entity - Other                                          223,225                 0              223,225            250,075
       Investments (Note 4)                                                9,801                 0                9,801              9,625
        Accounts Receivable (Note 5)                                     582,020            85,157              496,863            742,467
        Other Assets (Note 6)                                            187,865                 0              187,865             67,081
              Total Intragovernmental Assets                     $    79,194,564   $        85,157     $     79,109,407   $     69,069,128
      Cash and Other Monetary Assets (Note 7)                    $       282,995   $             0     $        282,995   $        130,664
      Accounts Receivable (Note 5)                                     3,382,133                 0            3,382,133          2,799,887
      Loans Receivable (Note 8)                                                0                 0                    0                  0
      Inventory and Related Property (Note 9)                         53,611,634                 0           53,611,634         33,003,595
      General Property, Plant and Equipment (Note 10)                158,407,450                 0          158,407,450         26,109,437
      Investments (Note 4)                                                     0                 0                    0                  0
      Other Assets (Note 6)                                            6,180,624                 0            6,180,624          4,780,462
   TOTAL ASSETS                                                  $   301,059,400   $        85,157     $    300,974,243   $    135,893,173

   LIABILITIES (Note 11)
     Intragovernmental:
      Accounts Payable (Note 12)                                 $     1,120,190   $        85,157     $      1,035,033   $        748,279
      Debt (Note 13)                                                           0                 0                    0                127
      Environmental Liabilities (Note 14)                                      0                 0                    0                  0
      Other Liabilities (Note 15 & Note 16)                            3,859,913                 0            3,859,913          3,489,503
             Total Intragovernmental Liabilities                 $     4,980,103   $        85,157     $      4,894,946   $      4,237,909
     Accounts Payable (Note 12)                                  $     1,742,522   $             0     $      1,742,522   $      1,510,329
     Military Retirement Benefits and Other Employment-Related
       Actuarial Liabilities (Note 17)                                 1,589,971                 0            1,589,971          1,546,375
     Environmental Liabilities (Note 14)                              15,614,424                 0           15,614,424         15,469,073
     Loan Guarantee Liability (Note 8)                                         0                 0                    0                  0
     Other Liabilities (Note 15 and Note 16)                           3,785,962                 0            3,785,962          4,185,487
     Debt Held by Public (Note 13)                                             0                 0                    0                  0
   TOTAL LIABILITIES                                             $    27,712,982   $        85,157     $     27,627,825   $     26,949,173

   NET POSITION
     Unexpended Appropriations (Note 18)                         $    50,781,179   $             0     $     50,781,179   $     64,774,328
     Cumulative Results of Operations                                222,565,239                 0          222,565,239         44,169,672
   TOTAL NET POSITION                                            $   273,346,418   $             0     $    273,346,418   $    108,944,000

   TOTAL LIABILITIES AND NET POSITION                            $   301,059,400   $        85,157     $    300,974,243   $    135,893,173




                                              SUPPORTING CONSOLIDATING/COMBINING STATEMENTS                                                  109
                                                           DEPARTMENT      OF THE    NAVY



 Department of Defense
 Department of the Navy
 CONSOLIDATING STATEMENT OF NET COST
 For the years ended September 30, 2003 and 2002
 ($ in thousands)
                                                                                               Marine Corps              DON
                                                       Navy              Marine Corps         Component Level       Component Level
      Program Costs
      Military Personnel
         Intragovernmental Gross Costs             $    9,976,728    $       2,158,831    $                0    $                0
         (Less Intragovernmental Earned Revenue)          (70,213)               1,064                     0                     0
         Intragovernmental Net Costs               $    9,906,515    $       2,159,895    $                0    $                0

         Gross Costs With the Public               $   15,841,374    $      8,668,473     $                0    $                0
         (Less: Earned Revenue From the Public)          (281,482)                  0                      0                     0
         Net Costs With the Public                 $   15,559,892    $      8,668,473     $                0    $                0
        Net Program Cost                           $   25,466,407    $     10,828,368     $                0    $                0

      Operations and Maintenance
        Intragovernmental Gross Costs              $   16,589,828    $        194,073     $                0    $                0
         (Less Intragovernmental Earned Revenue)       (2,227,758)           (377,261)                     0                     0
        Intragovernmental Net Costs                $   14,362,070    $       (183,188)    $                0    $                0

         Gross Costs With the Public               $   23,897,853    $      4,792,689     $                0    $                0
         (Less: Earned Revenue From the Public)        (1,036,745)                  0                      0                     0
         Net Costs With the Public                 $   22,861,108    $      4,792,689     $                0    $                0
        Net Program Cost                           $   37,223,178    $      4,609,501     $                0    $                0

      Procurement
         Intragovernmental Gross Costs             $    3,968,352    $          (1,545)   $                0    $                0
         (Less Intragovernmental Earned Revenue)         (886,743)                 103                     0                     0
         Intragovernmental Net Costs               $    3,081,609    $          (1,442)   $                0    $                0

         Gross Costs With the Public               $   13,395,399    $      1,111,662     $                0    $                0
         (Less: Earned Revenue From the Public)          (310,683)                  0                      0                     0
         Net Costs With the Public                 $   13,084,716    $      1,111,662     $                0    $                0
        Net Program Cost                           $   16,166,325    $      1,110,220     $                0    $                0

      Research, Development, Test & Evaluation
         Intragovernmental Gross Costs             $      993,892    $              0     $                0    $                0
         (Less Intragovernmental Earned Revenue)         (237,506)                  0                      0                     0
         Intragovernmental Net Costs               $      756,386    $              0     $                0    $                0

         Gross Costs With the Public               $   11,418,578    $              0     $                0    $                0
         (Less: Earned Revenue From the Public)            (4,122)                  0                      0                     0
         Net Costs With the Public                 $   11,414,456    $              0     $                0    $                0
        Net Program Cost                           $   12,170,842    $              0     $                0    $                0




110      GENERAL FUND
                                                                                                2003 ANNUAL FINANCIAL REPORT



Department of Defense
Department of the Navy
CONSOLIDATING STATEMENT OF NET COST
For the years ended September 30, 2003 and 2002
($ in thousands)


                                                           Combined Total        Eliminations          2003                 2002
                                                                                                    Consolidated         Consolidated
   Program Costs
   Military Personnel
      Intragovernmental Gross Costs                    $      12,135,559     $              0   $      12,135,559    $       5,070,720
      (Less Intragovernmental Earned Revenue)                    (69,149)                   0             (69,149)            (209,189)
      Intragovernmental Net Costs                      $      12,066,410     $              0   $      12,066,410    $       4,861,531

      Gross Costs With the Public                      $      24,509,847     $              0   $      24,509,847    $      25,061,634
      (Less: Earned Revenue From the Public)                    (281,482)                   0            (281,482)             (68,080)
      Net Costs With the Public                        $      24,228,365     $              0   $      24,228,365    $      24,993,554
     Net Program Cost                                  $      36,294,775     $              0   $      36,294,775    $      29,855,085

   Operations and Maintenance
     Intragovernmental Gross Costs                     $      16,783,901     $              0   $      16,783,901    $      20,573,858
      (Less Intragovernmental Earned Revenue)                  (2,605,019)                  0          (2,605,019)            (824,786)
     Intragovernmental Net Costs                       $      14,178,882     $              0   $      14,178,882    $      19,749,072

      Gross Costs With the Public                      $      28,690,542     $              0   $      28,690,542    $      15,215,208
      (Less: Earned Revenue From the Public)                   (1,036,745)                  0          (1,036,745)          (1,031,092)
      Net Costs With the Public                        $      27,653,797     $              0   $      27,653,797    $      14,184,116
     Net Program Cost                                  $      41,832,679     $              0   $      41,832,679    $      33,933,188

   Procurement
      Intragovernmental Gross Costs                    $        3,966,807    $              0   $       3,966,807    $       4,107,978
      (Less Intragovernmental Earned Revenue)                    (886,640)                  0            (886,640)            (100,053)
      Intragovernmental Net Costs                      $        3,080,167    $              0   $       3,080,167    $       4,007,925

      Gross Costs With the Public                      $      14,507,061     $              0   $      14,507,061    $      24,291,643
      (Less: Earned Revenue From the Public)                    (310,683)                   0            (310,683)            (463,320)
      Net Costs With the Public                        $      14,196,378     $              0   $      14,196,378    $      23,828,323
     Net Program Cost                                  $      17,276,545     $              0   $      17,276,545    $      27,836,248

   Research, Development, Test & Evaluation
      Intragovernmental Gross Costs                    $         993,892     $              0   $         993,892    $         26,807
      (Less Intragovernmental Earned Revenue)                   (237,506)                   0            (237,506)              (1,734)
      Intragovernmental Net Costs                      $         756,386     $              0   $         756,386    $         25,073

      Gross Costs With the Public                      $      11,418,578     $              0   $      11,418,578    $      10,376,773
      (Less: Earned Revenue From the Public)                       (4,122)                  0              (4,122)             (53,676)
      Net Costs With the Public                        $      11,414,456     $              0   $      11,414,456    $      10,323,097
     Net Program Cost                                  $      12,170,842     $              0   $      12,170,842    $      10,348,170




                                                SUPPORTING CONSOLIDATING/COMBINING STATEMENTS                                             111
                                                                DEPARTMENT        OF THE   NAVY



 Department of Defense
 Navy Working Capital Fund
 CONSOLIDATING STATEMENT OF NET COST
 For the years ended September 30, 2003 and 2002
 ($ in thousands)
                                                                                                      Marine Corps               DON
                                                                 Navy             Marine Corps       Component Level        Component Level
      Program Costs
      Military Construction/Family Housing
         Intragovernmental Gross Costs                      $     204,387     $             0    $                 0    $                0
         (Less Intragovernmental Earned Revenue)                 (124,381)                  0                      0                     0
         Intragovernmental Net Costs                        $      80,006     $             0    $                 0    $                0

         Gross Costs With the Public                        $   1,370,505     $             0    $                 0    $                0
         (Less: Earned Revenue From the Public)                  (369,889)                  0                      0                     0
         Net Costs With the Public                          $   1,000,616     $             0    $                 0    $                0
        Net Program Cost                                    $   1,080,622     $             0    $                 0    $                0

      Other
         Intragovernmental Gross Costs                      $       (2,083)   $             0    $                 0    $                0
         (Less Intragovernmental Earned Revenue)                  (26,447)                  0                      0                     0
         Intragovernmental Net Costs                        $     (28,530)    $             0    $                 0    $                0
         Gross Costs With the Public                        $    112,352      $             0    $                 0    $                0
         (Less: Earned Revenue From the Public)                  (10,133)                   0                      0                     0
         Net Costs With the Public                          $    102,219      $             0    $                 0    $                0
        Net Program Cost                                    $     73,689      $             0    $                 0    $                0

      Total Program Costs
         Intragovernmental Gross Costs                      $ 31,731,104      $      2,351,359 $           1,672,422    $         (398,483)
         (Less Intragovernmental Earned Revenue)              (3,573,048)             (376,094)               14,563               533,783
         Intragovernmental Net Costs                        $ 28,158,056      $      1,975,265 $           1,686,985    $          135,300
         Gross Costs With the Public                        $ 66,036,061      $     14,572,824   $        (1,777,548)   $         2,337,446
         (Less: Earned Revenue From the Public)               (2,013,054)                    0                93,358                      0
         Net Costs With the Public                          $ 64,023,007      $     14,572,824   $        (1,684,190)   $         2,337,446
        Net Program Cost                                    $ 92,181,063      $     16,548,089   $             2,795    $         2,472,746
      Costs Not Assigned to Programs                                   0                     0                     0                      0
      (Less: Earned Revenue Not Attributable to Programs)              0                     0                     0                      0
      Net Cost of Operations                                $ 92,181,063      $     16,548,089   $             2,795    $         2,472,746




112      GENERAL FUND
                                                                                                   2003 ANNUAL FINANCIAL REPORT



Department of Defense
Department of the Navy
CONSOLIDATING STATEMENT OF NET COST
For the years ended September 30, 2003 and 2002
($ in thousands)

                                                              Combined Total        Eliminations            2003                 2002
                                                                                                         Consolidated         Consolidated
   Program Costs
   Military Construction/Family Housing
      Intragovernmental Gross Costs                       $         204,387     $              0     $        204,387     $          62,054
      (Less Intragovernmental Earned Revenue)                      (124,381)                   0             (124,381)              (73,804)
      Intragovernmental Net Costs                         $          80,006     $              0     $         80,006     $         (11,750)

      Gross Costs With the Public                         $       1,370,505     $              0     $      1,370,505     $        647,686
      (Less: Earned Revenue From the Public)                       (369,889)                   0             (369,889)             (69,133)
      Net Costs With the Public                           $       1,000,616     $              0     $      1,000,616     $        578,553
     Net Program Cost                                     $       1,080,622     $              0     $      1,080,622     $        566,803

   Other
      Intragovernmental Gross Costs                       $           (2,083)   $              0     $          (2,083)   $         69,673
      (Less Intragovernmental Earned Revenue)                       (26,447)                   0              (26,447)                (367)
      Intragovernmental Net Costs                         $         (28,530)    $              0     $        (28,530)    $         69,306
      Gross Costs With the Public                         $         112,352     $              0     $        112,352     $          43,076
      (Less: Earned Revenue From the Public)                        (10,133)                   0              (10,133)              (36,348)
      Net Costs With the Public                           $         102,219     $              0     $        102,219     $           6,728
     Net Program Cost                                     $          73,689     $              0     $         73,689     $          76,034

   Total Program Costs
      Intragovernmental Gross Costs                       $      35,356,402     $        213,828     $     35,142,574     $      29,911,090
      (Less Intragovernmental Earned Revenue)                    (3,400,796)            (213,828)          (3,186,968)           (1,209,933)
      Intragovernmental Net Costs                         $      31,955,606     $              0     $     31,955,606     $      28,701,157
       Gross Costs With the Public                        $      81,168,783     $              0     $     81,168,783     $      75,636,020
       (Less: Earned Revenue From the Public)                    (1,919,696)                   0           (1,919,696)           (1,721,649)
       Net Costs With the Public                          $      79,249,087     $              0     $     79,249,087     $      73,914,371
      Net Program Cost                                    $     111,204,693     $              0     $    111,204,693     $     102,615,528
    Costs Not Assigned to Programs                                        0                    0                    0                     0
    (Less: Earned Revenue Not Attributable to Programs)                   0                    0                    0                     0
    Net Cost of Operations                                $     111,204,693     $              0     $    111,204,693     $     102,615,528




                                                SUPPORTING CONSOLIDATING/COMBINING STATEMENTS                                                113
                                                                 DEPARTMENT   OF THE   NAVY



 Department of Defense
 Department of the Navy
 CONSOLIDATING STATEMENT OF CHANGES IN NET POSITION
 For the years ended September 30, 2003 and 2002
 ($ in thousands)


                                                                       Navy                Marine Corps           Component Level
      Cumulative Results of Operations
        Beginning Balances                                        $     39,580,404     $         4,589,268    $                     0
         Prior period adjustments (+/-)                                152,557,286                       0                          0
         Beginning Balances, as adjusted                          $    192,137,690     $         4,589,268    $                     0
       Budgetary Financing Sources:
        Appropriations Received                                   $              0     $                0     $                   0
        Appropriations transferred in/out (+/-)                                  0                      0                         0
        Other adjustments (rescissions, etc) (+/-)                               0                      0                         0
        Appropriations used                                            117,288,658             16,720,086                 2,472,746
        Nonexchange revenue                                                      0                      0                         0
        Donations and forfeitures of cash and cash equivalents                   0                      0                         0
        Transfers in/out without reimbursement (+/-)                             0                      0                         0
        Other budgetary financing sources (+/-)                                  0                      0                         0
       Other Financing Sources:
        Donations and forfeitures of property                                    0                       0                        0
        Transfers in/out without reimbursement (+/-)                        48,973                   2,794                       (2)
        Imputed financing from costs absorbed by others                    452,189                  57,530                        0
        Other (+/-)                                                              0                       0                        0
       Total Financing Sources                                    $    117,789,820     $        16,780,410    $           2,472,744
         Net Cost of Operations (+/-)                             $     92,181,063     $        16,550,884    $           2,472,746
         Ending Balances                                          $    217,746,447     $         4,818,794    $                  (2)

      Unexpended Appropriations
        Beginning Balances                                        $     61,818,979     $         2,955,349    $                     0
         Prior period adjustments (+/-)                                          0                       0                          0
         Beginning Balances, as adjusted                          $     61,818,979     $         2,955,349    $                     0
       Budgetary Financing Sources:
        Appropriations Received                                   $    104,816,344     $        17,316,344    $                   0
        Appropriations transferred in/out (+/-)                          1,367,327                 442,961                        0
        Other adjustments (rescissions, etc) (+/-)                      (1,277,509)               (177,125)                      (1)
        Appropriations used                                           (117,288,658)            (16,720,086)              (2,472,746)
        Nonexchange revenue                                                      0                       0                        0
        Donations and forfeitures of cash and cash equivalents                   0                       0                        0
        Transfers in/out without reimbursement (+/-)                             0                       0                        0
        Other budgetary financing sources (+/-)                                  0                       0                        0
       Other Financing Sources:
        Donations and forfeitures of property                                    0                       0                        0
        Transfers in/out without reimbursement (+/-)                             0                       0                        0
        Imputed financing from costs absorbed by others                          0                       0                        0
        Other (+/-)                                                              0                       0                        0
       Total Financing Sources                                    $    (12,382,496)    $           862,094    $          (2,472,747)
         Net Cost of Operations (+/-)                             $              0     $                 0    $                   0
         Ending Balances                                          $     49,436,483     $         3,817,443    $          (2,472,747)




114      GENERAL FUND
                                                                                                      2003 ANNUAL FINANCIAL REPORT



Department of Defense
Department of the Navy
CONSOLIDATING STATEMENT OF CHANGES IN NET POSITION
For the years ended September 30, 2003 and 2002
($ in thousands)



                                                                 Combined Total        Eliminations          2003                2002
                                                                                                          Consolidated        Consolidated
  Cumulative Results of Operations
    Beginning Balances                                       $      44,169,672     $             0    $      44,169,672   $     74,443,852
     Prior period adjustments (+/-)                                152,557,286                   0          152,557,286        (27,802,492)
     Beginning Balances, as adjusted                         $     196,726,958     $             0    $     196,726,958         46,641,360
   Budgetary Financing Sources:
    Appropriations Received                                  $               0     $             0    $               0                  0
    Appropriations transferred in/out (+/-)                                  0                   0                    0                  0
    Other adjustments (rescissions, etc) (+/-)                               0                   0                    0                  0
    Appropriations used                                            136,481,490                   0          136,481,490         99,612,676
    Nonexchange revenue                                                      0                   0                    0                  0
    Donations and forfeitures of cash and cash equivalents                   0                   0                    0                  0
    Transfers in/out without reimbursement (+/-)                             0                   0                    0                  0
    Other budgetary financing sources (+/-)                                  0                   0                    0                  0
   Other Financing Sources:
    Donations and forfeitures of property                                    0                   0                    0                  0
    Transfers in/out without reimbursement (+/-)                        51,765                   0               51,765              5,871
    Imputed financing from costs absorbed by others                    509,719                   0              509,719            525,294
    Other (+/-)                                                              0                   0                    0                  0
   Total Financing Sources                                   $     137,042,974     $             0    $     137,042,974        100,143,841
     Net Cost of Operations (+/-)                            $     111,204,693     $             0    $     111,204,693        102,615,528
     Ending Balances                                         $     222,565,239     $             0    $     222,565,239   $     44,169,673

  Unexpended Appropriations
    Beginning Balances                                       $      64,774,328     $             0    $      64,774,328   $     61,982,518
     Prior period adjustments (+/-)                                          0                   0                    0          1,553,324
     Beginning Balances, as adjusted                         $      64,774,328     $             0    $      64,774,328   $     63,535,842
   Budgetary Financing Sources:
    Appropriations Received                                  $     122,132,688     $             0    $     122,132,688 $       99,524,458
    Appropriations transferred in/out (+/-)                          1,810,288                   0            1,810,288          2,727,308
    Other adjustments (rescissions, etc) (+/-)                      (1,454,635)                  0           (1,454,635)        (1,363,575)
    Appropriations used                                           (136,481,490)                  0         (136,481,490)       (99,649,705)
    Nonexchange revenue                                                      0                   0                    0                  0
    Donations and forfeitures of cash and cash equivalents                   0                   0                    0                  0
    Transfers in/out without reimbursement (+/-)                             0                   0                    0                  0
    Other budgetary financing sources (+/-)                                  0                   0                    0                  0
   Other Financing Sources:
    Donations and forfeitures of property                                     0                  0                    0                  0
    Transfers in/out without reimbursement (+/-)                              0                  0                    0                  0
    Imputed financing from costs absorbed by others                           0                  0                    0                  0
    Other (+/-)                                                               0                  0                    0                  0
   Total Financing Sources                                   $      (13,993,149)   $             0    $     (13,993,149) $       1,238,486
     Net Cost of Operations (+/-)                            $                0    $             0    $               0 $                0
     Ending Balances                                         $       50,781,179    $             0    $      50,781,179 $       64,774,328




                                               SUPPORTING CONSOLIDATING/COMBINING STATEMENTS                                                  115
                                                                         DEPARTMENT      OF THE    NAVY



 Department of Defense
 Department of the Navy
 COMBINING STATEMENT OF BUDGETARY RESOURCES
 For the years ended September 30, 2003 and 2002
 ($ in thousands)

      BUDGETARY FINANCING ACCOUNTS
                                                                                       Marine          Component        2003               2002
                                                                      Navy             Corps             Level        Combined           Combined
      BUDGETARY RESOURCES
        Budget Authority:
            Appropriations Received                              $ 104,853,084     $ 17,316,344    $           0   $ 122,169,428     $   99,561,202
            Borrowing Authority                                              0                0                0               0                  0
            Contract Authority                                             739                0                0             739                  0
            Net transfers (+/-)                                      1,254,747          407,395                0       1,662,142          2,676,247
            Other                                                            0                0                0               0                  0
         Unobligated Balance:
            Beginning of period                                     11,642,091          266,892                0       11,908,983        13,835,828
            Net transfers, actual (+/-)                                109,980           35,566                0          145,546            51,061
            Anticipated Transfers Balances                                   0                0                0                0                 0
        Spending Authority from Offsetting Collections:
            Earned
             Collected                                                6,244,971         547,585                0        6,792,556         6,489,962
             Receivable from Federal sources                         (1,040,041)       (171,491)               0       (1,211,532)         (263,453)
            Change in unfilled customer orders
             Advances received                                         (59,842)           0                    0         (59,842)        1,286
             Without advance from Federal sources                      154,071      154,211                    0         308,282       186,518
            Anticipated for the rest of year, without advances               0            0                    0               0             0
            Transfers from trust funds                                       0            0                    0               0             0
           Subtotal                                              $   5,299,159 $    530,305 $                  0   $   5,829,464 $   6,414,313
        Recoveries of prior year obligations                     $   5,011,529 $ 1,997,810 $                   0   $   7,009,339 $   2,286,834
         Temporarily not available pursuant to Public Law                    0            0                    0               0             0
        Permanently not available                                   (1,275,449)    (177,125)                   0      (1,452,574)   (1,399,956)
        Total Budgetary Resources                                $ 126,895,880 $ 20,377,187 $                  0   $ 147,273,067 $ 123,425,529




116      GENERAL FUND
                                                                                                 2003 ANNUAL FINANCIAL REPORT



Department of Defense
Department of the Navy
COMBINING STATEMENT OF BUDGETARY RESOURCES
For the years ended September 30, 2003 and 2002
($ in thousands)

  BUDGETARY FINANCING ACCOUNTS
                                                                             Marine           Component          2003               2002
                                                             Navy            Corps              Level          Combined           Combined
  STATUS OF BUDGETARY RESOURCES
    Obligations Incurred:
        Direct                                         $ 105,844,310     $ 18,653,640     $            0    $ 124,497,950     $    99,307,751
        Reimbursable                                       6,943,352        1,136,529                  0        8,079,881          12,208,795
        Subtotal                                       $ 112,787,662     $ 19,790,169     $            0    $ 132,577,831         111,516,546
    Unobligated balance:
        Apportioned                                    $  13,240,876          456,125     $           0     $ 13,697,001         10,590,567
        Exempt from apportionment                                  0                0                 0                 0                 0
        Other available                                            0                0                 0                 0                 0
    Unobligated Balances Not Available                       867,342          130,893                 0           998,235         1,318,416
    Total, Status of Budgetary Resources               $ 126,895,880     $ 20,377,187     $           0     $ 147,273,067     $ 123,425,529

  RELATIONSHIP OF OBLIGATIONS TO OUTLAYS:
    Obligated Balance, Net-beginning of period         $   53,464,877    $   2,635,309    $            0    $ 56,100,186      $    52,333,850
    Obligated Balance transferred, net (+/-)                        0                0                 0               0                    0
    Obligated Balance, net-end of period:
        Accounts Receivable                                  (835,725)         (62,117)                0         (897,842)         (2,109,374)
        Unfilled customer order from Federal sources       (2,215,181)        (120,295)                0       (2,335,476)         (2,027,193)
        Undelivered Orders                                 62,972,743        3,096,354        (2,650,097)      63,419,000          55,633,755
        Accounts Payable                                     (583,582)       1,268,697         2,650,097        3,335,212           4,603,000
    Outlays:
       Disbursements                                     102,788,724       16,262,309                  0      119,051,033       105,540,310
       Collections                                         (6,185,129)       (547,585)                 0        (6,732,714)      (6,491,249)
       Subtotal                                        $ 96,603,595      $ 15,714,724     $            0    $ 112,318,319        99,049,061
    Less: Offsetting receipts                                (246,802)              0                  0          (246,802)        (213,345)
    Net Outlays                                        $ 96,356,793      $ 15,714,724     $            0    $ 112,071,517     $ 98,835,716




                                           SUPPORTING CONSOLIDATING/COMBINING STATEMENTS                                                   117
                                                                                     DEPARTMENT     OF THE    NAVY



Department of Defense
Department of the Navy
COMBINING STATEMENT OF FINANCING
For the years ended September 30, 2003 and 2002
($ in thousands)

                                                                                                             Marine           Component           2003               2002
                                                                                           Navy              Corps              Level           Combined           Combined

   Resources Used to Finance Activities:
   Budgetary Resources Obligated
      Obligations Incurred                                                            $   112,787,662    $ 19,790,169     $           0     $   132,577,831    $   111,516,546
      Less: Spending Authority from offsetting collections and recoveries (-)             (10,310,688)      (2,528,115)               0         (12,838,803)        (8,701,148)
      Obligations net of offsetting collections and recoveries                        $   102,476,974    $ 17,262,054     $           0     $   119,739,028    $   102,815,398
      Less: Offsetting receipts (-)                                                          (246,802)              0                 0            (246,802)          (213,345)
      Net obligations                                                                 $   102,230,172    $ 17,262,054     $           0     $   119,492,226    $   102,602,053
   Other Resources
      Donations and forfeitures of property                                                         0                 0               0                    0                 0
      Transfers in/out without reimbursement (+/-)                                            48,973             2,794                (2)           51,765                  0
      Imputed financing from costs absorbed by others                                        452,189            57,530                 0           509,719            525,294
      Other (+/-)                                                                                   0               0                  0                  0                  0
      Net other resources used to finance activities                                  $       501,162    $     60,324     $           (2)   $       561,484    $       525,294
      Total resources used to finance activities                                      $   102,731,334    $ 17,322,378     $           (2)   $   120,053,710    $   103,127,347

   Resources Used to Finance Items not Part of the Net Cost of Operations:
      Change in budgetary resources obligated for goods, services and benefits
      ordered but not yet provided
         Undelivered orders (-)                                                       $    (4,989,987)   $    (696,179)   $    2,472,746    $    (3,213,420)   $   (10,676,267)
         Unfilled Customer Orders                                                              94,229          154,211                 0            248,440            187,805
      Resources that fund expenses recognized in prior periods                                (28,643)          (2,641)               0             (31,284)          (620,162)
      Budgetary offsetting collections and receipts that do not affect Net Cost of
        Operations                                                                                  0                 0               0                    0                 0
      Resources that finance the acquisition of assets                                    (26,444,222)                0               0         (26,444,222)         7,487,846
      Other resources or adjustments to net obligated resources that do not
        affect Net Cost of Operations
         Less: Trust or Special Fund receipts related to exchange in the entity's
         budget (-)                                                                                 0                 0               0                    0                 0
        Other (+/-)                                                                                 0                 0               0                    0                 0
      Total resources used to finance items not part of the Net Cost of
        Operations                                                                    $   (31,368,623)   $   (544,609)    $    2,472,746    $   (29,440,486)   $    (3,620,778)
      Total resources used to finance the Net Cost of Operations                      $    71,362,711    $ 16,777,769     $    2,472,744    $    90,613,224    $    99,506,569




118       GENERAL FUND
                                                                                                               2003 ANNUAL FINANCIAL REPORT



Department of Defense
Department of the Navy
COMBINING STATEMENT OF FINANCING
For the years ended September 30, 2003 and 2002
($ in thousands)

                                                                                              Marine           Component          2003               2002
                                                                              Navy            Corps              Level          Combined           Combined
   Components of the Net Cost of Operations that will not Require or
   Generate Resources in the Current Period:

   Components Requiring or Generating Resources in Future Periods:
     Increase in annual leave liability                                  $            0   $            0   $           0    $              0   $      263,070
      Increase in environmental and disposal liability                                0                0               0                   0          595,543
      Upward/Downward reestimates of credit subsidy expense                           0                0               0                   0                0
      Increase in exchange revenue receivable from the public (-)                    0                0                0                 0                  0
      Other (+/-)                                                              392,738           35,606                0           428,344            117,595
      Total components of Net Cost of Operations that will require or
        generate resources in future periods                             $     392,738    $      35,606    $           0    $      428,344     $      976,208

   Components not Requiring or Generating Resources:
     Depreciation and amortization                                      $    16,832,811   $     103,665 $              0    $    16,936,476    $       916,360
      Revaluation of assets and liabilities (+/-)                             3,578,020        (374,291)               0          3,203,729         (1,684,365)
      Other (+/-)                                                                14,786           8,134                0             22,920          2,900,757
      Total components of Net Cost of Operations that will not require
        or generate resources                                           $    20,425,617   $    (262,492) $             0    $    20,163,125    $     2,132,752
       Total components of Net Cost of Operations that will not require
         generate resources in the current period                       $    20,818,355   $     (226,886) $             0   $    20,591,469    $     3,108,960
       Net Cost of Operations                                           $    92,181,066   $   16,550,883 $      2,472,744   $   111,204,693    $   102,615,529




                                                             SUPPORTING CONSOLIDATING/COMBINING STATEMENTS                                                119
                     DEPARTMENT   OF THE   NAVY




120   GENERAL FUND
                                                           SUPPLEMENTARY STEWARDSHIP INFORMATION
                                                           GENERAL FUND REQUIRED
                              DEPARTMENT   OF THE   NAVY
REQUIRED SUPPLEMENTARY STEWARDSHIP INFORMATION




                                                                       121
                                                             DEPARTMENT   OF THE   NAVY



 M ILITARY E QUIPMENT

 Narrative Statement
 The Federal Accounting Standards Advisory Board (FASAB) revised the Statement of Federal Financial Accounting
 Standards No. 6 to require the capitalization and depreciation of military equipment (formerly National Defense
 Property, Plant and Equipment/ND PP&E) for fiscal years (FY) 2003 and beyond, and encouraged early
 implementation. Therefore, RSSI reporting of military equipment has been terminated.

 H ERITAGE A SSETS
 For Fiscal Year Ended September 2003

        (a)                                           (b)               (c)          (d)          (e)            (f)
                                                  Measurement    As of 10/30/02    Additions   Deletions   As of 9/30/03
                                                    Quantity

 Museums                                             Each                     21      0            0                  21
 Monuments & Memorials                               Each                    507      5           10                 502
 Cemeteries                                          Sites                    57      0            0                  57
 Archeological Sites                                 Sites                23,283      2           23              23,262
 Buildings and Structures                            Each                  9,099      9           16               9,092
 Major Collections (See Supplemental Reporting)      Each




 Narrative Statement:

 The Department of the Navy (DON) is required to report Heritage Assets in accordance with the following public
 laws:
 • 10 USC 2721
 • USC 483(b)
 • Antiquities Act of 1906
 • Historic Sites Act of 1935
 • USC 470 National Historic Preservation Act of 1966
 • National Environmental Policy Act of 1969
 • American Indian Religious Freedom Act of 1978
 • Archeological Resources Protection Act of 1979
 • Native American Graves Protection & Repatriation Act of 1990
 • Presidential Memorandum for Heads of Executive Departments and Agencies:
     Government to Government Relations with Native American Tribal Governments Act of 1994
 • 36 CFR 79 – Curation of Federally Owned and Administered Archeological Collections

 In general, the DON defines Heritage Assets as items that are unique for one or more of the following reasons:
 historical or natural significance; cultural, educational or artistic importance; or significant architectural characteristics.

 Explanation for adjustments, additions, and deletions. For the DON historic buildings and structures, cemeteries,
 monuments, and memorials a new Heritage Assets data element series (DE 410) has been added to the internet
 Naval Facilities Asset Data Store (iNFADS). The DON staff is working to assess the availability of installation
 inventory and the technical ease of verifying and when necessary recording items in iNFADS that are not already
 recorded. Therefore, balances will change as the DON staff works to reconcile installation records for historic
 buildings, structures, cemeteries, monuments and memorials with those in iNFADS.




122     GENERAL FUND
                                                                                    2003 ANNUAL FINANCIAL REPORT



For Archaeological sites and artifacts, the DON has established a web-based data repository to collect
archaeological site and artifact information by installation, and will coordinate database population efforts in
FY 2004. Archaeological site data provided for FY 2003 was derived through data collection effort within the
heritage asset community.

The Department of the Navy Heritage Assets Management System (DONHAMS) has been implemented across the
DON to improve and unify the collections management process that includes archival items, artwork, and historical
artifacts are derived from DONHAMS. When implementing DONHAMS, data that was captured electronically was
converted and place into DONHAMS. The balances for the aforementioned items will change as DON museum and
archive staffs continue to evaluate, accession and catalogue items for inclusion into DONHAMS.

The DON recognizes that there are items that it owns that may be classified as Heritage Assets as the items are
evaluated, accessioned and catalogued.

Process used to establish assets as Heritage Assets. The processes used to establish items as having heritage
significance varies between categories and type of assets being evaluated. Subject matter experts play a significant
role in addition to other criteria such as listing on the National Register of Historic Places. In all cases, a myriad of
federal statutes, service regulations, and other guidelines mandate heritage significance or provide guidance in its
determination.

Multi-Use Heritage Assets. Per DoD FMR Volume 6B, Multi-Use Heritage Assets are reported both as Heritage
Assets and on the Balance Sheet.

Information Pertaining to the Condition of DON Heritage Assets. The methodology used to report the condition
of the heritage assets was a combination of visual assessment of the objects, historic value to the DON collection,
and general display and storage standards for historic collections. The overall condition of the collection objects is
good.

Museums
Museums are buildings, places, or institutions devoted to the acquisition, conservation, study, exhibition, and
educational interpretation of objects having scientific, historical, or artistic value.

Monuments and Memorials
Monuments and Memorials have significant monetary and/or historical value to the DON.

The FY 2002 ending balance of 483 was adjusted upward by 24 resulting in an FY 2003 beginning balance of
507. This adjustment was the result of the DON beginning to utilize the iNFADS to collect heritage asset information
by installation.

Cemeteries
Cemeteries are government owned burial grounds located on the DON Installations. The FY 2002 ending balance of
55 was adjusted upward by 2 resulting in an FY 2003 beginning balance of 57. This adjustment was a result of
adding two existing cemeteries to iNFADS.

Archeological Sites
Archeological Sites are lands on which items of significance are located.

Buildings and Structures
Buildings and Structures are listed on or determined eligible for listing on the National Register of Historic Places,
including Multi-use Heritage Assets. Criteria for evaluating National Register eligibility of these sites may be
referenced at 36 CFR 60.4.




                                       REQUIRED SUPPLEMENTARY STEWARDSHIP INFORMATION                                    123
                                                                    DEPARTMENT     OF THE      NAVY



 Supplemental Reporting. In addition to the data presented in the table above, the following supplemental
 information was reported as of 9/30/03:


            Category                        Measurement     As of 10/1/02          Additions            Deletions     As of 9/30/03
                                              Quantity
            Archeological Artifacts           Cubic Feet                  13,711               39                 0               13,749
            Archival                         Linear Feet                 122,575            4,054                 3              126,626
            Artwork                             Item                      37,556              335               511               37,380
            Historical Artifacts                Item                   1,115,628            7,344             8,565            1,114,407

 Archeological Artifacts
 The FY 2002 ending balance of 13,700 was adjusted upward by 11 resulting in an FY 2003 beginning balance of
 13,711. This adjustment was the result of a reclassification of some items from artifacts to archival records.

 Archival
 The FY 2002 ending balance of 61,957 was adjusted upward by 60,618 resulting in an FY 2003 beginning
 balance of 122,575. This adjustment was the result of a reclassification of some items from artifacts to archival
 records.

 Artwork
 The FY 2002 ending balance of 30,620 was adjusted upward by 6,936 resulting in an FY 2003 beginning balance
 of 37,556.

 Historical Artifacts
 The FY 2002 ending balance of 1,058,255 was adjusted upward by 57,373 resulting in an FY 2003 beginning
 balance of 1,115,628. This adjustment was the result of a reclassification of some items from artifacts to archival
 records.


 S TEWARDSHIP L AND
 For Fiscal Year Ended September 30, 2003
 (Acres in Thousands)


      (a)                                 (b)                 (c)                     (d)                         (e)
                                         As of                                                              As of 9/30/03
                                       10/1/02
 Land Use                                                  Additions               Deletions


 1. Mission                                   2,021                      0                          0                  2,021
 2. Parks & Historic Sites                        0                      0                          0                      0

   Totals                                     2,021                      0                          0                  2,021


 Narrative Statement:
 The DON followed the definition of Stewardship Land per DoD Guidance to include Public Domain, Land Set Aside,
 and Donated Land. The iNFADS was used to derive acres for Stewardship Land. Within the definition of
 Stewardship Land, land can be further defined as improved, semi-improved and other categories of land.




124     GENERAL FUND
                                                                                             2003 ANNUAL FINANCIAL REPORT



N ON -F EDERAL P HYSICAL P ROPERTY

The Department of the Navy does not fund this type of Activity.



I NVESTMENTS          IN   R ESEARCH        AND   D EVELOPMENT

Yearly Investment in Research and Development
For Fiscal Years 1999 through 2003
(In Millions of Dollars)

    (a)                                              (b)           (c)          (d)            (e)          (f)
Categories                                          FY99          FY00          FY01          FY02         FY03

1. Basic Research                                          $344          $345         $383       $378             $399

2. Applied Research                                         510           538          597           647          743

3. Development
    Advanced Technology Development                      532           607          738            779          836
    Advanced Component Development                     2,234         2,216        2,418          2,415        2,536
        And Prototypes
    System Development and
        Demonstration                                  2,019         2,225        2,086          2,836        4,200
    Research, Development, Test, and
        Evaluation Management Support                    709           750          782           838           797
    Operational Systems Development                    1,696         2,047        2,266         2,417         2,385

  Total                                               $8,044        $8,728       $9,270       $10,310      $11,896


Narrative Statement

Investments in Research and Development
Investment values included in this Report are based on Research and Development (R&D) outlays (expenditures).
Outlays are used because current DoD systems are unable to capture and summarize costs in accordance with
FASAB standards.

A. Basic Research
Basic Research is the systematic study to gain knowledge or understanding of the fundamental aspects of phenomena
and of observable facts without specific applications, processes, or products in mind. Basic Research involves the
gathering of fuller knowledge or understanding of the subject under study. Major outputs are scientific studies and
research papers.

The following are two representative program examples for the above major category.

Light Emitting Devices
The first-generation display based on polymers that conduct electric current and emit light is being produced and
distributed for evaluation. These polymers called “organic light-emitting diodes” or OLEDs are self-emissive, by
eliminating the need for background lighting that is used in conventional liquid-crystal displays, yet producing a crisp,
sharp image. The OLEDs also support moving images and offer wider viewing angles without image inversion or
loss of contract ratio. Products using this type of technology has the potential of producing such items as computer
displays, lighted faces of cell phones, and personal digital assistants (PDAs).



                                                REQUIRED SUPPLEMENTARY STEWARDSHIP INFORMATION                           125
                                                        DEPARTMENT    OF THE   NAVY



 Designer Proteins
 Proteins designed to follow marching orders are the latest in the new field of “synthetic biology,” where scientists can
 create certain organisms to perform specific tasks. A new technology that is being developed would enable plants to
 change color in the presence of chemical and biological agents. A new computational method for designing sensor
 proteins is the key. Plants that detect groundwater pollution around chemical facilities, for example, and react by
 changing color, could be feasible in the near future. A variety of uses are possible from this research such as a TNT-
 sensing protein to assist the U.S. Navy’s underwater robots with locating and disarming explosion devices.

 B. Applied Research
 Applied Research is the systematic study to gain knowledge or understanding necessary for determining the means
 by which a recognized and specific need may be met. It is the practical application of such knowledge or
 understanding for the purpose of meeting a recognized need. This research points toward specific military needs
 with a view toward developing and evaluating the feasibility and practicability of proposed solutions and
 determining their parameters. Major outputs are scientific studies, investigations, and research papers, hardware
 components, software codes, and limited construction of, or part of, a weapon system to include nonsystem specific
 development efforts.

 The following are two representative program examples for the above major category.

 Abrupt Wing Stall
 For the past 50 years, all aircraft that can operate at velocities near the speed of sound, and angles of attack near
 maximum lift, have experienced some form of uncommanded lateral motion or abrupt wing stall. The aircraft
 undergoes a one-sided or side-to-side upset from the intended direction of flight. At the very least, it causes loss of
 advantage. At its worst, it could result in a loss of the aircraft. The question that this project researched was the
 following: why did the F/A-018E/F jet fighters experience abrupt wing stall (AWS) when the F/A-18C/D jet fighters
 did not? A team of scientists and engineers conducted high-speed wind tunnel tests, performed hundreds of
 computational fluid dynamics calculations, and conducted both piloted and un-piloted simulations of AWS models.
 An AWS simulation model was developed and flown on a flight simulator. Both qualitative and quantitative
 simulation data were compared with actual flight test results. The team successfully developed new tools and
 procedures for an early assessment of an aircraft’s susceptibility to AWS. These tools and procedures include
 experimental, computational, simulation, and flight test figures of merit that can indicate if a new aircraft design will
 be vulnerable to AWS anywhere in its flight envelope.

 Naval-Commercial Test Kit (NACTEK) Water Test Kits
 The NACTEK water test kits to improve the Department of the Navy’s water-quality program. This effort sets an
 example of how the Operational Forces, Naval Research Science and Technology Action Team, Office of Naval
 Research program staff, and research scientists can work together as a team to develop a process that made use of
 commercial-off-the-shelf products rather than a Navy-developed system that would require extended development.

 C. Development
 Development takes what has been discovered or learned from basic and applied research and uses it to establish
 technological feasibility, assessment of operability, and production capability. Development is comprised of five
 stages defined below:

 1. Advance Technology Development is the systematic use of the knowledge or understanding gained from research
   directed toward proof of technological feasibility and assessment of operational and producibility rather than the
   development of hardware for service use. Employs demonstration activities intended to prove or test a technology
   or method.




126   GENERAL FUND
                                                                                  2003 ANNUAL FINANCIAL REPORT



2. Advanced Component Development and Prototypes evaluates integrated technologies in as realistic an operating
  environment as possible to assess the performance or cost reduction potential of advanced technology. Programs
  in this phase are generally system specific. Major outputs of Advanced Component Development and Prototype
  are hardware and software components, or complete weapon systems, ready for operational and developmental
  testing and field use.

3. System Development and Demonstration concludes the program or project and prepares it for production. It
  consists primarily of preproduction efforts, such as logistics and repair studies. Major outputs are weapons systems
  finalized for complete operational and development testing.

4. RDT&E Management Support is support for installations and operations for general research and development use.
  This category includes costs associated with test ranges, military construction maintenance support for laboratories,
  operation and maintenance of test aircraft and ships, and studies and analyses in support of the R&D program.

5. Operational Systems Development is concerned with development projects in support of programs or upgrades still
  in engineering and manufacturing development, which have received approval for production, for which
  production funds have been budgeted in subsequent fiscal years.

The following are two representative program examples for the above major category.

Submarine Acoustic Warfare Development
A submarine Defensive Warfare System (SDWS) is being developed to improve the effectiveness and survivability of
all classes of naval submarines. Acoustic Interception consist of developing a new acoustic sensor, the Sparsely
Populated Volumetric Array (SPVA), that will improve the performance of acoustic intercept systems. It will also
provide a ranging capability for submarines through Acoustic Rapid commercial-off-the-shelf Insertion and Advanced
Process build software improvements. Next Generation Countermeasures are also part of this effort.

SSN-688 and Trident Modernization
Under this program the Department of the Navy scientists continued the design and integration efforts of the Common
Submarine Radio Room (CSRR) in support of the OHIO class submarines. In addition, they began the CSRR
conversion of the TRIDENT Land-Based Evaluation Facility into a CSRR configuration, which will support all classes of
submarines. The scientists also completed environmental and qualification testing consisting of airborne/structure
borne noise, TEMPEST, humidity, overpressure, temperature, shock, inclination, and drip in support of Multifunctional
Crypto System (MCS).




                                     REQUIRED SUPPLEMENTARY STEWARDSHIP INFORMATION                                  127
                     DEPARTMENT   OF THE   NAVY




128   GENERAL FUND
                                                 GENERAL FUND REQUIRED SUPPLEMENTARY INFORMATION
                    DEPARTMENT   OF THE   NAVY
                       GENERAL FUND
REQUIRED   SUPPLEMENTARY INFORMATION




                                                            129
                                                                     DEPARTMENT         OF THE     NAVY


 Department of Defense
 Department of the Navy
 DISAGGREGATED STATEMENT OF BUDGETARY RESOURCES
 For the years ended September 30, 2003 and 2002
 ($ in thousands)
                                                                                           Research,
                                                                                       Development, Test         Operation and
                                                                     Other               & Evaluation             Maintenance           Procurement
      BUDGETARY FINANCING ACCOUNTS
      BUDGETARY RESOURCES
        Budget Authority
            Appropriations Received                              $     443,688     $           13,866,785    $        42,354,227    $      27,744,961
            Contract Authority                                               739                        0                      0                     0
            Net transfers (+/-)                                        (255,507)                  (77,869)             1,209,710              594,260
            Other                                                             0                         0                      0                     0
         Unobligated Balance:
            Beginning of period                                         37,538                  1,116,137                942,066             9,053,880
            Net transfers, actual (+/-)                                       0                   (44,039)                94,010               54,139
            Anticipated Transfers Balances                                    0                         0                      0                    0
         Spending Authority from Offsetting Collections:
            Earned                                                            0                         0                      0                     0
            Collected                                                         0                   269,635              4,459,542             1,027,974
            Receivable from Federal sources                                   0                   (28,007)            (1,163,010)             169,349
            Change in unfilled customer orders                                0                         0                      0                     0
            Advances received                                                 0                         0                (59,948)                    0
            Without advance from Federal sources                              0                  (157,683)               555,920             (161,081)
            Anticipated for the rest of year, without advances                0                         0                      0                    0
            Transfers from trust funds                                        0                         0                      0                    0
            Subtotal                                             $            0    $               83,945    $         3,792,504    $        1,036,242
      Recoveries of prior year obligations                       $       1,246     $              562,512    $         4,183,221    $        1,267,960
      Temporarily not available pursuant to Public Law                        0                         0                      0                     0
      Permanently not available                                          (1,441)                 (167,654)              (709,857)            (326,598)
      Total Budgetary Resources                                  $     226,263     $           15,339,817    $        51,865,881    $      39,424,844

      STATUS OF BUDGETARY RESOURCES
        Obligations Incurred
            Direct                                               $     125,130     $           13,574,331    $        45,257,714    $      27,185,912
            Reimbursable                                                     598                  342,630              5,749,577             1,017,120
            Subtotal                                             $     125,728     $           13,916,961    $        51,007,291    $      28,203,032
        Unobligated balance
            Apportioned                                          $      98,427     $            1,397,290    $            65,967    $      11,185,410
        Unobligated Balances Not Available                               2,109                     25,565                792,623               36,401
        Total, Status of Budgetary Resources                     $     226,264     $           15,339,816    $        51,865,881    $      39,424,843

      RELATIONSHIP OF OBLIGATIONS TO OUTLAYS:
        Obligated Balance, Net-beginning of period:              $      99,094     $            5,057,690    $        10,003,721    $      37,496,560
        Obligated Balance transferred, net (+/-)                              0                         0                      0                     0
        Obligated Balance, net-end of period:
            Accounts Receivable                                  $            0    $               (2,127)   $          (313,178)   $        (389,937)
            Unfilled customer order from Federal sources                      0                   (19,659)            (1,842,209)             142,971
            Undelivered Orders                                          95,085                  6,109,572             17,493,978           39,732,271
            Accounts Payable                                             7,658                     47,501                466,561            (1,812,407)
      OUTLAYS:
        Disbursements                                            $     120,833     $           12,462,543    $        41,629,728    $      26,750,467
        Collections                                                           0                  (269,635)            (4,399,594)           (1,027,974)
        Subtotal                                                 $     120,833     $           12,192,908    $        37,230,134    $      25,722,493
        Less: Offsetting receipts                                             0                         0               (246,802)                    0
         Net Outlays                                             $     120,833     $           12,192,908    $        36,983,332    $      25,722,493

130       GENERAL FUND
                                                                                                                2003 ANNUAL FINANCIAL REPORT

Department of Defense
Department of the Navy
DISAGGREGATED STATEMENT OF BUDGETARY RESOURCES
For the years ended September 30, 2003 and 2002
($ in thousands)
                                                                                           Military
                                                                  Military           Construction/Family
                                                                 Personnel                 Housing              2003 Combined          2002 Combined
  BUDGETARY FINANCING ACCOUNTS
  BUDGETARY RESOURCES
    Budget Authority
        Appropriations Received                              $    35,955,150     $             1,804,617    $      122,169,428     $        99,561,202
        Contract Authority                                                   0                         0                   739                       0
        Net transfers (+/-)                                          230,763                     (39,215)            1,662,142               2,676,247
        Other                                                                0                         0                     0                       0
     Unobligated Balance:
        Beginning of period                                          127,311                    632,051             11,908,983              13,835,828
        Net transfers, actual (+/-)                                   81,691                     (40,255)              145,546                  51,061
        Anticipated Transfers Balances                                       0                         0                     0                       0
     Spending Authority from Offsetting Collections:
        Earned                                                               0                         0                     0                       0
        Collected                                                    521,105                    514,301              6,792,556               6,489,962
        Receivable from Federal sources                             (170,474)                    (19,390)            (1,211,532)              (263,453)
        Change in unfilled customer orders                                   0                         0                     0                       0
        Advances received                                                    0                      106                 (59,842)                 1,286
        Without advance from Federal sources                           (1,682)                   72,808                308,282                 186,518
        Anticipated for the rest of year, without advances                   0                         0                     0                      0
        Transfers from trust funds                                           0                         0                     0                       0
        Subtotal                                             $       348,949     $              567,825     $        5,829,464     $         6,414,313
  Recoveries of prior year obligations                       $       957,070     $               37,332     $        7,009,339     $         2,286,834
  Temporarily not available pursuant to Public Law                           0                         0                     0                       0
  Permanently not available                                         (225,608)                    (21,415)            (1,452,574)            (1,399,956)
  Total Budgetary Resources                                  $    37,475,326     $             2,940,940    $      147,273,067     $       123,425,529

   STATUS OF BUDGETARY RESOURCES
    Obligations Incurred
        Direct                                               $    36,881,447     $             1,473,416    $      124,497,950     $        99,307,751
        Reimbursable                                                 416,471                    553,485              8,079,881              12,208,795
        Subtotal                                             $    37,297,918     $             2,026,901    $      132,577,831     $       111,516,546
    Unobligated balance
        Apportioned                                          $        83,776     $              866,132     $       13,697,001     $        10,590,567
    Unobligated Balances Not Available                                93,632                     47,905                998,235               1,318,416
    Total, Status of Budgetary Resources                     $    37,475,326     $             2,940,938    $      147,273,067     $       123,425,529

  RELATIONSHIP OF OBLIGATIONS TO OUTLAYS:
    Obligated Balance, Net-beginning of period:              $      1,738,394    $             1,704,726    $        56,100,186    $        52,333,850
    Obligated Balance transferred, net (+/-)                                 0                         0                     0                       0
    Obligated Balance, net-end of period:
        Accounts Receivable                                  $        (99,555)   $               (93,046)   $         (897,842)    $        (2,109,374)
        Unfilled customer order from Federal sources                     954                    (617,533)            (2,335,476)            (2,027,193)
        Undelivered Orders                                           505,517                   2,132,674            63,419,000              55,633,755
        Accounts Payable                                            1,693,723                   282,078              3,335,212               4,603,000
  OUTLAYS:
    Disbursements                                            $    36,150,759     $             1,936,704    $      119,051,033     $       105,540,310
    Collections                                                     (521,105)                   (514,406)            (6,732,714)            (6,491,249)
    Subtotal                                                 $    35,629,654     $             1,422,298    $      112,318,319     $        99,049,061
    Less: Offsetting receipts                                                0                         0               (246,802)              (213,345)
     Net Outlays                                             $    35,629,654     $             1,422,298    $      112,071,517     $        98,835,716


                                                                   REQUIRED SUPPLEMENTARY INFORMATION                                                     131
                                                          DEPARTMENT   OF THE       NAVY



 DON G ENERAL P ROPERTY, P LANT,                 AND   E QUIPMENT
 Real Property Deferred Annual Sustainment and Restoration Tables
 As of September 30, 2003
 ($ in Millions)

                                                 Annual Sustainment F Y 2003
                                                        Required           Actual               Difference
           Navy
           Marine Corps
           Building, Structures, and Utilities            1,857              1,511                 346

                                                 Annual Deferred Sustainment Trend
                                                       FY 2000        FY 2001      FY 2002          FY 2003
           Navy
           Marine Corps
           Building, Structures, and Utilities            -            501                 40           346

                                      Restoration and Modernization Requirements
                                                   End FY 2002       End FY 2003                 Change
           Navy
           Marine Corps
           Building, Structures, and Utilities                -                 -                   -


 Narrative Statement:

 Navy General Fund Facilities transitioned from Real Property Maintenance to Facility Sustainment in FY 2003 via use
 of the new OSD Facility Sustainment Model (FSM). This is the second financial statement utilizing this methodology.
 The methodology in the DoD Financial Management Regulation, Volume 6B, Chapter 12, July 2002 was utilized to
 calculate the deferred amounts. In FY 2003, facility investments were programmed and budgeted using FSM
 version 3.0.

 The quality of data used in the Facility Sustainment Model continued to undergo quality checks in FY 2003, resulting
 in a more accurate accounting of deferred sustainment requirements.

 Presently, a separate breakout between the Navy and Marine Corps sustainment amounts cannot be provided. Due
 to this limitation, information in the Real Property Deferred Annual Sustainment and Restoration Tables are presented
 as overall totals for the Department of the Navy (DON).

 The Facility Sustainment Model calculates facility sustainment investment based on the DON property inventory,
 facility type, key units of measure, geographic location and industry standards. These variables are constantly being
 examined to reduce errors and eliminate disconnects for unique DON facility requirements.

 The DON General Fund has no material amounts of deferred sustainment for General Property, Plant, and Equipment
 categories of Personal Property, Heritage Assets, or Stewardship Land.




132   GENERAL FUND
                                                                                  2003 ANNUAL FINANCIAL REPORT



M ILITARY E QUIPMENT
Deferred Maintenance Amounts
As of September 30, 2003
($ in Thousands)


                                 Major Type                             Amount
                                 1. Aircraft                           $ 148,154
                                 2. Ships                                 49,533
                                 3. Missiles                              65,125
                                 4. Combat Vehicles                        3,726
                                 5. Other Weapons Systems                139,194
                                 6. Total                              $ 405,732


Narrative Statement:

Aircraft Deferred Maintenance
There are four sub-categories that comprise aircraft deferred maintenance: airframe rework and maintenance (active
and reserve), engine rework and maintenance (active and reserve), component repair and software maintenance.
The airframe rework deferred maintenance calculation reflects executable unfunded requirements, which represent
aircraft that failed Aircraft Service Period Adjustment (ASPA) or reached fixed Period End Date (PED) at year-end.
The engine rework deferred maintenance calculation reflects year-end actual requirements minus actual funded units.
Generally, component repair deferred maintenance cost represents the difference between requirement and funding.
Aircraft deferred maintenance reflects only executable deferred maintenance. Unexecutable deferred maintenance is
not reported in the Exhibit OP-30, nor is it collected.

The Depot maintenance is currently being performed under both the Standard Depot Level Maintenance (SDLM) and
Integrated Maintenance Concept (IMC) programs. Currently, the E-2, E-6, F/A-18, H-1, H-53, H-60, P-3, and S-3
aircraft programs have been incorporated under the IMC concept. The IMC concept uses Planned Maintenance
Intervals (PMI), performing more frequent depot maintenance, with smaller work packages, reducing out of service
time. The goal of this program is to improve readiness while reducing operating and support costs. Commander,
Naval Air Systems Command’s (COMNAVAIRSYSCOM) Industrial Strategy in the downsizing environment is to
maintain only the minimum level of organic capacity, consistent with force levels, that is necessary to sustain
peacetime readiness and was fighting surge capability. COMNAVAIRSYSCOM will work in partnership with private
industry to make maximum use of industry’s production capabilities and for non-CORE related aviation depot level
maintenance.

Ship Deferred Maintenance
Deferred Ship Maintenance data was provided by Fleet Type Commanders. Data was collected from the Current
Ships’ Maintenance Plan (CSMP) database, which captures maintenance actions at all levels (organizational,
intermediate, depot) for active and reserve ships. Only depot level deferred maintenance has been provided in this
report. This includes maintenance actions that were deferred from actual depot maintenance work packages as well
as maintenance that was deferred prior to inclusion in a work package due to either fiscal, operational, or capacity
constraints. Although there is a significant amount of deferred maintenance actions, there are no ships that fall into
the category of “unacceptable operating condition”. Any ship that would be at risk of being in unacceptable
operating condition would receive priority for maintenance funding to maintain acceptable operating condition.

Ship deferred maintenance decreased from $243,615 thousand in FY 2002 to $49,533 thousand in FY 2003. This
is due to the DON's funding a higher percentage of ship maintenance requirements in FY 2003.




                                                    REQUIRED SUPPLEMENTARY INFORMATION                               133
                                                       DEPARTMENT    OF THE   NAVY



 Missile Maintenance
 Four categories are used to determine missile maintenance: missiles, tactical missiles, software maintenance, and
 other. Deferred maintenance is defined as the difference between the total weapon maintenance requirement as
 determined by requirements modeling processes and the weapon maintenance that is funded in accordance with
 the annual budget controls for the Missile Maintenance program. The maintenance requirements model projects the
 quantity of missiles and missile components per weapon system that are required to be maintained (reworked)
 annually.

 Combat Vehicles
 The combat vehicles category is for vehicle overhaul for the active and reserve Marine Corps.

 Other Weapons Systems
 The “Other Weapons Systems” category is comprised of ordnance, end item maintenance for support equipment,
 camera equipment, landing aids, calibration equipment, air traffic control equipment, target systems, expeditionary
 airfield equipment, special weapons, target maintenance, and repair of repairables. Three categories define
 ordnance maintenance: ordnance maintenance, software maintenance and other. Although the various programs
 vary in the methodology in defining requirements, all programs define deferred maintenance as the difference
 between requirements and funding.

 Software Maintenance
 Software maintenance requirements and deferred maintenance for aircraft, missiles and other equipment are
 determined using the same methodology and, therefore will not be addressed separately for each Military Equipment
 Deferred Maintenance reporting categories. Software maintenance includes the operational and system test software
 that runs in the airborne avionics systems (e.g., mission computer, display computer, radar) and the software that runs
 the ground based support labs used to perform software sustainment (e.g., compilers, editors, simulation,
 configuration management). The deferred maintenance reported for the execution year are those requirements below
 the funding threshold and up to, but not exceeding, the capacity of the Software Support Activity (SSA) in that
 particular fiscal year. There may be deferred requirements that exceed the capacity of the SSA, but these are not
 reported in the Exhibit OP-30 for the execution year, but rather identified as an out year requirement.




134   GENERAL FUND
                                                                                                    2003 ANNUAL FINANCIAL REPORT




  Schedule, Part A DoD Intra-governmental Asset        Treasury      Fund Balance      Accounts       Loans
                                                                                                               Investments        Other
  Balances                                               Index       with Treasury    Receivable    Receivable
  ($ Amounts in Thousands)
  Executive Office of the President                        11                             $16,430
  Department of Agriculture                                12                               1,141
  Department of the Interior                               14                               8,959
  Department of Justice                                    15                              10,173
  Department of Labor                                      16                                  71
  Department of State                                      19                              14,207
  Department of the Treasury                               20           $78,414,877            12              $      9,801
  Army General Fund                                        21                              12,315                             $       325
  Federal Trade Commission                                 29                               2,839
  Department of Veterans Affairs                           36                                   3
  Government Printing Office                                4                                 189
  General Service Administration                           47                                 239
  Air Force General Fund                                   57                              16,940                                    6,006
  Federal Emergency Management Agency                      58                                  33
  Department of Transportation                             69                                 384
  Small Business Administration                            73                                   4
  Department of Health and Human Services                  75                                 317
  National Aeronautics and Space Administration            80                                 293
  Department of Housing and Urban Development              86                              10,233
  Department of Energy                                     89                              15,023
  US Army Corps of Engineers                               96                                 507
  Other Defense Organizations General Funds                97                             148,300
  Other Defense Organizations Working Capital Funds     97-4930                            88,138                                   43,852
  Army Working Capital Fund                           97-4930.001                                                                       95
  Navy Working Capital Fund                           97-4930.002                         145,038                                  130,165
  Air Force Working Capital Fund                      97-4930.003                           4,974                                    7,422
  The General Fund of the Treasury                         99
  Homeland Security                                                                           100
                                                        Totals:       $78,414,877       $496,862                    $9,801 $187,865




Note: Totals might not match the amounts shown on the Principal Statements.


                                                                  REQUIRED SUPPLEMENTARY INFORMATION                                         135
                                                                DEPARTMENT      OF THE   NAVY




       Schedule, Part B DoD Intra-governmental Entity Liabilities
       ($ Amounts in Thousands)                                      Treasury         Accounts       Debts/Borrowings      Other
                                                                      Index           Payable       From Other Agencies

       Department of Labor                                               16                                                  $613,067
       Department of the Treasury                                        20                                                   561,277
       Army General Fund                                                21        $        48,294
       Office of Personnel Management                                    24                                                    47,073
       Air Force General Fund                                           57                 18,746
       US Army Corps of Engineers                                       96                  2,170
       Other Defense Organizations General Funds                        97                 13,860                                2,228
       Other Defense Organizations Working Capital Funds              97-4930             512,262
       Army Working Capital Fund                                    97-4930.001             8,817
       Navy Working Capital Fund                                    97-4930.002           420,647
       Air Force Working Capital Fund                               97-4930.003            10,240
       The General Fund of the Treasury                                 99                                                   2,636,268
                                                                      Totals:         $1,035,036                    $0    $3,859,913




 Note: Totals might not match the amounts shown on the Principal Statements.


136   GENERAL FUND
                                                                                         2003 ANNUAL FINANCIAL REPORT




            Schedule, Part C DoD Intra-governmental revenue and related costs
             ($ Amounts in Thousands)                                             Treasury Index   Earned Revenue

            Executive Office of the President                                           11         $          19,401
            Department of Agriculture                                                   12                       311
            Department of Commerce                                                      13                       481
            Department of the Interior                                                  14                       658
            Department of Justice                                                       15                    12,773
            Department of Labor                                                         16                       204
            Department of State                                                         19                     7,927
            Department of the Treasury                                                  20                    30,590
            Army General Fund                                                           21                   226,067
            Nuclear Regulatory Commission                                               31                       738
            Department of Veterans Affairs                                              36                     7,156
            Government Printing Office                                                   4                     1,106
            General Service Administration                                              47                     6,338
            National Science Foundation                                                 49                        41
            Air Force General Fund                                                      57                   133,437
            Federal Emergency Management Agency                                         58                     3,918
            Railroad Retirement Board                                                   60                        25
            Department of Transportation                                                69                     6,698
            Small Business Administration                                               73                        10
            Department of Health and Human Services                                     75                       230
            National Aeronautics and Space Administration                               80                     6,482
            Department of Housing and Urban Development                                 86                     2,019
            Department of Energy                                                        89                        37
            US Army Corps of Engineers                                                  96                       836
            Other Defense Organizations General Funds                                   97                 1,737,114
            Other Defense Organizations Working Capital Funds                        97-4930                 346,529
            Army Working Capital Fund                                              97-4930.001                 4,571
            Navy Working Capital Fund                                              97-4930.002               505,386
            Air Force Working Capital Fund                                         97-4930.003                 6,488
            The General Fund of the Treasury                                            99                         -
            Homeland Security                                                                                119,397
                                                                                      Total:       $     3,186,968




Note: Totals might not match the amounts shown on the Principal Statements.


                                                                REQUIRED SUPPLEMENTARY INFORMATION                     137
                                                            DEPARTMENT   OF THE   NAVY



       Schedule, Part E DoD Intragovernmental non-exchange revenues
        ($ Amounts in Thousands)                                       Treasury Index       Transfers In         Transfers Out
       Air Force General Fund                                                 57        $            6,589
       US Army Corps of Engineers                                             96                             $                   40
       Other Defense Organizations General Funds                              97                   42,352
       Other Defense Organizations Working Capital Funds                   97-4930                                        10,660
       Navy Working Capital Fund                                         97-4930.002                13,526
                                                                           Totals:       $         62,467    $           10,700




 Note: Totals might not match the amounts shown on the Principal Statements.


138   GENERAL FUND
                                                         GENERAL FUND OTHER ACCOMPANYING INFORMATION
                            DEPARTMENT   OF THE   NAVY
GENERAL FUND OTHER ACCOMPANYING INFORMATION




                                                                 139
                                                    DEPARTMENT   OF THE   NAVY



 A PPROPRIATIONS , F UNDS ,      AND   A CCOUNTS I NCLUDED       IN THE   P RINCIPAL S TATEMENTS

 Entity Accounts:
 General Funds
 17X0380       Coastal Defense Augmentation, Navy
 17 0703       Family Housing Construction, Navy and Marine Corps
 17 0735       Family Housing, Navy and Marine Corps (Operations and Maintenance)
 17X0810       Environmental Restoration, Navy
 17 1105       Military Personnel, Marine Corps
 17 1106       Operation and Maintenance, Marine Corps
 17 1107       Operation and Maintenance, Marine Corps Reserve
 17 1108       Reserve Personnel, Marine Corps
 17 1109       Procurement, Marine Corps
 17 1205       Military Construction, Navy
 17 1235       Military Construction, Naval Reserve
 17X1236       Payments to Kaho Olawe Island Conveyance, Remediation, and Environmental Restoration Fund,
                  Navy
 17 1319       Research, Development, Test, and Evaluation, Navy
 17 1405       Reserve Personnel, Navy
 17 1453       Military Personnel, Navy
 17 1506       Aircraft Procurement, Navy
 17 1507       Weapons Procurement, Navy
 17 1508       Procurement of Ammunition, Navy and Marine Corps
 17 1611       Shipbuilding and Conversion, Navy
 17 1804       Operation and Maintenance, Navy
 17 1806       Operation and Maintenance, Navy Reserve
 17 1810       Other Procurement, Navy

 Revolving funds
 17 4557      National Defense Sealift Fund, Navy

 Trust funds
 17X8716        Department of the Navy General Gift Fund
 17X8723        Ship Stores Profits, Navy
 17X8733        United States Naval Academy General Gift Fund

 Special funds
 17X5095       Wildlife Conservation, etc., Military Reservations, Navy
 17X5185       Kaho Olawe Island Conveyance, Remediation, and Environmental Restoration Fund, Navy
 17X5429       Rossmoor Liquidating Trust Settlement Account

 Non Entity Accounts:
 Special funds (Receipt Accounts)
 17 3041       Recoveries Under the Foreign Military Sales Program
 17 3210       General Fund Proprietary Receipts, Defense Military, Not Otherwise Classified

 Deposit funds
 17X6001       Proceeds of Sales of Lost, Abandoned, or Unclaimed Personal Property, Navy
 17X6002       Personal Funds of Deceased, Mentally Incompetent or Missing Personnel, Navy
 17X6025       Pay of the Navy, Deposit Fund
 17X6026       Pay of the Marine Corps




140   GENERAL FUND
                                                                     2003 ANNUAL FINANCIAL REPORT



17X6050   Employee Payroll Allotment Account (U.S. Bonds)
17X6075   Withheld Allotment of Compensation for Payment of Employee Organization Dues, Navy
17X6083   Withheld Allotment of Compensation for Charitable Contributions, Navy
17X6134   Amounts Withheld for Civilian Pay Allotments, Navy
17X6275   Withheld State and Local Income Taxes
17X6434   Servicemen's Group Life Insurance Fund, Suspense, Navy
17X6705   Civilian Employees Allotment Account, Navy
17X6706   Commercial Communication Service, Navy
17 6763   Gains and Deficiencies on Exchange Transactions, Navy (fiscal year)
17X6850   Housing Rentals, Navy
17X6875   Suspense, Navy
17X6999   Accounts Payable, Check Issue Underdrafts, Navy




                                          REQUIRED
                                            Other Accompanying    Information
                                                   SUPPLEMENTARY INFORMATION                   141
                     DEPARTMENT   OF THE   NAVY




142   GENERAL FUND
                                       NAVY WORKING CAPITAL FUND PRINCIPAL STATEMENTS
          DEPARTMENT   OF THE   NAVY
NAVY WORKING CAPITAL FUND
      PRINCIPAL STATEMENTS




                                                 143
                                  DEPARTMENT   OF THE   NAVY




144   NAVY WORKING CAPITAL FUND
                                                                               2003 ANNUAL FINANCIAL REPORT



P RINCIPAL S TATEMENTS

The FY 2003 Navy Working Capital Fund Principal Financial Statements and related notes are presented in the
format prescribed by the Department of Defense Financial Management Regulation 7000.14, Volume 6B. The
statements and related notes summarize financial information for individual funds and accounts within the Navy
Working Capital Fund for the fiscal year ending September 30, 2003, and are presented on a comparative basis
with information previously reported for the fiscal year ending September 30, 2002.

The following statements are included in the Navy Working Capital Fund Principal Statements:

 •   Consolidated Balance Sheet
 •   Consolidated Statement of Net Cost
 •   Consolidated Statement of Changes in Net Position
 •   Combined Statement of Budgetary Resources
 •   Combined Statement of Financing

The Principal Statements and related notes have been prepared to report financial position pursuant to the
requirements of the Chief Financial Officers Act of 1990, as amended by the Government Management Reform Act
of 1994.

The accompanying notes should be considered an integral part of the Principal Statements.




                                                                     PRINCIPAL STATEMENTS                        145
                                                                        DEPARTMENT    OF THE   NAVY



 Department of Defense
 Navy Working Capital Fund
 CONSOLIDATED BALANCE SHEET
 As of September 30, 2003 and 2002
 ($ in thousands)

                                                                         2003 Consolidated         2002 Consolidated
      ASSETS (Note 2)
        Intragovernmental:
          Fund Balance with Treasury (Note 3)
               Entity                                               $             1,827,646    $             1,709,680
               Non-Entity Seized Iraqi Cash                                               0                          0
               Non-Entity - Other                                                         0                          0
         Investments (Note 4)                                                             0                          0
          Accounts Receivable (Note 5)                                              582,773                    525,240
          Other Assets (Note 6)                                                      10,392                        266
                Total Intragovernmental Assets                      $             2,420,811    $             2,235,186
        Cash and Other Monetary Assets (Note 7)                     $                     0    $                     0
        Accounts Receivable (Note 5)                                                111,775                     80,901
        Loans Receivable (Note 8)                                                         0                          0
        Inventory and Related Property (Note 9)                                  18,256,128                 17,655,864
        General Property, Plant and Equipment (Note 10)                           4,323,910                  4,190,837
        Investments (Note 4)                                                              0                          0
        Other Assets (Note 6)                                                       868,808                  1,140,654
      TOTAL ASSETS                                                  $            25,981,432    $            25,303,442

      LIABILITIES (Note 11)
        Intragovernmental:
         Accounts Payable (Note 12)                                 $               313,786    $               434,772
         Debt (Note 13)                                                             615,648                    750,725
         Environmental Liabilities (Note 14)                                              0                          0
         Other Liabilities (Note 15 & Note 16)                                      289,268                    177,808
                Total Intragovernmental Liabilities                 $             1,218,702    $             1,363,305
        Accounts Payable (Note 12)                                  $             2,102,870    $             1,799,671
        Military Retirement Benefits and Other Employment-Related
          Actuarial Liabilities (Note 17)                                         1,409,853                  1,325,926
        Environmental Liabilities (Note 14)                                               0                          0
        Loan Guarantee Liability (Note 8)                                                 0                          0
        Other Liabilities (Note 15 and Note 16)                                   3,113,177                  2,807,834
        Debt Held by Public (Note 13)                                                     0                          0
      TOTAL LIABILITIES                                             $             7,844,602    $             7,296,736

      NET POSITION
        Unexpended Appropriations (Note 18)                         $                     0    $                     0
        Cumulative Results of Operations                                         18,136,830                 18,006,706
      TOTAL NET POSITION                                            $            18,136,830    $            18,006,706

      TOTAL LIABILITIES AND NET POSITION                            $            25,981,432    $            25,303,442
 The accompanying notes are an integral part of these statements.

146     NAVY WORKING CAPITAL FUND
                                                                                         2003 ANNUAL FINANCIAL REPORT



Department of Defense
Navy Working Capital Fund
CONSOLIDATED STATEMENT OF NET COST
For the years ended September 30, 2003 and 2002
($ in thousands)

                                                              2003 Consolidated          2002 Consolidated
    Program Costs
      Intragovernmental Gross Costs                       $             5,422,250    $             5,382,324
      (Less: Intragovernmental Earned Revenue)                        (21,871,864)               (20,916,260)
      Intragovernmental Net Costs                         $           (16,449,614)   $           (15,533,936)

       Gross Costs With the Public                        $            17,656,253                 18,837,402
       (Less: Earned Revenue From the Public)                            (766,709)                  (862,692)
       Net Costs With the Public                          $            16,889,544    $            17,974,710

       Total Net Cost                                     $              439,930     $             2,440,774
    Costs Not Assigned to Programs                                             0                           0
    (Less: Earned Revenue Not Attributable to Programs)                        0                           0
    Net Cost of Operations                                $              439,930     $             2,440,774




The accompanying notes are an integral part of these statements.

                                                                              PRINCIPAL STATEMENTS                 147
                                                                DEPARTMENT      OF THE   NAVY



 Department of Defense
 Navy Working Capital Fund
 CONSOLIDATED STATEMENT OF CHANGES IN NET POSITION
 For the years ended September 30, 2003 and 2002
 ($ in thousands)
                                                                      Cumulative Results of         Cumulative Results of
                                                                          Operations                    Operations

                                                                       2003 Consolidated             2002 Consolidated

      Beginning Balances                                          $              18,006,706     $             17,718,572
      Prior period adjustments (+/-)                                                      0                    1,952,397
      Beginning Balances, as adjusted                             $              18,006,706     $             19,670,969
      Budgetary Financing Sources:
       Appropriations Received                                    $                       0     $                      0
       Appropriations transferred in/out (+/-)                                            0                            0
       Other adjustments (recissions, etc) (+/-)                                          0                            0
       Appropriations used                                                           40,200                            0
       Nonexchange revenue                                                                0                            0
       Donations and forfeitures of cash and cash equivalents                             0                            0
       Transfers in/out without reimbursement (+/-)                                       0                            0
       Other budgetary financing sources (+/-)                                            0                      312,060
      Other Financing Sources:
       Donations and forfeitures of property                                              0                            0
       Transfers in/out without reimbursement (+/-)                                 (13,527)                      (1,138)
       Imputed financing from costs absorbed by others                              543,381                      465,589
       Other (+/-)                                                                        0                            0
      Total Financing Sources                                     $                 570,054     $                776,511
      Net Cost of Operations (+/-)                                $                 439,930     $              2,440,774
      Ending Balances                                             $              18,136,830     $             18,006,706




 The accompanying notes are an integral part of these statements.

148    NAVY WORKING CAPITAL FUND
                                                                                           2003 ANNUAL FINANCIAL REPORT



Department of Defense
Navy Working Capital Fund
CONSOLIDATED STATEMENT OF CHANGES IN NET POSITION
For the years ended September 30, 2003 and 2002
($ in thousands)
                                                                     Unexpended                  Unexpended
                                                                    Appropriations              Appropriations

                                                                   2003 Consolidated           2002 Consolidated

    Beginning Balances                                        $                        0   $                     0
    Prior period adjustments (+/-)                                                     0                         0
    Beginning Balances, as adjusted                           $                        0   $                     0
    Budgetary Financing Sources:
     Appropriations Received                                  $                40,200      $                     0
     Appropriations transferred in/out (+/-)                                        0                            0
     Other adjustments (recissions, etc) (+/-)                                      0                            0
     Appropriations used                                                      (40,200)                           0
     Nonexchange revenue                                                            0                            0
     Donations and forfeitures of cash and cash equivalents                         0                            0
     Transfers in/out without reimbursement (+/-)                                   0                            0
     Other budgetary financing sources (+/-)                                        0                            0
    Other Financing Sources:
     Donations and forfeitures of property                                           0                           0
     Transfers in/out without reimbursement (+/-)                                    0                           0
     Imputed financing from costs absorbed by others                                 0                           0
     Other (+/-)                                                                     0                           0
    Total Financing Sources                                   $                      0     $                     0
    Net Cost of Operations (+/-)                              $                      0     $                     0
    Ending Balances                                           $                      0     $                     0




The accompanying notes are an integral part of these statements.

                                                                               PRINCIPAL STATEMENTS                  149
                                                                 DEPARTMENT   OF THE       NAVY



 Department of Defense
 Navy Working Capital Fund
 COMBINED STATEMENT OF BUDGETARY RESOURCES
 For the years ended September 30, 2003 and 2002
 ($ in thousands)

                                                                      2003 Combined               2002 Combined
                                                                        Budgetary                   Budgetary
                                                                        Financing                   Financing
                                                                         Accounts                    Accounts
      BUDGETARY RESOURCES
        Budget Authority:
            Appropriations Received                               $             40,200       $                  0
            Borrowing Authority                                                      0                          0
            Contract Authority                                                 558,144                    818,950
            Net transfers (+/-)                                                      0                          0
            Other                                                                    0                          0
         Unobligated Balance:
            Beginning of period                                               4,117,221                 3,106,657
            Net transfers, actual (+/-)                                         (30,200)                        0
            Anticipated Transfers Balances                                            0                         0
        Spending Authority from Offsetting Collections:
            Earned                                                                   0                          0
             Collected                                                      25,585,547                 24,242,264
             Receivable from Federal sources                                  (432,227)                  (478,538)
            Change in unfilled customer orders                                       0                          0
             Advances received                                                 178,239                     58,673
             Without advance from Federal sources                            1,964,175                    773,407
            Anticipated for the rest of year, without advances                       0                          0
            Transfers from trust funds                                               0                          0
           Subtotal                                               $         27,295,734       $         24,595,806
        Recoveries of prior year obligations                      $                  0       $                  0
         Temporarily not available pursuant to Public Law                            0                          0
        Permanently not available                                             (204,140)                  (417,232)
        Total Budgetary Resources                                 $         31,776,959       $         28,104,181

      STATUS OF BUDGETARY RESOURCES
        Obligations Incurred:
            Direct                                                $                  0       $                  0
            Reimbursable                                                    27,263,631                 23,986,959
            Subtotal                                              $         27,263,631       $         23,986,959
        Unobligated balance:
            Apportioned                                           $          4,632,115       $          4,117,221
            Exempt from apportionment                                                0                          0
            Other available                                                          2                          1
        Unobligated Balances Not Available                                    (118,789)                         0
        Total, Status of Budgetary Resources                      $         31,776,959       $         28,104,181



 The accompanying notes are an integral part of these statements.

150      NAVY WORKING CAPITAL FUND
                                                                                            2003 ANNUAL FINANCIAL REPORT



Department of Defense
Navy Working Capital Fund
COMBINED STATEMENT OF BUDGETARY RESOURCES
For the years ended September 30, 2003 and 2002
($ in thousands)

                                                            2003 Combined                2002 Combined
                                                              Budgetary                    Budgetary
                                                              Financing                    Financing
                                                               Accounts                     Accounts

  RELATIONSHIP OF OBLIGATIONS TO OUTLAYS:
    Obligated Balance, Net-beginning of period          $           2,985,762        $         2,421,105
    Obligated Balance transferred, net (+/-)                                0                          0
    Obligated Balance, Net-end of period:
        Accounts Receivable                                           (341,097)                 (773,326)
        Unfilled customer order from Federal sources                (8,756,130)               (6,791,954)
        Undelivered Orders                                           7,998,442                 7,327,957
        Accounts Payable                                             4,372,899                 3,223,082
    Outlays:
       Disbursements                                                25,443,332                23,127,436
       Collections                                                 (25,763,785)              (24,300,937)
       Subtotal                                         $             (320,453)      $        (1,173,501)
    Less: Offsetting receipts                                                0                         0
    Net Outlays                                         $             (320,453)      $        (1,173,501)




The accompanying notes are an integral part of these statements.

                                                                                  PRINCIPAL STATEMENTS                151
                                                                              DEPARTMENT   OF THE   NAVY



 Department of Defense
 Navy Working Capital Fund
 COMBINED STATEMENT OF FINANCING
 For the years ended September 30, 2003 and 2002
 ($ in thousands)

                                                                                                    2003 Combined             2002 Combined

      Resources Used to Finance Activities:
      Budgetary Resources Obligated
         Obligations Incurred                                                                  $            27,263,631    $         23,986,959
         Less: Spending Authority from offsetting collections and recoveries (-)                           (27,295,734)            (24,595,806)
         Obligations net of offsetting collections and recoveries                              $               (32,103)   $           (608,847)
         Less: Offsetting receipts (-)                                                                               0                       0
         Net obligations                                                                       $               (32,103)   $           (608,847)
      Other Resources
         Donations and forfeitures of property                                                                      0                       0
         Transfers in/out without reimbursement (+/-)                                                         (13,527)                      0
         Imputed financing from costs absorbed by others                                                      543,381                 465,589
         Other (+/-)                                                                                                0                       0
         Net other resources used to finance activities                                        $              529,854     $           465,589
          Total resources used to finance activities                                           $              497,751     $          (143,258)

      Resources Used to Finance Items not Part of the Net Cost of Operations:
        Change in budgetary resources obligated for goods, services and benefits
        ordered but not yet provided
           Undelivered orders (-)                                                              $             (703,528)    $         (3,023,627)
           Unfilled Customer Orders                                                                         2,142,413                  832,078
        Resources that fund expenses recognized in prior periods                                                    0                  (46,725)
        Budgetary offsetting collections and receipts that do not affect Net Cost of
          Operations                                                                                                 8                       0
        Resources that finance the acquisition of assets                                                    (1,899,644)             5,167,247
        Other resources or adjustments to net obligated resources that do not
          affect Net Cost of Operations
           Less: Trust or Special Fund receipts related to exchange in the entity's
           budget (-)                                                                                                0                        0
           Other (+/-)                                                                                               0                        0
         Total resources used to finance items not part of the Net Cost of
          Operations                                                                           $             (460,751)    $         2,928,973
         Total resources used to finance the Net Cost of Operations                            $               37,000     $         2,785,715




 The accompanying notes are an integral part of these statements.

152      NAVY WORKING CAPITAL FUND
                                                                                         2003 ANNUAL FINANCIAL REPORT



Department of Defense
Navy Working Capital Fund
COMBINED STATEMENT OF FINANCING
For the years ended September 30, 2003 and 2002
($ in thousands)

                                                                                      2003 Combined         2002 Combined

   Components of the Net Cost of Operations that will not Require or Generate
   Resources in the Current Period:
   Components Requiring or Generating Resources in Future Periods:
     Increase in annual leave liability                                           $                 0   $                   0
     Increase in environmental and disposal liability                                               0                       0
     Upward/Downward reestimates of credit subsidy expense                                          0                       0
     Increase in exchange revenue receivable from the public (-)                                    0                       0
     Other (+/-)                                                                               83,927                       0
     Total components of Net Cost of Operations that will require or
     generate resources in future periods                                         $            83,927   $                   0

   Components not Requiring or Generating Resources:
     Depreciation and amortization                                                $           243,755   $           210,490
     Revaluation of assets and liabilities (+/-)                                               74,973              (555,394)
     Other (+/-)                                                                                  275                   (41)
     Total components of Net Cost of Operations that will not require
     or generate resources                                                        $           319,003   $          (344,945)
      Total components of Net Cost of Operations that will not require or
      generate resources in the current period                                    $           402,930   $           (344,945)
      Net Cost of Operations                                                      $           439,930   $          2,440,774




The accompanying notes are an integral part of these statements.

                                                                                PRINCIPAL STATEMENTS                            153
                                  DEPARTMENT   OF THE   NAVY




154   NAVY WORKING CAPITAL FUND
                                             PRINCIPAL STATEMENTS
                                             NAVY WORKING CAPITAL FUND NOTES
                DEPARTMENT   OF THE   NAVY
    NAVY WORKING CAPITAL FUND
NOTES TO THE PRINCIPAL STATEMENTS




                                                            TO THE




                                                          155
                                                      DEPARTMENT    OF THE   NAVY



 N OTE 1. S IGNIFICANT A CCOUNTING P OLICIES

 A. Basis of Presentation
 These financial statements have been prepared to report the financial position and results of operations of the Navy
 Working Capital Fund (NWCF), as required by the Chief Financial Officers (CFO) Act of 1990, expanded by the
 Government Management Reform Act of 1994, and other appropriate legislation. The financial statements have
 been prepared from the books and records of the NWCF in accordance with the Department of Defense (DoD)
 Financial Management Regulation, Office of Management and Budget (OMB) Bulletin No. 01-09, “Form and Content
 of Agency Financial Statements,” and to the extent possible Federal Generally Accepted Accounting Principals
 (GAAP). The accompanying financial statements account for all resources for which the NWCF is responsible except
 that information relative to classified assets, programs, and operations has been excluded from the statement or
 otherwise aggregated and reported in such a manner that it is no longer classified. The NWCF financial statements
 are in addition to the financial reports also prepared by the NWCF pursuant to OMB directives that are used to
 monitor and control the NWCF use of budgetary resources.

 The NWCF is unable to fully implement all elements of Federal GAAP and OMB Bulletin No. 01-09 due to limitations
 of its financial management processes and systems, including nonfinancial feeder systems and processes. Reported
 values and information for NWCF major asset and liability categories are derived in part from nonfinancial feeder
 systems, such as inventory systems and logistic systems. These were designed to support reporting requirements
 focusing on maintaining accountability over assets and reporting the status of federal appropriations rather than
 preparing financial statements in accordance with Federal GAAP. The NWCF continues to implement process and
 system improvements addressing the limitation of its financial and nonfinancial feeder systems. A more detailed
 explanation of these financial statement elements is provided in the applicable note.

 B. Mission of the Reporting Entity
 The overall mission of the Department of the Navy (DON) is to organize, train, and equip forces to deter aggression
 and, if necessary, defeat aggressors of the United States and its allies. The NWCF provides goods, services, and
 infrastructure to DON and other DoD customers to help ensure our military forces are mobile, ready, and have the
 most advanced technology.

 The NWCF has prepared annual financial statements pursuant to CFO Act of 1990, as amended for the past thirteen
 years. The Act requires that financial statements be prepared and audited for each revolving fund and account that
 performed substantial commercial functions, such as those performed by the NWCF.

 The NWCF financial statements include all activities previously financed through the Navy Industrial Fund and DON
 Stock Fund. DoD converted these activities to the Defense Business Operations Fund (DBOF) in October 1991. In
 December 1996, Under Secretary of Defense (Comptroller) replaced the DBOF with four working capital funds, one
 of which is the NWCF. This action did not change the previous organizational reporting structure.

 C. Appropriations and Funds
 The DON’s appropriations and funds are divided into the general, working capital (revolving funds), trust, special,
 and deposit funds. These appropriations and funds are used to fund and report how the resources have been used in
 the course of executing the DON’s missions.

 The NWCF (a revolving fund) received its initial working capital through an appropriation or a transfer of resources
 from existing appropriations or funds and used those capital resources to finance the initial cost of products and
 services. Financial resources to replenish the initial working capital and to permit continuing operations are
 generated by the acceptance of customer orders. The NWCF operates with financial principles that provide
 improved cost visibility and accountability to enhance business management and improve the decision making
 process. The activities provide goods and services on a reimbursable basis. Receipts derived from operations
 generally are available in their entirety for use without further congressional action.




156   NAVY WORKING CAPITAL FUND
                                                                                   2003 ANNUAL FINANCIAL REPORT



D. Basis of Accounting
The NWCF generally records transactions on an accrual accounting basis as required by Federal GAAP. However,
some of the NWCF’s financial and nonfinancial feeder systems and processes are not designed to collect and record
financial information on the full accrual accounting basis. The NWCF has undertaken efforts to determine the actions
required to bring all of its financial and nonfinancial feeder systems and processes into compliance with all elements
of Federal GAAP.

In addition, the NWCF identifies programs based upon the major appropriation groups provided by Congress. The
NWCF is in the process of reviewing available data and attempting to develop a cost reporting methodology that
balances the need for cost information required by the Statements of Federal Financial Accounting Standards (SFFAS)
No. 4, “Managerial Cost Accounting Concepts and Standards for the Federal Government,” with the need to keep
the financial statements from being overly voluminous.

E. Revenues and Other Financing Sources
Revenue is recognized according to the percentage of completion method for depot maintenance activities. Research
and Development activities recognized revenue according to the percentage of completion method or as actual costs
are incurred and billed. Revenue is recognized when an inventory item is sold for supply management activities and
at the time service is rendered for base support activities. Revenue for the transportation activity group is recognized
on either a reimbursable or per diem basis, that is revenue is recognized when earned. The preponderance of per
diem projects are billed and collected in the month services are rendered. In the case of reimbursables, some per
diems, and point-to-point voyages, the revenue is accrued in the month services are rendered and collection is made
the following month.

The NWCF does not include non-monetary support provided by U.S. Allies for common defense and mutual security
in its list of other financing sources that appears in the Statement of Financing. The U.S. has agreements with foreign
countries that include both direct or indirect sharing of costs that each country incurs in support of the same general
purpose. Examples include countries where there is a mutual or reciprocal defense agreement, where U.S. troops are
stationed, or where the U.S. fleet is in a port. DoD is reviewing these types of financing and cost reductions in order
to establish accounting policies and procedures to identify what, if any, of these costs are appropriate for disclosure
in the financial statements in accordance with generally accepted accounting principles. Recognition of support
provided by host nations would affect both financing sources and recognition of expenses.

F. Recognition of Expenses
For financial reporting purposes, the DoD policy requires the recognition of operating expenses in the period
incurred. However, because the NWCF’s financial and nonfinancial feeder systems were not designed to collect and
record financial information on the full accrual accounting basis, accrual adjustments are made for major items such
as payroll expenses, accounts payable, and contracts. Expenditures for capital and other long-term assets are not
recognized as expenses in the NWCF’s operations until depreciated in the case of Property, Plant, and Equipment
(PP&E) or consumed in the case of Operating Materials and Supplies (OM&S). Net increases or decreases in
unexpended appropriations are recognized as a change in the net position.

Operating expenses were adjusted as a result of the elimination of balances between DoD Components. See Note
19.I Intra-governmental Expenses and Revenue, for disclosure of adjustment amounts.

G. Accounting for Intro-governmental Activities
The NWCF, as an agency of the federal government, interacts with and is dependent upon the financial activities of
the federal government as a whole. Therefore, these financial statements do not reflect the results of all financial
decisions applicable to the NWCF as though the agency was a stand-alone entity.




                                                        NOTES   TO THE   PRINCIPAL STATEMENTS                          157
                                                       DEPARTMENT    OF THE   NAVY



 The DON’s proportionate share of public debt and related expenses of the federal government are not included.
 Debt issued by the federal government and the related costs are not apportioned to federal agencies. The NWCF’s
 financial statements, therefore, do not report any portion of the federal government public debt or interest thereon,
 nor do the statements report the source of public financing whether from issuance of debt or tax revenues.

 Financing for the construction of DON facilities is obtained through budget appropriations. To the extent this
 financing ultimately may have been obtained through the issuance of public debt, interest costs have not been
 capitalized since the Department of the Treasury does not allocate such interest costs to the benefiting agencies.

 The NWCF’s civilian employees participate in the Civil Service Retirement System (CSRS) and the Federal Employees
 Retirement Systems (FERS), while military personnel are covered by the Military Retirement System (MRS).
 Additionally, employees and personnel covered by FERS and MRS also have varying coverage under Social Security.
 The NWCF funds a portion of the civilian and military pensions. Reporting civilian pension under CSRS and FERS
 retirement systems is the responsibility of the Office of Personnel Management (OPM). The NWCF recognizes an
 imputed expense for the portion of civilian employee pensions and other retirement benefits funded by the OPM in the
 Statement of Net Cost; and recognizes corresponding imputed revenue from the civilian employee pensions and other
 retirement benefits in the Statement of Changes in Net Position.

 To prepare reliable financial statements, transactions occurring between components or activities within the NWCF
 must be eliminated. However, the NWCF cannot accurately identify all intra-governmental transactions by customer.
 The Defense Finance and Accounting Service (DFAS) is responsible for eliminating transactions between components
 or activities of the NWCF. For FY 1999 and beyond, seller entities within the Department provided summary seller-
 side balances for revenue, accounts receivable, and unearned revenue to the buyer-side internal DoD accounting
 offices. In most cases, the buyer-side records have been adjusted to recognize unrecorded costs and accounts
 payable. Intra-DoD intra-governmental balances were then eliminated.

 The Department of the Treasury, Financial Management Service is responsible for eliminating transactions between the
 Department and other federal agencies. In September 2000, the Financial Management Service issued the “Federal
 Intra-governmental Transactions Accounting Policies and Procedures Guide.” The Department was not able to fully
 implement the policies and procedures in this guide related to reconciling intra-governmental assets, liabilities,
 revenues, and expenses for non-fiduciary transactions. The NWCF, however, was able to implement the policies and
 procedures contained in the “Intra-governmental Fiduciary Transactions Accounting Guide,” as updated by the
 “Federal Intra-governmental Transactions Accounting Policies and Procedures Guide,” issued October 2002, for
 reconciling intra-governmental transactions. These transactions pertain to investments in federal securities, borrowings
 from the United States (U.S.) Treasury and the Federal Financing Bank, Federal Employees’ Compensation Act
 transactions with the Department of Labor, and benefit program transactions with the OPM.

 H. Transactions with Foreign Governments and International Organizations
 Each year, the DoD Components sell defense articles and services to foreign governments and international
 organizations, primarily under the provisions of the “Arms Export Control Act of 1976.” Under the provisions of this
 Act, DoD has authority to sell defense articles and services to foreign countries and international organizations,
 generally at no profit or loss to the U.S. Government. Customers may be required to make payments in advance.

 I. Funds with the U.S. Treasury
 The NWCF’s financial resources are maintained in U.S. Treasury accounts. Cash collections, disbursements, and
 adjustments are processed worldwide at the DFAS, Military Services, and the U.S. Army Corps of Engineers (USACE)
 disbursing stations, as well as the Department of State financial service centers. Each disbursing station prepares
 monthly reports, which provide information to the U.S. Treasury on check issues, electronic fund transfers, interagency
 transfers and deposits.




158   NAVY WORKING CAPITAL FUND
                                                                                 2003 ANNUAL FINANCIAL REPORT



In addition, the DFAS sites and the USACE Finance Center submit reports to the Department of the Treasury, by
appropriation, on interagency transfers, collections received, and disbursements issued. The Department of the
Treasury then records this information to the applicable Fund Balance with Treasury (FBWT) account maintained in the
Treasury’s system. Differences between the NWCF’s recorded balance in the FBWT accounts and Treasury’s FBWT
accounts sometimes result and are subsequently reconciled. Material disclosures are provided at Note 3. Differences
between accounting offices’ detail-level records and Treasury’s FBWT accounts are disclosed in Note 21.B,
specifically, differences caused by in-transit disbursements and unmatched disbursements (which are not matched in
the accounting offices’ detail-level records).

J. Foreign Currency
Not Applicable.

K. Accounts Receivable
As presented in the Balance Sheet, accounts receivable includes accounts, claims, and refunds receivable from other
federal entities or from the public. Allowances for uncollectible accounts due from the public are based upon analysis
of collection experience by fund type. DoD does not recognize an allowance for estimated uncollectible amounts from
other federal agencies. Claims against another federal agency are to be resolved between the agencies. Material
disclosures are provided in Note 5.

L. Loans Receivable. As Applicable.
Not Applicable.

M. Inventories and Related Property
Effective October 1, 2002, Statement of Federal Financial Accounting Standards No.23, Eliminating the Category
National Defense Property, Plant, and Equipment, revises accounting principles for military equipment (previously
referred to as National Defense Property, Plant, and Equipment). The standard renames National Defense Property,
Plant, and Equipment to military equipment, classifies military equipment as general property, plant, and equipment,
and requires the capitalization and depreciation of the cost of military equipment, including the cost of modifications
and upgrades. Likewise, military equipment (previously referred to as National Defense Property, Plant, and
Equipment) also includes items which will now be classified as Operating Materials and Supplies. Military equipment
is reported on the books of the Department of the Navy General Fund.

The majority of the NWCF inventories are reported at approximate historical cost using Latest Acquisition Cost (LAC)
adjusted for holding gains and losses, the remaining inventory is valued using Moving Average Cost (MAC).

The NWCF uses the LAC method because its inventory systems were designed for material management rather than
accounting. The systems provide accountability and visibility over inventory items. They do not maintain the
historical cost data necessary to comply with the SFFAS No. 3, “Accounting for Inventory and Related Property.”
Neither can they directly produce financial transactions using the United States Government Standard General Ledger
(USSGL), as required by the Federal Financial Management Improvement Act of 1996 (P.L. 104-208). DoD is
transitioning to a MAC methodology for valuing inventory that when fully implemented will allow the NWCF to
comply with SFFAS No. 3.

SFFAS No. 3 distinguishes between “inventory held for sale” and “inventory held in reserve for future sale.” There is
no management or valuation difference between the two USSGL accounts. Further, the DoD manages only military or
government-specific material under normal conditions. Items commonly used in and available from the commercial
sector are not managed in the DoD material management activities. Operational cycles are irregular, and the
military risks associated with stock-out positions have no commercial parallel. The DoD holds material based on
military need and support for contingencies.




                                                       NOTES   TO THE   PRINCIPAL STATEMENTS                         159
                                                       DEPARTMENT    OF THE   NAVY



 Related property includes Operating Materials and Supplies (OM&S) and stockpile materials. The OM&S, including
 munitions not held for sale, are valued at standard purchase price. The NWCF uses various methods of accounting
 for OM&S.

 The DoD implemented new policy in FY 2002 to account for condemned material (only) as “Excess, Obsolete, and
 Unserviceable.” The net value of condemned material is zero, because the costs of disposal are greater than the
 potential scrap value. Material that can be potentially redistributed, presented in previous years as “Excess,
 Obsolete, and Unserviceable,” is included in the “Held for Use” or “Held for Repair” categories according to its
 condition.

 In August 2003, DoD adopted the use of an allowance to reflect impaired assets, i.e. Inventory Held for Repair.
 Previously, the DoD financial statements have presented its impaired assets at other than historical cost. The NWCF
 will implement the allowance method in conjunction with the transition to MAC.

 In addition, past audit results identified uncertainties about the completeness and existence of quantities used to
 produce the reported values. Material disclosures related to Inventory and Related Property are provided at Note 9.

 N. Investments in U.S. Treasury Securities
 Not Applicable.

 O. General Property, Plant and Equipment
 Effective October 1, 2002, Statement of Federal Financial Accounting Standards No. 23, Eliminating the Category
 National Defense Property, Plant, and Equipment, revises accounting principles for military equipment (previously
 referred to as National Defense Property, Plant, and Equipment). The standard renames National Defense Property,
 Plant, and Equipment to military equipment, classifies military equipment as general property, plant, and equipment,
 and requires the capitalization and depreciation of the cost of military equipment, including the cost of modifications
 and upgrades. Military equipment is reported on the books of the Department of the Navy General Fund.

 General PP&E assets and any improvements to the asset are capitalized at historical acquisition cost when the asset
 has a useful life of two or more years, and when the acquisition cost equals or exceeds the DoD capitalization
 threshold of $100 thousand. Improvement costs over the DoD capitalization threshold of $100 thousand for General
 PP&E are required to be capitalized. All General PP&E, other than land, is depreciated on a straight-line basis. Land
 is not depreciated.

 Effective February 20, 2003, Public Law 108-7, the Consolidated Appropriations Resolution, 2003, Section 106
 increased the expense/investment unit value threshold from $100 thousand to $250 thousand. FMR, Volume 2B,
 Chapter 9, eludes to the fact that if the expense/investment threshold changes, the capitalization threshold changes.
 The revised threshold is not applicable to FY 2002 and other prior fiscal year appropriations. Since the NWCF
 receives their funds through the Capital Purchases Program (CPP) the threshold remains at $100 thousand for FY
 2003.

 General PP&E has been capitalized and reported on the NWCF financial statements using the following DoD
 capitalization thresholds: FY 1996 though FY 2003 - $100 thousand; FY 1995 - $50 thousand; FY 1994 - $25
 thousand; and FY 1993 - $15 thousand.

 For NWCF activities, all PP&E used in the performance of their mission is categorized as General PP&E, whether or
 not it meets the definition of any other PP&E categories. Military Equipment, Heritage Assets and Stewardship Land
 owned or maintained on a NWCF installation are reported in the Supplemental Stewardship Report of the applicable
 Military Department. To prevent duplicative reporting of the same Heritage Assets within DON, the total number of
 DON-wide Heritage Assets are reported in the Required Supplementary Stewardship Information of the Annual
 Audited Financial Statements of the DON General Funds (Treasury Index 17).

 Material disclosures are provided at Note 10.



160   NAVY WORKING CAPITAL FUND
                                                                                    2003 ANNUAL FINANCIAL REPORT



P. Advances and Prepayments
Payments in advance of the receipt of goods and services are recorded as advances or prepayments and reported as
an asset on the Balance Sheet. Advances and prepayments are recognized as expenditures and expenses when the
related goods and services are received.

Q. Leases
Generally, lease payments are for the rental of equipment and operating facilities and are classified as either capital
or operating leases. When a lease is essentially equivalent to an installment purchase of property (a capital lease)
the NWCF records the applicable asset and liability if the value equals or exceeds the current DoD capitalization
threshold. The NWCF records the amounts as the lesser of the present value of the rental and other lease payments
during the lease term (excluding portions representing executory costs paid to the lessor) or the asset’s fair value.
The NWCF deems the use of estimates for these costs as adequate and appropriate due to the relatively low dollar
value of capital leases. Imputed interest was necessary to reduce net minimum lease payments to present value
calculated at the incremental borrowing rate at the inception of the leases. In addition, the NWCF classifies leases
that do not transfer substantially all of the benefits or risks of ownership as operating leases and records payment
expenses over the lease term.

R. Other Assets
The NWCF conducts business with commercial contractors under two primary types of contracts - fixed price and cost
reimbursable. To alleviate the potential financial burden on the contractor that long-term contracts can cause,
the NWCF provides financing payments. One type of financing payment that the NWCF makes, for real property,
is based upon a percentage of completion. In accordance with the SFFAS No. 1, “Accounting for Selected Assets
and Liabilities,” such payments are treated as construction in process and are reported on the General PP&E line
and in Note 10, General PP&E, Net.

In addition, based on the provision of the Federal Acquisition Regulation (FAR), the NWCF makes financing payments
under fixed price contracts that are not based on a percentage of completion. The NWCF reports these financing
payments as advances or prepayments in the “Other Assets” line item. The NWCF treats these payments as
advances or prepayments because the NWCF becomes liable only after the contractor delivers the goods in
conformance with the contract terms. If the contractor does not deliver a satisfactory product, the NWCF is not
obligated to reimburse the contractor for its costs and the contractor is liable to repay the NWCF for the full amount
of the advance.

The DoD has completed a review of all applicable federal accounting standards; applicable public laws on contract
financing FAR Parts 32, 49, and 52; and the OMB guidance in 5 Code of Federal Regulations Part 1315, “Prompt
Payment.” The DoD has concluded that SFFAS No. 1 does not fully or adequately addresses the subject of progress
payment accounting and is considering what further action is appropriate.

S. Contingencies and Other Liabilities
The SFFAS No. 5, “Accounting for Liabilities of the Federal Government,” defines a contingency as an existing
condition, situation, or set of circumstances that involves an uncertainty as to possible gain or loss to the NWCF. The
uncertainty will be resolved when one or more future events occur or fail to occur. A contingency is recognized as a
liability when a past event or exchange transaction has occurred, a future loss is probable and the amount of loss
can be reasonably estimated.

Financial statement reporting is limited to disclosure when conditions for liability recognition do not exist but there is
at least a reasonable possibility that a loss or additional loss will be incurred. Examples of loss contingencies include
the collectibility of receivables, pending or threatened litigation, possible claims and assessments. The NWCF’s loss
contingencies arising as a result of pending or threatened litigation or claims and assessments occur due to events
such as vehicle accidents; property damages; and contract disputes.




                                                        NOTES    TO THE   PRINCIPAL STATEMENTS                          161
                                                      DEPARTMENT    OF THE   NAVY



 T. Accrued Leave
 Civilian annual leave that has been accrued and not used as of the balance sheet date is reported as a liability.
 The liability reported at the end of the fiscal year reflects the current pay rates.

 U. Net Position
 Net Position consists of unexpended appropriations and cumulative results of operations (CRO). Unexpended
 appropriations represent amounts of authority which are unobligated and have not been rescinded or withdrawn.
 Unexpended appropriations also represent amounts obligated but for which legal liabilities for payments have not
 been incurred.

 CRO for the NWCF represents the excess of revenues over expenses less refunds to customers and returns to the U.S.
 Treasury since fund inception.

 V. Treaties for Use of Foreign Bases
 The DoD Components have the use of land, buildings, and other facilities, which are located overseas and have been
 obtained through various international treaties and agreements negotiated by the Department of State. The DoD
 capital assets overseas are purchased with appropriated funds; however, title to land and improvements is retained
 by the host country. Generally, treaty terms allow the DoD Components continued use of these properties until the
 treaties expire. These fixed assets are subject to loss in the event treaties are not renewed or other agreements are
 not reached which allow for the continued use by the Department. Therefore, in the event treaties or other
 agreements are terminated whereby use of the foreign bases is no longer allowed, losses will be recorded for the
 value of any nonretrievable capital assets after negotiations between the U.S. and the host country have been
 concluded to determine the amount to be paid the U.S. for such capital investments.

 W. Comparative Data
 The Financial Statements and accompanying Notes to the Financial Statements report the financial position and results
 of operations for FY 2003. Financial statement fluctuations greater than 2 percent of total assets on the Balance
 Sheet and/or greater than 10 percent between FY 2002 and FY 2003, are explained within the Notes to the
 Financial Statements.

 X. Unexpended Obligations
 The NWCF obligates funds to provide goods and services for outstanding orders not yet delivered. The financial
 statements do not reflect this liability for payment for goods/services not yet delivered.




162   NAVY WORKING CAPITAL FUND
                                                                                                2003 ANNUAL FINANCIAL REPORT



N OTE 2. N ONENTITY               AND      E NTITY A SSETS



                                                                               2003                             2002 Nonentity Assets

      As of September 30,                                Nonentity            Entity              Total
          (Amounts in thousands)
          1.Intra-governmental Assets:
          A. Fund Balance with Treasury              $               0 $          1,827,646 $       1,827,646   $                0
          B. Investments                                             0                    0                 0                    0
          C. Accounts Receivable                                     0              582,773           582,773                    0
          D. Other Assets                                            0               10,392            10,392                    0
          E. Total Intra-governmental Assets         $               0 $          2,420,811 $       2,420,811   $                0

          2. Non-Federal Assets:
          A. Cash and Other Monetary Assets          $               0 $                 0 $                0   $               0
          B. Accounts Receivable                                11,617             100,158            111,775                   0
          C. Loans Receivable                                        0                   0                  0                   0
          D. Inventory & Related Property                            0          18,256,128         18,256,128                   0
          E. General Property, Plant and Equipment                   0           4,323,910          4,323,910                   0
          F. Investments                                             0                   0                                      0
          G. Other Assets                                            0             868,808            868,808                   0
          H. Total Non-Federal Assets                $          11,617 $        23,549,004 $       23,560,621   $               0
          3. Total Assets:                           $          11,617 $        25,969,815 $       25,981,432   $               0
          4. Other Information:

Information Related to Non-entity and Entity Assets:

Definitions
Asset accounts are either categorized as entity or nonentity. Entity accounts consist of resources that the agency has
the authority to use, or where management is legally obligated to use funds to meet entity obligations, e.g., accounts
payable. Non-entity accounts are assets that are held by an entity, but are not available for use in the operations of
the entity, for example, interest, penalties and fines, as an agent of the Department of Treasury.

Composition of Non-entity Assets
The $11,617 thousand included in non-entity non-federal accounts receivable represents interest, penalties, fines, &
administrative fees. These fees do not belong to the Navy Working Capital Fund and will be submitted to the
Department of Treasury. In FY 2002, these amounts were reported in entity non-federal Other Assets.

Other Disclosures Related to Non-entity Assets
No further disclosures required.

Note Reference
For additional line item discussion, see Note 3, Fund Balance with Treasury; Note 5, Accounts Receivable; Note 6,
Other Assets; Note 9, Inventory and Related Property; and Note 10, General Property, Plant, and Equipment.

For regulatory discussion on Non-entity and Entity Assets, See Department of Defense Financial Management
Regulation, Volume 6B, Chapter 10, paragraph 1004.




                                                               NOTES       TO THE   PRINCIPAL STATEMENTS                                163
                                                                DEPARTMENT    OF THE   NAVY



 N OTE 3. F UND B ALANCE                WITH   T REASURY
           As of September 30,                                                          2003              2002
           (Amounts in thousands)
               1. Fund Balances:
               A. Appropriated Funds                                              $               0   $              0
               B. Revolving Funds                                                         1,827,646          1,709,680
               C. Trust Funds                                                                     0                  0
               D. Other Fund Types                                                                0                  0
               E. Total Fund Balances                                             $       1,827,646   $      1,709,680



               2. Fund Balances Per Treasury Versus Agency:
               A. Fund Balance per Treasury                                       $       1,827,646   $      1,709,680
               B. Fund Balance per Agency                                                 1,827,646          1,709,680
               C. Reconciling Amount                                              $               0   $              0

                3. Explanation of Reconciliation Amount: None

                4. Other Information Related to Fund Balance with Treasury:


 Fluctuations and/or Abnormalities None.

 Composition of Fund Balance with Treasury
 The Fund Balance with Treasury of $1,827,646 thousand reflects the FY 2002 ending balance of $1,709,680
 thousand plus FY 2003 collections, disbursements, and other cash transactions recorded in the Navy Working
 Capital Fund (NWCF) Treasury sub-limit 97X4930.002. The following table details the amounts recorded as of
 September 30, 2003.

      Collections                          $ 25,654,152
      Disbursements                         (25,443,357)
      Other Cash Transactions, Net               (92,830)

 The following table provides a breakout of Other Cash Transactions, Net:
 (Amounts in thousands)

      Activity
      Supply Management, Navy             Appropriation Received               $40,200
      Transportation                      Principal Payment to FFB            (133,030)
      Total                                                                   ($92,830)

 A direct appropriation was provided to the Defense Working Capital Fund in the Department of Defense (DoD)
 Appropriations Act, 2003, P.L. 107-248. Program Budget Decision 624, dated December 3, 2002 allocated
 $40.2 million to the NWCF Supply Management activity group to augment inventory levels.

 The principal payment to the Federal Financing Bank relates to an outstanding debt principal amount reported by
 the Transportation Activity Group. See Note 6 for additional disclosures.




164    NAVY WORKING CAPITAL FUND
                                                                                              2003 ANNUAL FINANCIAL REPORT



Intra-governmental Payment and Collection (IPAC)
IPAC differences are reconcilable differences that represent amounts recorded by Treasury but not reported by the
organization. IPAC differences for the Department of the Navy can not be differentiated between NWCF and
General Funds, therefore no IPAC differences are being reported for the NWCF. All amounts if applicable will be
reported on the Department of the Navy General Fund statement.

Other Disclosures Related to Fund Balance with Treasury
No further disclosures required.

Note Reference
See Note Disclosure 1.I., Significant Accounting Policies, for additional discussion on financial reporting requirements
and DoD policies governing Funds with the U.S. Treasury.

For regulatory discussion on Fund Balance with Treasury, See Department of Defense Financial Management
Regulation, Volume 6B, Chapter 10, paragraph 100501.


N OTE 4. I NVESTMENTS
Not Applicable.


N OTE 5. A CCOUNTS R ECEIVABLE


        As of September 30,                                                      2003                                         2002

                                                                            Allowance For
                                                        Gross Amount Due       Estimated          Accounts Receivable, Accounts Receivable,
                                                                            Uncollectibles                Net                  Net

        (Amounts in thousands)
        1. Intra-governmental Receivables:               $        582,773                N/A                582,773       $        525,240
        2. Non-Federal Receivables (From the Public):    $        111,764   $             11       $        111,775       $         80,901
        3. Total Accounts Receivable:                    $        694,537   $                11    $        694,548       $        606,141


        4. Other Information:

Fluctuations and/or Abnormalities
The balance in the Allowance for Estimated Uncollectibles is abnormal due to a posting logic flaw in the Material
Financial Control System (MFCS) for the Supply Management business area. The problem should be corrected for the
First Quarter, FY 2004.

Intra-governmental Accounts Receivable increased $57,536 thousand, 11 percent, from FY 2002 to FY 2003. The
increase is primarily a result of an increase in sponsor reimbursable billing associated with the prepositioning ship
program in support of the war effort by the Transportation activity group.

Non-federal Accounts Receivable increased $30,874 thousand, 38 percent, from FY 2002 to FY 2003. The increase
can be attributed to the recording of interest, penalties, fines and administrative fees in non-entity non-federal
accounts receivable. In FY 2002, these amounts were recorded in entity non-federal other assets.




                                                             NOTES   TO THE     PRINCIPAL STATEMENTS                                          165
                                                     DEPARTMENT    OF THE   NAVY



 Allowance Method
 The Statement of Federal Financial Accounting Standards No. 1 and the Department of Defense (DoD) Financial
 Management Regulation require that federal agencies establish an allowance for uncollectible accounts receivable -
 Non-federal accounts. This account has been established within the Navy Working Capital Fund (NWCF); however,
 the amounts reported are generally low. This account is low, as the NWCF requires an advance deposit from all
 non-federal entities prior to the commencement of work. Therefore, an assumption is made that the amount of
 uncollectible accounts should be negligible. The allowance amount represents a percentage of the total that was
 billed after the total project cost has been adjusted to reflect the advance deposit.

 Allocation of Undistributed Collections
 The DoD policy is to allocate supported undistributed collections between federal and non-federal categories based
 on the percentage of federal and non-federal accounts receivable. Supported undistributed collections in the amount
 of $758,605 thousand were applied against accounts receivable. Unsupported undistributed collections should be
 recorded in United States Standard General Ledger account 2400, Liability for Deposit Funds, Clearing Accounts,
 and Undeposited Collections. The NWCF followed this allocation procedure. This is necessary because the potential
 exists that some of these unsupported undistributed collections do not belong to the NWCF and will have to be paid
 to the appropriate fund holder.

 Trading Partner Data
 The NWCF’s accounting systems do not capture trading partner data at the transaction level in a manner that
 facilitates trading partner aggregations. Therefore, the NWCF was unable to reconcile intra-governmental accounts
 receivable balances with most trading partners. Through an ongoing Business Management Modernization Program,
 the DoD intends to develop long-term systems improvements that will capture the data necessary to perform
 reconciliations. The Department of the Navy (DON) is also working on short-term solutions to gather the required
 information as outlined in the DON Mid-Range Financial Improvement Plan.

 Accounts Receivable Greater than 180 days
 The amount of non-federal and intra-governmental receivables over 180-days old is $52,992 thousand and $80,832
 thousand, respectively.

 Non-federal Refunds Receivable
 The total amount of non-federal refund receivables does not exceed 10 percent of the non-federal accounts
 receivable, net amount on the Balance Sheet. No further disclosures required.

 Other Disclosures Related to Accounts Receivable
 Supply Management, Navy had several activities that reported financial data from the Financial Inventory Reporting
 (FIR) system during FY 2003. In that system, cash sales were posted to current year collections instead of being
 recorded directly as an accounts receivable. This process resulted from the FIR system inability to report accounts
 receivable data. As of September 30, 2003, all FIR system users have been converted to the Material Financial
 Control System (MFCS). As a part of the conversion process any required adjustments were made within the year-
 end closing process. MFCS will enable these activities to properly record cash sales as accounts receivable rather
 than influencing the balance of accounts receivable through undistributed collections.

 Note Reference
 For additional discussion on financial reporting requirements and DoD policies governing Trading Partner Data and
 Accounts Receivable, see Notes 1.G. and 1.K, Significant Accounting Policies, respectively.

 For regulatory discussion on Accounts Receivable, See Department of Defense Financial Management Regulation,
 Volume 6B, Chapter 10, paragraph 1007.




166   NAVY WORKING CAPITAL FUND
                                                                                           2003 ANNUAL FINANCIAL REPORT



N OTE 6. O THER A SSETS


                As of September 30,                                            2003                 2002
                (Amounts in thousands)
                1. Intra-governmental Other Assets:
                A. Advances and Prepayments                             $              10,392   $               266
                B. Other Assets                                                             0                     0
                C. Total Intra-governmental Other Assets                $              10,392   $               266

                2.Non-Federal Other Assets:
                A. Outstanding Contract Financing Payments              $                   0   $                  0
                B. Other Assets (With the Public)                                     868,808              1,140,654
                C. Total Non-Federal Other Assets                       $             868,808   $          1,140,654

                3. Total Other Assets:                                  $             879,200   $          1,140,920

                4. Other Information Related to Other Assets:

Fluctuations and/or Abnormalities
Intra-governmental Other Assets increased $10,126 thousand, 3806 percent, from FY 2002 to FY 2003. Intra-
governmental Advances to Others is overstated $26,300 thousand due to an erroneous cash advance posted to the
Base Support activity group. The error resulted from a problem within the Department of Defense Working Capital
Fund Accounting System (DWAS) in which the customers’ cash advances could not be reversed. Action will be taken
to transfer the advances to the proper appropriation during the First Quarter, FY 2004 and to have system changes
made to DWAS. This increase (i.e. overstatement) is offset by trading partner adjustments and a concerted effort to
ensure that advances were liquidated against the appropriate customer bill.

Non-federal Other Assets decreased $271,846 thousand, 24 percent, from FY 2002 to FY 2003. The decrease is a
result of the write-off of credits pending over 90 days by Supply Management, Marine Corps and the FY 2003
reduction of the outstanding debt principal amount reported for the Transportation Activity Group.

Advances and Prepayments
The buyer-side advances to others balances were adjusted to agree with seller-side advances from others balances as
reported on the books of other Department of Defense (DoD) reporting entities. Additionally, the buyer-side
prepayment balances were adjusted to agree with seller-side deferred credits as reported on the books of other DoD
reporting entities.

Composition of Other Assets (With the Public)
Other Assets (With the Public) includes an amount of $606,250 thousand relating to the outstanding debt principal
amount reported for the Transportation Activity Group involving Time Charter arrangements made by Military Sealift
Command for the long-term use of the Afloat Prepositioning Force – Navy ships. The outstanding debt principal
amount is reported in the Navy Working Capital Fund Balance Sheet Other Assets (With the Public) in order to
reconcile with the amount reported by the Federal Financing Bank through the trading partner elimination process.
See Note 13 for material disclosures.

Other Assets (With the Public) also includes progress payments made by Supply Management, Navy amounting to
$143,388 thousand, revenue earned but not billed by Depot Maintenance, Shipyards amounting to $94,672
thousand and inventory returned to suppliers by Supply Management, Marine Corps with a credit pending in the
amount of $1,048 thousand. The remaining amounts of $11,504 thousand, $8,964 thousand, and $2,982 thousand
represents deferred charges, advances, and unallocated costs, respectively.




                                                             NOTES   TO THE   PRINCIPAL STATEMENTS                     167
                                                                     DEPARTMENT   OF THE   NAVY



 Other Disclosures Related to Other Assets
 Assets awaiting disposal in the amount of $3,549 thousand is currently reported in General Property, Plant, &
 Equipment Other. This amount was reported in Other Assets (With the Public) in FY 2002.

 In FY 2002, included in Other Assets were amounts that represented interest, penalties, fines, & administrative fees.
 For FY 2003, these amounts are reported in non-entity accounts receivable. These fees do not belong to the Navy
 Working Capital Fund and will distributed directly to the Department of Treasury.

 Note Reference
 See Note 1.R., Significant Accounting Policies, for additional discussion on financial reporting requirements and DoD
 policies governing Other Assets.

 For regulatory discussion on Other Assets, See Department of Defense Financial Management Regulation, Volume 6B,
 Chapter 10, paragraph 1008.


 N OTE 7. C ASH       AND      O THER M ONETARY A SSETS
 Not Applicable.



 N OTE 8. D IRECT L OANS             AND      L OAN G UARANTEES , N ONFEDERAL B ORROWERS
 Not Applicable.


 N OTE 9. I NVENTORY            AND      R ELATED P ROPERTY
                As of September 30,                                                 2003               2002
                (Amounts in thousands)
                1. Inventory, Net (Note 9.A.)                                 $       17,519,382   $     17,012,566
                2. Operating Materials & Supplies, Net (Note 9.B.)                       736,746            643,298
                3. Stockpile Materials, Net (Note 9.C.)                                        0                  0
                4. Total                                                      $       18,256,128   $     17,655,864




168   NAVY WORKING CAPITAL FUND
                                                                                                                 2003 ANNUAL FINANCIAL REPORT



 N OTE 9.A. I NVENTORY, N ET

           As of September 30,                                                          2003                                 2002
                                                             Inventory,             Revaluation         Inventory,        Inventory,    Valuation
                                                             Gross Value             Allowance              Net               Net        Method
           (Amounts in thousands)
           1. Inventory Categories:
             A. Available and Purchased for Resale
                                                            $ 20,190,933        $      (16,871,638)       3,319,295   $     4,456,193      O
              B. Held for Repair                              14,593,725                (1,350,791)      13,242,934        11,796,119      O
              C. Excess, Obsolete, and Unserviceable
                                                                    438,650               (438,650)               0                 0      SP
             D. Raw Materials                                             0                       0               0                 0
             E. Work in Process                                     957,153                       0         957,153           760,254      AC
                                                            $                   $                                     $
             F. Total                                             36,180,461           (18,661,079)      17,519,382        17,012,566
nd for Valuation Methods:
      Legend for Valuation Methods:
         Adjusted LAC = Latest Acquisition Cost, adjusted for holding gains and losses
          NRV = Net Realizable Value
          O = Other
          SP = Standard Price
          AC = Actual Cost

      2. Other Information:
 Information Related to Inventory:
 Fluctuations and/or Abnormalities
 Inventory Available and Purchased for Resale decreased $1,136,897 thousand, 26 percent, from FY 2002 to FY
 2003. The decrease is a result of the inventory valuation model adjustments being posted to the inventory allowance
 account thereby increasing inventory allowance and decreasing inventory. The posted adjustments can be
 predominately attributed to the reclassification of Cost of Goods Sold (COGS) prior period adjustments in the amount
 of $773,196 thousand that are no longer authorized.

 Inventory Held for Repair increased $1,446,814 thousand, 12 percent, from FY 2002 to FY 2003. The increase
 can be attributed to inventory bought to support Iraqi freedom.

 Work in Process increased $196,900 thousand, 26 percent, from FY 2002 to FY 2003. The increase is due to
 system implementation problems at the Naval Air Warfare Center (NAWC). These system problems impeded the
 ability of the NAWCs from fully billing their customers, which generated an increase in the work in process account.
 Corrective actions are underway and expected to be completed First Quarter, FY 2004. This increase is offset by
 decreases in Base Support and Depot Maintenance activity groups stemming from increased emphasis on resolving
 unbilled accounts.

 Changes from Prior-Year’s Accounting Methods
 Supply Management, Navy implemented SMART, an Enterprise Resource System (ERP) system. The inventory
 capitalized into ERP is valued at Moving Average Cost (MAC). Under the MAC inventory valuation method, the “per
 item” inventory value can change upon each new purchase. In FY 2003, 2,472 National Item Identification Number
 (NIINs) supporting two weapon systems – E-2C Hawkeye Aircraft and LM-2500 Gas Turbine Engine- were converted
 from legacy systems to ERP. This material, while held at standard price in legacy system, was valued at $1.426
 billion and represented 3.7 percent of total inventory. When transferred to ERP and recorded under MAC, the
 inventory value decreased to $810 million, a difference of $616 million.



                                                                              NOTES       TO THE      PRINCIPAL STATEMENTS                          169
                                                           DEPARTMENT      OF THE   NAVY



 Valuation Methods
 The valuation method O (Other) included in the numeric note table above for inventory categories Available and
 Purchased for Resale and Held for Repair were provided because the amounts reported are valued at both Latest
 Acquisition Cost (LAC) and MAC. A breakout of these amounts by valuation method is as follows:

                              (Amounts in thousands)
                              Inventory Available and Purchased for Resale, Net
                              Latest Acquisition Cost                                $2,773,673
                              Moving Average Cost                                       545,623
                                 Total                                               $3,319,296

                              Inventory Held for Repair, Net
                              Latest Acquisition Cost                               $12,751,034
                              Moving Average Cost                                       491,900
                                 Total                                              $13,242,934

 Restrictions of Inventory Use, Sale, or Disposition
 Generally, there are no restrictions with regard to the use, sale, or disposition to applicable Department of Defense
 (DoD) activities and personnel. Other than certain safety and war reserve levels, inventory may be sold to foreign,
 state and local governments, private parties and contractors in accordance with DoD, the Defense Finance
 Accounting Service and the Department of the Navy (DON) policies and guidance or at the direction of the President.

 Composition of Inventory
 Except for the Work in Process, all Inventory categories shown in the table above apply to the Supply Management
 Activity only.

 Inventory Categories. Inventory represents property that is (1) held for sale, (2) in the process of production for sale
 or (3) to be consumed in the production of goods for sale or in the provision of services for a fee.

 Inventory Available and Purchase for Resale includes consumable spare and repair parts and repairable items owned
 and managed by the DON. In some cases, the consumable and repairable items are managed by other Military
 Services, such as the Defense Logistics Agency or the General Services Administration. Material available and
 purchased for resale includes material held due to a managerial determination that it should be retained to support
 military or national contingencies. Federal Accounting Standards requires disclosure of the amount of Inventory Held
 for “Future Sale”. The Navy Working Capital Fund estimates that $733,374 thousand of the Inventory Held for Sale,
 Net will be for future sale. There is no management or valuation difference between the two categories.

 Included in Line 1.A., Inventory Available and Purchased for Resale, are War Reserve Material for Supply
 Management, Navy and Supply Management, Marine Corps in the amount of $171,373 thousand and $33,000
 thousand, respectively.

 Inventory Held for Repair is inventory that requires repair to make suitable for sale. Many of the inventory items are
 more economical to repair than to procure. In addition, because the DON often relies on weapon systems and
 machinery no longer in production, the DON supports a process that encourages the repair and rebuilding of certain
 items. This repair cycle is an essential part of maintaining a ready, mobile, and armed military force.

 Excess, Obsolete, and Unserviceable inventory consists of scrap materials or items that cannot be economically
 repaired and are awaiting disposal. The DON does not anticipate recovering any significant costs as result of final
 disposal of these items. Therefore, Excess, Obsolete, and Unserviceable inventory will reflect a net realizable value
 of zero.




170   NAVY WORKING CAPITAL FUND
                                                                                   2003 ANNUAL FINANCIAL REPORT



Work in Process balances include costs related to the production or servicing of items, including direct material, direct
labor, applied overhead and other direct costs. Work in Process also includes the value of finished products or
completed services pending billing to the customer. The Work in Process designation may also be used to
accumulate the amount paid to a contractor under cost reimbursable contracts, including the amount withheld from
payment to ensure performance, and the amount paid to other Government plants for accrued costs of end items of
material ordered but not delivered.

Inventory Work in Process
Work in process at Depot Maintenance activities and Research and Development activities of approximately
$287,851 thousand and $411,025 thousand is included as inventory Work in Process in Note 9.A because the U.S.
Government Standard General Ledger (USSGL) does not include an account for Work in Process that is not inventory.
This amount represents work that has been completed, expenses incurred, and waiting to be billed to the customer.

Other Disclosures Related to Inventory
The general ledger values in the accounting system do not reconcile with the supporting detail records in the Navy
segment of the Supply Management Activity logistics system. Supply Management, Navy has determined that
program changes must be made to the Material Financial Control System to correct systemic posting problems, which
contribute to a reconciling difference between the systems. A System Change Request has been prepared and
submitted, once approved and executed final adjustments will be made to inventory and financial systems to align
the data.

Note Reference
See Note 1.M., Significant Accounting Policies, for additional discussion on financial reporting requirements and
DoD policies governing Inventory and Related Property.

For regulatory discussion on Inventory, Net, see Department of Defense Financial Management Regulation, Volume
6B, Chapter 10, paragraph 1011.




                                                        NOTES   TO THE   PRINCIPAL STATEMENTS                          171
                                                                             DEPARTMENT          OF THE   NAVY



 N OTE 9.B. O PERATING M ATERIALS                               AND     S UPPLIES , N ET

      As of September 30,                                                         2003                                  2002
                                                            OM&S               Revaluation                                          Valuation
                                                          Gross Value           Allowance          OM&S, Net        OM&S, Net        Method
      (Amounts in thousands)
      1. OM&S Categories:
         A. Held for Use                              $            736,746    $              0     $      736,746   $    643,298         O
         B. Held for Repair                                              0                   0                  0              0
         C. Excess, Obsolete, and
             Unserviceable                                               0                   0                  0               0
         D. Total                                     $            736,746    $              0     $      736,746   $    643,298


 Legend for Valuation Methods:
 Adjusted LAC = Latest Acquisition Cost                                      NRV = Net Realizable Value
                  adjusted for holding gains and losses                      O = Other
 SP = Standard Price
 AC = Actual Cost


 Information Related to Operating Materials & Supplies (OM&S):

 Fluctuations and/or Abnormalities
 OM&S increased $93,448 thousand, 15 percent, from FY 2002 to FY 2003. The increase is due to increased
 material and supplies for the Depot Maintenance activity group to support the reduced cycle time for aircraft and
 accelerated production of J52 and F404 engines in support of the war effort. As well as, acceleration of Senior
 Readiness Oversight Committee components and start up associated with new requirements of the H1 platform.

 Restrictions on OM&S
 Generally, there are no restrictions with regard to the use, sale, or disposition of OM&S to applicable the Department
 of Defense (DoD) activities.

 Composition of OM&S
 OM&S Held for Use represents property that is consumed during normal operations and includes consumable spare
 and repair parts for use on customer work by various activities. The items are recorded using different methodologies
 including actual, weighted-average and historical cost. Federal Accounting Standards requires disclosure of the
 amount of OM&S Held for “Future Use”. The Navy Working Capital Fund estimates that $10,928 thousand of the
 OM&S Held for Use, Net will be for future use. There is no management or valuation difference between the two
 categories.

 Government Furnished Material (GFM) and Contractor Acquired Material (CAM)
 Generally, the values of the NWCF’s GFM and CAM in the hands of contractors is not included in the OM&S values
 reported above. The DoD is presently reviewing its process for reporting these amounts in an effort to determine the
 appropriate accounting treatment and the best method to annually collect and report required information without
 duplicating information already in other existing logistics systems.

 Other Disclosures Related to OM&S
 No further disclosures required.




172    NAVY WORKING CAPITAL FUND
                                                                                                               2003 ANNUAL FINANCIAL REPORT



Note Reference
See Note 1.M., Significant Accounting Policies, for additional discussion on financial reporting requirements and
DoD policies governing Inventory and Related Property.

For regulatory discussion on OM&S, Net, see Department of Defense Financial Management Regulation, Volume 6B,
Chapter 10, paragraph 101107.


N OTE 9.C. S TOCKPILE M ATERIALS , N ET
Not Applicable.


N OTE 10. G ENERAL PP&E, N ET
As of September 30,                                                                   2003                                                     2002

                                             Depreciation/                                            (Accumulated
                                             Amortization                                             Depreciation/                         Prior FY Net
                                                Method       Service Life    Acquisition Value        Amortization)       Net Book Value    Book Value
(Amounts in thousands)


       1. Major Asset Classes:
        A. Land                                  N/A            N/A          $         63,711                      N/A $         63,711 $          63,773
        B. Buildings, Structures,                 S/L         20 Or 40              6,711,260     $       (4,214,367)         2,496,893         2,441,271
           and Facilities
        C. Leasehold Improvements                 S/L         lease term                  302                   (134)              168               199
        D. Software                               S/L         2-5 Or 10              288,844                (181,910)          106,934            92,263
        E. Equipment                              S/L         5 Or 10               3,308,036             (2,386,054)          921,982           948,910
         F. Assets Under Capital Lease [1]        S/L         lease term                    0                       0                0                 0
         G. Construction-in-
             Progress                            N/A            N/A                  730,673                 N/A               730,673           644,421
         H. Other                                                                      3,549                          0          3,549                 0

         I. Total General PP&E                                               $    11,106,375      $       (6,782,465)     $ 4,323,910      $    4,190,837

[1]
  Note 15.B for additional information on Capital Leases
Legend for Valuation Methods:
S/L = Straight Line     N/A = Not Applicable

      2. Other Information:


Fluctuations and/or Abnormalities
Leasehold Improvements decreased $31 thousand, 15 percent, from FY 2002 to FY 2003. The decrease is due to
the annual depreciation of leasehold assets by the Transportation Activity group.

Software increased $14,671 thousand, 16 percent, from FY 2002 to FY 2003. The increase is a result of the
reclassification of capital purchase software projects from Assets under Development (AUD) to their corresponding
GPP&E. Capital purchases are recorded in an AUD account while they are under development. Upon completion of
the project, the total value is moved to GPP&E. Two of the projects that were completed this year were the
Configuration Management Information System and the Naval Air Depot Maintenance System.



                                                                            NOTES    TO THE      PRINCIPAL STATEMENTS                                       173
                                                      DEPARTMENT    OF THE   NAVY



 Construction in Progress increased $86,251 thousand, 13 percent, from FY 2002 to FY 2003 primarily as a result of
 Supply Management, Navy modifications to existing computer space to accommodate Navy and Marine Corps
 Intranet (NMCI).

 GPP&E Other increased $3,549 thousand or 100 percent from FY 2002 to FY 2003 as a result of the inclusion of
 assets awaiting disposal. Prior to FY 2003, these amounts were reported in Other Assets (With the Public).

 Military Equipment
 Military equipment is reported on the books of the Department of Navy General Fund.

 Fully Depreciated Assets
 The acquisition value of fully depreciated assets included in the table above and reported in the Balance Sheet
 amount to $3,124,055 thousand as of September 30, 2003.

 Outside of the Continental United States (OCONUS) GPP&E
 Included in the Major Asset Classes disclosed in Note 10 are assets totaling $351,414 thousand located OCONUS.

 Contractor Held GPP&E
 For those activities with GPP&E real property in the possession of contractors, the value of this real property is
 included in the values reported for the Major Asset Classes of Buildings, Structures, and Facilities. The value of
 personal property in Major Asset Classes of Automated Data Processing Software and Equipment does not include all
 of the GPP&E in the possession of contractors. The net book amount of such property is immaterial in relation to the
 total GPP&E net book value. In accordance with an approved strategy with the Office of Management and Budget,
 the General Accounting Office, and the Department of Defense Inspector General, the Department is developing new
 policies and a contractor reporting process to capture GPP&E information for future reporting purposes for
 compliance with federal-wide accounting standards.

 Other Disclosures Related to GPP&E
 For the Naval Supply Systems Command the value of GPP&E is overstated. Implementation of the Defense Property
 Accounting System (DPAS) has recorded all plant, property, and equipment since its inception in October 1999.
 However, lack of an interface between DPAS and the financial system caused a disconnect allowing only one activity
 to update their GPP&E subsidiary ledger with DPAS data. Additionally, the GPP&E that was resident in the Central
 Data Base (CDB) prior to October 1999 remains in the CDB. The amounts reported in the CDB appear on the
 balance sheet, but overstates the true value of the GPP&E. This deficiency has been noted in the FY04 Qualified
 Opinion Financial Statement Plan. Corrective action will be initiated in FY 2004 to develop an interface between
 DPAS and the CDB using the Defense Business Management System.

 Note Reference
 See Note 1.O., Significant Accounting Policies, for additional discussion on financial reporting requirements and the
 Department of Defense (DoD) policies governing GPP&E.

 For regulatory discussion on GPP&E, Net, see Department of Defense Financial Management Regulation, Volume 6B,
 Chapter 10, paragraph 1012.


 N OTE 10.A. A SSETS U NDER C APITAL L EASE
 Information Related to Assets Under Capital Lease:
 The Navy Working Capital Fund has no assets under capital lease.

 Other Disclosures Related to Assets Under Capital Lease
 No further disclosures required.

 Note References
 See Note 1.Q., Significant Accounting Policies, for additional discussion on financial reporting requirements and the
 DoD policies governing Leases.

174   NAVY WORKING CAPITAL FUND
                                                                                                    2003 ANNUAL FINANCIAL REPORT



N OTE 11. L IABILITIES N OT C OVERED                     AND    C OVERED        BY    B UDGETARY R ESOURCES

    As of September 30,                                                        2003                              2002
                                                         Covered by      Not Covered by                     Not Covered by
                                                          Budgetary        Budgetary                          Budgetary
    (Amounts in thousands)                                Resources        Resources            Total         Resources

    1. Intra-governmental Liabilities:
     A. Accounts Payable                                 $     313,786    $           0     $     313,786    $               0
     B. Debt                                                   615,648                0           615,648                    0
     C. Environmental Liabilities                                    0                0                 0                    0
     D. Other                                                  277,651           11,617           289,268                    0
     E. Total Intra-governmental Liabilities             $   1,207,085    $      11,617     $   1,218,702    $               0

    2. Non-Federal Liabilities:
     A. Accounts Payable                                 $   2,102,870    $            0    $   2,102,870    $               0
     B. Military Retirement Benefits and Other
        Other Employment-Related Actuarial Liabilities               0      1,409,853           1,409,853      1,325,926
     C. Environmental Liabilities                                    0              0                   0              0
     D. Loan Guarantee Liability                                     0              0                   0              0
     E. Other Liabilities                                    3,113,177              0           3,113,177              0
     F. Total Non-Federal Liabilities                    $   5,216,047    $ 1,409,853       $   6,625,900    $ 1,325,926

    3. Total Liabilities:                                $   6,423,132    $ 1,421,470       $   7,844,602    $ 1,325,926

4. Other Information:


Definitions
Liabilities Not Covered by Budgetary Resources are those liabilities which are not considered covered by realized
budgetary resources as of the balance sheet date.

Included in the Non-Federal Other Liabilities Not Covered by Budgetary Resources is an amount of $11,617
thousand representing interest, penalties, fines & administrative fees. These fees do not belong to the Navy Working
Capital Fund and will be distributed directly to the Department of Treasury.

Liabilities Covered by Budgetary Resources are those that are incurred by the reporting entity which are covered by
realized budgetary resources as of the balance sheet date. Budgetary resources encompass not only new budget
authority, but also other resources available to cover liabilities for specified purposes in a given year. Available
budgetary resources include the following:

• New budget authority
• Spending authority from offsetting collections (credited to an appropriation or fund account)
• Recoveries of unexpired budget authority through downward adjustments of prior year obligations
• Unobligated balances of budgetary resources at the beginning of the year or net transfers of prior year balances
  during the year
• Borrowing authority or permanent indefinite appropriations or borrowing authority, which have been enacted and
  signed into law as of the balance sheet date, provided that the resources may be apportioned by the Office of
  Management and Budget without further action by the Congress or without a contingency first having to be met.




                                                                  NOTES       TO THE      PRINCIPAL STATEMENTS                   175
                                                            DEPARTMENT        OF THE        NAVY



 Other Disclosures Related to Liabilities Not Covered by Budgetary Resources
 No further disclosures required.

 Note Reference
 For additional line item discussion, see Note 12, Accounts Payable; Note 13, Debt; Note 15, Other Liabilities; Note
 16, Commitments and Contingencies; and Note 17, Military Retirement Benefits and Other Employment Related
 Actuarial Liabilities.

 N OTE 12. A CCOUNTS PAYABLE

      As of September 30,                                                     2003                                     2002
                                                                          Interest,
                                                 Accounts Payable       Penalties, and              Total              Total
                                                                      Administrative Fees
      (Amounts in thousands)
      1. Intra-governmental Payables:             $         313,786             N/A             $        313,786   $             434,772
      2. Non-Federal Payables (to the Public):    $       2,102,870   $                     0   $      2,102,870   $           1,799,671
      3. Total                                    $       2,416,656   $                     0   $      2,416,656   $           2,234,443


      4. Other Information:


 Fluctuations and/or Abnormalities
 Intra-governmental Accounts Payable decreased $120,986 thousand, 28 percent, from FY 2002 to FY 2003. Intra-
 governmental Accounts Payable for the Supply Management and Transportation business areas increased as a result
 of increased purchases and services in support of the war effort, however this increase was offset by undistributed
 disbursements and the continual clearing of residual accounts for the Ordnance business area.

 Non-federal Accounts Payable increased $303,199 thousand, 17 percent, from FY 2002 to FY 2003. The increase
 is a result of change in guidance for unsupported undistributed collections in FY 2003. In FY 2002, unsupported
 undistributed disbursements were netted against unsupported undistributed collections and posted to Accounts
 Payable – Disbursements in Transit whereas in FY 2003 the entire unsupported undistributed collections amount is
 applied to other liabilities. Additionally, the Supply Management business area realized an increase in non-federal
 accounts payable due to increased war effort support.

 Definitions
 Intra-governmental accounts payable consists of amounts owed to other federal agencies for goods or services
 ordered and received but not yet paid. Interest, penalties, and administrative fees are not applicable to intra-
 governmental payables. Non-Federal payables are payments to non-federal government entities (to the public).

 Undistributed Disbursements
 Undistributed disbursements are the difference between disbursements/collections recorded at the transaction level to
 a specific obligation, payable, or receivable in the activity field records as opposed to those reported by the U.S.
 Treasury via the reconciled DD1329 and DD1400. The total undistributed disbursement amounts displayed in this
 note should agree with the undistributed amounts reported on the accounting reports (SF133/ AR(M)1307). In-transit
 payments are payments that have been made for other agencies or entities that have not been recorded in their
 accounting records. These payments are applied to each entity’s outstanding accounts payable balance at year-end.
 Accounts Payable were adjusted downward in the amount of $198,886 thousand for these payments.




176    NAVY WORKING CAPITAL FUND
                                                                                  2003 ANNUAL FINANCIAL REPORT



Composition of Undistributed Disbursements
The majority of the undistributed disbursements represent Mechanization of Contract Administration Services
(MOCAS) payments, which have not been liquidated. MOCAS payments represent those payments made to
contractors for materials or services that are greater than $2,500 dollars. Accruals are made when the service is
performed and remains in this account until the provider submits an invoice for payment. Therefore, if a copy of the
invoice is not received by the NWCF activity prior to the Defense Finance and Accounting Service making payment,
the payment will go to undistributed disbursements. The amounts accrued to cover the anticipated materials and
services are captured as Contract Accruals on the Other Accrued Expense line (Note 15.A., Other Liabilities, Non-
federal: Other Liabilities) and are not considered an accounts payable.

Allocation of Undistributed Disbursements
The Department of Defense (DoD) policy is to allocate supported undistributed disbursements between federal and
nonfederal categories based on the percentage of Federal and Nonfederal Accounts Payable. Supported
undistributed disbursements in the amount of $1,690,497 thousand have been applied against accounts payable.
Unsupported undistributed disbursements should be recorded in United States Standard General Ledger account
2120, Disbursements in Transit. The Navy Working Capital Fund (NWCF) followed this allocation policy.

Trading Partner Data
For the majority of intra-agency sales, NWCF’s accounting systems do not capture trading partner data at the
transaction level in a manner that facilitates trading partner aggregations. Therefore, the NWCF was unable to
reconcile the majority of its intra-governmental accounts payable to the related intra-governmental accounts receivable
that generated the payable. Through an ongoing Business Management Modernization Program, the DoD intends to
develop long-term systems improvements that will capture the data necessary to perform reconciliations. The
Department of the Navy (DON) has outlined some processes for review and implementation in the DON Mid-Range
Financial Improvement Plan, which should provide some near-term solutions.

Eliminating Adjustments
The DoD summary level seller accounts receivables were compared to NWCF’s accounts payable. An adjustment
was posted to the NWCF’s accounts payable based on the comparison with the accounts receivable of the DoD
Components providing goods and services to the NWCF’s. As required, adjustments were made to reclassify
accounts payable from Federal to Public.

Other Disclosures Related to Accounts Payable
No further disclosures required.

Note Reference
See Note 1.G., Significant Accounting Policies, for additional discussion on financial reporting requirements and DoD
policies governing Trading Partner Data and Eliminating Adjustments.




                                                       NOTES   TO THE   PRINCIPAL STATEMENTS                           177
                                                               DEPARTMENT    OF THE    NAVY



 N OTE 13. D EBT
                As of September 30,
                                                                           2003                             2002
                (Amounts in thousands)                   Beginning        Net              Ending          Ending
                                                          Balance      Borrowings          Balance         Balance
                1. Public Debt:
                 A. Held by Government Accounts              N/A            N/A              N/A              N/A
                 B. Held by the Public                       N/A            N/A              N/A              N/A
                 C. Total Public Debt                        N/A            N/A              N/A              N/A

                2. Agency Debt:
                 A. Debt to the Treasury                 $         0   $           0   $           0   $            0
                 B. Debt to the Federal Financing Bank       750,725       (135,077)         615,648          750,725
                 C. Debt to Other Federal Agencies                 0               0               0                0
                 D. Total Agency Debt                    $   750,725   $   (135,077)   $     615,648   $      750,725

                3. Total Debt:                           $   750,725   $   (135,077)   $     615,648   $      750,725

                4. Classification of Debt:
                   A. Intra-governmental Debt                                          $     615,648   $      750,725
                   B. Non-Federal Debt                                                       N/A              N/A
                   C. Total Debt                                                       $     615,648   $      750,725

                5. Other Information

 Fluctuations and/or Abnormalities
 Intra-governmental Debt decreased $135,077 thousand, 18 percent, from FY 2002 to FY 2003 as a result of FY
 2003 reduction of the outstanding debt principal amount reported for the Transportation Activity Group.

 Other Information Related to Debt
 The Afloat Prepositioning Force – Navy (APF-N) program, with Congressional approval, provides ships for Time
 Charter to meet requirements not available in the marketplace. These ships are built or converted by private Interim
 Vessel Owners using private, non-government financing obtained from various banking institutions. There were no
 payments made by the government during the building/conversion phase. APF-N Time Charters are for five years
 with four option renewal periods of five years each, for a total of 25 years. At the end of the contract, each ship
 returns to the vessel’s owner.

 The Federal Financing Bank (FFB) is one of the institutions that provided loans to the vessel owners. The FFB is
 reporting a debt in the amount of $615,647 thousand, which represents an outstanding principal balance of
 $606,250 thousand and accrued interest payable of $9,397 thousand, for the Transportation activity group. This
 information is being presented in error as the transportation activity group does not owe this debt to the FFB. This
 debt is a public debt owed by the private vessel owners. In order to simplify the payments to the FFB and to meet
 their requirements, the FFB cross-disburses the semi-annual principal and interest payments directly from the Navy
 Working Capital Fund (NWCF). This is done instead of having the Military Sealift Command (MSC) make Capital
 Hire payments to the vessel owners, who would in turn make its loan obligation payments to the FFB.

 The direction of the vessel owner to have the government make payments directly to a bank, in this case the FFB, is
 not an uncommon practice, and mirrors other Time Charters where payment is assigned directly to a bank. This
 occurred when the ownership of these vessels was transferred to private vessel owners; however, the FFB when
 establishing the loan coded the loan as a government debt.




178   NAVY WORKING CAPITAL FUND
                                                                                                     2003 ANNUAL FINANCIAL REPORT



As required by the Under Secretary of Defense (Comptrollers) memorandum of January 22, 1999, MSC is correctly
recording these payments as an operating expense. However, the outstanding debt principal amount is reported in
the NWCF Balance Sheet as an Other Asset in order to reconcile with the amount reported by the FFB through the
trading partner elimination process. The misclassification by the FFB has generated this long-standing reporting
problem. See Note 6 for additional disclosures.

As required by the Department of Defense Appropriations Act passed in December 1985 ten percent of the fifth year
termination value of the vessels must be obligated from Operation and Maintenance, Navy funds. This was
completed as each vessel was delivered.

Note References
See Note 3, Fund Balance with Treasury and Note 6, Other Assets, for additional discussion on the Debt to the
Federal Financing Bank.

For regulatory discussion on Debt, Net, see Department of Defense Financial Management Regulation, Volume 6B,
Chapter 10, paragraph 1015.


N OTE 14. E NVIRONMENTAL L IABILITIES                        AND   D ISPOSAL L IABILITIES
Not Applicable.


N OTE 15.A. O THER L IABILITIES

        As of September 30,                                                               2003                                2002
                                                                       Current          Noncurrent
        (Amounts in thousands)                                         Liability         Liability           Total            Total
        1. Intra-governmental:
          A. Advances from Others                                  $          239,595   $            0   $      239,595   $       141,318
          B. Deferred Credits                                                       0                0                0                 0
          C. Deposit Funds and Suspense Account
              Liabilities                                                          0                 0               0                 0
          D. Resources Payable to Treasury                                         0                 0               0                 0
          E. Disbursing Officer Cash                                               0                 0               0                 0
          F. Nonenvironmental Disposal Liabilities:
             (1) National Defense PP&E (Nonnuclear)                                 0                0                0                 0
             (2) Excess/Obsolete Structures                                         0                0                0                 0
             (3) Conventional Munitions Disposal                                    0                0                0                 0
             (4) Other                                                              0                0                0                 0
         G. Accounts Payable-- Cancelled Appropriations                             0                0                0                 0
          H. Judgement Fund Liabilities                                             0                0                0                 0
          I. FECA Reimbursement to the Department of Labor                          0                0                0                 0
          J. Capital Lease Liability                                                0                0                0                 0
          K. Other Liabilities                                                 49,763                0           49,763            36,490
          L. Total Intra-governmental Other Liabilities            $          289,268   $            0   $      289,268   $       177,808




                                                                   NOTES       TO THE   PRINCIPAL STATEMENTS                                179
                                                                    DEPARTMENT          OF THE   NAVY




         As of September 30,                                                                2003                             2002
                                                                        Current           Noncurrent
         (Amounts inThousands)                                          Liability          Liability         Total           Total
         2. Non-Federal:
           A. Accrued Funded Payroll and Benefits                   $         726,494 $                0 $    726,494    $      710,275
           B. Advances from Others                                            194,779                  0      194,779           138,650
           C. Deferred Credits                                                      0                  0            0                 0
           D. Loan Guarantee Liability                                              0                  0            0                 0
           E. Liability for Subsidy Related to Undisbursed Loans                    0                  0            0                 0
           F. Deposit Funds and Suspense Accounts                             235,588                  0      235,588                 0
           G. Temporary Early Retirement Authority                                  0                  0            0                 0
           H. Nonenvironmental Disposal Liabilities:
              (1) National Defense PP&E (Nonnuclear)                                0                  0             0                0
              (2) Excess/Obsolete Structures                                        0                  0             0                0
              (3) Conventional Munitions Disposal                                   0                  0             0                0
              (4) Other                                                             0                  0             0                0
            I. Accounts Payable--Cancelled Appropriations                           0                  0             0                0
            J. Accrued Unfunded Annual Leave                                        0                  0             0                0
            K. Accrued Entitlement Benefits for Military Retirees
               and Survivors                                                       0                   0             0                 0
            L. Capital Lease Liability                                             0                   0             0                 0
            M. Other Liabilities                                           1,956,316                   0     1,956,316         1,958,909
          N. Total Non-Federal Other Liabilities                    $      3,113,177 $                 0 $   3,113,177   $     2,807,834
         3. Total Other Liabilities:                                $      3,402,445 $                 0 $   3,402,445   $     2,985,642


 Fluctuations and/or Abnormalities
 Intra-governmental Other Liabilities increased $111,460 thousand, 63 percent, from FY 2002 to FY 2003. The
 increase is due to an increase in Advances from Others for Depot Maintenance Shipyards and the Naval Air
 Warfare Center (NAWC), a Research and Development activity.

 The NAWC increase is associated with the conversion from the Department of Defense Industrial Financial
 Management System to SIGMA, an Enterprise Resource Planning System. The conversion of funding produced a
 reclassification between Intra-governmental and Public, which now ensures the proper posting of this account. Also,
 program problems encountered in the billing area have hampered the ability to bill certain customers. Once the bills
 are produced, the appropriate customer advances will be liquidated.

 Depot Maintenance Shipyards growth is attributable to Advances for Revenue Recognition, which have been cross-
 walked within the Department of Defense Reporting System to Advances from Others. Specified projects at the Naval
 Shipyards are funded using fixed price vice the reimbursable method. This amount actually represents the difference
 between what the activity billed the customer and that which it actually earned as determined by what was physically
 accomplished on the job. It is believed this amount would be more appropriately posted to Progress Payments -
 Work in Progress. A review of this account will be included in the Department of Navy Mid-Range Financial
 Management Plan.

 Non-federal Other Liabilities increased $305,343 thousand, 11 percent, from FY 2002 to FY 2003. The increase is a
 result of the inclusion of unsupported undistributed collections of $235,588 thousand in Non-federal Deposit Funds
 and Suspense Account Liabilities. Prior to FY 2003, these amounts were offset against unsupported undistributed
 disbursements and posted to Accounts Payable – Disbursements in Transit. The increase can also be attributed to an
 increase for accrual of contractual services for the Research and Development activities.




180   NAVY WORKING CAPITAL FUND
                                                                                                2003 ANNUAL FINANCIAL REPORT



Composition of Other Liabilities
Intra-governmental Other Liabilities represents liabilities of $49,673 thousand for fringe benefits and the Voluntary
Separation Incentive Program.

Non-federal Deposit Funds and Suspense Account Liabilities include amounts for unsupported undistributed
collections.

Non-federal Other Liabilities includes amounts that are significant portions of the total liabilities presented in the Navy
Working Capital Fund (NWCF) Balance Sheet. A breakout of the major components of Non-federal Other Liabilities
follows:

                                                    Title                        Amount (in thousands)
                          Accrual of Contractual Services                      $              2,030,953
                          Other Liabilities                                                  (1,485,750)
                          Depot Level Repairable Carcass Return Liability                     1,409,155
                          Contract Holdback                                                       1,958
                          Total, Nonfederal Other Liabilities                  $              1,956,316


The Accrual of Contractual Services of $2,030,953 thousand represents an accrued liability for direct work
performed by contractors or material and supplies purchased for a direct order in which a request for payment has
not been received. The accrual is based on the level of effort performed for the direct order on a monthly basis.

The Other Liabilities amount of $(1,485,750) thousand includes a $(1,044,715) thousand allocation of unsupported
undistributed disbursements. This allocation was based on a the Defense Finance and Accounting Service
memorandum dated October 10, 1997 which directed the allocation of undistributed disbursements to the DoD
Military Services from their Defense Working Capital Fund corporate account. As this allocation is not supported by
specific transactional information, which would identify the value as belonging to the NWCF, the allocation continues
to remain on the books at the Navy Component level.

In addition, the Other Liabilities amount includes $(627,404) thousand for Property Furnished by Others Liability. The
Liability for Property Furnished by Others account is being inappropriately used by the Material Financial Control
System (MFCS) to record intra-fund transfers of assets when such transfers are between activities with different
reporting systems (e.g. Financial Inventory Reporting activities transfer assets with Transactions Item Reporting
activities).

The remainder of the Other Liabilities amount consists of Progress Payments, which are maintained to show the
balance of payments taken for accrued costs charged to Work in Process or the value of material procured and held
for specific orders received from customers within the DoD.

The Depot Level Repairable Carcass Return Liability of $1,409,155 thousand represents the value of returned depot
level repairable carcasses that have been received by an accountable activity from an end-use activity but for which
an issue has not yet been processed.

Intra-governmental Reconciliation for Fiduciary Transactions with Department of Labor (DOL)
With respect to the major fiduciary balances, the NWCF was able to reconcile with the DOL.

Other Disclosures Related to Other Liabilities
No further disclosures required.

Note References
See Note 1.G., Significant Accounting Policies, for additional discussion on financial reporting requirements and the
DoD policies governing Contingencies and Other Liabilities.



                                                                   NOTES    TO THE   PRINCIPAL STATEMENTS                 181
                                                      DEPARTMENT    OF THE   NAVY



 N OTE 15.B. C APITAL L EASE L IABILITY

 Information Related to Capital Lease Liabilitity:
 The NWCF has no capital lease liability.

 Other Disclosures Related to Capital Lease Liability
 No further disclosures required.

 Note Reference
 See Note 1.Q., Significant Accounting Policies, for additional discussion on financial reporting requirements and the
 DoD policies governing Leases.

 For regulatory discussion on Capital Lease Liability, see Department of Defense Financial Management Regulation,
 Volume 6B, Chapter 10, paragraph 1017.


 N OTE 16. C OMMITMENTS             AND   C ONTINGENCIES

 Information Related to Commitments and Contingencies:
 None.

 Other Disclosures Related to Commitments and Contingencies
 No further disclosures required.

 Note Reference
 See Note 1.S., Significant Accounting Policies, for additional discussion on financial reporting requirements and the
 Department of Defense (DoD) policies governing Commitments and Contingencies.

 For regulartory discussion on Commitments and Contingencies, see Department of Defense Financial Management
 Regulation, Volume 6B, Chapter 10, paragraph 1018.




182   NAVY WORKING CAPITAL FUND
                                                                                                        2003 ANNUAL FINANCIAL REPORT



N OTE 17. M ILITARY R ETIREMENT B ENEFITS                       AND      O THER E MPLOYMENT R ELATED A CTUARIAL
L IABILITIES


                                                                                            2003                                          2002
     As of September 30,
     (Amount in Thousands)
                                                      Actuarial Present                      (Less: Assets
                                                     Value of Projected Assumed             Available to Pay   Unfunded Actuarial     Unfunded
                                                       Plan Benefits    Interest Rate          Benefits)            Liability     Actuarial Liability

1. Pension and Health Benefits:
   A. Military Retirement Pensions                     $            0                   $                0      $           0         $            0
   B. Military Retirement Health Benefits                           0                                    0                  0                      0
   C. Medicare-Eligible Retiree Benefits                            0                                    0                  0                      0
   D. Total Pension and Health Benefits                $            0                   $                0      $           0         $            0

2. Other
   A. FECA                                             $   1,409,853                    $                0      $ 1,409,853           $ 1,325,926
   B. Voluntary Separation Incentive Programs                      0                                     0                0                     0
   C. DoD Educational Benefits Fund                                0                                     0                0                     0
   E. Total Other                                      $   1,409,853                    $                0      $ 1,409,853           $ 1,325,926

3. Total Military Retirement Benefits and Other
Employment Related Actuarial Liabilities:              $   1,409,853                    $                0      $ 1,409,853           $ 1,325,926

4. Other Information Pertaining to Military Retirement Benefits and Other Employment-Related Actuarial Liabilities:
Actuarial Cost Method Used: The Department of the Navy (DON) actuarial liability for workers' compensation
benefits is developed by the Department of Labor and provided to the DON at the end of each fiscal year. The
liability is distributed between the Navy Working Capital Fund (NWCF) and DON General Fund based upon the
number of civilian employees funded in each entity as reported in the Navy Budget Tracking System. The liability
includes the expected liability for death, disability, medical, and miscellaneous costs for approved compensation
cases. The liability is determined using a method that utilizes historical benefit payment patterns to predict the
ultimate payments.

Assumptions: The projected annual benefit payments are discounted to the present value using the OMB's
economic assumptions for 10-year U.S. Treasury notes and bonds. Cost-of-living adjustments and medical inflation
factors are also applied to the calculation of projected future benefits. The interest rate assumptions used in the
discount calculations were as follows as of September 30, 2003:

3.84 percent in year 1,
4.35 percent in year 2 and thereafter
Market Value of Investments in Market-based and Marketable Securities: Not Applicable.



N OTE 18. U NEXPENDED A PPROPRIATIONS
Not Applicable.




                                                                 NOTES      TO THE      PRINCIPAL STATEMENTS                                            183
                                                      DEPARTMENT    OF THE   NAVY



 N OTE 19.A. G ENERAL D ISCLOSURES R ELATED               TO THE    S TATEMENT      OF   N ET C OST

 Information Related to the Statement of Net Cost:

 Fluctuations and/or Abnormalities
 The overall change on the Statement of Net Cost results from an increase in both the intra-governmental costs and
 earned revenue from other government sources offset by a decrease in both the gross costs and revenue from public
 sources. The goal of the Net Cost of Operations is to maintain an income and expense account that comes close to
 break even. It is not the goal of the U.S. Government to make a profit. This goal has been met. The changes in the
 various accounts that make up the Statement of Net Cost exceeds the 2 percent of total assets reported on the
 Balance Sheet.

 The increase of $955,604 thousand, 5 percent, of intra-governmental revenue is attributable to increased work
 related to efforts to support the on-going war efforts, such as the War on Global Terrorism and Iraqi Freedom. As
 additional income is generated, additional costs associated with these efforts comes hand in hand, thus the increase
 of $39,925 thousand, 1percent, in intra-governmental costs. Increased intra-governmental net costs were offset by a
 decrease in the revenue and costs associated with the Public.

 Gross costs with the Public decreased $1,181,144 thousand, 6 percent, as labor, materials and services required to
 support the public workload were decreased from the prior period. During FY 2003 workload focused almost totally
 on government sources and the ability to support public requests were minimized, which is attributable to the
 decrease of $95,982 thousand, 11 percent, in revenue from the public.

 Composition of Statement of Net Cost
 The Navy Working Capital Fund (NWCF) generally records transactions on an accrual basis as required by federal
 generally accepted accounting principles. Information presented on the Statement of Net Cost represent the net result
 of post-closing adjustments and eliminating entries made in compiling and consolidating the NWCF financial
 statements. These entries significantly affected the reported amounts of Intra-governmental Program Cost, Program
 Cost with the Public, Earned Revenue and Net Program Cost. The post-closing adjustments were made in order to
 increase or decrease certain NWCF account balances reported as of September 30, 2003 to ensure agreement with
 related balances reported by other Department of Defense (DoD) and other federal reporting entities. Eliminating
 entries are required adjustments made as part of the financial process. This process enables the matching of trading
 partner data recorded at each financial statement consolidation level -- the NWCF, DoD and Federal Government
 levels.

 Other Disclosures Related to the Statement of Net Cost
 The Statement of Net Cost was impacted by the recording of Prior Period Adjustments, other than the inventory
 valuation model, in the amount of $540,335 thousand as current year transactions.


 N OTE 19.B. G ROSS C OST         AND   E ARNED R EVENUE       BY   B UDGET F UNCTIONAL C LASSIFICATION
 Not Applicable.


 N OTE 19.C. G ROSS C OST TO G ENERATE I NTRA - GOVERNMENTAL R EVENUE AND E ARNED
 R EVENUE (T RANSACTIONS WITH O THER F EDERAL —N ON -D O D—E NTITIES ) BY B UDGET
 F UNCTIONAL C LASSIFICATION
 Not Applicable.




184   NAVY WORKING CAPITAL FUND
                                                                                            2003 ANNUAL FINANCIAL REPORT



N OTE 19.D. I MPUTED E XPENSES
                       As of September 30,
                       (Amount in thousands)                                 2003               2002

                       1. Civilian (e.g.,CSRS/FERS) Retirement           $     270,127      $      205,147
                       2. Civilian Health                                      272,241             259,494
                       3. Civilian Life Insurance                                1,013                 948
                       4. Military Retirement Pension                                0                   0
                       5. Military Retirement Health                                 0                   0
                       6. Judgment Fund                                              0                   0
                       7. Total Imputed Expenses                         $     543,381      $      465,589


                      8. Other Information


Information Related to Imputed Expenses:

The NWCF financial statements have recognized an imputed expense for civilian employee pensions, life insurance,
and health benefits in the Statement of Net Cost. Imputed expenses for employee benefits were calculated using cost
factors provided by the Office of Personnel Management applied against gross basic pay for all categories of civilian
service employees. The gross basic pay amounts were extracted directly from the Defense Civilian Pay System.

Judgment Fund claims are reported in the Navy General Fund statements and notes.

Other Disclosures Related to Imputed Expenses
No further disclosures required.


N OTE 19.E. B ENEFIT P ROGRAM E XPENSES
Not Applicable.


N OTE 19.F. E XCHANGE R EVENUE

Information Related to Exchange Revenue:

Definition
Exchange revenue arises when a government entity provides goods and services to the public or to another
Government entity for a price, “earned revenue”. Exchange revenue includes most user charges other than taxes,
i.e., regulatory user charges.

Other Disclosures Related to Exchange Revenue
No further disclosures required.

Note Reference
For regulatory discussion on Exchange Revenue, see Department of Defense Financial Management Regulation,
Volume 6B, Chapter 10, paragraph 102120.




                                                                 NOTES   TO THE     PRINCIPAL STATEMENTS              185
                                                       DEPARTMENT    OF THE   NAVY



 N OTE 19.G. A MOUNTS           FOR   F OREIGN M ILITARY S ALES (FMS) P ROGRAM P ROCUREMENTS
 FROM  C ONTRACTORS
 Not Applicable.


 N OTE 19.H. S TEWARDSHIP A SSETS
 Not Applicable.


 N OTE 19.I. I NTRA - GOVERNMENTAL R EVENUE                AND   E XPENSE

 Information Related to Intergovernmental Revenue and Expense:

 Intra-governmental Revenue
 The NWCF accounting systems do not capture trading partner data at the transaction level in a manner that facilitates
 trading partner aggregations. Therefore, the NWCF was unable to reconcile intra-governmental revenue balances
 with the majority of their trading partners. Action has been taken to reconcile some of the smaller accounts manually.
 Through an ongoing Business Management Modernization Program, the DoD intends to develop long-term systems
 improvements that will capture the data necessary to perform reconciliations.

 Intra-governmental Operating Expenses
 The NWCF operating expenses were adjusted based on a comparison between the NWCF's accounts payable and
 the DoD summary level seller accounts receivables. Adjustments were posted to accounts payable and operating
 expenses to reflect the following reported balances: other trading partners; Federal Financing Bank payments for
 debt; interest, penalties, fines & administrative fees data call; and resolution of abnormal accounts payables in
 accordance with current guidance. The operating expenses of the NWCF were adjusted downwards in the net
 amount of $959,303 thousand.

 The Office of Management and Budget (OMB) has established a working group to review the current business
 practices in place to capture the data exchanged between federal agencies; and to determine what changes need to
 be incorporated. The Department of the Navy has representation on the Office of the Under Secretary of Defense
 (Comptroller) group which is working directly with OMB to ensure that all aspects (e.g., financial, logistics and
 security) of the DoD are given full consideration. Based on the large volume of intra-governmental transactions that
 occur this project is a major undertaking and will take several years to complete with the ultimate goal of having this
 process totally automated.

 Other Disclosures Related to Exchange Revenue
 No further disclosures required.



 N OTE 19.J. S UBORGANIZATION P ROGRAM C OSTS
 Not Applicable.




186   NAVY WORKING CAPITAL FUND
                                                                                               2003 ANNUAL FINANCIAL REPORT



N OTE 20. D ISCLOSURES R ELATED                 TO THE      S TATEMENT        OF    C HANGES       IN   N ET P OSITION

                                                          Cumulative           Unexpended           Cumulative             Unexpended
                                                           Results of         Appropriations         Results of           Appropriations
                                                          Operations              2003              Operations                2002
   As of September 30,                                       2003                                      2002
   (Amounts in thousands)
   1. Prior Period Adjustments Increases
   (Decreases) to Net Position Beginning Balance:
      A. Changes in Accounting Standards              $           0       $             0      $                  0   $                    0
      B. Errors and Omissions in Prior Year
            Accounting Reports                                    0                     0               1,952,397                          0
      C. Other Prior Period Adjustments                           0                     0                       0                          0
      D. Total Prior Period Adjustments               $           0       $             0      $        1,952,397     $                    0

   2. Imputed Financing:
     A. Civilian CSRS/FERS Retirement                 $        270,127    $             0      $         205,147      $                    0
     B. Civilian Health                                        272,241                  0                259,494                           0
     C. Civilian Life Insurance                                  1,013                  0                    948                           0
     D. Military Retirement Pension                                  0                  0                      0                           0
     E. Military Retirement Health                                   0                  0                      0                           0
     F. Judgment Fund                                                0                  0                      0                           0
     G. Total Imputed Financing                       $        543,381    $             0      $         465,589      $                    0


Information Related to Statement of Net Position:

Fluctuations and/or Abnormalities
Prior Period Adjustments, Errors and Omissions decreased 100 percent from FY 2002 to FY 2003. The entire change
is due to Office of the Under Secretary of Defense (Comptroller) (OUSD(C)) direction to remove prior period
adjustments generated in the inventory valuation model.

Composition of Statement of Net Position
A direct appropriation was provided to the Defense Working Capital Fund in the Department of Defense
Appropriations Act, 2003, P.L. 107-248. Program Budget Decision 624, dated December 3, 2002. This
appropriation allocated $40.2 million to the Navy Working Capital Fund (NWCF) Supply Management to augment
inventory levels. All funds have been obligated and expended.

Reclassified to current year operations were prior period adjustments generated in the Navy Activity accounting
systems in the amount of $540,335 thousand. These amounts were reclassified as their individual values did not meet
the materiality threshold outlined in the (OUSD(C)) memo of 8 June 2003.

Based on OUSD(C) direction, amounts generated as prior period adjustments within the Cost of Goods Sold model
were moved to inventory allowance accounts. The amounts are as follows:

Amount in thousands
Supply Management, Navy                 ($ 951,964)
Supply Management, Marine                $ 178,768




                                                                NOTES    TO THE      PRINCIPAL STATEMENTS                                      187
                                                                 DEPARTMENT        OF THE    NAVY



 Imputed Financing
 The amounts remitted to Office of Personnel Management (OPM) by and for employees covered by Civil Service
 Retirement System, Federal Employee Retirement System, Federal Employees Health Benefits Program and the Federal
 Employee Group Life Insurance Program do not fully cover the Government's cost to provide these benefits. An
 imputed cost is recognized as the difference between the Government's cost of providing these benefits to the
 employees and contributions made by and for them. The OPM provides the cost factors to the Defense Finance and
 Accounting Service (DFAS) for computation of imputed financing cost. The DFAS provides the costs to Office of the
 Under Secretary of Defense (Personnel and Readiness) for validation. Approved imputed costs are provided to the
 reporting components for inclusion in their financial statements.

 Other Disclosures Related to the Statement of Net Position
 Included in the NWCF’s Net Position, Cumulative Results of Operations (CRO) are amounts that were approved by
 OUSD(C) as a deferral for recovery from, or return to, customers in later fiscal years’ billing rates. As of September
 30, 2003, the total NWCF amount of CRO-Deferred was ($522,620) thousand. This amount primarily consists of
 system development costs incurred during FY 1992-1998 totaling ($389,533) thousand by the Joint Logistics Service
 Center (JLSC). With the closure of JLSC, OUSD(C) directed in August 1998 that this JLSC system development cost be
 deferred from cost recovery. As instructed by the OUSD(C), the Department of the Navy distributed this amount
 among affected NWCF activities. It also includes the write-off of liabilities from a Pilot Program at Naval Shipyard
 Pearl Harbor in FY 2002 in the amount of ($116,306) thousand.

 Note Reference
 For regulatory disclosure related to the Statement of Changes in Net Position, see Department of Defense Financial
 Management Regulation, Volume 6B, Chapter 10, paragraph 1022.


 N OTE 21.A. D ISCLOSURES R ELATED                     TO THE      S TATEMENT         OF    B UDGETARY R ESOURCES

               As of September 30,                                                          2003            2002
               (Amounts in thousands)

               1. Net Amount of Budgetary Resources Obligated for Undelivered Orders at
               the End of the Period                                                    $   8,043,629   $    7,340,100
               2. Available Borrowing and Contract Authority at the End of the Period       5,880,543        5,394,300

               3. Other Information:

 Information Related to the Statement of Budgetary Resources:

 The Statement of Budgetary Resources (SBR) is an image of the monthly Report on Budget Execution (Standard Form
 (SF) 133). These reports should be produced using budgetary accounts. However, the Navy Working Capital Fund
 (NWCF) uses proprietary accounts because its financial accounting systems were not designed to produce budgetary
 accounting data. The Department of the Navy and the Defense Finance and Accounting Service continue with the
 implementation of new accounting systems designed to produce both proprietary and budgetary reports and use the
 U.S. Standard General Ledger. The Defense Industrial Financial Management System (DIFMS) has been fully
 implemented at all Research and Development (R&D) activities that were scheduled for conversion. R&D activity
 Space and Naval Warfare Systems Center, San Diego has successfully implemented the Enterprise Resource Planning
 (ERP) pilot program (Project Cabrillo) thus moving off DIFMS. Also, the Naval Air Warfare Centers (NAWC’s) have
 moved from DIFMS to their ERP pilot program “SIGMA”. The ERP's are programmed to complete the SBR at the
 activity level. The Defense Working Capital Fund Accounting System (DWAS) implementation continues to be
 implemented at the Base Support Activities and is currently ahead of schedule. DWAS implementations should be
 completed by year-end FY 2004. Once the legacy systems have been replaced, the capability to produce the SBR
 and SF133 should be accomplished.



188   NAVY WORKING CAPITAL FUND
                                                                                 2003 ANNUAL FINANCIAL REPORT



The SBR does not measure the NWCF’s budget execution against budgetary resources. Budgetary resources are
recorded in the accounting records and reported on the basis of customer orders received and contract authority
invoked. On these reports, the spending authority from offsetting collections during the period of execution is based
upon the approved President’s Budget estimate of anticipated customer orders.

For the SBR, Supply Management’s revenue is defined as gross sales less credit returns. For the balance sheet,
revenue does not include credit returns because the inventory valuation model considers credit returns as inventory
allowances. The difference in “meanings” causes variances in the reports.

On these budgetary reports, the net outlays (collections and disbursements) year to date are reported based on the
amounts reported to U.S. Treasury from the Cash Accountability System and Centralized Expenditures/Reimbursement
Processing System. As of September 30, 2003, the differences between the U.S. Treasury and the NWCF activity
ledgers have been minimal, and the cause is related to timing or the type of transactions. The differences are
recorded as undistributed disbursements and collections on the departmental reports.

While there may be no impact upon the U.S. Treasury balance, the above differences have created distortions in the
accounts receivable and accounts payable from a budgetary reporting perspective on the SBR. Also, problems with
undistributed collections and disbursements have created abnormal balances for accounts receivable and accounts
payable on the SBR.

Intra-entity Transactions
The SBR does not include intra-entity transactions because the statements are presented as combined and combining.

Apportionment Categories
OMB Bulletin No. 01-09, section 9.27, requires disclosure of the amount of direct and reimbursable obligations
incurred against amounts apportioned under categories A, B and exempt from apportionment. These amounts are as
follows:

Obligations Incurred – Direct           Line 8A        $            0
Obligations Incurred – Reimbursable     Line 8B        $   27,263,631K
Exempt from apportionment -             Line 9B        $            0

Undelivered Orders
Undelivered Orders presented in the SBR includes Undelivered Orders-Unpaid for both direct and reimbursable funds.

Spending Authority from Offsetting Collections
Adjustments in funds that are temporarily not available pursuant to Public Law, and those that are permanently not
available (included in the "Adjustments" line on the SBR), are not included in the "Spending Authority from Offsetting
Collections and Adjustments" line on the SBR or the "Spending Authority for Offsetting Collections and Adjustments"
line on the Statement of Financing.

Other Disclosures Related to the Statement of Budgetary Resources
No further disclosures required.




                                                       NOTES   TO THE   PRINCIPAL STATEMENTS                            189
                                                                         DEPARTMENT           OF THE     NAVY



 N OTE 21.B. D ISCLOSURES R ELATED TO P ROBLEM D ISBURSEMENTS , I N - TRANSIT D ISBURSEMENTS
 AND  S USPENSE /B UDGET C LEARING A CCOUNTS


 As of September 30,                                                                                                            (Decrease)/Increase from
 (Amounts in thousands)                                        September 2001           September 2002        September 2003         2002 to 2003
 1. Total Problem Disbursements
   A. Absolute Unmatched Disbursements                     $          204,317       $         166,500     $            88,748   $                (76,752)
   B. Negative Unliquidated Obligations                                     0                       0                       0                           0
 2. Total In-transit Disbursements, Net                    $                0       $               0     $                 0   $                       0
 3. Other Information Related to Problem Disbursements and In-transit Disbursements :

 Absolute Unmatched Disbursements
 A Unmatched Disbursement (UMD) occurs when a payment is not matched to a corresponding obligation in the
 accounting system. For FY 2003, the NWCF has $88,748 thousand (absolute value) in UMDs, which is a decrease
 of $76,752 thousand since FY 2002. NWCF problem disbursements continue to decrease from the prior years
 largely due to improving system functionality and business processes. Additional emphasis on further reducing
 NWCF problem disbursements has resulted in corresponding efforts to analyze and improve processes, and
 determine solutions to reduce current inflow and their root causes. Absolute value is the sum of the positive values
 of debit and credit transactions without regard to the sign (plus or minus).

 Negative Unliquidated Obligations
 A Negative Unliquidated Obligations occurs when a payment is made against a valid obligation, but the payment is
 greater than the amount of the obligation recorded in the official accounting system. These problem disbursements
 represent the absolute value of funds that have been reported by a disbursing station to the Department of the
 Treasury, but have not yet been precisely matched against the specific source obligation that gave rise to the
 disbursements. These payments have been made using available funds and are based on valid receiving reports for
 goods and services delivered under valid contracts.

 In-transit Disbursements
 In transits represents the net value of disbursements and collections made by a Department of Defense disbursing
 activity on behalf of an accountable activity but not yet posted in an accounting system.

 Other Disclosures Related to Problem Disbursements and In-transit Disbursements
 No further disclosures required.

 Information Related to Suspense/Budget Clearing Accounts:

 The NWCF Suspense/Budget Clearing Accounts are being reported under Navy General Funds, Index 17.




190     NAVY WORKING CAPITAL FUND
                                                                                    2003 ANNUAL FINANCIAL REPORT



N OTE 22. D ISCLOSURES R ELATED            TO THE    S TATEMENT     OF    F INANCING

Information Related to the Statement of Financing:

The Statement of Financing is designed to provide information on the total resources used by an entity, to explain
how those resources were used to finance orders for goods and services not yet delivered, to acquire assets and
liabilities, and to fund the entity’s net cost of operations. It is designed to report the differences and facilitate the
reconciliation of accrual-based amounts used in the Statement of Net Cost and obligation-based amounts used in the
Statement of Budgetary Resources. The computations and presentation of items in the Statement of Financing
demonstrate that the budgetary and proprietary information in an entity’s financial management system is in
agreement.

The Defense Finance and Accounting Service (DFAS) Navy Working Capital Fund (NWCF) accounting systems
include budgetary accounts however some of the legacy NWCF accounting systems do not. As a result, the
Statement of Budgetary Resources (SBR) is generated by DFAS using data extracted from the proprietary accounts.
The detailed level of information required to appropriately complete the SBR is in the process of being developed for
those activities that cannot provide the data due to system deficiencies. Due to the system deficiencies, the Statement
of Financing line, Resources that Finance the Acquisition of Assets, was adjusted upward by $1,803,706 thousand.
Therefore, the data presented on the Statement of Financing may not meet the intent of the Department of Defense
Financial Management Regulation.

Intra-entity transactions have not been eliminated because statements are presented as combined and combining.

Other Disclosures Related to the Statement of Financing
In FY 2003, the Naval Air Warfare Center (NAWC), a Research and Development activity group, was unable to fully
bill its customers due to system implementation problems. The NAWCs inability to bill customers had an impact on the
unfilled customer orders balance. Corrective actions are underway and are expected to be complete by First
Quarter, FY 2004.

During FY 2003, accounts that populated line items on the Statement of Financing were re-mapped within the
Defense Departmental Reporting System thereby, affecting the readers’ ability to made a useful comparison between
FY 2002 and FY 2003.


N OTE 23. D ISCLOSURES R ELATED            TO THE    S TATEMENT     OF    C USTODIAL A CTIVITY
Not Applicable.




                                                        NOTES    TO THE   PRINCIPAL STATEMENTS                          191
                                                                 DEPARTMENT        OF THE    NAVY



 N OTE 24.A. O THER D ISCLOSURES : L EASES

 Entity As Lessee - Operating Leases
               As of September 30,
                                                                                    2003                                 2002
               (Amounts in thousands)
               B. Future Payments Due:               Buildings         Equipment         Other         Total             Total
               Fiscal Year
               2004                              $               511   $           0 $           0 $           511   $           1,100
               2005                                                0               0             0               0                   0
               2006                                                0               0             0               0                   0
               2007                                                0               0             0               0                   0
               2008                                                0               0             0               0                   0
               After 5 Years                                       0               0             0               0                   0

               Total Future Lease Payments Due   $               511   $           0 $           0 $           511   $           1,100



 Fluctuations and Abnormalities
 None.

 Definitions
 Lessee – A person or entity who receives the use and possession of leased property (e.g. real estate or equipment)
 from a lessor in exchange for a payment of funds.

 Operating Lease - A lease which does not transfer substantially all the benefits and risk of ownership. Payments
 should be charged to expense over the lease term as it becomes payable.

 Land and Building Leases consist of:

 Description of Leases:
 The Military Sealift Command has an existing operating lease for a corporate data center, which commenced
 December 1, 1999 for a lease period of one year with three option years. The final lease payment in the amount of
 $1,100 thousand was made December 1, 2002 (FY 2003) and the final option to buy the equipment will be
 exercised December 2003 (FY 2004) in the amount of $511 thousand.

 Equipment Leases consist of:
 None.

 Other Leases consist of:
 None.


 N OTE 24.B. O THER D ISCLOSURES

 No further disclosures required.




192   NAVY WORKING CAPITAL FUND
                                                  CONSOLIDATING/COMBINING STATEMENTS
                                                  NAVY WORKING CAPITAL FUND SUPPORTING
                     DEPARTMENT   OF THE   NAVY
NAVY WORKING CAPITAL FUND SUPPORTING
  CONSOLIDATING/COMBINING STATEMENTS




                                                              193
                                                                        DEPARTMENT     OF THE   NAVY


 Department of Defense
 Navy Working Capital Fund
 CONSOLIDATING BALANCE SHEET
 As of September 30, 2003 and 2002
 ($ in thousands)

                                                                           Depot               Depot               Depot
                                                                        Maintenance,        Maintenance,        Maintenance,         Ordnance
                                                                         Shipyards           Aviation           Marine Corps
      ASSETS (Note 2)
        Intragovernmental:
          Fund Balance with Treasury (Note 3)
               Entity                                               $        484,764    $          86,232   $        (28,830)    $      73,709
               Non-Entity Seized Iraqi Cash                                        0                    0                   0                0
               Non-Entity - Other                                                  0                    0                   0                0
         Investments (Note 4)                                                      0                    0                   0                0
          Accounts Receivable (Note 5)                                         9,889              143,792             20,183               825
          Other Assets (Note 6)                                                    0                    0                  10                0
                Total Intragovernmental Assets                      $        494,653    $         230,024   $          (8,637)   $      74,534
        Cash and Other Monetary Assets (Note 7)                     $              0    $               0   $               0    $           0
        Accounts Receivable (Note 5)                                             273                  318                152               120
        Loans Receivable (Note 8)                                                  0                    0                   0                0
        Inventory and Related Property (Note 9)                              226,169              658,386             56,072               284
        General Property, Plant and Equipment (Note 10)                      684,737              361,592             53,531               140
        Investments (Note 4)                                                       0                    0                   0                0
        Other Assets (Note 6)                                                 96,551                3,448                   0              711
      TOTAL ASSETS                                                  $      1,502,383    $       1,253,768   $        101,118     $      75,789

      LIABILITIES (Note 11)
        Intragovernmental:
         Accounts Payable (Note 12)                                 $         26,380    $        270,352    $          5,906     $    (113,819)
         Debt (Note 13)                                                            0                   0                   0                 0
         Environmental Liabilities (Note 14)                                       0                   0                   0                 0
         Other Liabilities (Note 15 & Note 16)                               137,352               5,565               4,435                 0
                Total Intragovernmental Liabilities                 $        163,732    $        275,917    $         10,341     $    (113,819)
        Accounts Payable (Note 12)                                  $         45,799    $         28,685    $          5,511     $       8,416
        Military Retirement Benefits and Other Employment-Related
          Actuarial Liabilities (Note 17)                                          0                   0               23,068                0
        Environmental Liabilities (Note 14)                                        0                   0                   0                 0
        Loan Guarantee Liability (Note 8)                                          0                   0                   0                 0
        Other Liabilities (Note 15 and Note 16)                              239,124             528,872               3,718            13,600
        Debt Held by Public (Note 13)                                              0                   0                   0                 0
      TOTAL LIABILITIES                                             $        448,655    $        833,474    $         42,638     $     (91,803)

      NET POSITION
        Unexpended Appropriations (Note 18)                         $              0    $              0    $              0     $           0
        Cumulative Results of Operations                                   1,053,728             420,294              58,480           167,592
      TOTAL NET POSITION                                            $      1,053,728    $        420,294    $         58,480     $     167,592

      TOTAL LIABILITIES AND NET POSITION                            $      1,502,383    $       1,253,768   $        101,118     $      75,789



194     NAVY WORKING CAPITAL FUND
                                                                                                          2003 ANNUAL FINANCIAL REPORT


Department of Defense
Navy Working Capital Fund
CONSOLIDATING BALANCE SHEET
As of September 30, 2003 and 2002
($ in thousands)

                                                                     Transportation        Base Support         Research &            Supply
                                                                                                               Development          Management
   ASSETS (Note 2)
     Intragovernmental:
       Fund Balance with Treasury (Note 3)
            Entity                                               $           256,819   $        212,906    $        773,480     $         314,590
            Non-Entity Seized Iraqi Cash                                           0                  0                    0                    0
            Non-Entity - Other                                                     0                  0                    0                    0
      Investments (Note 4)                                                         0                  0                    0                    0
       Accounts Receivable (Note 5)                                          143,258            166,029               (9,110)             222,038
       Other Assets (Note 6)                                                       0                  0                    0                    0
             Total Intragovernmental Assets                      $           400,077   $        378,935    $        764,370     $         536,628
     Cash and Other Monetary Assets (Note 7)                     $                 0   $              0    $               0    $               0
     Accounts Receivable (Note 5)                                                105             25,502              16,280                (4,875)
     Loans Receivable (Note 8)                                                     0                  0                    0                    0
     Inventory and Related Property (Note 9)                                  35,100             28,666             689,220            16,562,231
     General Property, Plant and Equipment (Note 10)                          37,390            695,015           1,994,358               497,147
     Investments (Note 4)                                                          0                  0                    0                    0
     Other Assets (Note 6)                                                   607,606              1,766              13,903               144,823
   TOTAL ASSETS                                                  $         1,080,278   $      1,129,884    $      3,478,131     $      17,735,954

   LIABILITIES (Note 11)
     Intragovernmental:
      Accounts Payable (Note 12)                                 $           45,370    $         44,850    $       (178,326)    $        489,521
      Debt (Note 13)                                                        615,648                   0                   0                    0
      Environmental Liabilities (Note 14)                                         0                   0                   0                    0
      Other Liabilities (Note 15 & Note 16)                                   1,634               6,437             128,453               55,888
             Total Intragovernmental Liabilities                 $          662,652    $         51,287    $        (49,873)    $        545,409
     Accounts Payable (Note 12)                                  $          420,415    $        155,099    $        870,638     $        444,678
     Military Retirement Benefits and Other Employment-Related
       Actuarial Liabilities (Note 17)                                             0                  0                   0                     0
     Environmental Liabilities (Note 14)                                           0                  0                   0                     0
     Loan Guarantee Liability (Note 8)                                             0                  0                   0                     0
     Other Liabilities (Note 15 and Note 16)                                  37,786            180,305           2,102,959               831,076
     Debt Held by Public (Note 13)                                                 0                  0                   0                     0
   TOTAL LIABILITIES                                             $         1,120,853   $        386,691    $      2,923,724     $       1,821,163

   NET POSITION
     Unexpended Appropriations (Note 18)                         $                0    $              0    $              0     $               0
     Cumulative Results of Operations                                       (40,575)            743,193             554,407            15,914,791
   TOTAL NET POSITION                                            $          (40,575)   $        743,193    $        554,407     $      15,914,791

   TOTAL LIABILITIES AND NET POSITION                            $         1,080,278   $      1,129,884    $      3,478,131     $      17,735,954




                                                       SUPPORTING CONSOLIDATING/COMBINING STATEMENTS                                             195
                                                                        DEPARTMENT    OF THE     NAVY



 Department of Defense
 Navy Working Capital Fund
 CONSOLIDATING BALANCE SHEET
 As of September 30, 2003 and 2002
 ($ in thousands)

                                                                         Component Level         Combined Total         Eliminations
      ASSETS (Note 2)
        Intragovernmental:
          Fund Balance with Treasury (Note 3)
               Entity                                               $            (346,024)   $         1,827,646    $                  0
               Non-Entity Seized Iraqi Cash                                             0                      0                       0
               Non-Entity - Other                                                       0                      0                       0
         Investments (Note 4)                                                           0                      0                       0
          Accounts Receivable (Note 5)                                           (114,131)               582,773                       0
          Other Assets (Note 6)                                                    10,382                 10,392                       0
                Total Intragovernmental Assets                      $            (449,773)   $         2,420,811    $                  0
        Cash and Other Monetary Assets (Note 7)                     $                   0    $                 0    $                  0
        Accounts Receivable (Note 5)                                               73,900                111,775                       0
        Loans Receivable (Note 8)                                                       0                      0                       0
        Inventory and Related Property (Note 9)                                         0             18,256,128                       0
        General Property, Plant and Equipment (Note 10)                                 0              4,323,910                       0
        Investments (Note 4)                                                            0                      0                       0
        Other Assets (Note 6)                                                           0                868,808                       0
      TOTAL ASSETS                                                  $            (375,873)   $        25,981,432    $                  0

      LIABILITIES (Note 11)
        Intragovernmental:
         Accounts Payable (Note 12)                                 $            (276,448)   $            313,786   $                  0
         Debt (Note 13)                                                                 0                 615,648                      0
         Environmental Liabilities (Note 14)                                            0                       0                      0
         Other Liabilities (Note 15 & Note 16)                                    (50,496)                289,268                      0
                Total Intragovernmental Liabilities                 $            (326,944)   $          1,218,702   $                  0
        Accounts Payable (Note 12)                                  $             123,629    $          2,102,870   $                  0
        Military Retirement Benefits and Other Employment-Related
          Actuarial Liabilities (Note 17)                                       1,386,785               1,409,853                      0
        Environmental Liabilities (Note 14)                                             0                       0                      0
        Loan Guarantee Liability (Note 8)                                               0                       0                      0
        Other Liabilities (Note 15 and Note 16)                                  (824,263)              3,113,177                      0
        Debt Held by Public (Note 13)                                                   0                       0                      0
      TOTAL LIABILITIES                                             $             359,207    $          7,844,602   $                  0

      NET POSITION
        Unexpended Appropriations (Note 18)                         $                   0    $                 0    $                  0
        Cumulative Results of Operations                                         (735,080)            18,136,830                       0
      TOTAL NET POSITION                                            $            (735,080)   $        18,136,830    $                  0

      TOTAL LIABILITIES AND NET POSITION                            $            (375,873)   $        25,981,432    $                  0




196     NAVY WORKING CAPITAL FUND
                                                                                         2003 ANNUAL FINANCIAL REPORT



Department of Defense
Navy Working Capital Fund
CONSOLIDATING BALANCE SHEET
As of September 30, 2003 and 2002
($ in thousands)

                                                                     2003 Consolidated       2002 Consolidated
   ASSETS (Note 2)
     Intragovernmental:
       Fund Balance with Treasury (Note 3)
            Entity                                               $           1,827,646   $            1,709,680
            Non-Entity Seized Iraqi Cash                                             0                        0
            Non-Entity - Other                                                       0                        0
      Investments (Note 4)                                                           0                        0
       Accounts Receivable (Note 5)                                            582,773                  525,240
       Other Assets (Note 6)                                                    10,392                      266
             Total Intragovernmental Assets                      $           2,420,811   $            2,235,186
     Cash and Other Monetary Assets (Note 7)                     $                   0   $                    0
     Accounts Receivable (Note 5)                                              111,775                   80,901
     Loans Receivable (Note 8)                                                       0                        0
     Inventory and Related Property (Note 9)                                18,256,128               17,655,864
     General Property, Plant and Equipment (Note 10)                         4,323,910                4,190,837
     Investments (Note 4)                                                            0                        0
     Other Assets (Note 6)                                                     868,808                1,140,654
   TOTAL ASSETS                                                  $          25,981,432   $           25,303,442

   LIABILITIES (Note 11)
     Intragovernmental:
      Accounts Payable (Note 12)                                 $             313,786   $              434,772
      Debt (Note 13)                                                           615,648                  750,725
      Environmental Liabilities (Note 14)                                            0                        0
      Other Liabilities (Note 15 & Note 16)                                    289,268                  177,808
             Total Intragovernmental Liabilities                 $           1,218,702   $            1,363,305
     Accounts Payable (Note 12)                                  $           2,102,870   $            1,799,671
     Military Retirement Benefits and Other Employment-Related
       Actuarial Liabilities (Note 17)                                       1,409,853                1,325,926
     Environmental Liabilities (Note 14)                                             0                        0
     Loan Guarantee Liability (Note 8)                                               0                        0
     Other Liabilities (Note 15 and Note 16)                                 3,113,177                2,807,834
     Debt Held by Public (Note 13)                                                   0                        0
   TOTAL LIABILITIES                                             $           7,844,602   $            7,296,736

   NET POSITION
     Unexpended Appropriations (Note 18)                         $                   0   $                    0
     Cumulative Results of Operations                                       18,136,830               18,006,706
   TOTAL NET POSITION                                            $          18,136,830   $           18,006,706

   TOTAL LIABILITIES AND NET POSITION                            $          25,981,432   $           25,303,442



                                             SUPPORTING CONSOLIDATING/COMBINING STATEMENTS                         197
                                                              DEPARTMENT        OF THE    NAVY



 Department of Defense
 Navy Working Capital Fund
 CONSOLIDATING STATEMENT OF NET COST
 For the years ended September 30, 2003 and 2002
 ($ in thousands)

                                                        2003 Total         Eliminations       2003 Consolidated        2002 Consolidated
      Program Costs
      Base Support
         Intragovernmental Gross Costs              $     1,008,827    $             0    $           1,008,827    $          1,634,739
         (Less: Intragovernmental Earned Revenue)        (1,584,722)                 0               (1,584,722)             (1,627,848)
         Intragovernmental Net Costs                $      (575,895)   $             0    $            (575,895)   $              6,891

         Gross Costs With the Public                $      560,902                   0                 560,902                   19,753
         (Less: Earned Revenue From the Public)                  0                   0                       0                  (64,086)
         Net Costs With the Public                  $      560,902     $             0    $            560,902     $            (44,333)
        Net Program Cost                            $      (14,993)    $             0    $            (14,993)    $            (37,442)

      Component Level
         Intragovernmental Gross Costs              $    (5,267,415)   $             0    $          (5,267,415)   $        (12,661,671)
         (Less: Intragovernmental Earned Revenue)         3,370,279                  0                3,370,279               2,152,034
         Intragovernmental Net Costs                $    (1,897,136)   $             0    $          (1,897,136)   $        (10,509,637)

         Gross Costs With the Public                $     1,763,338                  0                1,763,338              12,335,314
         (Less: Earned Revenue From the Public)            (750,905)                 0                 (750,905)                  1,272
         Net Costs With the Public                  $     1,012,433    $             0    $           1,012,433    $         12,336,586
        Net Program Cost                            $      (884,703)   $             0    $            (884,703)   $          1,826,949

      Depot Maintenance, Aviation
         Intragovernmental Gross Costs              $     1,333,506    $             0    $           1,333,506    $          2,146,371
         (Less: Intragovernmental Earned Revenue)        (2,355,599)                 0               (2,355,599)             (1,973,128)
         Intragovernmental Net Costs                $    (1,022,093)   $             0    $          (1,022,093)   $            173,243

         Gross Costs With the Public                $      945,884                   0                 945,884                   43,155
         (Less: Earned Revenue From the Public)            (12,226)                  0                 (12,226)                 (50,214)
         Net Costs With the Public                  $      933,658     $             0    $            933,658     $              (7,059)
        Net Program Cost                            $      (88,435)    $             0    $            (88,435)    $            166,184

      Depot Maintenance, Marine Corps
         Intragovernmental Gross Costs              $        21,757    $             0    $             21,757     $            208,091
         (Less: Intragovernmental Earned Revenue)          (224,548)                 0                (224,548)                (207,825)
         Intragovernmental Net Costs                $      (202,791)   $             0    $           (202,791)    $                266

         Gross Costs With the Public                $      222,057                   0                 222,057                    3,620
         (Less: Earned Revenue From the Public)              (3,578)                 0                   (3,578)                 (4,327)
          Net Costs With the Public                 $      218,479     $             0    $            218,479     $               (707)
        Net Program Cost                            $       15,688     $             0    $             15,688     $               (441)




198      NAVY WORKING CAPITAL FUND
                                                                                                   2003 ANNUAL FINANCIAL REPORT



Department of Defense
Navy Working Capital Fund
CONSOLIDATING STATEMENT OF NET COST
For the years ended September 30, 2003 and 2002
($ in thousands)

                                                           2003 Total          Eliminations       2003 Consolidated        2002 Consolidated
   Program Costs
   Depot Maintenance, Shipyards
      Intragovernmental Gross Costs                    $      1,019,640    $             0    $           1,019,640    $           2,726,318
      (Less: Intragovernmental Earned Revenue)               (2,750,642)                 0               (2,750,642)              (2,534,914)
      Intragovernmental Net Costs                      $     (1,731,002)   $             0    $          (1,731,002)   $             191,404

      Gross Costs With the Public                      $     1,650,127                   0                1,650,127                  107,251
      (Less: Earned Revenue From the Public)                         0                   0                        0                  (16,895)
      Net Costs With the Public                        $     1,650,127     $             0    $           1,650,127    $              90,356
     Net Program Cost                                  $       (80,875)    $             0    $             (80,875)   $             281,760

   Ordnance
      Intragovernmental Gross Costs                    $             71    $             0    $                  71    $             (56,748)
      (Less: Intragovernmental Earned Revenue)                     (926)                 0                     (926)                       0
      Intragovernmental Net Costs                      $           (855)   $             0    $                (855)   $             (56,748)

      Gross Costs With the Public                      $            512                  0                      512                        0
      (Less: Earned Revenue From the Public)                          0                  0                        0                     (604)
      Net Costs With the Public                        $            512    $             0    $                 512    $                (604)
     Net Program Cost                                  $           (343)   $             0    $                (343)   $             (57,352)

   Transportation
      Intragovernmental Gross Costs                    $      1,299,609    $             0    $           1,299,609    $           1,383,045
      (Less: Intragovernmental Earned Revenue)               (1,844,089)                 0               (1,844,089)              (1,516,715)
      Intragovernmental Net Costs                      $       (544,480)   $             0    $            (544,480)   $            (133,670)

      Gross Costs With the Public                      $       489,538                   0                 489,538                      4,103
      (Less: Earned Revenue From the Public)                         0                   0                       0                     (1,950)
      Net Costs With the Public                        $       489,538     $             0    $            489,538     $                2,153
     Net Program Cost                                  $       (54,942)    $             0    $            (54,942)    $            (131,517)

   Research & Development
      Intragovernmental Gross Costs                    $      5,822,619    $             0    $           5,822,619    $           9,030,982
      (Less: Intragovernmental Earned Revenue)               (9,585,868)                 0               (9,585,868)              (9,119,274)
      Intragovernmental Net Costs                      $     (3,763,249)   $             0    $          (3,763,249)   $             (88,292)

      Gross Costs With the Public                      $     3,750,586                   0                3,750,586                  127,598
      (Less: Earned Revenue From the Public)                         0                   0                        0                 (351,023)
      Net Costs With the Public                        $     3,750,586     $             0    $           3,750,586    $            (223,425)
     Net Program Cost                                  $       (12,663)    $             0    $             (12,663)   $            (311,717)




                                               SUPPORTING CONSOLIDATING/COMBINING STATEMENTS                                                   199
                                                            DEPARTMENT        OF THE   NAVY



 Department of Defense
 Navy Working Capital Fund
 CONSOLIDATING STATEMENT OF NET COST
 For the years ended September 30, 2003 and 2002
 ($ in thousands)

                                                                                                          2003                 2002
                                                                2003 Total          Eliminations       Consolidated         Consolidated
      Program Costs
      Supply Management
         Intragovernmental Gross Costs                      $       183,636     $             0    $         183,636    $         971,197
         (Less: Intragovernmental Earned Revenue)                (6,895,749)                  0           (6,895,749)          (6,088,590)
         Intragovernmental Net Costs                        $    (6,712,113)    $             0    $      (6,712,113)   $      (5,117,393)
         Gross Costs With the Public                        $     8,273,309                   0           8,273,309             6,196,608
         (Less: Earned Revenue From the Public)                           0                   0                   0              (374,865)
         Net Costs With the Public                          $     8,273,309     $             0    $      8,273,309     $       5,821,743
        Net Program Cost                                    $     1,561,196     $             0    $      1,561,196     $         704,350

      Total Program Costs
         Intragovernmental Gross Costs                      $     5,422,250     $             0    $       5,422,250    $       5,382,324
         (Less: Intragovernmental Earned Revenue)               (21,871,864)                  0          (21,871,864)         (20,916,260)
         Intragovernmental Net Costs                        $   (16,449,614)    $             0    $     (16,449,614)   $     (15,533,936)
         Gross Costs With the Public                        $    17,656,253                   0          17,656,253            18,837,402
         (Less: Earned Revenue From the Public)                    (766,709)                  0            (766,709)             (862,692)
         Net Costs With the Public                          $    16,889,544     $             0    $     16,889,544     $      17,974,710
        Net Program Cost                                    $       439,930     $             0    $        439,930     $       2,440,774
      Costs Not Assigned to Programs                                      0                   0                   0                     0
      (Less: Earned Revenue Not Attributable to Programs)                 0                   0                   0                     0
      Net Cost of Operations                                $       439,930     $             0    $        439,930     $       2,440,774




200      NAVY WORKING CAPITAL FUND
                                                                                                     2003 ANNUAL FINANCIAL REPORT



Department of Defense
Navy Working Capital Fund
CONSOLIDATING STATEMENT OF CHANGES IN NET POSITION
For the years ended September 30, 2003 and 2002
($ in thousands)


                                                                    Depot                Depot                Depot
                                                                 Maintenance,         Maintenance,         Maintenance,           Ordnance
                                                                  Shipyards            Aviation            Marine Corps
  Cumulative Results of Operations
    Beginning Balances                                       $        947,968     $         347,908    $          66,559      $      168,016
     Prior period adjustments (+/-)                                    (4,957)                    0                    0                (767)
     Beginning Balances, as adjusted                         $        943,011     $         347,908    $          66,559      $      167,249
   Budgetary Financing Sources:
    Appropriations Received                                  $               0    $               0    $              0       $              0
    Appropriations transferred in/out (+/-)                                  0                    0                   0                      0
    Other adjustments (rescissions, etc) (+/-)                               0                    0                   0                      0
    Appropriations used                                                      0                    0                   0                      0
    Nonexchange revenue                                                      0                    0                   0                      0
    Donations and forfeitures of cash and cash equivalents                   0                    0                   0                      0
    Transfers in/out without reimbursement (+/-)                             0                    0                   0                      0
    Other budgetary financing sources (+/-)                                  0                    0                   0                      0
   Other Financing Sources:
    Donations and forfeitures of property                                    0                    0                    0                   0
    Transfers in/out without reimbursement (+/-)                        29,841              (16,050)                   0                   0
    Imputed financing from costs absorbed by others                          0                    0                7,609                   0
    Other (+/-)                                                              0                    0                    0                   0
   Total Financing Sources                                   $          29,841    $         (16,050)   $           7,609      $            0
     Net Cost of Operations (+/-)                            $         (80,875)   $         (88,435)   $          15,688      $         (343)
     Ending Balances                                         $       1,053,727    $         420,293    $          58,480      $      167,592

  Unexpended Appropriations
    Beginning Balances                                       $               0    $               0    $                  0   $              0
     Prior period adjustments (+/-)                                          0                    0                       0                  0
     Beginning Balances, as adjusted                         $               0    $               0    $                  0   $              0
   Budgetary Financing Sources:
    Appropriations Received                                  $               0    $               0    $              0       $              0
    Appropriations transferred in/out (+/-)                                  0                    0                   0                      0
    Other adjustments (rescissions, etc) (+/-)                               0                    0                   0                      0
    Appropriations used                                                      0                    0                   0                      0
    Nonexchange revenue                                                      0                    0                   0                      0
    Donations and forfeitures of cash and cash equivalents                   0                    0                   0                      0
    Transfers in/out without reimbursement (+/-)                             0                    0                   0                      0
    Other budgetary financing sources (+/-)                                  0                    0                   0                      0
   Other Financing Sources:
    Donations and forfeitures of property                                    0                    0                   0                      0
    Transfers in/out without reimbursement (+/-)                             0                    0                   0                      0
    Imputed financing from costs absorbed by others                          0                    0                   0                      0
    Other (+/-)                                                              0                    0                   0                      0
   Total Financing Sources                                   $               0    $               0    $              0       $              0
     Net Cost of Operations (+/-)                            $               0    $               0    $              0       $              0
     Ending Balances                                         $               0    $               0    $              0       $              0



                                                  SUPPORTING CONSOLIDATING/COMBINING STATEMENTS                                                  201
                                                                   DEPARTMENT      OF THE   NAVY



Department of Defense
Navy Working Capital Fund
CONSOLIDATING STATEMENT OF CHANGES IN NET POSITION
For the years ended September 30, 2003 and 2002
($ in thousands)


                                                                                                               Research &             Supply
                                                                 Transportation        Base Support           Development           Management
  Cumulative Results of Operations
    Beginning Balances                                       $          (95,093)   $         677,090      $        512,075      $      16,610,137
     Prior period adjustments (+/-)                                           0                  (30)                    0                  5,885
     Beginning Balances, as adjusted                         $          (95,093)   $         677,060      $        512,075      $      16,616,022
   Budgetary Financing Sources:
    Appropriations Received                                  $                0    $                  0   $              0      $              0
    Appropriations transferred in/out (+/-)                                   0                       0                  0                     0
    Other adjustments (rescissions, etc) (+/-)                                0                       0             33,049                     0
    Appropriations used                                                       0                       0                  0                40,200
    Nonexchange revenue                                                       0                       0                  0                     0
    Donations and forfeitures of cash and cash equivalents                    0                       0                  0                     0
    Transfers in/out without reimbursement (+/-)                              0                       0                  0                     0
    Other budgetary financing sources (+/-)                                   0                       0                  0                     0
   Other Financing Sources:
    Donations and forfeitures of property                                     0                    0                      0                     0
    Transfers in/out without reimbursement (+/-)                           (425)              51,141                 (3,379)              819,764
    Imputed financing from costs absorbed by others                           0                    0                      0                     0
    Other (+/-)                                                               0                    0                      0                     0
   Total Financing Sources                                   $             (425)   $          51,141      $         29,670      $         859,964
     Net Cost of Operations (+/-)                            $          (54,942)   $         (14,993)     $        (12,663)     $       1,561,196
     Ending Balances                                         $          (40,576)   $         743,194      $        554,408      $      15,914,790

  Unexpended Appropriations
    Beginning Balances                                       $                0    $                  0   $                 0   $                0
     Prior period adjustments (+/-)                                           0                       0                     0                    0
     Beginning Balances, as adjusted                         $                0    $                  0   $                 0   $                0
   Budgetary Financing Sources:
    Appropriations Received                                  $                0    $                  0   $                 0   $         40,200
    Appropriations transferred in/out (+/-)                                   0                       0                     0                  0
    Other adjustments (rescissions, etc) (+/-)                                0                       0                     0                  0
    Appropriations used                                                       0                       0                     0            (40,200)
    Nonexchange revenue                                                       0                       0                     0                  0
    Donations and forfeitures of cash and cash equivalents                    0                       0                     0                  0
    Transfers in/out without reimbursement (+/-)                              0                       0                     0                  0
    Other budgetary financing sources (+/-)                                   0                       0                     0                  0
   Other Financing Sources:
    Donations and forfeitures of property                                     0                       0                     0                    0
    Transfers in/out without reimbursement (+/-)                              0                       0                     0                    0
    Imputed financing from costs absorbed by others                           0                       0                     0                    0
    Other (+/-)                                                               0                       0                     0                    0
   Total Financing Sources                                   $                0    $                  0   $                 0   $                0
     Net Cost of Operations (+/-)                            $                0    $                  0   $                 0   $                0
     Ending Balances                                         $                0    $                  0   $                 0   $                0




 202     NAVY WORKING CAPITAL FUND
                                                                                                 2003 ANNUAL FINANCIAL REPORT



Department of Defense
Navy Working Capital Fund
CONSOLIDATING STATEMENT OF CHANGES IN NET POSITION
For the years ended September 30, 2003 and 2002
($ in thousands)


                                                                 Component Level         Combined Total         Eliminations
  Cumulative Results of Operations
    Beginning Balances                                       $         (1,227,954)   $        18,006,706    $                  0
     Prior period adjustments (+/-)                                          (131)                     0                       0
     Beginning Balances, as adjusted                         $         (1,228,085)   $        18,006,706    $                  0
   Budgetary Financing Sources:
    Appropriations Received                                  $                 0     $                0     $                  0
    Appropriations transferred in/out (+/-)                                    0                      0                        0
    Other adjustments (rescissions, etc) (+/-)                           (33,049)                     0                        0
    Appropriations used                                                        0                 40,200                        0
    Nonexchange revenue                                                        0                      0                        0
    Donations and forfeitures of cash and cash equivalents                     0                      0                        0
    Transfers in/out without reimbursement (+/-)                               0                      0                        0
    Other budgetary financing sources (+/-)                                    0                      0                        0
   Other Financing Sources:
    Donations and forfeitures of property                                      0                       0                       0
    Transfers in/out without reimbursement (+/-)                        (894,419)                (13,527)                      0
    Imputed financing from costs absorbed by others                      535,772                 543,381                       0
    Other (+/-)                                                                0                       0                       0
   Total Financing Sources                                   $          (391,696)    $           570,054    $                  0
     Net Cost of Operations (+/-)                            $          (884,703)    $           439,930    $                  0
     Ending Balances                                         $          (735,078)    $        18,136,830    $                  0

  Unexpended Appropriations
    Beginning Balances                                       $                  0    $                 0    $                  0
     Prior period adjustments (+/-)                                             0                      0                       0
     Beginning Balances, as adjusted                         $                  0    $                 0    $                  0
   Budgetary Financing Sources:
    Appropriations Received                                  $                  0    $            40,200    $                  0
    Appropriations transferred in/out (+/-)                                     0                      0                       0
    Other adjustments (rescissions, etc) (+/-)                                  0                      0                       0
    Appropriations used                                                         0                (40,200)                      0
    Nonexchange revenue                                                         0                      0                       0
    Donations and forfeitures of cash and cash equivalents                      0                      0                       0
    Transfers in/out without reimbursement (+/-)                                0                      0                       0
    Other budgetary financing sources (+/-)                                     0                      0                       0
   Other Financing Sources:
    Donations and forfeitures of property                                       0                      0                       0
    Transfers in/out without reimbursement (+/-)                                0                      0                       0
    Imputed financing from costs absorbed by others                             0                      0                       0
    Other (+/-)                                                                 0                      0                       0
   Total Financing Sources                                   $                  0    $                 0    $                  0
     Net Cost of Operations (+/-)                            $                  0    $                 0    $                  0
     Ending Balances                                         $                  0    $                 0    $                  0




                                               SUPPORTING CONSOLIDATING/COMBINING STATEMENTS                                       203
                                                                 DEPARTMENT    OF THE      NAVY



 Department of Defense
 Navy Working Capital Fund
 CONSOLIDATING STATEMENT OF CHANGES IN NET POSITION
 For the years ended September 30, 2003 and 2002
 ($ in thousands)


                                                                      2003 Consolidated           2002 Consolidated
      Cumulative Results of Operations
        Beginning Balances                                        $           18,006,706      $           17,718,572
         Prior period adjustments (+/-)                                                0                   1,952,397
         Beginning Balances, as adjusted                          $           18,006,706                  19,670,969
       Budgetary Financing Sources:
        Appropriations Received                                   $                    0                          0
        Appropriations transferred in/out (+/-)                                        0                          0
        Other adjustments (rescissions, etc) (+/-)                                     0                          0
        Appropriations used                                                       40,200                          0
        Nonexchange revenue                                                            0                          0
        Donations and forfeitures of cash and cash equivalents                         0                          0
        Transfers in/out without reimbursement (+/-)                                   0                          0
        Other budgetary financing sources (+/-)                                        0                    312,060
       Other Financing Sources:
        Donations and forfeitures of property                                          0                           0
        Transfers in/out without reimbursement (+/-)                             (13,527)                     (1,138)
        Imputed financing from costs absorbed by others                          543,381                     465,589
        Other (+/-)                                                                    0                           0
       Total Financing Sources                                    $              570,054                     776,511
         Net Cost of Operations (+/-)                             $              439,930                   2,440,774
         Ending Balances                                          $           18,136,830      $           18,006,706

      Unexpended Appropriations
        Beginning Balances                                        $                    0      $                    0
         Prior period adjustments (+/-)                                                0                           0
         Beginning Balances, as adjusted                          $                    0      $                    0
       Budgetary Financing Sources:
        Appropriations Received                                   $               40,200      $                    0
        Appropriations transferred in/out (+/-)                                        0                           0
        Other adjustments (rescissions, etc) (+/-)                                     0                           0
        Appropriations used                                                      (40,200)                          0
        Nonexchange revenue                                                            0                           0
        Donations and forfeitures of cash and cash equivalents                         0                           0
        Transfers in/out without reimbursement (+/-)                                   0                           0
        Other budgetary financing sources (+/-)                                        0                           0
       Other Financing Sources:
        Donations and forfeitures of property                                          0                           0
        Transfers in/out without reimbursement (+/-)                                   0                           0
        Imputed financing from costs absorbed by others                                0                           0
        Other (+/-)                                                                    0                           0
       Total Financing Sources                                    $                    0      $                    0
         Net Cost of Operations (+/-)                             $                    0      $                    0
         Ending Balances                                          $                    0      $                    0




204      NAVY WORKING CAPITAL FUND
                                                                                                 2003 ANNUAL FINANCIAL REPORT



Department of Defense
Navy Working Capital Fund
COMBINING STATEMENT OF BUDGETARY RESOURCES
For the years ended September 30, 2003 and 2002
($ in thousands)

  BUDGETARY FINANCING ACCOUNTS
                                                                    Depot                Depot                Depot
                                                                 Maintenance,         Maintenance,         Maintenance,
                                                                  Shipyards             Aviation           Marine Corps
  BUDGETARY RESOURCES
    Budget Authority:
        Appropriations Received                              $              0     $               0    $              0
        Borrowing Authority                                                 0                     0                   0
        Contract Authority                                                  0                     0                   0
        Net transfers (+/-)                                                 0                     0                   0
        Other                                                               0                     0                   0
     Unobligated Balance:
        Beginning of period                                            421,463             640,385               63,188
        Net transfers, actual (+/-)                                          0                   0                    0
        Anticipated Transfers Balances                                       0                   0                    0
    Spending Authority from Offsetting Collections:
        Earned                                                               0                    0                   0
         Collected                                                   2,655,831            2,342,024             215,430
         Receivable from Federal sources                                  (586)              34,541              10,600
        Change in unfilled customer orders                                   0                    0                   0
         Advances received                                              65,403                2,281               1,075
         Without advance from Federal sources                          608,638               88,350              84,948
        Anticipated for the rest of year, without advances                   0                    0                   0
        Transfers from trust funds                                           0                    0                   0
       Subtotal                                              $       3,329,286    $       2,467,196    $        312,053
    Recoveries of prior year obligations                     $               0    $               0    $              0
     Temporarily not available pursuant to Public Law                        0                    0                   0
    Permanently not available                                          (38,900)             (17,973)                  0
    Total Budgetary Resources                                $       3,711,849    $       3,089,608    $        375,241




                                                SUPPORTING CONSOLIDATING/COMBINING STATEMENTS                              205
                                                               DEPARTMENT     OF THE      NAVY



 Department of Defense
 Navy Working Capital Fund
 COMBINING STATEMENT OF BUDGETARY RESOURCES
 For the years ended September 30, 2003 and 2002
 ($ in thousands)

      BUDGETARY FINANCING ACCOUNTS
                                                               Depot Maintenance,         Depot Maintenance,         Depot Maintenance,
                                                                   Shipyards                   Aviation                 Marine Corps
      STATUS OF BUDGETARY RESOURCES
        Obligations Incurred:
            Direct                                         $                    0     $                     0    $                    0
            Reimbursable                                                2,431,161                   2,112,126                   255,736
            Subtotal                                       $            2,431,161     $             2,112,126    $              255,736
        Unobligated balance:
            Apportioned                                    $            1,280,688                     977,482                   119,505
            Exempt from apportionment                                           0                           0                         0
            Other available                                                     0                           0                         0
        Unobligated Balances Not Available                                      0                           0                         0
        Total, Status of Budgetary Resources               $            3,711,849     $             3,089,608    $              375,241

      RELATIONSHIP OF OBLIGATIONS TO OUTLAYS:
        Obligated Balance, Net-beginning of period         $              279,894     $              160,824     $               (16,419)
        Obligated Balance transferred, net (+/-)                                0                          0                           0
        Obligated Balance, net-end of period:
            Accounts Receivable                                             (8,730)                 (141,440)                    (20,336)
            Unfilled customer order from Federal sources                (1,506,419)                 (911,219)                   (133,756)
            Undelivered Orders                                             598,499                   174,417                      35,339
            Accounts Payable                                               311,824                   827,871                      19,570
        Outlays:
           Disbursements                                                2,707,828                   2,200,432                   242,952
           Collections                                                 (2,721,235)                 (2,344,305)                 (216,504)
           Subtotal                                        $              (13,407)    $              (143,873)   $               26,448
        Less: Offsetting receipts                                               0                           0                         0
        Net Outlays                                        $              (13,407)    $              (143,873)   $               26,448




206      NAVY WORKING CAPITAL FUND
                                                                                                 2003 ANNUAL FINANCIAL REPORT



Department of Defense
Navy Working Capital Fund
COMBINING STATEMENT OF BUDGETARY RESOURCES
For the years ended September 30, 2003 and 2002
($ in thousands)

  BUDGETARY FINANCING ACCOUNTS
                                                                 Ordnance           Transportation           Base Support
  BUDGETARY RESOURCES
    Budget Authority:
        Appropriations Received                              $              0   $                    0   $                0
        Borrowing Authority                                                 0                        0                    0
        Contract Authority                                                  0                        0                  340
        Net transfers (+/-)                                                 0                        0                    0
        Other                                                               0                        0                    0
     Unobligated Balance:
        Beginning of period                                         265,628                 176,443                207,122
        Net transfers, actual (+/-)                                       0                       0                      0
        Anticipated Transfers Balances                                    0                       0                      0
    Spending Authority from Offsetting Collections:
        Earned                                                            0                       0                        0
         Collected                                                    1,025               1,796,663               1,652,496
         Receivable from Federal sources                               (135)                 47,626                 (15,269)
        Change in unfilled customer orders                                0                       0                        0
         Advances received                                              (68)                      0                  30,142
         Without advance from Federal sources                        (2,553)                123,097                   (9,705)
        Anticipated for the rest of year, without advances                0                       0                        0
        Transfers from trust funds                                        0                       0                        0
       Subtotal                                              $       (1,731) $            1,967,386      $        1,657,664
    Recoveries of prior year obligations                     $            0 $                     0      $                 0
     Temporarily not available pursuant to Public Law                     0                       0                        0
    Permanently not available                                             0                (134,684)                       0
    Total Budgetary Resources                                $      263,897 $             2,009,145      $        1,865,126




                                                SUPPORTING CONSOLIDATING/COMBINING STATEMENTS                                   207
                                                               DEPARTMENT       OF THE   NAVY



 Department of Defense
 Navy Working Capital Fund
 COMBINING STATEMENT OF BUDGETARY RESOURCES
 For the years ended September 30, 2003 and 2002
 ($ in thousands)

      BUDGETARY FINANCING ACCOUNTS
                                                                 Ordnance             Transportation         Base Support
      STATUS OF BUDGETARY RESOURCES
        Obligations Incurred:
            Direct                                         $               0      $                0     $                 0
            Reimbursable                                              53,569               1,798,511               1,627,419
            Subtotal                                       $          53,569      $        1,798,511     $         1,627,419
        Unobligated balance:
            Apportioned                                    $         210,328                 210,634                 237,707
            Exempt from apportionment                                      0                       0                       0
            Other available                                                0                       0                       0
        Unobligated Balances Not Available                                 0                       0                       0
        Total, Status of Budgetary Resources               $         263,897      $        2,009,145     $         1,865,126

      RELATIONSHIP OF OBLIGATIONS TO OUTLAYS:
        Obligated Balance, Net-beginning of period         $         (36,110)     $          241,275     $          105,108
        Obligated Balance transferred, net (+/-)                           0                       0                      0
        Obligated Balance, net-end of period:
            Accounts Receivable                                         (826)               (143,258)               (144,004)
            Unfilled customer order from Federal sources             (15,027)               (158,231)               (252,069)
            Undelivered Orders                                         6,318                 (17,495)                170,814
            Accounts Payable                                         (91,803)                514,603                 347,565
        Outlays:
           Disbursements                                             121,486                1,673,444              1,635,195
           Collections                                                  (957)              (1,796,663)            (1,682,638)
           Subtotal                                        $         120,529      $          (123,219)   $           (47,443)
        Less: Offsetting receipts                                          0                        0                      0
        Net Outlays                                        $         120,529      $          (123,219)   $           (47,443)




208      NAVY WORKING CAPITAL FUND
                                                                                           2003 ANNUAL FINANCIAL REPORT



Department of Defense
Navy Working Capital Fund
COMBINING STATEMENT OF BUDGETARY RESOURCES
For the years ended September 30, 2003 and 2002
($ in thousands)

  BUDGETARY FINANCING ACCOUNTS
                                                                  Research &             Supply
                                                                 Development           Management           Component Level
  BUDGETARY RESOURCES
    Budget Authority:
        Appropriations Received                              $                 0   $          40,200    $                 0
        Borrowing Authority                                                    0                   0                      0
        Contract Authority                                                     0             557,804                      0
        Net transfers (+/-)                                                    0                   0                      0
        Other                                                                  0                   0                      0
     Unobligated Balance:
        Beginning of period                                           1,199,702              711,212                432,078
        Net transfers, actual (+/-)                                      10,501              (10,505)               (30,196)
        Anticipated Transfers Balances                                        0                    0                      0
    Spending Authority from Offsetting Collections:
        Earned                                                                0                    0                      0
         Collected                                                    9,766,600            6,842,601                312,877
         Receivable from Federal sources                               (145,480)             (50,647)              (312,877)
        Change in unfilled customer orders                                    0                    0                      0
         Advances received                                               78,047                1,359                      0
         Without advance from Federal sources                           967,075              104,325                      0
        Anticipated for the rest of year, without advances                    0                    0                      0
        Transfers from trust funds                                            0                    0                      0
       Subtotal                                              $       10,666,242    $       6,897,638    $                 0
    Recoveries of prior year obligations                     $                0    $               0    $                 0
     Temporarily not available pursuant to Public Law                         0                    0                      0
    Permanently not available                                           (12,583)                   0                      0
    Total Budgetary Resources                                $       11,863,862    $       8,196,349    $           401,882




                                                SUPPORTING CONSOLIDATING/COMBINING STATEMENTS                                  209
                                                               DEPARTMENT        OF THE   NAVY



 Department of Defense
 Navy Working Capital Fund
 COMBINING STATEMENT OF BUDGETARY RESOURCES
 For the years ended September 30, 2003 and 2002
 ($ in thousands)

      BUDGETARY FINANCING ACCOUNTS
                                                                Research &
                                                               Development             Supply Management         Component Level

      STATUS OF BUDGETARY RESOURCES
        Obligations Incurred:
            Direct                                         $                 0     $                    0    $                  0
            Reimbursable                                            10,828,358                  8,158,986                  (2,235)
            Subtotal                                       $        10,828,358     $            8,158,986    $             (2,235)
        Unobligated balance:
            Apportioned                                    $         1,035,503                    156,152                404,116
            Exempt from apportionment                                        0                          0                      0
            Other available                                                  1                          0                      1
        Unobligated Balances Not Available                                   0                   (118,789)                     0
        Total, Status of Budgetary Resources               $        11,863,862     $            8,196,349    $           401,882

      RELATIONSHIP OF OBLIGATIONS TO OUTLAYS:
        Obligated Balance, Net-beginning of period         $           52,929      $            3,343,567    $         (1,145,306)
        Obligated Balance transferred, net (+/-)                            0                           0                       0
        Obligated Balance, net-end of period:
            Accounts Receivable                                         13,750                   (217,164)                320,911
            Unfilled customer order from Federal sources            (4,813,043)                  (966,366)                      0
            Undelivered Orders                                       2,243,490                  4,787,060                       0
            Accounts Payable                                         2,703,194                    914,048              (1,173,973)
        Outlays:
           Disbursements                                             9,912,300                  6,931,297                 18,398
           Collections                                              (9,844,646)                (6,843,960)              (312,877)
           Subtotal                                        $            67,654     $               87,337    $          (294,479)
        Less: Offsetting receipts                                            0                          0                      0
        Net Outlays                                        $            67,654     $               87,337    $          (294,479)




210      NAVY WORKING CAPITAL FUND
                                                                                         2003 ANNUAL FINANCIAL REPORT



Department of Defense
Navy Working Capital Fund
COMBINING STATEMENT OF BUDGETARY RESOURCES
For the years ended September 30, 2003 and 2002
($ in thousands)

  BUDGETARY FINANCING ACCOUNTS
                                                                  2003 Combined          2002 Combined
  BUDGETARY RESOURCES
    Budget Authority:
        Appropriations Received                               $           40,200     $                0
        Borrowing Authority                                                    0                      0
        Contract Authority                                               558,144                818,950
        Net transfers (+/-)                                                    0                      0
        Other                                                                  0                      0
     Unobligated Balance:
        Beginning of period                                             4,117,221              3,106,657
        Net transfers, actual (+/-)                                       (30,200)                     0
        Anticipated Transfers Balances                                          0                      0
    Spending Authority from Offsetting Collections:
        Earned                                                                  0                      0
         Collected                                                     25,585,547             24,242,264
         Receivable from Federal sources                                 (432,227)              (478,538)
        Change in unfilled customer orders                                      0                      0
         Advances received                                                178,239                 58,673
         Without advance from Federal sources                           1,964,175                773,407
        Anticipated for the rest of year, without advances                      0                      0
        Transfers from trust funds                                              0                      0
        Subtotal                                              $        27,295,734    $        24,595,806
    Recoveries of prior year obligations                      $                 0    $                 0
     Temporarily not available pursuant to Public Law                           0                      0
    Permanently not available                                            (204,140)              (417,232)
    Total Budgetary Resources                                 $        31,776,959    $        28,104,181




                                                SUPPORTING CONSOLIDATING/COMBINING STATEMENTS                      211
                                                           DEPARTMENT     OF THE   NAVY



 Department of Defense
 Navy Working Capital Fund
 COMBINING STATEMENT OF BUDGETARY RESOURCES
 For the years ended September 30, 2003 and 2002
 ($ in thousands)

      BUDGETARY FINANCING ACCOUNTS
                                                               2003 Combined           2002 Combined
      STATUS OF BUDGETARY RESOURCES
        Obligations Incurred:
            Direct                                         $                  0    $                  0
            Reimbursable                                             27,263,631              23,986,959
            Subtotal                                       $         27,263,631              23,986,959
        Unobligated balance:
            Apportioned                                    $          4,632,115               4,117,221
            Exempt from apportionment                                         0                       0
            Other available                                                   2                       1
        Unobligated Balances Not Available                             (118,789)                      0
        Total, Status of Budgetary Resources               $         31,776,959    $         28,104,181

      RELATIONSHIP OF OBLIGATIONS TO OUTLAYS:
        Obligated Balance, Net-beginning of period         $          2,985,762    $          2,421,105
        Obligated Balance transferred, net (+/-)                              0                       0
        Obligated Balance, net-end of period:
            Accounts Receivable                                        (341,097)               (773,326)
            Unfilled customer order from Federal sources             (8,756,130)             (6,791,954)
            Undelivered Orders                                        7,998,442               7,327,957
            Accounts Payable                                          4,372,899               3,223,082
        Outlays:
           Disbursements                                             25,443,332              23,127,436
           Collections                                              (25,763,785)            (24,300,937)
           Subtotal                                        $           (320,453)             (1,173,501)
        Less: Offsetting receipts                                             0                       0
        Net Outlays                                        $           (320,453)   $         (1,173,501)




212      NAVY WORKING CAPITAL FUND
                                                                                                        2003 ANNUAL FINANCIAL REPORT



Department of Defense
Navy Working Capital Fund
COMBINING STATEMENT OF FINANCING
For the years ended September 30, 2003 and 2002
($ in thousands)

                                                                                           Depot                 Depot                Depot
                                                                                        Maintenance,          Maintenance,         Maintenance,
                                                                                         Shipyards             Aviation            Marine Corps

   Resources Used to Finance Activities:
   Budgetary Resources Obligated
      Obligations Incurred                                                          $       2,431,161     $       2,112,126    $         255,736
      Less: Spending Authority from offsetting collections and recoveries (-)              (3,329,287)           (2,467,195)            (312,052)
      Obligations net of offsetting collections and recoveries                      $        (898,126)    $        (355,069)   $         (56,316)
      Less: Offsetting receipts (-)                                                                 0                     0                    0
      Net obligations                                                               $        (898,126)    $        (355,069)   $         (56,316)
   Other Resources
      Donations and forfeitures of property                                                         0                     0                    0
      Transfers in/out without reimbursement (+/-)                                             29,841               (16,050)                   0
      Imputed financing from costs absorbed by others                                               0                     0                7,609
      Other (+/-)                                                                                   0                     0                    0
      Net other resources used to finance activities                                $          29,841     $         (16,050)   $           7,609
       Total resources used to finance activities                                   $        (868,285)    $        (371,119)   $         (48,707)

   Resources Used to Finance Items not Part of the Net Cost of Operations:
     Change in budgetary resources obligated for goods, services and benefits
     ordered but not yet provided
        Undelivered orders (-)                                                      $          (7,452)    $         38,944     $          (7,252)
        Unfilled Customer Orders                                                              674,041               90,631                86,022
     Resources that fund expenses recognized in prior periods                                       0                    0                     0
     Budgetary offsetting collections and receipts that do not affect Net Cost of
       Operations                                                                                   0                    0                     0
     Resources that finance the acquisition of assets                                          81,564              122,835               (18,899)
     Other resources or adjustments to net obligated resources that do not
       affect Net Cost of Operations
        Less: Trust or Special Fund receipts related to exchange in the entity's
        budget (-)                                                                                  0                     0                    0
        Other (+/-)                                                                                 0                     0                    0
      Total resources used to finance items not part of the Net Cost of
        Operations                                                                  $         748,153     $         252,410    $          59,871
      Total resources used to finance the Net Cost of Operations                    $        (120,132)    $        (118,709)   $          11,164




                                                    SUPPORTING CONSOLIDATING/COMBINING STATEMENTS                                                 213
                                                                          DEPARTMENT   OF THE   NAVY



 Department of Defense
 Navy Working Capital Fund
 COMBINING STATEMENT OF FINANCING
 For the years ended September 30, 2003 and 2002
 ($ in thousands)

                                                                                                Depot               Depot               Depot
                                                                                             Maintenance,        Maintenance,        Maintenance,
                                                                                              Shipyards           Aviation           Marine Corps
      Components of the Net Cost of Operations that will not Require or Generate
      Resources in the Current Period:
      Components Requiring or Generating Resources in Future Periods:
        Increase in annual leave liability                                               $              0    $              0    $              0
        Increase in environmental and disposal liability                                                0                   0                   0
        Upward/Downward reestimates of credit subsidy expense                                           0                   0                   0
        Increase in exchange revenue receivable from the public (-)                                     0                   0                   0
        Other (+/-)                                                                                     0                   0                 959
        Total components of Net Cost of Operations that will require or
           generate resources in future periods                                          $              0    $              0    $            959

      Components not Requiring or Generating Resources:
        Depreciation and amortization                                                    $         39,256    $         30,273    $           3,564
        Revaluation of assets and liabilities (+/-)                                                     0                   0                    0
        Other (+/-)                                                                                     0                   0                    0
        Total components of Net Cost of Operations that will not require
          or generate resources                                                          $         39,256    $         30,273    $          3,564
         Total components of Net Cost of Operations that will not require or
           generate resources in the current period                                      $         39,256    $         30,273    $          4,523
         Net Cost of Operations                                                          $        (80,876)   $        (88,436)   $         15,687




214      NAVY WORKING CAPITAL FUND
                                                                                                           2003 ANNUAL FINANCIAL REPORT



Department of Defense
Navy Working Capital Fund
COMBINING STATEMENT OF FINANCING
For the years ended September 30, 2003 and 2002
($ in thousands)

                                                                                        Ordnance            Transportation           Base Support

   Resources Used to Finance Activities:
   Budgetary Resources Obligated
      Obligations Incurred                                                          $        53,569    $          1,798,511      $        1,627,419
      Less: Spending Authority from offsetting collections and recoveries (-)                 1,730              (1,967,386)             (1,657,664)
      Obligations net of offsetting collections and recoveries                      $        55,299    $           (168,875)     $          (30,245)
      Less: Offsetting receipts (-)                                                               0                       0                       0
      Net obligations                                                               $        55,299    $           (168,875)     $          (30,245)
   Other Resources
      Donations and forfeitures of property                                                       0                       0                      0
      Transfers in/out without reimbursement (+/-)                                                0                    (425)                51,141
      Imputed financing from costs absorbed by others                                             0                       0                      0
      Other (+/-)                                                                                 0                       0                      0
      Net other resources used to finance activities                                $             0    $               (425)     $          51,141
       Total resources used to finance activities                                   $        55,299    $           (169,300)     $          20,896

   Resources Used to Finance Items not Part of the Net Cost of Operations:
     Change in budgetary resources obligated for goods, services and benefits
     ordered but not yet provided
        Undelivered orders (-)                                                      $         5,289    $             48,047      $          69,090
        Unfilled Customer Orders                                                             (2,621)                123,097                 20,437
     Resources that fund expenses recognized in prior periods                                     0                       0                      0
     Budgetary offsetting collections and receipts that do not affect Net Cost of
       Operations                                                                                 0                       0                       0
     Resources that finance the acquisition of assets                                       (58,311)                (62,812)               (141,549)
     Other resources or adjustments to net obligated resources that do not
       affect Net Cost of Operations
        Less: Trust or Special Fund receipts related to exchange in the entity's
        budget (-)                                                                                 0                         0                      0
        Other (+/-)                                                                                0                         0                      0
      Total resources used to finance items not part of the Net Cost of
        Operations                                                                  $       (55,643)   $            108,332      $          (52,022)
      Total resources used to finance the Net Cost of Operations                    $          (344)   $            (60,968)     $          (31,126)




                                                         SUPPORTING CONSOLIDATING/COMBINING STATEMENTS                                              215
                                                                          DEPARTMENT   OF THE   NAVY



 Department of Defense
 Navy Working Capital Fund
 COMBINING STATEMENT OF FINANCING
 For the years ended September 30, 2003 and 2002
 ($ in thousands)

                                                                                             Ordnance           Transportation       Base Support

      Components of the Net Cost of Operations that will not Require or Generate
      Resources in the Current Period:
      Components Requiring or Generating Resources in Future Periods:
        Increase in annual leave liability                                               $              0   $                0   $               0
        Increase in environmental and disposal liability                                                0                    0                   0
        Upward/Downward reestimates of credit subsidy expense                                           0                    0                   0
        Increase in exchange revenue receivable from the public (-)                                     0                    0                   0
        Other (+/-)                                                                                     0                    0                   0
        Total components of Net Cost of Operations that will require or
           generate resources in future periods                                          $              0   $                0   $               0

      Components not Requiring or Generating Resources:
        Depreciation and amortization                                                    $              0   $            6,025   $          16,135
        Revaluation of assets and liabilities (+/-)                                                     0                    0                   0
        Other (+/-)                                                                                     0                    0                   0
        Total components of Net Cost of Operations that will not require
          or generate resources                                                          $              0   $            6,025   $          16,135
         Total components of Net Cost of Operations that will not require or
           generate resources in the current period                                      $           0      $            6,025 $            16,135
         Net Cost of Operations                                                          $        (344)     $          (54,943) $          (14,991)




216      NAVY WORKING CAPITAL FUND
                                                                                                          2003 ANNUAL FINANCIAL REPORT



Department of Defense
Navy Working Capital Fund
COMBINING STATEMENT OF FINANCING
For the years ended September 30, 2003 and 2002
($ in thousands)

                                                                                         Research &             Supply
                                                                                        Development           Management           Component Level


   Resources Used to Finance Activities:
   Budgetary Resources Obligated
      Obligations Incurred                                                          $       10,828,358    $       8,158,986    $            (2,235)
      Less: Spending Authority from offsetting collections and recoveries (-)              (10,666,242)          (6,897,638)                     0
      Obligations net of offsetting collections and recoveries                      $          162,116    $       1,261,348    $            (2,235)
      Less: Offsetting receipts (-)                                                                  0                    0                      0
      Net obligations                                                               $          162,116    $       1,261,348    $            (2,235)
   Other Resources
      Donations and forfeitures of property                                                         0                     0                      0
      Transfers in/out without reimbursement (+/-)                                             (3,379)              819,764               (894,419)
      Imputed financing from costs absorbed by others                                               0                     0                535,772
      Other (+/-)                                                                                   0                     0                      0
      Net other resources used to finance activities                                $          (3,379)    $         819,764    $          (358,647)
       Total resources used to finance activities                                   $         158,737     $       2,081,112    $          (360,882)

   Resources Used to Finance Items not Part of the Net Cost of Operations:
     Change in budgetary resources obligated for goods, services and benefits
     ordered but not yet provided
        Undelivered orders (-)                                                      $         (283,624)   $        (531,309)   $           (35,261)
        Unfilled Customer Orders                                                             1,045,122              105,684                      0
     Resources that fund expenses recognized in prior periods                                        0                    0                      0
     Budgetary offsetting collections and receipts that do not affect Net Cost of
       Operations                                                                                    0                    0                      8
     Resources that finance the acquisition of assets                                       (1,072,496)            (178,443)              (571,533)
     Other resources or adjustments to net obligated resources that do not
       affect Net Cost of Operations
        Less: Trust or Special Fund receipts related to exchange in the entity's
        budget (-)                                                                                    0                    0                     0
        Other (+/-)                                                                                   0                    0                     0
      Total resources used to finance items not part of the Net Cost of
      Operations                                                                    $        (310,998)    $        (604,068)   $          (606,786)
      Total resources used to finance the Net Cost of Operations                    $        (152,261)    $       1,477,044    $          (967,668)




                                                          SUPPORTING CONSOLIDATING/COMBINING STATEMENTS                                           217
                                                                          DEPARTMENT   OF THE   NAVY



 Department of Defense
 Navy Working Capital Fund
 COMBINING STATEMENT OF FINANCING
 For the years ended September 30, 2003 and 2002
 ($ in thousands)

                                                                                            Research &           Supply           Component
                                                                                           Development         Management           Level

      Components of the Net Cost of Operations that will not Require or
      Generate Resources in the Current Period:
      Components Requiring or Generating Resources in Future Periods:
        Increase in annual leave liability                                             $               0   $             0    $            0
        Increase in environmental and disposal liability                                               0                 0                 0
        Upward/Downward reestimates of credit subsidy expense                                          0                 0                 0
        Increase in exchange revenue receivable from the public (-)                                    0                 0                 0
        Other (+/-)                                                                                    0                 0            82,968
        Total components of Net Cost of Operations that will require or
           generate resources in future periods                                        $               0   $             0    $       82,968

      Components not Requiring or Generating Resources:
        Depreciation and amortization                                                  $        139,599    $         8,903    $             0
        Revaluation of assets and liabilities (+/-)                                                   0             74,973                  0
        Other (+/-)                                                                                   0                275                  0
        Total components of Net Cost of Operations that will not require
          or generate resources                                                        $        139,599    $        84,151    $             0
         Total components of Net Cost of Operations that will not require or
           generate resources in the current period                                    $        139,599    $         84,151   $        82,968
         Net Cost of Operations                                                        $        (12,662)   $      1,561,195   $      (884,700)




218      NAVY WORKING CAPITAL FUND
                                                                                             2003 ANNUAL FINANCIAL REPORT



Department of Defense
Navy Working Capital Fund
COMBINING STATEMENT OF FINANCING
For the years ended September 30, 2003 and 2002
($ in thousands)

                                                                                        2003 Combined            2002 Combined

   Resources Used to Finance Activities:
   Budgetary Resources Obligated
      Obligations Incurred                                                          $          27,263,631    $          23,986,959
      Less: Spending Authority from offsetting collections and recoveries (-)                 (27,295,734)             (24,595,804)
      Obligations net of offsetting collections and recoveries                      $             (32,103)   $            (608,845)
      Less: Offsetting receipts (-)                                                                     0                        0
      Net obligations                                                               $             (32,103)   $            (608,845)
   Other Resources
      Donations and forfeitures of property                                                            0                        0
      Transfers in/out without reimbursement (+/-)                                               (13,527)                       0
      Imputed financing from costs absorbed by others                                            543,381                  465,589
      Other (+/-)                                                                                      0                        0
      Net other resources used to finance activities                                $            529,854     $            465,589
       Total resources used to finance activities                                   $            497,751     $           (143,256)

   Resources Used to Finance Items not Part of the Net Cost of Operations:
     Change in budgetary resources obligated for goods, services and benefits
     ordered but not yet provided
        Undelivered orders (-)                                                      $           (703,528)    $          (3,023,627)
        Unfilled Customer Orders                                                               2,142,413                   832,080
     Resources that fund expenses recognized in prior periods                                          0                   (46,725)
     Budgetary offsetting collections and receipts that do not affect Net Cost of                      8                          0
       Operations
     Resources that finance the acquisition of assets                                          (1,899,644)               5,167,247
     Other resources or adjustments to net obligated resources that do not
       affect Net Cost of Operations
        Less: Trust or Special Fund receipts related to exchange in the entity's
        budget (-)                                                                                      0                        0
        Other (+/-)                                                                                     0                        0
      Total resources used to finance items not part of the Net Cost of
        Operations                                                                  $           (460,751)    $           2,928,975
      Total resources used to finance the Net Cost of Operations                    $             37,000     $           2,785,719




                                                  SUPPORTING CONSOLIDATING/COMBINING STATEMENTS                                      219
                                                                          DEPARTMENT   OF THE   NAVY



 Department of Defense
 Navy Working Capital Fund
 COMBINING STATEMENT OF FINANCING
 For the years ended September 30, 2003 and 2002
 ($ in thousands)

                                                                                                2003 Combined         2002 Combined

      Components of the Net Cost of Operations that will not Require or Generate
      Resources in the Current Period:
      Components Requiring or Generating Resources in Future Periods:
        Increase in annual leave liability                                                 $                  0   $                   0
        Increase in environmental and disposal liability                                                      0                       0
        Upward/Downward reestimates of credit subsidy expense                                                 0                       0
        Increase in exchange revenue receivable from the public (-)                                           0                       0
        Other (+/-)                                                                                      83,927                       0
        Total components of Net Cost of Operations that will require or
           generate resources in future periods                                            $             83,927   $                   0

      Components not Requiring or Generating Resources:
        Depreciation and amortization                                                      $            243,755   $           210,489
        Revaluation of assets and liabilities (+/-)                                                      74,973              (555,389)
        Other (+/-)                                                                                         275                   (41)
        Total components of Net Cost of Operations that will not require
          or generate resources                                                            $            319,003   $          (344,941)
         Total components of Net Cost of Operations that will not require or
           generate resources in the current period                                        $            402,930   $           (344,941)
         Net Cost of Operations                                                            $            439,930   $          2,440,774




220      NAVY WORKING CAPITAL FUND
                                               REQUIRED SUPPLEMENTARYINFORMATION
                                               NAVY WORKING CAPITAL FUND
                  DEPARTMENT   OF THE   NAVY
        NAVY WORKING CAPITAL FUND
REQUIRED SUPPLEMENTARY INFORMATION




                                                           221
                                                          DEPARTMENT   OF THE   NAVY



 Navy Working Capital Fund
 General Property, Plant, and Equipment
 Real Property Deferred Annual Sustainment and Restoration Tables
 As of September 30, 2003
 ($ in Millions)

                                              Annual Sustainment F Y 2003
                                                       Required           Actual          Difference
        Navy
        Marine Corps
        Building, Structures, and Utilities             1,360               1,360                0


                                         Annual Deferred Sustainment Trend
                                          FY 2000          FY 2001         FY 2002           FY 2003
        Navy
        Marine Corps
        Building, Structures, and
        Utilities                               0               72                  0                0


                                    Restoration and Modernization Requirements
                                             End FY 2002         End FY 2003              Change
        Navy
        Marine Corps
        Building, Structures, and
        Utilities                                   0                   0                    0


 Narrative Statement:

 In FY 2003, Navy Working Capital Fund facilities transitioned to OSD’s Facility Sustainment Model for calculating
 deferred sustainment and restoration.

 The quality of data used in the Facility Sustainment Model continued to undergo quality checks in FY 2003, resulting
 in a more accurate accounting of deferred sustainment requirements.

 Presently, a separate breakout between the Navy and Marine Corps sustainment amounts cannot be provided. Due
 to this limitation, information in the Real Property Deferred Annual Sustainment and Restoration Tables are presented
 as overall Totals for the Department of the Navy (DON).

 The Facility Sustainment Model calculates facility sustainment investment based on the DON property inventory,
 facility type, key units of measure, geographic location and industry standards. The variables are constantly being
 examined to reduce errors and disconnects for unique DON facility requirements.

 The NWCF has no material amounts of deferred sustainment for General Property, Plant, and Equipment category of
 Personal Property.




222   NAVY WORKING CAPITAL FUND
                                                                                                    2003 ANNUAL FINANCIAL REPORT




Schedule, Part A DoD Intra-governmental             Treasury Index   Fund Balance       Accounts        Loans       Investments   Other
A    B l in Thousands)
($ Amounts                                                           with Treasury     Receivable     Receivable
Department of Agriculture                                 12                                     $5
Department of Commerce                                    13                                    182
Department of the Interior                                14                                     91
Department of Justice                                     15                                    286
Navy General Fund                                         17                                420,647
United States Postal Service                              18                                      6
Department of State                                       19                                    320
Department of the Treasury                                20              $1,827,646             35
Army General Fund                                         21                                 17,241
Nuclear Regulatory Commission                             31                                     10
Department of Veterans Affairs                            36                                    255
General Service Administration                            47                                     60
National Science Foundation                               49                                      5
General Accounting Office                                  5                                  1,504
Air Force General Fund                                    57                                 10,108
Federal Emergency Management Agency                       58                                     15
Environmental Protection Agency                           68                                    374
Department of Transportation                              69                                 12,131
Agency for International Development                      72                                     13
Department of Health and Human Services                   75                                    348
National Aeronautics and Space Administration             80                                    267
Department of Energy                                      89                                    437
Department of Education                                   91                                     79
US Army Corps of Engineers                                96                                    394
Other Defense Organizations General Funds                 97                                 82,406
Other Defense Organizations Working Capital Funds      97-4930                               27,041
Army Working Capital Fund                            97-4930.001                              1,141                                   $933
Air Force Working Capital Fund                       97-4930.003                              4,323                                  9,458
DoD Medicare-Eligible Retiree Health Care Fund                                                3,050
                                                        Totals:         $1,827,646        $582,774            $ -           $ -   $10,391




Note: Totals might not match the amounts shown on the Principal Statements.


                                                                   REQUIRED SUPPLEMENTARY INFORMATION                                     223
                                                                   DEPARTMENT       OF THE   NAVY




                                                                                                         Debts/Borrowings
      Schedule, Part B DoD Intra-governmental Entity Liabilities   Treasury Index   Accounts Payable    From Other Agencies    Other
      ($ Amounts in Thousands)
      Executive Office of the President                                  11                                                           $397
      Department of Agriculture                                          12                                                          3,429
      Department of Commerce                                             13                                                          2,215
      Department of the Interior                                         14                                                          1,918
      Department of Justice                                              15                                                         26,561
      Navy General Fund                                                  17                  $145,038                              130,165
      United States Postal Service                                       18                                                         10,095
      Department of State                                                19                                                          2,144
      Department of the Treasury                                         20                                         $615,648         1,051
      Office of Personnel Management                                     24                                                         38,056
      Social Security Administration                                     28                                                            185
      Nuclear Regulatory Commission                                      31                                                             98
      Smithsonian Institution                                            33                                                          1,396
      Department of Veterans Affairs                                     36                                                            209
      General Service Administration                                     47                                                             88
      National Science Foundation                                        49                                                         19,058
      Securities and Exchange Commission                                 50                                                             38
      Air Force General Fund                                             57                       236                                  133
      National Foundation on the Arts and Humanities                     59                                                            195
      Environmental Protection Agency                                    68                                                          1,652
      Department of Transportation                                       69                                                          8,423
      Agency for International Development                               72                                                            264
      Small Business Administration                                      73                                                              5
      Department of Health and Human Services                            75                                                          2,868
      National Aeronautics and Space Administration                      80                                                         12,969
      Department of Housing and Urban Development                        86                                                              4
      Department of Energy                                               89                                                          1,805
      Department of Education                                            91                                                          4,630
      US Army Corps of Engineers                                         96                         3
      Other Defense Organizations General Funds                          97                     2,193                                  10
      Other Defense Organizations Working Capital Funds               97-4930                 145,115
      Army Working Capital Fund                                     97-4930.001                 9,085
      Air Force Working Capital Fund                                97-4930.003                12,118
      The General Fund of the Treasury                                   99                                                         11,617
      Homeland Security                                                                                                              7,590
                                                                      Totals:              $313,788                $615,648      $289,268




 Note: Totals might not match the amounts shown on the Principal Statements.


224      NAVY WORKING CAPITAL FUND
                                                                                            2003 ANNUAL FINANCIAL REPORT



           Schedule, Part C DoD Intra-governmental revenue and related costs
            ($ Amounts in Thousands)                                           Treasury Index     Earned Revenue
           Executive Office of the President                                          11        $                4,968
           Department of Agriculture                                                  12                         5,562
           Department of Commerce                                                     13                         9,252
           Department of the Interior                                                 14                         1,135
           Department of Justice                                                      15                        88,634
           Navy General Fund                                                          17                    18,912,777
           United States Postal Service                                               18                         3,019
           Department of State                                                        19                         9,534
           Department of the Treasury                                                 20                         5,794
           Army General Fund                                                          21                       281,499
           Social Security Administration                                             28                           912
           Nuclear Regulatory Commission                                              31                           548
           Smithsonian Institution                                                    33                            66
           Department of Veterans Affairs                                             36                         4,217
           General Service Administration                                             47                           926
           National Science Foundation                                                49                        14,248
           General Accounting Office                                                   5                           373
           Air Force General Fund                                                     57                       329,269
           Federal Emergency Management Agency                                        58                           190
           National Foundation on the Arts and Humanities                             59                           205
           Consumer Product Safety Commission                                         61                           172
           Environmental Protection Agency                                            68                         4,020
           Department of Transportation                                               69                        36,744
           Agency for International Development                                       72                         7,032
           Department of Health and Human Services                                    75                         9,410
           National Aeronautics and Space Administration                              80                        41,654
           Department of Housing and Urban Development                                86                            27
           Department of Energy                                                       89                        33,448
           US Army Corps of Engineers                                                 96                         2,082
           Other Defense Organizations General Funds                                  97                     1,605,987
           Other Defense Organizations Working Capital Funds                       97-4930                     188,156
           Army Working Capital Fund                                             97-4930.001                    24,929
           Air Force Working Capital Fund                                        97-4930.003                   238,319
           The General Fund of the Treasury                                           99                      (11,617)
           DoD Medicare-Eligible Retiree Health Care Fund                                                        6,756
                                                                                   Total:       $         21,860,247




Note: Totals might not match the amounts shown on the Principal Statements.


                                                                REQUIRED SUPPLEMENTARY INFORMATION                       225
                                                                     DEPARTMENT   OF THE       NAVY




      Schedule, Part E DoD Intragovernmental non-exchange revenues
                                                                                  Treasury Index          Transfers In         Transfers Out
      ($ Amounts in Thousands)
      Navy General Fund                                                                17                                 $               13,526

                                                                                     Totals:          $                  - $             13,526




 Note: Totals might not match the amounts shown on the Principal Statements.


226     NAVY WORKING CAPITAL FUND
                                            OTHER ACCOMPANYING INFORMATION
                                            NAVY WORKING CAPITAL FUND
               DEPARTMENT   OF THE   NAVY
     NAVY WORKING CAPITAL FUND
OTHER ACCOMPANYING INFORMATION




                                                       227
                                                        DEPARTMENT    OF THE   NAVY



 A PPROPRIATIONS , F UNDS ,         AND   A CCOUNTS I NCLUDED        IN THE    F INANCIAL S TATEMENTS

 R EPORTING E NTITY
 Navy Working Capital Fund

 Fund/Account Treasury Symbol and Title:
 97X4930 002

 Navy Working Capital Fund Activity Group Treasury Symbol and Title:

       97X4930.NA1*          Depot Maintenance-Shipyards
       97X4930.NA2*          Depot Maintenance-Aviation
       97X4930.NA4*          Depot Maintenance- Other (Marine Corps)
       97X4930.NA3* a        Ordnance
       97X4930.ND*           Transportation
       97X4930.NE* *         Base Support
       97X4930.NH**          Research and Development
       97X4930.NC**          Supply Management

 Notes

 * -    The “*” represents alpha or numeric characters which identify an activity or reporting
        segment of the activity group.

 a -    The Ordnance activity group became a part of the DON General Fund in FY 2000. The
        Ordnance information included in this report represents residual NWCF accounting for this group.




228    NAVY WORKING CAPITAL FUND
                             AUDIT OPINIONS
DEPARTMENT   OF THE   NAVY
 AUDIT OPINIONS




                                229
                                             INSPECTOR GENERAL
                                            DEPARTMENT OF DEFENSE
                                              400 ARMY NAVY DRIVE
                                         ARLINGTON, VIRGINIA 22202-4704




                                                                                              December 3,2003

MEMORANDUM FOR ASSISTANT SECRETARY OF THE NAVY (FINANCIAL
                 MANAGEMENT AND COMPTROLLER)
SUBJECT: Independent Auditor's Report on the Department of the Navy General Fund
         Fiscal Year 2003 Principal Financial Statements (Report No. D-2004-030)


The Chief Financial Officers Act of 1990, as amended, requires the Inspector General of the
Department of Defense to audit the accompanying Consolidated Balance Sheet of the
Department of the Navy General Fund as of September 30, 2003 and 2002, and the related
Consolidated Statements of Net Cost and Changes in Net Position, the Combined Statements of
Financing, the Combined Statements of Budgetary Resources, and the Statements of Custodial
Activity for the fiscal years then ended. These financial statements are the responsibility of the
Department of the Navy management. The Department of the Navy is also responsible for
implementing effective internal control and for complying with laws and regulations. In addition
to our disclaimer of opinion on the financial statements, we are including the required reports on
internal control and compliance with laws and regulations.

Disclaimer of Opinion on the Financial Statements
The Assistant Secretary of the Navy (Financial Management and Comptroller) acknowledged to
us that material deficiencies in the Navy General Fund financial statements still exist. Therefore,
we did not perform auditing procedures to support material amounts on the financial statements.
In addition, other auditing procedures were not performed because Section 1008(d) of the
FY 2002 National Defense Authorization Act requires the Inspector General of the Department
of Defense to perform only the audit procedures required by generally accepted government
auditing standards consistent with the representations made by management. The material
deficiencies also affect the reliability of certain information contained in the accompanying
Management's Discussion and Analysis and certain other inforyation-much of which is taken
from the same data sources as the principal financial statements. These deficiencies would have
precluded an audit opinion. As described above, we are unable to express, and we do not
express, an opinion on the financial statements and the accompanying information.




1
    Other information includes the Supporting Consolidating and Combining Financial Statements, the Required
    Supplementary Stewardship Information, Required Supplementary Information, and Other Accompanying
    Information.


A regdnr Statement and Accotirzt of the Receipts and Expendittwes of all public Money shall be
publishedfiom time to time. -Constitution of the United States, Article I, Section 9
 Summary of Internal Control
 In planning and performing our audit, we considered the Department of the Navy's internal
 control over financial reporting and compliance. We did this to determine our procedures for
 auditing the financial statements and to comply with Office of Management and Budget
 guidance but not to express an opinion on internal control. Accordingly, we do not express an
 opinion on internal control over financial reporting and compliance because previously identified
 reportable condition^,^ all of which are material, continue to exist in the following areas:
 accounting and financial management systems, policies, and procedures; internal control
 structure; and compliance with laws and regulations. A material weakness is a condition that
 precludes the entity's internal control from providing reasonable assurance that noncompliance,
 misstatements, or losses that are material in relation to the financial statements would be
 prevented or detected on a timely basis. Our internal control work would not necessarily
 disclose all material weaknesses. See the Attachment for additional details on material internal
 control weaknesses.

 Summary of Compliance with Laws and Regulations
Our work to determine compliance with selected provisions of the applicable laws and
regulations was limited because management acknowledged instances of noncompliance, and
previously reported instances of noncompliance continue to exist. Management has
acknowledged that critical financial management and feeder systems do not comply with Federal
financial systems requirements, Federal accounting standards, and the U.S. Government
Standard General Ledger at the transaction level, as required under the Federal Financial
Management Improvement Act (FFMIA) of 1996. Therefore, we did not determine whether the
Department of the Navy was in compliance with all applicable laws and regulations related to
financial reporting. See the Attachment for additional details on compliance with laws and
regulations.

In order for DoD to comply with statutory reporting requirements and applicable financial
systems requirements, the Under Secretary of Defense (Comptrol1er)lChief Financial Officer is
developing the DoD-wide Business Enterprise Architecture. The DoD anticipates developing
and implementing the Business Enterprise Architecture by 2007. Until the architecture is fully
developed and implemented, the Department of the Navy will be unable to fully comply with the
statutory reporting requirements.

We caution that other noncompliance may have occurred and not been detected. Further, the
results of our limited procedures may not be sufficient for other purposes. Our objective was not
to express an opinion on compliance with applicable laws and regulations.




' Reportable conditions are matters coming to the auditor's attention that, in his or her judgment, should be
 communicated to management because they represent significant deficiencies in the design or operation of internal
 control, which could adversely affect the organization's ability to initiate, record, process, and report financial data
 consistent with the assertions of management in financial statements.


A regular Stntenzerzt and Account ofthe Receipts and Expentlitlires of all public Moiiey shall he
published fvonz time to time. -Constitution of the United States, Article I, Section 9
 Management Responsibility
 Management is responsible for:
        preparing the financial statements in conformity with generally accepted accounting
        principles;
        establishing, maintaining, and assessing internal control to provide reasonable assurance
        that the broad control objectives of the Federal Managers' Financial Integrity Act
        (FMFIA) of 1982 are met;
        ensuring that the Department of the Navy's financial management systems substantially
        comply with FFMIA of 1996 requirements; and
        complying with applicable laws and regulations.




                                     ~ a u l f ~ r a n e t t o ,CPA
                                               Director
                                   Defense Financial Auditing
                                                Service


      Attachment:
      As stated




A regular Statement and Account of the Receipts and Expenditures of all public Money shall be
pzddished from time to time. -Constitution of the United States, Article I, Section 9
                       Reports on Internal Control and
                     Compliance with Laws and Regulations

                                       Internal Control
Management is responsible for implementing effective internal control and for providing
reasonable assurance that accounting data is accumulated, recorded, and reported properly; and
that assets are safeguarded. We did not perform tests of internal control over financial reporting
for the Department of the Navy, and we did not obtain sufficient evidence to support or express
an opinion on internal control. We limited our audit tests because previously identified
reportable conditions, all of which are material, continue to exist. These material internal control
weaknesses significantly impair the ability of the Department of the Navy to detect and prevent
fraud or theft of assets. A high risk of material misstatements will continue to exist until the
internal control deficiencies are corrected. Reportable conditions exist in the following areas.

    Accounting and Financial Management Systems. The Department of the Navy financial
    systems deficiencies include the inability to implement elements of Generally Accepted
    Accounting Principles (GAAP), and inadequate implementation of the U.S. Government
    Standard General Ledger.

   Policies and Procedures. The Department of the Navy financial reporting is not accurate
   because of inadequate guidance and lack of standard operating procedures. Additionally,
   reconciliations are not adequately completed and valuation of Inventory and Operating
   Materials and Supplies does not comply with GAAP.

   Efficiency and Effectiveness of Operations. The Department of the Navy legacy systems
   do not maintain the historical cost data necessary to comply with Statement of Federal
   Financial Accounting Standard No. 3, "Accounting for Inventory and Related Property;" the
   accuracy and reliability of financial data is adversely affected by non-financial feeder
   systems and journal voucher adjustments; and problem disbursements cause data errors and
   unreliable obligation data.


                        Compliance with Laws and Regulations
Management is responsible for compliance with existing laws and regulations related to financial
reporting. Our work to determine compliance with selected provisions of the applicable laws
and regulations was limited because management acknowledged instances of noncompliance,
and previously reported instances of noncompliance continue to exist. Therefore, we did not
attempt to determine whether the Department of the Navy was in compliance with selected
provisions of all applicable laws and regulations related to financial reporting. Our objective
was not to express an opinion on compliance with applicable laws and regulations.

The Department of the Navy is required to comply with financial management systems reporting
requirements. For example, the Federal Financial Management Improvement Act of 1996
requires the Department of the Navy to establish and maintain financial management systems
that comply substantially with the Federal financial management system requirements,
applicable Federal accounting standards, and the U.S. Government Standard General Ledger at
the transaction level. In addition, the Federal Managers' Financial Integrity Act of 1982 requires
the Department of the Navy to evaluate the systems and to annually report whether those systems


                                                                                       Attachment
are in compliance with applicable requirements. The Chief Financial Officers Act of 1990
requires DoD to prepare a 5-year Financial Management Plan describing activities that DoD will
conduct during the next 5 years to improve financial management.
The Department of the Navy acknowledged that many of its critical financial management and
feeder systems do not comply substantially with the Federal financial management systems
requirements, applicable Federal accounting standards, and the U.S. Government Standard
General Ledger at the transaction level. In an attempt to comply with statutory reporting
requirements and applicable financial systems requirements, DoD is developing a DoD-wide
Business Enterprise Architecture. The architecture is intended to provide a "blueprint" of the
Department's financial management systems and processes to initiate a comprehensive financial
management reform effort. Until the architecture is fully developed, the Department of the Navy
will be unable to fully comply with the statutory reporting requirements. Therefore, we did not
perform tests of compliance for these requirements.


                                    Audit Disclosures
The Assistant Secretary of the Navy (Financial Management and Comptroller) acknowledged to
us on October 22,2003, that the Department of the Navy General Fund financial management
systems cannot provide adequate evidence supporting various material amounts on the financial
statements. As a result, we were unable to obtain adequate evidential matter to form or express
an opinion on the financial statements, internal control, and compliance with laws and
regulations.
We did not conduct audit followup work related to deficiencies identified during previous audits
of the Department of the Navy.
In addition, we did not perform audit tests of the Department of the Navy compliance with the
Antideficiency Act, the Prompt Payment Act, and the Federal Credit Reform Act.
This report does not include recommendations to correct the material internal control weaknesses
and instances of noncompliance because previous audit reports contained recommendations for
corrective actions.
                                          INSPECTOR GENERAL
                                         DEPARTMENT OF DEFENSE
                                           400 ARMY NAVY DRIVE
                                      ARLINGTON, VIRGINIA 22202-4704




                                                                                           December 3,2003

MEMORANDUM FOR ASSISTANT SECRETARY OF THE NAVY (FINANCIAL
                 MANAGEMENT AND COMPTROLLER)
SUBJECT: Independent Auditor's Report on the Department of the Navy Working Capital Fund
         Fiscal Year 2003 Principal Financial Statements (Report No. D-2004-03 1)


The Chief Financial Officers Act of 1990, as amended, requires the Inspector General of the
Department of Defense to audit the accompanying Consolidated Balance Sheet of the
Department of the Navy Working Capital Fund as of September 30,2003 and 2002, and the
related Consolidated Statements of Net Cost and Changes in Net Position, the Combined
Statements of Financing, the Combined Statements of Budgetary Resources, and the Statements
of Custodial Activity for the fiscal years then ended. These financial statements are the
responsibility of the Department of the Navy management. The Department of the Navy is also
responsible for implementing effective internal control and for complying with laws and
regulations. In addition to our disclaimer of opinion on the financial statements, we are
including the required reports on internal control and compliance with laws and regulations.

Disclaimer of Opinion on the Financial Statements
The Assistant Secretary of the Navy (Financial Management and Comptroller) acknowledged to
us that material deficiencies in the Navy Working Capital Fund financial statements still exist.
Therefore, we did not perform auditing procedures to support material amounts on the financial
statements. In addition, other auditing procedures were not performed because Section 1008(d)
of the FY 2002 National Defense Authorization Act requires the Inspector General of the
Department of Defense to perform only the audit procedures required by generally accepted
government auditing standards consistent with the representations made by management. The
material deficiencies also affect the reliability of certain information contained in the
accompanying Management's Discussion and Analysis and certain other information-much of
which is taken from the same data sources as the principal financial statements.' These
deficiencies would have precluded an audit opinion. As described above, we are unable to
express, and we do not express, an opinion on the financial statements and the accompanying
information.




' Other information includes the Supporting Consolidating and Combining Financial Statements, Required
 Supplementary Information, and Other Acconlpanying Information.


A regtllar Statement and Account of the Receipts and Expentfrtlires of all public Money shall be
pzibll.vhetlfi-om time to time. -Constitution of the Unlted States, Artlcle I, Section 9
 Summary of Internal Control
In planning and performing our audit, we considered the Department of the Navy's internal
control over financial reporting and compliance. We did this to determine our procedures for
auditing the financial statements and to comply with Office of Management and Budget
guidance but not to express an opinion on internal control. Accordingly, we do not express an
opinion on internal control over financial reporting and compliance because previously identified
reportable condition^,^ all of which are material, continue to exist in the following areas:
accounting and financial management systems, policies, and procedures; internal control
structure; and compliance with laws and regulations. A material weakness is a condition that
precludes the entity's internal control from providing reasonable assurance that noncompliance,
misstatements, or losses that are material in relation to the financial statements would be
prevented or detected on a timely basis. Our internal control work would not necessarily
disclose all material weaknesses. See the Attachment for additional details on material internal
control weaknesses.

Summary of Compliance with Laws and Regulations
Our work to determine compliance with selected provisions of the applicable laws and
regulations was limited because management acknowledged instances of noncompliance, and
previously reported instances of noncompliance continue to exist. Management has
acknowledged that critical financial management and feeder systems do not comply with Federal
financia1 systems requirements, Federal accounting standards, and the U.S. Government
Standard General Ledger at the transaction level, as required under the Federal Financial
Management Improvement Act (FFMIA) of 1996. Therefore, we did not determine whether the
Department of the Navy was in compliance with all applicable laws and regulations related to
financial reporting. See the Attachment for additional details on compliance with laws and
regulations.

In order for DoD to comply with statutory reporting requirements and applicable financial
systems requirements, the Under Secretary of Defense (Comptro1ler)lChief Financial Officer is
developing the DoD-wide Business Enterprise Architecture. The DoD Chief Financial Officer
anticipates developing and implementing the Business Enterprise Architecture by 2007. Until
the architecture is fully developed and implemented, the Department of the Navy will be unable
to fully comply with the statutory reporting requirements.

We caution that other noncompliance may have occurred and not been detected. Further, the
results of our limited procedures may not be sufficient for other purposes. Our objective was not
to express an opinion on compliance with applicable laws and regulations.




' Reportable conditions are matters coming to the auditor's attention that, in his or her judgment, should be
 communicated to management because they represent significant deficiencies in the design or operation of internal
 control, which could adversely affect the organization's ability to initiate, record, process, and report financial data
 consistent with the assertions of management in financial statements.


A regular Statement a~lclAccomt of the Recelpts a d Expendittwes of all p t i h l ~Money shall be
pzihllshed from trme to trnze. --C'onst~tutlon o f t h e U n ~ t e dStates, Article I, Section 0
 Management Responsibility
Management is responsible for:
        preparing the financial statements in conformity with generally accepted accounting
        principles;
        establishing, maintaining, and assessing internal control to provide reasonable assurance
        that the broad control objectives of the Federal Managers' Financial Integrity Act
        (FMFIA) of 1982 are met;
        ensuring that the Department of the Navy's financial management systems substantially
        comply with FFMIA of 1996 requirements; and
        complying with applicable laws and regulations.




                                     ~ a u Granetto,
                                              u       CPA
                                            Director
                                   Defense Financial Auditing
                                            Service


      Attachment:
      As stated




A regular Statement ~rndAccozmt of the Receipts and Expenditures of all pzrhlic Money shall be
published from time to time. -Constitution of the United States, Article I, Section 9
                                                   3
                       Reports on Internal Control and
                     Compliance with Laws and Regulations

                                       Internal Control
Management is responsible for implementing effective internal control and for providing
reasonable assurance that accounting data is accumulated, recorded, and reported properly; and
that assets are safeguarded. We did not perform tests of internal control over financial reporting
for the Department of the Navy, and we did not obtain sufficient evidence to support or express
an opinion on internal control. We limited our audit tests because previously identified
reportable conditions, all of which are material, continue to exist. These material internal control
weaknesses significantly impair the ability of the Department of the Navy to detect and prevent
fraud or theft of assets. A high risk of material misstatements will continue to exist until the
internal control deficiencies are corrected. Reportable conditions exist in the following areas.

    Accounting and Financial Management Systems. The Department of the Navy financial
    systems deficiencies include the inability to implement elements of Generally Accepted
    Accounting Principles (GAAP) and inadequate implementation of the U S . Government
    Standard General Ledger. Also adjusting entries were needed to correct errors caused by
    differences between accounting systems.

    Policies and Procedures. The Department of the Navy financial reporting is not accurate
    because of inadequate guidance and lack of standard operating procedures. Additionally,
    reconciliations are not adequately completed; and valuation of Inventory does not comply
    with GAAP.

    Efficiency and Effectiveness of Operations. The existence, location, and condition of
    Property, Plant, and Equipment are not adequately maintained and reported; the accuracy and
    reliability of financial data is adversely affected by non-financial feeder systems and journal
    voucher adjustments; and problem disbursements cause data errors and unreliable obligation
    data.

                        Compliance with Laws and Regulations
Management is responsible for compliance with existing laws and regulations related to financial
reporting. Our work to determine compliance with selected provisions of the applicable laws
and regulations was limited because management acknowledged instances of noncompliance,
and previously reported instances of noncompliance continue to exist. Therefore, we did not
attempt to determine whether the Department of the Navy was in compliance with selected
provisions of all applicable laws and regulations related to financial reporting. Our objective
was not to express an opinion on compliance with applicable laws and regulations.

The Department of the Navy is required to comply with financial management systems reporting
requirements. For example, the Federal Financial Management Improvement Act of 1996
requires the Department of the Navy to establish and maintain financial management systems
that comply substantially with the Federal financial management system requirements,
applicable Federal accounting standards, and the U.S. Government Standard General Ledger at
the transaction level. In addition, the Federal Managers' Financial Integrity Act of 1982 requires
the Department of the Navy to evaluate the systems and to annually report whether those systems


                                                                                       Attachment
are in compliance with applicable requirements. The Chief Financial Officers Act of 1990
requires DoD to prepare a 5-year Financial Management Plan describing activities that DoD will
conduct during the next 5 years to improve financial management.
The Department of the Navy acknowledged that many of its critical financial management and
feeder systems do not comply substantially with the Federal financial management systems
requirements, applicable Federal accounting standards, and the U.S. Government Standard
General Ledger at the transaction level. In an attempt to comply with statutory reporting
requirements and applicable financial systems requirements, DoD is developing a DoD-wide
Business Enterprise Architecture. The architecture is intended to provide a "blueprint" of the
Department's financial management systems and processes to initiate a comprehensive financial
management reform effort. Until the architecture is fully developed, the Department of the Navy
will be unable to fully comply with the statutory reporting requirements. Therefore, we did not
perform tests of compliance for these requirements.


                                    Audit Disclosures
The Assistant Secretary of the Navy (Financial Management and Comptroller) acknowledged to
us on October 22, 2003, that the Department of the Navy Working Capital Fund financial
management systems cannot provide adequate evidence supporting various material amounts on
the financial statements. As a result, we were unable to obtain adequate evidential matter to
form or express an opinion on the financial statements, internal control, and compliance with
laws and regulations.
We did not conduct audit followup work related to deficiencies identified during previous audits
of the Department of the Navy.
In addition, we did not perform audit tests of the Department of the Navy compliance with the
Antideficiency Act, the Prompt Payment Act, and the Federal Credit Reform Act.
This report does not include recommendations to correct the material internal control weaknesses
and instances of noncompliance because previous audit reports contained recommendations for
corrective actions.
